<html>
<title> - CONFIRMATION HEARING ON THE NOMINATION OF HON. WILLIAM PELHAM BARR TO BE ATTORNEY GENERAL OF THE UNITED STATES</title>
<body><pre>[Senate Hearing 116-65]
[From the U.S. Government Publishing Office]




                                                         S. Hrg. 116-65

                          CONFIRMATION HEARING
                          ON THE NOMINATION OF
                        HON. WILLIAM PELHAM BARR
                         TO BE ATTORNEY GENERAL
                          OF THE UNITED STATES

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               ----------                              

                        JANUARY 15 and 16, 2019

                               ----------                              

                           Serial No. J-116-1

                               ----------                              

         Printed for the use of the Committee on the Judiciary
         
         




   CONFIRMATION HEARING ON THE NOMINATION OF HON. WILLIAM PELHAM BARR
              TO BE ATTORNEY GENERAL OF THE UNITED STATES
              
              
              
              



                                                         S. Hrg. 116-65
 
                          CONFIRMATION HEARING
                          ON THE NOMINATION OF
                        HON. WILLIAM PELHAM BARR
                         TO BE ATTORNEY GENERAL
                          OF THE UNITED STATES

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                        JANUARY 15 and 16, 2019

                               __________

                           Serial No. J-116-1

                               __________

         Printed for the use of the Committee on the Judiciary
         
         
         
         
         
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]        
 
 
 
 
 
               U.S. GOVERNMENT PUBLISHING OFFICE 
 36-846 PDF             WASHINGTON : 2019 
 
 
 
         
         

                       COMMITTEE ON THE JUDICIARY

              LINDSEY O. GRAHAM, South Carolina, Chairman
CHARLES E. GRASSLEY, Iowa            DIANNE FEINSTEIN, California,     
JOHN CORNYN, Texas                       Ranking Member
MICHAEL S. LEE, Utah                 PATRICK J. LEAHY, Vermont
TED CRUZ, Texas                      RICHARD J. DURBIN, Illinois
BEN SASSE, Nebraska                  SHELDON WHITEHOUSE, Rhode Island
JOSHUA D. HAWLEY, Missouri           AMY KLOBUCHAR, Minnesota
THOM TILLIS, North Carolina          CHRISTOPHER A. COONS, Delaware
JONI ERNST, Iowa                     RICHARD BLUMENTHAL, Connecticut
MIKE CRAPO, Idaho                    MAZIE K. HIRONO, Hawaii
JOHN KENNEDY, Louisiana              CORY A. BOOKER, New Jersey
MARSHA BLACKBURN, Tennessee          KAMALA D. HARRIS, California
              Lee Holmes, Chief Counsel and Staff Director
       Jennifer Duck, Democratic Chief Counsel and Staff Director
       
       
       
                            C O N T E N T S

                              ----------                              

      JANUARY 15, 2019, 9:32 A.M., and JANUARY 16, 2019, 9:32 A.M.

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page
Feinstein, Hon. Dianne, a U.S. Senator from the State of 
  California:
    January 15, 2019, opening statement..........................     3
    January 15, 2019, prepared statement.........................   392
    January 16, 2019, opening statement..........................   132
Graham, Hon. Lindsey O., a U.S. Senator from the State of South 
  Carolina:
    January 15, 2019, opening statement..........................     1
    January 16, 2019, opening statement..........................   131

                               INTRODUCER

Hatch, Hon. Orrin G., a Former U.S. Senator from the State of 
  Utah introducing Hon. William Pelham Barr, Nominee to be 
  Attorney General of the United States..........................     5

                        STATEMENT OF THE NOMINEE

Witness List.....................................................   189
Barr, Hon. William Pelham, Nominee to be Attorney General of the 
  United States..................................................     7
    prepared statement...........................................   319
    questionnaire and biographical information...................   191
    appendix 12(a)...............................................   226
    appendix 12(b)...............................................   230
    appendix 12(c)...............................................   232
    appendix 12(d)...............................................   240
    appendix 12(e)...............................................   256
    appendix 14(e)...............................................   313

                      STATEMENTS OF THE WITNESSES

Canterbury, Chuck, National President, Fraternal Order of Police, 
  Washington, DC.................................................   146
    prepared statement...........................................   323
Cary, Mary Kate, Former Speechwriter for President George H.W. 
  Bush, and Anne C. Strickler Practitioner Senior Fellow, The 
  Miller Center, University of Virginia, Washington, DC..........   139
    prepared statement...........................................   329
Johnson, Derrick, President and Chief Executive Officer, National 
  Association for the Advancement of Colored People, Baltimore, 
  Maryland.......................................................   134
    prepared statement...........................................   332
Kinkopf, Neil J., Professor of Law, Georgia State University 
  College of Law, Atlanta, Georgia...............................   141
    prepared statement...........................................   342
Morial, Hon. Marc H., President and Chief Executive Officer, 
  National Urban League, New York, New York......................   137
    prepared statement...........................................   351
Mukasey, Hon. Michael B., Former United States Attorney General; 
  Former U.S. District Judge for the Southern District of New 
  York; and Of Counsel, Debevoise & Plimpton LLP, New York, New 
  York...........................................................   133
    prepared statement...........................................   355
Risher, Rev. Sharon Washington, Ordained Pastor, Charlotte, North 
  Carolina.......................................................   144
    prepared statement...........................................   359
Thompson, Hon. Larry D., Former United States Deputy Attorney 
  General, and Partner, Finch McCranie LLP, Atlanta, Georgia.....   136
    prepared statement...........................................   362
Turley, Jonathan, J.B. and Maurice C. Shapiro Professor of Public 
  Interest Law, The George Washington University Law School, 
  Washington, DC.................................................   142
    prepared statement...........................................   366

                               QUESTIONS

Questions submitted to Hon. William Pelham Barr by:
    Senator Blumenthal...........................................   394
    Senator Booker...............................................   402
    Senator Coons................................................   416
    Senator Cornyn...............................................   422
    Senator Crapo................................................   423
    Senator Durbin...............................................   424
    Senator Feinstein............................................   446
    Follow-up questions submitted by Senator Feinstein...........   463
    Senator Grassley.............................................   467
    Senator Harris...............................................   472
    Senator Hirono...............................................   473
    Senator Kennedy..............................................   489
    Senator Klobuchar............................................   491
    Senator Leahy................................................   495
    Follow-up questions submitted by Senator Leahy...............   506
    Senator Tillis...............................................   508
    Senator Whitehouse...........................................   518
    Follow-up questions submitted by Senator Whitehouse..........   534
Questions submitted to Chuck Canterbury by Senator Hirono........   571
Questions submitted to Chuck Canterbury by Senator Klobuchar.....   572
Questions submitted to Derrick Johnson by Senator Hirono.........   573
Questions submitted to Derrick Johnson by Senator Leahy..........   574
Questions submitted to Prof. Neil J. Kinkopf by Senator Hirono...   575
Questions submitted to Prof. Neil J. Kinkopf by Senator Leahy....   576
Questions submitted to Hon. Marc H. Morial by Senator Hirono.....   578
Questions submitted to Hon. Marc H. Morial by Senator Leahy......   579
Questions submitted to Rev. Sharon Washington Risher by Senator 
  Klobuchar......................................................   580
Questions submitted to Rev. Sharon Washington Risher by Senator 
  Leahy..........................................................   581

                                ANSWERS

Responses of Hon. William Pelham Barr to questions submitted by:
    Senator Blumenthal...........................................   750
    Senator Booker...............................................   789
    Senator Coons................................................   736
    Senator Cornyn...............................................   594
    Senator Crapo................................................   603
    Senator Durbin...............................................   654
    Senator Feinstein............................................   607
    Follow-up questions submitted by Senator Feinstein...........   830
    Senator Grassley.............................................   582
    Senator Harris...............................................   811
    Senator Hirono...............................................   763
    Senator Kennedy..............................................   604
    Senator Klobuchar............................................   727
    Senator Leahy................................................   636
    Follow-up questions submitted by Senator Leahy...............   838
    Senator Tillis...............................................   596
    Senator Whitehouse...........................................   693
    Follow-up questions submitted by Senator Whitehouse..........   841
Responses of Hon. William Pelham Barr to questions submitted--
  Continued
    attachment I.................................................   813
    attachment II................................................   818
    attachment III...............................................   821
Responses of Chuck Canterbury to questions submitted by Senator 
  Hirono.........................................................   842
Responses of Chuck Canterbury to questions submitted by Senator 
  Klobuchar......................................................   842
Responses of Derrick Johnson to questions submitted by Senator 
  Hirono.........................................................   846
Responses of Derrick Johnson to questions submitted by Senator 
  Leahy..........................................................   847
Responses of Prof. Neil J. Kinkopf to questions submitted by 
  Senator Hirono.................................................   855
Responses of Prof. Neil J. Kinkopf to questions submitted by 
  Senator Leahy..................................................   849
Responses of Hon. Marc H. Morial to questions submitted by 
  Senator Hirono.................................................   860
Responses of Hon. Marc H. Morial to questions submitted by 
  Senator Leahy..................................................   856
Responses of Rev. Sharon Washington Risher to questions submitted 
  by Senator Klobuchar...........................................   862
Responses of Rev. Sharon Washington Risher to questions submitted 
  by Senator Leahy...............................................   862

LETTERS RECEIVED WITH REGARD TO HON. WILLIAM PELHAM BARR, NOMINEE TO BE 
                 ATTORNEY GENERAL OF THE UNITED STATES

ACORN 8, New Orleans, Louisiana, et al., nonpartisan 
  organizations and individuals for whistleblower protection.....  1001
Advocates for Youth, Washington, DC, et al., reproductive health, 
  rights, and justice organizations, January 14, 2019............   875
Alliance for Justice, Washington, DC, January 9, 2019............   879
Anti-Defamation League (ADL), New York, New York, January 14, 
  2019...........................................................   882
Association of State Criminal Investigative Agencies (ASCIA), 
  Mark Keel, President, ASCIAChief, South Carolina Law 
  Enforcement Division, January 10, 2019.........................   899
Center for American Progress (CAP), Washington, DC, January 10, 
  2019...........................................................   900
Center for Reproductive Rights, New York, New York, January 14, 
  2019...........................................................   903
Chemerinsky, Erwin, Dean and Jesse H. Choper Distinguished 
  Professor of Law, University of California Berkeley Law, 
  Berkeley, California, et al., constitutional law scholars who 
  specialize in separation of powers.............................   908
Constitutional Accountability Center, Washington, DC, January 10, 
  2019...........................................................   906
Drug Policy Alliance, Washington, DC, January 17, 2019...........   912
Earthjustice, San Francisco, California, January 10, 2019........   915
Electronic Privacy Information Center (EPIC), Washington, DC, 
  January 14, 2019...............................................   918
Federal Law Enforcement Officers Association (FLEOA), Washington, 
  DC, January 3, 2019............................................   924
Grijalva, Raul M., a Representative in Congress from the State of 
  Arizona, and Co-chair, Congressional Progressive Caucus, 
  January 14, 2019...............................................   925
Human Rights Campaign (HRC), Washington, DC, January 11, 2019....   926
Human Rights Watch (HRW), New York, New York, January 14, 2019...   929
International Association of Chiefs of Police (IACP), Alexandria, 
  Virginia, January 14, 2019.....................................   932
International Union of Police Associations (IUPA), Sarasota, 
  Florida, January 2, 2019.......................................   933
Kids in Need of Defense (KIND), Washington, DC, January 16, 2019.   934
Lambda Legal, New York, New York, et al., January 14, 2019.......   944
Leadership Conference on Civil and Human Rights, The, Washington, 
  DC, December 20, 2018..........................................   952
Major Cities Chiefs Association (MCCA), Art Acevedo, President, 
  and Chief of Police, Houston Police Department, Houston, Texas, 
  January 11, 2019...............................................   957
Major County Sheriffs of America (MCSA), Alexandria, Virginia, 
  January 10, 2019...............................................   958
Mukasey, Hon. Michael B., Former United States Attorney General; 
  Former U.S. District Judge for the Southern District of New 
  York; and Of Counsel, Debevoise & Plimpton LLP, New York, New 
  York, et al., former Federal law enforcement and national 
  security officers, January 9, 2019.............................   864
Mukasey, Hon. Michael B., Former United States Attorney General; 
  Former U.S. District Judge for the Southern District of New 
  York; and Of Counsel, Debevoise & Plimpton LLP, New York, New 
  York, February 4, 2019, letter, transcript pages, and statement 
  regarding the report of an investigation into the removal of 
  nine U.S. Attorneys in 2006 in reponse to questions asked by 
  Senator Whitehouse.............................................   959
NARAL Pro-Choice America, Washington, DC, January 9, 2019........   971
National Alliance of Gang Investigators Associations (NAGIA), 
  Queen Creek, Arizona, January 7, 2019..........................   973
National Center for Transgender Equality (NCTE), Washington, DC, 
  January 16, 2019...............................................   974
National Center on Sexual Exploitation (NCOSE), Washington, DC, 
  January 9, 2019................................................   977
National Council of Jewish Women (NCJW), Washington, DC, January 
  10, 2019.......................................................   983
National Education Association, Washington, DC, January 11, 2019.   985
National Fraternal Order of Police, Washington, DC, January 4, 
  2019...........................................................   987
National Juvenile Justice and Delinquency Prevention Coalition 
  (NJJDPC), Washington, DC, et al., January 14, 2019.............   989
National LGBTQ Task Force Action Fund, Washington, DC, January 
  14, 2019.......................................................   992
National Narcotic Officers' Associations' Coalition (NNOAC), 
  Washington, DC, January 11, 2019...............................   994
National Urban League, New York, New York, January 10, 2019......   995
National Women's Law Center, Washington, DC, January 22, 2019....   997
People For the American Way, Washington, DC, January 9, 2019.....  1004
Planned Parenthood Federation of America, New York, New York, 
  January 14, 2019...............................................  1009
Sexuality Information and Education Council of the United States 
  (SIECUS), Washington, DC, January 15, 2019.....................  1011
Taxpayers Against Fraud (TAF), Washington, DC, January 10, 2019..  1013

                MISCELLANEOUS SUBMISSIONS FOR THE RECORD

Baker, Peter, The New York Times, January 15, 2019, Twitter 
  posting........................................................  1029
NARAL Pro-Choice America, Washington, DC, January 9, 2019, 
  summary of events regarding the nomination of Hon. William P. 
  Barr...........................................................  1040
National Association for the Advancement of Colored People 
  (NAACP) Legal Defense and Educational Fund, Inc. (LDF), New 
  York, New York, report on the civil rights record of Hon. 
  William P. Barr................................................  1030
National Coalition of Anti-Violence Programs (NCAVP), New York, 
  New York, statement............................................  1050
  
  


                          CONFIRMATION HEARING

                          ON THE NOMINATION OF

                        HON. WILLIAM PELHAM BARR

                         TO BE ATTORNEY GENERAL

                          OF THE UNITED STATES

                               ----------                              


                       TUESDAY, JANUARY 15, 2019

                              United States Senate,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:32 a.m., in 
Room SH-216, Hart Senate Office Building, Hon. Lindsey O. 
Graham, Chairman of the Committee, presiding.
    Present: Senators Graham [presiding], Grassley, Cornyn, 
Lee, Cruz, Sasse, Hawley, Tillis, Ernst, Crapo, Kennedy, 
Blackburn, Feinstein, Leahy, Durbin, Whitehouse, Klobuchar, 
Coons, Blumenthal, Hirono, Booker, and Harris.

          OPENING STATEMENT OF HON. LINDSEY O. GRAHAM,
        A U.S. SENATOR FROM THE STATE OF SOUTH CAROLINA

    Chairman Graham. Thank you, all. You are not going to get a 
good shot of me. So, thank you, all.
    So, Happy New Year, New Congress, and we will see how this 
goes.
    I recognize Senator Grassley.
    Senator Grassley. Okay. I do this with a point of personal 
privilege, Mr. Chairman, and I appreciate that courtesy of you 
and the Members.
    This is the first meeting of the Senate Judiciary Committee 
in this 116th Congress. It is also the first time that we 
convene while my friend Lindsey Graham holds the gavel and will 
proceed to be Chairman.
    So I would like to congratulate the new Chairman, thank him 
for his leadership, and say that I look forward to working with 
you and the other Members of this Committee as we seek to 
address some of our Nation's most pressing problems. I have 
every confidence that you will steer our 200-year-old Committee 
in the right direction.
    Chairman Graham. Well, thank you. I really appreciate that. 
In my view, nobody looks over 100, so we are actually--we are 
aging well as a Committee.
    The bottom line is, how do you get this job? Your 
colleagues have to vote for you. Thank you. You have to get re-
elected and outlive the person to your right. So I have been 
able to do that.
    And I look forward to working with Senator Feinstein, who 
is--I have a lot of affection and fondness for. She, to me, 
represents a seriousness that the body needs and a demeanor 
that I think we should all aspire to.
    To the new colleagues--Senators Hawley, Blackburn, and 
Ernst--thank you for being part of this Committee. To Senators 
Blackburn and Ernst, thank you for making history, I think, on 
our side.
    As to the hopes and dreams for this Committee, to get as 
much done as possible and to fight when we have to over things 
that matter to the public and show two different views of an 
issue that is important, but do it as respectfully as possible.
    Sentencing reform. Criminal justice reform was a very big 
deal, and this Committee delivered for the country. Senator 
Durbin, I want to thank you very, very much for working with 
Senator Lee and Senator Grassley and Senator Booker. That is a 
big deal that is going to change lives, I think, in a positive 
way.
    So this Committee has within it the ability to do big 
things long overdue. I know Senator Blackburn wants to do 
something on social media. Senator Klobuchar has got some ideas 
about how to make sure if you put an ad up on social media, you 
have to stand by it.
    We are all worried about social media platforms being 
hijacked by terrorists and bad actors throughout the 
international world. We are worried about privacy. Do you 
really know what you are signing up for when you get on one of 
these platforms? I would like this Committee working with 
Commerce to see if we can find some way to tame the ``wild 
West.''
    Intellectual property. Senator Tillis and Senator Coons 
have some ideas that I look forward to hearing about. Senator 
Sasse wants to make sure that we act ethically. You have got a 
package of ethic reforms, and I look forward to working with 
you there.
    On this side, I know there are a lot of ideas that I am 
sure that if we sat down and talked we could embrace, and I 
look forward to solving as many problems as we can and having a 
contest over ideas that really matter to the American people.
    Senator Hatch, thank you for coming. In terms of my 
Chairmanship, if I can do what you and Senator Grassley were 
able to do during your time, I will have done the Committee a 
good service.
    Senator Grassley, thank you very much. Last year was tough, 
but I think you and Senator Feinstein did the best you could in 
the environment in which we live. The times in which we live 
are very difficult times. I do not see them getting better 
overnight, but I do see them getting better if we all want them 
to.
    So, about me, I want us to do better, and I will be as 
measured as possible. The Immigration Lindsey will show up, but 
the other guy is there, too, and I do not like him any more 
than you do.
    So the bottom line is, we are starting off with something 
that would be good for the country. We have a vacancy for the 
Attorney General spot. We have a chance to fill that vacancy.
    Mr. Barr, you cannot hold a job. When you look at what he 
has done in his life, it is incredible. So I want to thank the 
President for nominating somebody who is worthy of the job, who 
will understand on day one what the job is about and can right 
the ship over there.
    I think we all have concerns. I know Senator Whitehouse is 
passionate about cybersecurity and ``Fort Cyber'' and all of 
these other ideas that Sheldon has been pushing. It is just a 
matter of time before we are hit and hit hard if somebody does 
not step up to the plate with some solutions.
    But a little bit about the nominee. He has been Attorney 
General before, from 1991 to 1993 by voice vote. Those were the 
days. Deputy Attorney General from 1990 to 1991, unanimous 
consent without a recorded vote. Assistant Attorney General, 
Office of Legal Counsel, voice vote. That is pretty amazing. I 
think you are going to have an actual vote this time.
    Academically gifted: George Washington Law School, Columbia 
University undergraduate. Outside of DOJ, he was the General 
Counsel, Legislative Counsel for the CIA. That is how he met 
Bush 41. He has been a law clerk. He has worked in private 
practice. I am not going to bore the Committee with all the 
things he has done. He has been the senior vice president and 
general counsel of GTE.
    He has lived a consequential life--general counsel of 
Verizon. You have lived a life that I think has been honorable 
and noteworthy and accomplished, and I want to thank you for 
being willing to take this task on. We have got a lot of 
problems at the Department of Justice. I think morale is low, 
and we need to change that.
    So I will look forward to this hearing. You will be 
challenged. You should be challenged. The memo, there will be a 
lot of talk about it, as there should be. But I just want to 
let you know, Mr. Barr, that we appreciate you stepping up at a 
time when the country needs somebody of your background and 
your temperament to be in charge of the rule of law.
    And with that, I will turn it over to my colleague, Senator 
Feinstein.

          OPENING STATEMENT OF HON. DIANNE FEINSTEIN,
          A U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Feinstein. Thanks very much, Mr. Chairman.
    And I want you to know I really look forward to working 
with you.
    Chairman Graham. Me, too.
    Senator Feinstein. And I think we can work productively 
together.
    And Senator Grassley, I want to thank you for the time we 
worked together. It really was a pleasure, and I had an 
opportunity to get to know you as the fine person that you are. 
So thank you very much.
    I want to say just one word or two or three about women. 
Twenty-five years ago, there were no women on this Committee. I 
will never forget watching the Anita Hill hearing on a 
television in the London airport with a lot of people gathered 
around. So I went over to take a look, and I saw, and I saw 
this all-male Judiciary Committee.
    And it took all these years, but here we are. And I want to 
particularly welcome Senator Ernst and Senator Blackburn. I 
think it is extraordinarily important that this Committee be 
representative of our society at large and that we are growing 
that way, and so thank you very much for being here.
    I would also like to welcome Bill Barr and his family. I 
know you are proud to be here, and you served as Attorney 
General before from 1991 to 1993, and I think we all have great 
respect for your commitment to public service.
    When we met, your previous tenure marked a very different--
we talked about a very different time for our country, and 
today, we find ourselves in a unique time with a different 
administration and different challenges. And now, perhaps more 
than ever before, the country needs someone who will uphold the 
rule of law, defend the independence of the Justice Department, 
and truly understand their job is to serve as the people's 
lawyer, not the President's lawyer.
    Top of mind for all of us is the ongoing Mueller 
investigation. Importantly, the Attorney General must be 
willing to resist political pressure and be committed to 
protecting this investigation. I am pleased that in our private 
meeting, as well as in your written statement submitted to the 
Committee, you stated that it is vitally important--and this is 
a quote--that ``the Special Counsel be allowed to complete his 
investigation'' and that ``the public and Congress be informed 
of the results of the Special Counsel's work.''
    However, there are at least two aspects of Mr. Mueller's 
investigation: first, Russian interference in the United States 
election and whether any U.S. persons were involved in that 
interference and, second, possible obstruction of justice. It 
is the second component that you have written on. And just 5 
months before you were nominated, I spent the weekend on your 
19-page legal memo to Deputy Attorney General Rod Rosenstein 
criticizing Mueller's investigation, specifically the 
investigation into potential obstruction of justice.
    In the memo, you conclude, I think, that Special Counsel 
Mueller is ``grossly irresponsible for pursuing an obstruction 
case against the President and pursuing the obstruction inquiry 
is fatally misconceived.'' So, I hope we can straighten that 
out in this hearing.
    But your memo also shows a large, sweeping view of 
presidential authority and determined effort, I thought, to 
undermine Bob Mueller, even though you state you have been 
friends and are in the dark about many of the facts of the 
investigation. So it does raise questions about your 
willingness to reach conclusions before knowing the facts and 
whether you prejudge the Mueller investigation. And I hope you 
will make that clear today.
    It also raises a number of serious questions about your 
views on Executive authority and whether the President is, in 
fact, above the law. For example, you wrote, ``The 
President''--and I quote--``alone is the executive branch. As 
such, he is the sole repository of all Executive powers 
conferred by the Constitution. Thus, the full measure of law 
enforcement authority is placed in the President's hands, and 
no limit is placed on the kinds of cases subject to his control 
and supervision.''
    This is in your memo on page 10, and I will ask you about 
it. This analysis included cases involving potential 
misconduct, where you concluded, and I quote, ``The President 
may exercise his supervisory authority over cases dealing with 
his own interests, and the President transgresses no legal 
limitation when he does so.'' That is on page 12.
    In fact, you went so far as to conclude that, ``The 
Framers' plan contemplates that the President's law enforcement 
powers extend to all matters, including those in which he has a 
personal stake.'' You also wrote, ``The Constitution itself 
places no limit on the President's authority to act on matters 
which concern him or his own conduct.'' Page 10.
    Later, you conceded that certain supervisory actions, such 
as the firing of Director Comey, may be unlawful obstruction. 
However, this, too, is qualified. You argue that in such a 
case, obstruction of justice occurs only if, first, a 
prosecutor proves that the President or his aides colluded with 
Russia. Specifically, you conclude, and I quote, ``The issue of 
obstruction only becomes ripe after the alleged collusion by 
the President or his campaign is established first.''
    So that is some of the things I hope to ask you about. And 
in conclusion, let me just say that some of your past 
statements on the role of Attorney General and presidential 
power are concerning. For instance, you have said in the past 
that the Attorney General is the President's lawyer.
    In November 2017, you made comments suggesting it would be 
permissible for the President to direct the Justice Department 
to open an investigation into his political opponents, and this 
is notable in light of President Trump's repeated calls for the 
investigation of Hillary Clinton and others who disagree with 
him. I believe it is important that the next Attorney General 
be able to strongly resist pressure, whether from the 
administration or Congress, to conduct investigations for 
political purposes.
    He must have the integrity, the strength, and the fortitude 
to tell the President no, regardless of the consequences. In 
short, he must be willing to defend the independence of the 
Justice Department.
    So my questions will be do you have that strength and 
commitment to be independent of the White House pressures you 
will undoubtedly face? Will you protect the integrity of the 
Justice Department above all else?
    Thank you very much, Mr. Chairman.
    [The prepared statement of Senator Feinstein appears as a 
submission for the record.]
    Chairman Graham. Thank you, Senator Feinstein.
    Senator Hatch, welcome back. We truly miss you. You were a 
great Chairman and an incredible Member of this body, and you 
are very welcome to share your thoughts about Mr. Barr with 
this Committee.

                STATEMENT OF HON. ORRIN G. HATCH
           FORMER U.S. SENATOR FROM THE STATE OF UTAH

    Senator Hatch. Well, thank you so much, Mr. Chairman, 
Ranking Member Feinstein as well, and Members of the Committee.
    It is my distinct pleasure to be here today to introduce 
William Barr, the President's nominee to be Attorney General of 
the United States. I have known and worked with Bill closely 
over the years and am glad to call him a friend.
    Bill has had a distinguished career in public service and 
in the private sector. He started his career at the Central 
Intelligence Agency. While there, he went to law school part 
time at George Washington University. Following graduation, he 
was selected for a prestigious clerkship with a Federal Judge 
on the D.C. Circuit before heading to private practice. Later, 
he served in the Reagan White House in the Office of Policy 
Development.
    Following another stint in private practice, Bill began his 
distinguished career at the Department of Justice under 
President George H.W. Bush. Bill served as the Assistant 
Attorney General for the Office of Legal Counsel, then as 
Deputy Attorney General, and finally, as Attorney General of 
the United States.
    As Attorney General, Bill oversaw a number of sensitive 
criminal investigations, including the investigation into the 
Pan Am Flight 103 bombing. He prioritized fighting violent 
crime and became known as a law and order Attorney General.
    Throughout his time at the Justice Department, Bill earned 
a reputation as a fierce advocate for the rule of law, as a 
principled and independent decisionmaker, and as a lawyer's 
lawyer. He has shown his commitment to the Constitution time 
and time again while serving our country. That is why he has 
been confirmed by the Senate unanimously three times.
    After completing his service at the DOJ, Bill returned to 
the private sector, working at law firms and as Counsel for 
some of America's largest companies. I could do--I could go on 
at length describing Bill's distinguished career. There is no 
question, none whatsoever, that Bill is well qualified to serve 
as Attorney General. He has held this position before and won 
high praise during his tenure for his fairness, his tenacity, 
and his work ethic.
    So instead of droning on about Bill's resume, I want to 
tell you about what Bill identifies as the most important 
achievement of his private service as Attorney General, at 
least, I believe this is what he believes. I believe his answer 
tells you much about how he will approach the job and who he 
is.
    When asked what his most important accomplishment was as 
Attorney General, Bill does not point to one of his many policy 
successes. He does not talk about his role in setting antitrust 
merger guidelines. He does not say it was his role leading the 
DOJ's response to the savings and loan crisis. No, for him, it 
was something more. It was something more tangible. It was 
Talladega.
    Three days after Bill was named Acting Attorney General by 
President Bush, 121 prisoners noted and seized control of the 
Talladega Federal Correctional Institution in Alabama. This was 
a very serious matter, and they took 10 hostages. Planning at 
the DOJ began immediately for how best to resolve the situation 
and secure the safe release of the hostages.
    In such a situation, some would have sought political 
cover, not Bill. He was in charge. He knew the response was his 
decision to make, his responsibility. He maintained his focus 
on the safety of the men and women held hostage by the 
prisoners.
    The standoff lasted 10 days. Then on Bill's order, FBI 
agents stormed the prison. Three minutes later, it was over. 
The hostages were safe. The mission was well planned and 
executed. The Federal agents did not even have to fire a single 
shot. Bill's decisionmaking and judgment helped save lives.
    When President Bush nominated Bill to be Attorney General 
in 1991, I noted why he had been selected. He was not a member 
of President Bush's political or personal inner circle. He was 
not a part of the President's brain trust. He was not a 
politician or former politician who brought political clout to 
the position from prior elections or prior elected office. Bill 
Barr was a lawyer's lawyer. Talent, merit, and performance--
those were the reasons President Bush selected him to be the 
Attorney General at that time.
    That statement holds true today. Bill Barr, in my opinion, 
is an outstanding choice for Attorney General. His vast 
experience, renowned judgment, and reputation as an ardent 
defender of the rule of law make him a nominee that the 
American people, the President, and the Senate should all be 
proud of.
    So I feel very honored to be here today to speak in his 
favor, and I hope that his nomination will be approved 
expeditiously.
    Thank you, Mr. Chairman.
    Chairman Graham. Thanks, Senator Hatch.
    I would like to note at the outset that the Rules of the 
Senate prohibit outbursts, clapping, or demonstrations of any 
kind. This includes blocking the view of people around you. 
Please be mindful of these rules as we conduct this hearing. I 
will ask the Capitol Police to remove anyone who violates the 
rules of this Committee.
    Thank you, Senator Hatch.
    Mr. Barr, would you come forward, please?
    Chairman Graham. Raise your right hand, please. Do you 
affirm that the testimony you are about to give to this 
Committee will be the truth, the whole truth, and nothing but 
the truth, so help you God?
    General Barr. I do.
    Chairman Graham. The floor is yours.

         STATEMENT OF HON. WILLIAM PELHAM BARR, NOMINEE
          TO BE ATTORNEY GENERAL OF THE UNITED STATES

    General Barr. Before I begin, Mr. Chairman, could I 
introduce my family?
    Chairman Graham. Absolutely.
    General Barr. My wife of 46 years, Christine, a retired 
librarian. My daughter Margaret, who we call Meg, she was an 
Assistant United States Attorney in the District of Columbia, 
but now has moved up to Capitol Hill and works for Senator 
Braun.
    My middle daughter, Patricia, who is also an attorney, and 
she has been Counsel to the House Agriculture Committee for how 
long now, Patty, 10--11 years. And my daughter Mary, who is a 
longtime Federal prosecutor and is currently the coordinator 
for opioid enforcement in the Office of the Deputy Attorney 
General.
    Mary's husband, Mike, who is also an attorney at the 
Department of Justice in the National Security Division, and 
their son--Mary and Mike's son--Liam, who will someday be in 
the Department of Justice.
    [Laughter.]
    General Barr. Patricia's husband, Pelham, who is a founding 
partner of a consulting firm. And Meg's husband, Tyler, who is 
also an Assistant United States Attorney in the Eastern 
District of Virginia.
    Did I leave anyone out?
    Chairman Graham. Think about medical school, Liam.
    [Laughter.]
    Chairman Graham. Somebody needs to make money in the 
family.
    General Barr. When Meg was starting at Notre Dame, I told 
her I wanted a doctor in the family, and I made her take 
organic chem. Needless to say, she is now a lawyer. So----
    Good morning, Mr. Chairman, Ranking Member Feinstein, and 
Members of the Committee. It is a privilege to come before you 
today, and I am honored that President Trump has nominated me 
for the position of Attorney General.
    I regret that I come before this Committee at a time when 
much of our Government is shut down, and my thoughts are with 
the dedicated men and women of the Department of Justice and 
other Federal workers, many of whom continue to perform their 
critical jobs.
    As you know, if the Senate confirms me, this would be my 
second time I would have the honor of holding this office. 
During the 4 years I served under President George H.W. Bush, 
he nominated me for three successive positions in the 
Department--the Assistant Attorney General for the Office of 
Legal Counsel, the Deputy Attorney General, and finally, the 
Attorney General--and this Committee unanimously approved me 
for each of those offices.
    Twenty-seven years ago at my confirmation hearing, I 
explained that the office of Attorney General is not like any 
other Cabinet post. It is unique and has a critical role to 
play under our constitutional system. I said then, the Attorney 
General has a very special obligation, unique obligations. He 
holds in trust the fair and impartial administration of 
justice.
    It is the Attorney General's responsibility to enforce the 
law evenhandedly and with integrity. The Attorney General must 
ensure that the administration of justice, the enforcement of 
the law, is above and away from politics. Nothing could be more 
destructive of our system of Government, of the rule of law, or 
the Department of Justice as an institution, than any 
toleration of political interference with the enforcement of 
the law.
    I believe this as strongly today as I did 27 years ago, 
indeed, more strongly. We live in a time when the country is 
deeply divided. In the current environment, the American people 
have to know that there are places in the Government where the 
rule of law, not politics, holds sway and where they will be 
treated fairly based solely on the facts and the evenhanded 
application of the law. The Department of Justice must be that 
place.
    I did not pursue this position, and when my name was first 
raised, I was reluctant to be considered and, indeed, proposed 
a number of alternative candidates. I am 68 years old, 
partially retired, and nearing the end of a long legal career. 
My wife and I were looking forward to a peaceful and cherished 
time with our daughters and grandchildren. And I have had this 
job before.
    But ultimately, I agreed to serve because I believe 
strongly in public service, I revere the law, I love the 
Department of Justice and the dedicated professionals who serve 
there, and I believe that I can do a good job leading the 
Department in these times.
    If confirmed, I will serve with the same independence I did 
in 1991. At that time, when President Bush chose me, he sought 
no promises and asked only that his Attorney General act with 
professionalism and integrity. Likewise, President Trump has 
sought no assurances, promises, or commitments from me of any 
kind, either express or implied, and I have not given him any, 
other than that I would run the Department with professionalism 
and integrity.
    As Attorney General, my allegiance will be to the rule of 
law, the Constitution, and the American people. This is how it 
should be, this is how it must be, and if you confirm me, this 
is how it will be. Now let me address a few matters I know are 
on the minds of some of the Members of this Committee.
    First, I believe it is vitally important that the Special 
Counsel be allowed to complete his investigation. I have known 
Bob Mueller for 30 years. We worked closely together throughout 
my previous tenure at the Department of Justice. We have been 
friends since, and I have the utmost respect for Bob and his 
distinguished record of public service. And when he was named 
Special Counsel, I said his selection was good news and that, 
knowing him, I had confidence he would handle the matter 
properly. And I still have that confidence today.
    Given his public actions to date, I expect that the Special 
Counsel is well along in his investigation. At the same time, 
the President has been steadfast that he was not involved in 
any collusion with Russian attempts to interfere in the 
election. I believe it is in the best interest of everyone--the 
President, Congress, and the American people--that this matter 
be resolved by allowing the Special Counsel to complete his 
work.
    The country needs a credible resolution to these issues, 
and if confirmed, I will not permit partisan politics, personal 
interests, or any other improper consideration to interfere 
with this or any other investigation. I will follow the Special 
Counsel regulations scrupulously and in good faith, and on my 
watch, Bob will be allowed to finish his work.
    Second, I also believe it is very important that the public 
and Congress be informed of the results of the Special 
Counsel's work. My goal will be to provide as much transparency 
as I can, consistent with the law. I can assure you that where 
judgments are to be made, I will make those judgments based 
solely on the law, and I will not let personal, political, or 
other improper interests influence my decision.
    Third, I would like to briefly address the memorandum that 
I wrote last June. I wrote the memo as a former Attorney 
General who has often weighed in on legal issues of public 
importance, and I distributed it broadly so that other lawyers 
would have the benefit of my views. My memo was narrow, 
explaining my thinking on a specific obstruction of justice 
theory under a single statute that I thought, based on media 
reports, the Special Counsel might be considering.
    The memo did not address or in any other way question the 
Special Counsel's core investigation into Russian efforts to 
interfere in the election, nor did it address other potential 
obstruction of justice theories or argue, that some have 
wrongly suggested, that a President can never obstruct justice. 
I wrote it myself on my initiative without any assistance and 
based solely on public information.
    I would like to comment very briefly on my priorities, if 
confirmed as Attorney General.
    First, we must continue the progress we have made on 
violent crime, while at the same time recognize the changes 
that have occurred since I last served as Attorney General. The 
recently passed First Step Act, which I intend to diligently 
implement if confirmed, recognizes the progress we have made 
over the past 3 decades in fighting violent crime. As Attorney 
General, I will ensure that we will continue our efforts to 
combat violent crime.
    In the past, I was focused on predatory violence, but today 
I am also concerned about another kind of violence. We can only 
survive and thrive as a Nation if we are mutually tolerant of 
each other's differences, whether they be differences based on 
race, ethnicity, religion, sexual orientation, or political 
thinking. And yet we see some people violently attacking others 
simply because of their differences. We must have zero 
tolerance for such crimes, and I will make this a priority as 
Attorney General, if confirmed.
    Next, the Department will continue to prioritize enforcing 
and improving our immigration laws. As a Nation, we have the 
most liberal and expansive immigration laws in the world. Legal 
immigration has historically been a huge benefit to this 
country. However, as we open our front door and try to admit 
people in an orderly way, we cannot allow others to flout our 
legal system by crashing in through the back doors. In order to 
ensure that our immigration system works properly, we must 
secure our Nation's borders, and we must ensure that our laws 
allow us to process, hold, and remove those who unlawfully 
enter.
    Finally, in a democracy like ours, the right to vote is 
paramount. In a period of great political division, one of the 
foundations of our Nation is our enduring commitment to the 
peaceful transition of power through elections. If confirmed, I 
will ensure that the full might of our resources are brought to 
bear against foreign persons who unlawfully interfere in our 
elections. Fostering confidence in the outcomes of elections 
also means ensuring that the right to vote is fully protected 
as well as ensuring the integrity of elections.
    Let me conclude by making the point that over the long run, 
the course of justice in this country has more to do with the 
character of the Department of Justice as an enduring 
institution than with the tenure of any particular Attorney 
General. Above all else, if confirmed, I will work diligently 
to protect the professionalism and integrity of the Department 
as an institution, and I will strive to leave it and the Nation 
a stronger and better place.
    Thank you very much for your time today, and I look forward 
to answering your questions.
    [The prepared statement of General Barr appears as a 
submission for the record.]
    Chairman Graham. Thank you, Mr. Barr. We will try to break 
around 11:30, I think, to get a quick bite and break up the day 
for you.
    But one thing I want to tell you is, that I support the 
idea that politicians, no matter of what Party, should not 
interfere with criminal investigations. That makes imminent 
sense to me. Once you go down that road, then the rule of law 
collapses.
    But there is another side to this equation--if I may say, a 
two-way street. What about those in charge of enforcing the 
law? What about those with the power to bring charges against 
American citizens, including people up here? I remember Senator 
Stevens' case in Alaska. So, we should always be on guard about 
the politician interfering in an investigation, but we should 
also have oversight of how the Department works, and those with 
this tremendous power use that power.
    Are you familiar with the January 11th New York Times 
article about, ``FBI Opened Inquiry Into Whether Trump Was 
Secretly Working on Behalf of Russia''?
    General Barr. Yes, Mr. Chairman.
    Chairman Graham. Would you promise me and this Committee to 
look into this and tell us whether or not, in the appropriate 
way, a counterintelligence investigation was opened up by 
somebody at the FBI, Department of Justice against President 
Trump?
    General Barr. Yes, Mr. Chairman, I think there are a number 
of investigations, as I understand it, going on in the 
Department.
    Chairman Graham. Have you ever heard of such a thing in all 
the time you have been associated with the Department of 
Justice?
    General Barr. I have never heard of that.
    Chairman Graham. Are there rules about how you can do 
counterintelligence investigations?
    General Barr. I believe there are, Mr. Chairman.
    Chairman Graham. So if you want to open up one against the 
President, are there any checks and balances?
    General Barr. Not outside the FBI.
    Chairman Graham. Okay. Well, we need to look at that. In 
terms of people who are actually enforcing the law, don't we 
want to make sure they don't have an agenda?
    General Barr. That is right, Mr. Chairman.
    Chairman Graham. Do you know a Lisa Page or Peter Strzok?
    General Barr. I have heard their names.
    Chairman Graham. But do you know them personally?
    General Barr. No, I do not.
    Chairman Graham. This is a message, August 8th, 2016, a 
text message: ``Trump's not ever going to become President, 
right? Right? '' Strzok responded, ``No, no, he's not. We'll 
stop him.'' Strzok was in charge of the Clinton email 
investigation. Ms. Page worked at the Department of Justice. 
August 15th, 2016: ``I want to believe the path you threw out 
for consideration in Andy's office, that there's no way he gets 
elected, but I'm afraid we can't take that risk. It's like an 
insurance policy in the unlikely event you die before 40.'' 
March 4th, 2016, Page to Strzok: ``God, Trump is a loathsome 
human being.'' October the 20th, 2016: ``Trump is an `F'-ing 
idiot, is unable to provide a coherent answer.''
    To all those who enforce the law, you can have any opinion 
of us that you like, but you are supposed to do your job 
without an agenda. Do you promise me as Attorney General, if 
you get this job, to look in to see what happened in 2016?
    General Barr. Yes, Mr. Chairman.
    Chairman Graham. How do these statements sit with you?
    General Barr. I was shocked when I saw them.
    Chairman Graham. Okay. Please get to the bottom of it. I 
promise you we will protect the investigation, but we are 
relying upon you to clean this place up.
    FISA warrants. Are you familiar with a FISA warrant?
    General Barr. Yes, Mr. Chairman.
    Chairman Graham. Okay. During the process of obtaining a 
warrant, is there a certification made by the Department of 
Justice to the court that the information being provided is 
reliable?
    General Barr. Yes, sir.
    Chairman Graham. Are you familiar with Bruce Ohr?
    General Barr. No, I am not.
    Chairman Graham. Bruce Ohr was Associate Deputy Attorney 
General for Organized Crime and Drug Enforcement. His wife 
worked at Fusion GPS. Are you familiar with Fusion GPS?
    General Barr. Yes, I have read about that.
    Chairman Graham. Fusion GPS, Mr. Barr, was hired by the 
Democratic National Committee and the Clinton Campaign to do 
opposition research against Candidate Trump and maybe other 
candidates, but we now know that they hired Fusion GPS, Michael 
Steele, who is a former British agent, to do opposition 
research and produce the famous dossier. Are you aware that Mr. 
Ohr's wife worked for that organization?
    General Barr. I have read that.
    Chairman Graham. Does that bother you if he had anything to 
do with the case?
    General Barr. Yes.
    Chairman Graham. Are you aware that on numerous occasions, 
he met with Mr. Steele while his wife worked with Fusion GPS?
    General Barr. I have read that.
    Chairman Graham. Okay. The warrant certification against 
Carter Page on four different occasions certifies that the 
dossier, which was the main source of the warrant, was 
reliable. Would you look in to see whether or not that was an 
accurate statement and hold people accountable if it was not?
    General Barr. Yes, Mr. Chairman.
    Chairman Graham. Mueller. You say you have known Mueller a 
long time. Would you say you have a close relationship with Mr. 
Mueller?
    General Barr. I would say we are good friends.
    Chairman Graham. Would you say that you understand him to 
be a fair-minded person?
    General Barr. Absolutely.
    Chairman Graham. Do you trust him to be the fair to the 
President and the country as a whole?
    General Barr. Yes.
    Chairman Graham. When his report comes to you, will you 
share it with us as much as possible?
    General Barr. Consistent with regulations and the law, yes.
    Chairman Graham. Do you believe Mr. Mueller would be 
involved in a witch hunt against anybody?
    General Barr. I do not--I do not believe Mr. Mueller would 
be involved in a witch hunt.
    Chairman Graham. What are the circumstances that would 
allow a Special Counsel to be appointed, generally speaking?
    General Barr. Well, I appointed three, Mr. Chairman, 
Special Counsel. And generally, when something comes up--an 
issue comes up that needs to be investigated and there are good 
reasons to have it investigated by a Special Counsel outside 
the normal chain at the Department, someone usually of public 
stature that can provide additional assurance of nonpartisan--
--
    Chairman Graham. Do you believe that Attorney General 
Sessions had a conflict because he worked on the Trump 
Campaign?
    General Barr. I am not sure of all the facts, but I think 
he probably did the right thing recusing himself.
    Chairman Graham. I agree. I think he did the right thing to 
recuse himself. Do you know Rod Rosenstein?
    General Barr. Yes, I do.
    Chairman Graham. What is your opinion of him?
    General Barr. I have a very high opinion of Rod Rosenstein 
and his service in the Department.
    Chairman Graham. Okay. Why did you write the memo?
    General Barr. I wrote the memo because starting, I think, 
in June 2017, there were many news reports, and I had no facts, 
and none of us really outside the Department have facts. But I 
read a lot of news reports suggesting that there were a number 
of potential obstruction theories that were being contemplated 
or, at least, explored.
    One theory in particular that appeared to be under 
consideration under a specific statute concerned me because I 
thought it would involve stretching the statute beyond what was 
intended, and would do it in a way that would have serious 
adverse consequences for all agencies that are involved in the 
administration of justice, especially the Department of 
Justice. And I thought it would have a chilling effect going 
forward over time. And my memo is very clear that is the 
concern that was driving me, the impact, not the particular 
case, but its impact of a rule over time.
    And I wanted to make sure that before anyone went down this 
path, if that was, in fact, being considered, that the full 
implications of the theory were carefully thought out. So I 
wanted my views to get in front of the people who would be 
involved and the various lawyers who would be involved in those 
discussions.
    So, I first raised these concerns verbally with Rod 
Rosenstein when I had lunch with him early in 2008, and when he 
did not respond and was Sphinx-like in his reaction, expounded 
on my concerns. And then I later attempted to provide a written 
analysis as follow-up. Now, I initially thought of an op-ed, 
and because of the material, it was not working out. And I 
talked to his staff, and I said, you know, I want to follow up 
and send something to Rod in writing, but is he a one-pager 
kind of guy or, you know, how much will he read? And the guy 
said, he is like you, he does not mind wading into a dense 
legal memo.
    Chairman Graham. Don't you think President Trump is a one-
pager kind of guy?
    General Barr. Excuse me?
    Chairman Graham. President Trump is a one-pager kind of 
guy.
    General Barr. I suspect he is.
    Chairman Graham. Okay. Just remember that. Go ahead.
    General Barr. Yes.
    [Laughter.]
    General Barr. And so I provided the memo to Rod, and I 
provided it--distributed it freely among the other lawyers that 
I thought would be interested in it, and I think it was 
entirely proper. It is very common for me and for other former 
senior officials to weigh in on matters that they think may be 
ill advised and may have ramifications down the road.
    For example, just a few months before that, I had weighed 
in repeatedly to complain about the idea of prosecuting Senator 
Menendez. I think I made three calls. I think it was two to 
Sessions, to AG Sessions, and one to Rosenstein. Now, I did not 
know Senator Menendez. I do not represent Senator Menendez. No 
one was paying me to do it, and, in fact, I do not support 
Senator Menendez politically, but I carefully watched this 
case. My friend, Abbe Lowell, was his Defense Counsel, and it 
was very much like a line of cases that I had been concerned 
about when I was AG. And so I was watching it, and I thought 
the prosecution was based on a fallacious theory that would 
have bad long-term consequences. And so I freely weighed in at 
the Department, and I did so because I care about the rule of 
law.
    And I want to say one final thing on the rule of law 
because it picks up on something you said, Mr. Chairman. What 
is the rule of law? We all use that term. In the area of 
enforcement, I think the rule of law is that when you apply a 
rule to A, it has to be the rule and approach you apply to B, 
C, D, and E, and so forth. And that seems to me to suggest two 
corollaries for an Attorney General. The first, that is why we 
do not like political interference. Political interference 
means that the rule being applied to A is not the rule you are 
applying. It is special treatment because someone is in there 
exerting political influence.
    The corollary to that, and this is what you are driving at, 
Mr. Chairman, is that when you apply a rule--when a prosecutor 
is applying a rule to A, you got to be careful that it is not 
torqued specially for that case in a way that could not be 
applied down the road, or if it is applied, will create 
problems down the road. And I think the Attorney General's job 
is both. It is both to protect against interference, but it is 
also to provide oversight to make sure that in each individual 
case, the same rule that would be applied broadly is being 
applied to the individual.
    Chairman Graham. Senator Feinstein.
    Senator Feinstein. Thank you, Mr. Chairman. Six quick 
``yes'' or ``no'' questions. Will you commit to no interference 
with the scope of the Special Counsel's investigation?
    General Barr. I will--the scope of the Special Counsel's 
investigation----
    Senator Feinstein. By not----
    General Barr [continuing]. Is set by his charter and by the 
regulations, and I will ensure that those are maintained.
    Senator Feinstein. Will you commit to providing Mr. Mueller 
with the resources, funds, and time needed to complete his 
investigation?
    General Barr. Yes.
    Senator Feinstein. Will you commit to ensuring that Special 
Counsel Mueller is not terminated without good cause consistent 
with Department regulations?
    General Barr. Absolutely.
    Senator Feinstein. If the Special Counsel makes any 
request, for instance, about the scope of investigation or 
resources for his investigation, will you commit to notifying 
Congress if you deny that request?
    General Barr. I think the regulations require notification 
of Congress if there is a disagreement.
    Senator Feinstein. Thank you. And I have two questions from 
the Chairman of the House Judiciary Committee. Will you commit 
to making any report Mueller produces at the conclusion of his 
investigation available to Congress and to the public?
    General Barr. As I said in my statement, I am going to make 
as much information available as I can, consistent with the 
rules and regulations that are part of the Special Counsel 
regulations.
    Senator Feinstein. Will you commit to making any report on 
the obstruction of justice public?
    General Barr. That is the same answer. Yes.
    Senator Feinstein. Thank you. In your June 2018 memo about 
obstruction of justice to the Mueller investigation, you 
repeatedly referred to Mr. Mueller's ``sweeping and all-
encompassing interpretation of Section 1512,'' which is the--a 
statute on obstruction. How do you know what Mr. Mueller's 
interpretation of 1512 is?
    General Barr. Well, as I said, I was--I was speculating. I 
freely said at the beginning I was writing in the dark, and we 
are all in the dark. Every lawyer, every talking head, everyone 
who thinks about or talks about it does not have the facts.
    Senator Feinstein. So I spent my Saturday reading that 
memorandum.
    General Barr. Yes.
    Senator Feinstein. So are you saying this is all your 
speculation? It is a big memo.
    General Barr. Well, it was informed to the extent that I 
thought that that was one of the theories being considered. I 
do not know how seriously--whether it was being considered or 
how seriously it was being considered. But I--as a shorthand 
way in the memo of referring to what I was speculating might be 
the theory, I referred to it as ``Mr. Mueller's theory'' rather 
than go in every time I mention it say, well, this is 
speculative.
    Senator Feinstein. But do you know what Mueller's 
interpretation of 1512 is?
    General Barr. No, I do not know what Mueller's 
interpretation.
    Senator Feinstein. Okay.
    General Barr. And just one point, Senator. I think--you 
said in your opening statement I said he was grossly 
irresponsible. I think I said if something happens, it would be 
grossly irresponsible. I was not calling Mueller grossly 
irresponsible.
    Senator Feinstein. I understand.
    General Barr. Okay.
    Senator Feinstein. Thank you. I appreciate that. Has anyone 
given you non-public information about Mueller's investigation?
    General Barr. I do not--I do not recall getting any 
confidential information about the investigation.
    Senator Feinstein. Your 2018 memo--in it you stated, and I 
quote, ``The Framers' plan contemplates that the President's 
law enforcement powers extend to all matters, including those 
in which he had a personal stake,'' end quote. Please explain 
what you based this conclusion on.
    General Barr. Yes. Here is the Department of Justice--right 
here, and within the Department of Justice, enforcement 
decisions are being made. The President is over here, and I 
think of it as, there are two categories of potential 
communications. One would be on a case that the President wants 
to communicate about that he has no personal interest in, no 
political interest in. Let us say, the President is concerned 
about Chinese stealing trade secrets and says, ``I want you to 
go after this company that is being--you know, that may be 
stealing trade secrets.'' That is perfectly appropriate for him 
to do--to communicate that.
    But, whether it is bona fide or not, the Department of 
Justice's obligation and the Attorney General's obligation is 
not to take any action unless we reach--``we,'' the Department 
of Justice and the Attorney General--reach their own 
independent conclusion that it is justified under the law, and 
regardless of the instruction. And that is my quote that 
everyone is saying, you know, I am siccing the--you know, it is 
okay for the--for the President to direct things. All I said 
was, it is not per se improper for the President to call on the 
Department for doing something, especially if he has no 
personal or political interest in it.
    The other category of cases--and let us pick, you know, an 
easy bad example--would be if a member of the President's 
family or a business associate or something was under 
investigation, and he tries to intervene. He is the chief law 
enforcement officer, and you could say, well, he has the power, 
but that would be a breach of his obligation under the 
Constitution to faithfully execute the laws.
    So, in my opinion, if he attempts--if a President attempts 
to intervene in a matter that he has a stake in to protect 
himself, that should first be looked at as a breach of his 
constitutional duties--whether it also violates a statute, 
depending on what statute comes into play, and what all the 
facts are.
    Senator Feinstein. Including the Emoluments Clause of the 
Constitution.
    General Barr. Well, I think there is a dispute as to what 
the Emoluments Clause relates to. I have not personally 
researched the Emoluments Clause. I cannot even tell you what 
it says at this point. Off the top of my head I would have 
said, well, emoluments are essentially a stipend attached to 
some office, but I do not know if that is correct or not. But I 
am sure it is----
    Senator Feinstein. Okay. Well----
    General Barr. I think it is being litigated right now.
    Senator Feinstein. I am going to--I do not know either, so 
I am going to try and find out, and we will come back another 
day and maybe discuss it.
    General Barr. Okay. Okay.
    Senator Feinstein. Your memo stated, ``a fatal flaw in 
Mueller's interpretation of Sec.  1512(c)(2), is that, while 
defining obstruction solely as acting `corruptly,' Mueller 
offers no definition of what `corruptly' means.'' My 
understanding is that there is nothing in the public record 
that sheds light on his definition of ``obstruction.'' Do you 
know what his definition is?
    General Barr. I do not know what his definition is. I read 
a book where people were asking whether someone--I think--I do 
not know if it is accurate, but whether someone--the President 
was acting with corrupt intent. And what I say in my memo is, 
actually the--people do not understand what the word 
``corruptly'' means in that statute. It is an adverb, and it is 
not meant to mean with a state of mind. It is actually meant 
the way in which the influence or obstruction is committed. 
That is an adverbial function in the statute.
    And what it means is, using in the 19th century sense, it 
is meant to influence in a way that changes something that is 
good and fit to something that is bad and unfit, namely the 
corruption of evidence or the corruption of a decisionmaker. 
That is what the word ``corruptly'' means because once you 
dissociate it from that, it really means--very hard to discern 
what it means. It means ``bad.'' What does ``bad'' mean?
    Senator Feinstein. Let me go on because my time is so 
limited. You argue that the--and I quote, ``The Constitution's 
plenary grant of those powers to the President also extends to 
the unitary character of the executive branch itself.'' 
Specifically you argue, and this is a quote, ``While Mueller's 
immediate target is the President's exercise of his 
discretionary powers, his obstruction theory reaches all 
exercises of prosecutorial distinction by the President's 
subordinates, from the Attorney General down to the most 
junior-line prosecutor.''
    So, if the President orders the Attorney General to halt a 
criminal investigation for personal reasons, would that be 
prohibited under your theory?
    General Barr. Prohibited by what?
    Senator Feinstein. By----
    General Barr. The Constitution?
    Senator Feinstein [continuing]. The Constitution.
    General Barr. I think it would be--I think it would be a 
breach of the President's duties to faithfully execute the law. 
It would be an abuse of power. Whether it would violate a 
statute depends on all the facts and what statute I would--
someone would cite me to. But I certainly think it would be an 
abuse of his power. And let me just say that the position----
    Senator Feinstein. Would that be the same thing if an 
Attorney General fired U.S. Attorneys for political reasons?
    General Barr. No, because U.S. Attorneys are political 
appointments.
    Senator Feinstein. According to news reports, President 
Trump interviewed you and asked you to be part of the legal 
team defending him in the Mueller investigation--twice, first 
in the spring of 2017 when the investigation was just beginning 
and again earlier this year. Is that correct?
    General Barr. No, he--I had one conversation with him that 
related to his private representation, and I can describe that 
for you. That was--that was in June 2017. That is the only time 
I met him before I talked to him about the job of Attorney 
General, which obviously is not the same as representing him.
    Senator Feinstein. Have you discussed the Mueller 
investigation with the President or anyone else in the White 
House?
    General Barr. I discussed the Mueller investigation, but 
not in--not in any particular substance. I can go through my 
conversations, with you, if you want.
    Senator Feinstein. Well, not at that time, but I may come 
back to you----
    General Barr. Okay.
    Senator Feinstein [continuing]. And ask you about that. I 
do not want to take any more time. Thank you, Mr. Chairman.
    Chairman Graham. Senator Grassley.
    Senator Grassley. Before I ask my first question, and I do 
not want you to respond to this. I just want you to know what 
my interest is in the transparency of the Mueller report. When 
we spend 35--I do not know whether it is $25 million or $35 
million, the taxpayers--that is billions of dollars--the 
taxpayers ought to know what their money was spent for. So if 
you have got some reservations about some part of it not being 
public, I hope that that is related to traditional things 
that--of the public's business that should not be public, like 
national security is an example, not being made public. But 
beyond that, the only way I know for the taxpayers to hold 
anybody that spend the taxpayers' money responsibly is through 
transparency because that brings accountability.
    My first question, and as you would expect from our 
conversation in my office, in 1986, Reagan signed the False 
Claims Act. I worked hard to get that passed, especially 
provisions empowering whistleblowers to help Government 
identify fraud. More than a decade ago, you said, the qui tam 
provisions in the False Claims Act were--your words, ``an 
abomination and were unconstitutional.'' You said, you, in your 
words, ``wanted to attack the law, but the Supreme Court upheld 
the law's constitutionality.''
    Prosecutors from both sides of the aisle have praised the 
law as the most effective tool Government has to detect and 
actually recover public money lost to fraud. Since 1986, the 
law that was passed in 1986 brought in $56 billion into the 
Federal treasury. Most of that is because patriotic 
whistleblowers found the fraud and brought the case to the 
attention of the Government.
    Is the False Claims Act unconstitutional?
    General Barr. No, Senator. It has been upheld by the 
Supreme Court.
    Senator Grassley. Do you consider the False Claims Act to 
be an abomination?
    General Barr. No, I do not.
    Senator Grassley. Does the False Claims Act benefit the 
taxpayer, specifically its provisions to empower and protect 
whistleblowers?
    General Barr. Yes, Senator.
    Senator Grassley. If confirmed, do you commit to not take 
any action to undermine the False Claims Act? Further, if 
confirmed, will you continue current Justice Department staff 
and funding levels to properly support and prosecute False 
Claims Act cases?
    General Barr. Yes, I will diligently enforce the False 
Claims Act.
    Senator Grassley. Now, with all those positive answers, you 
would think I would be done, wouldn't you, with that? But let 
me go on.
    [Laughter.]
    Senator Grassley. Just to show you that there are some 
forces out there that I am suspicious about within the 
Department of Justice, we have a new Department of Justice 
guidance document out last year, known as the ``Granston 
Memo.'' It provides a long list of reasons that the Department 
can use to dismiss False Claims Act cases, some of them pretty 
darn vague, such as preserving--these are their words: 
``preserving Government resources.'' Just think of all the 
mischief those three words can bring.
    Of course, the Government can dismiss, obviously, meritless 
cases. I do not argue with that. But even when the Department 
declines to participate in False Claims Act cases, the taxpayer 
can in many cases still recover financially. So it is important 
to allow whistleblowers to pursue cases even when the 
Department is not able to be involved.
    Under what circumstances can or should the Justice 
Department move to dismiss False Claims cases?
    General Barr. Senator, I have not reviewed that memorandum, 
so I am not familiar with the thinking of the people in the--I 
think it is the Civil Division that did that. But if I am 
confirmed, I will review it, and I would be glad to come and 
sit down with you and discuss it, and if there are areas you 
are concerned about, I would be glad to work with you on that.
    Senator Grassley. Unless you find that my presumption is 
wrong, that there are reasons to be suspicious, I hope you will 
take into consideration my feeling about how in various 
suspicious ways people that are faceless bureaucrats can 
undermine this effort.
    In circumstances where the Government does not intervene in 
False Claims cases, if confirmed, will you commit to ensuring 
the Department does not unnecessarily dismiss False Claims Act 
cases?
    General Barr. Yes, Senator. I will enforce the law in good 
faith.
    Senator Grassley. Okay. Now, we have got an Act that the 
Justice Department just took, and I cannot obviously expect you 
to respond specifically to the Act, but I use it as an example 
of their uncooperation with the Department of Congressional 
Oversight. This uncooperative behavior needs to change. On 
December the 10th, last year, the Department confirmed a 
briefing for your staff regarding the Asset Forfeiture Fund, 
and to do that last week, January the 8th. On January the 7th, 
the Department of Justice Office of Legislative Affairs 
informed our staff that they will no longer provide the 
briefing because they consider the matter closed as a result of 
the change in Chairmanship and because you released a public 
memo--because I released a public memo on the Marshals Service 
study or investigation. It is important to gain your commitment 
on how you would handle this as an example.
    Let me explain how ridiculous it is to get somebody in this 
administration saying that they do not have to answer if you 
are not Chairman of a Committee. We went through this in 
January, the first month this President was in office, when he 
said--or he put out a memo, ``We are not going to answer any 
oversight except for Chairmen of Committees.'' So, you are 
going to write off 500 Members of Congress not doing oversight.
    So, we told them all about this and the constitutional 
cases on this. We got them up. They wrote a memo again 2 months 
later that said that they were going to respond to all this 
stuff. Now you have got people in the bowels of the bureaucracy 
that are still saying, If you are not a Chairman, you ain't 
going to get an answer to anything. How ridiculous. It is our 
constitutional responsibility.
    So then I laid out--I will give you an example. I sent the 
Justice Department a classified letter regarding information 
acquired from the Justice Department Inspector General report 
on the Clinton investigation. The Department ought to answer 
for what the Attorney Inspector General has found. But I have 
not heard a peep, not a peep on that yet.
    On December the 10th, the Justice Department--well, I am 
repeating here. So the question is: Do you understand that, if 
you are confirmed, you have an obligation to ensure that the 
Justice Department--and particularly the FBI is a problem--
respond to congressional inquiries and to do it in a timely 
manner?
    General Barr. Absolutely, Senator.
    Senator Grassley. You understand that this obligation 
applies regardless of whether you are a Member of Congress or a 
Committee Chairman?
    General Barr. Yes, Senator. You know, you and Senator 
Leahy, I think, are the only Members of the Committee now who 
were here 27 years ago when I was first confirmed, but I think 
you will recall that we were able to establish very cooperative 
and productive relationships with all the Members and try to 
respond to their questions and deal with their concerns and 
work with them on projects they are interested in. And that 
will be the same approach that I will bring to the job if you 
confirm me.
    Senator Grassley. Okay. Then let me be specific on my last 
question on oversight. You remember when you were in my office 
I gave you, as I gave Attorney General Sessions, as I gave 
Holder, a long list of things that the Department has not 
answered. And one of these was an October 17, 2018, letter, and 
I would like to have your response to answering that letter and 
respond to all outstanding and future oversight requests in a 
timely manner.
    And then, remember, I said all you Cabinet people come up 
here to tell us ``yes'' when we ask you if you are going to 
answer our stuff, I said, maybe you better say, ``maybe.'' So 
if you want to say ``maybe'' now and be really honest, say, 
``maybe.'' Otherwise, I hope you will answer that October 17th 
letter once we get you voted into office.
    General Barr. Yes, Senator.
    Senator Grassley. Throughout your career you have expressed 
concern with congressional attempts to enact criminal justice 
reform and at times advocated for stricter mandatory minimum 
sentences. In 1992, under your direction, DOJ published a 
report entitled, ``The Case for More Incarceration.'' This 
report declared that the problem with our criminal justice 
system was that we were incarcerating too few criminals.
    More recently, in 2015, you signed a letter opposing the 
Sentencing Reform and Corrections Act of 2015. This letter 
states quite clearly your opposition to sentencing reform, 
particularly the lessening of mandatory minimum sentences and 
any sort of retroactivity.
    The First Step Act was signed by President Trump. As 
Attorney General, it will be your job to implement the 
legislation. Even though you have opposed criminal justice 
reform in the past, will you commit to fully implementing the 
First Step Act?
    General Barr. Yes, Senator. But, you know, in 1992, when I 
was Attorney General, the violent crime rates were the highest 
in American history. The sentences were extremely short. 
Typically, in many States the time served for rape was 3 years; 
for murder, time served 5 to 7 years. The system had broken 
down. And I think through a series of administrations--Reagan, 
Bush, and Clinton--the laws were changed, and we targeted 
violent, chronic violent offenders, especially those using 
guns. And I think the reason the crime rate is much lower today 
is because of those policies.
    So I do not think comparing the policies that were in 
effect in 1992 to the situation now is really fair. And I 
think--and I have said, that right now we have greater 
regularity in sentencing. There is broader recognition that 
chronic violent offenders should be incarcerated for 
significant periods of time to get them off the streets. And I 
think the time was right to take stock and make changes to our 
penal system based on current experience.
    So I have no problem with the approach of reforming the 
sentencing structure, and I will faithfully enforce that law.
    Senator Grassley. Do not take it personal if I raise my 
voice to you. I am not mad at you.
    [Laughter.]
    Chairman Graham. If I were you, I would answer his letters. 
Just a tip that may help you through your job, if you get it.
    I will take the time away from my second round. I am very 
curious about the conversations you had about personal 
representation or being Attorney General. You mentioned it to 
Senator Feinstein. Can you just kind of give us a summary of 
what you were talking about?
    General Barr. Yes, so in June 2017, the middle of June, 
Ambassador David Friedman, who is the U.S. Ambassador to 
Israel--who I did not know. I knew that he was a top-tier 
lawyer in New York and apparently a friend of the President's. 
He reached out to me, and we talked one evening, and he said 
that he--well, my understanding was he was interested in 
finding lawyers that could augment the defense team, and 
failing that, he wanted to identify Washington lawyers who had 
experience, you know, broad experience whose perspective might 
be useful to the President's. And he asked me a number of 
questions, like, you know, ``What have you said about the 
President publicly? '' ``Do you have any conflicts? '' and so 
forth. And I told him that I did not think I could take this 
on, that I had just taken on a big corporate client that was 
very important to me and I expected a lot of work. And I said 
at my point in life, I really did not want to take on this 
burden and that I actually preferred the freedom to not have 
any representation of an individual, but just say what I 
thought about anything without having to worry about that. And 
I said that my wife and I were sort of looking forward to a bit 
of respite and I did not want to stick my head into that meat 
grinder.
    He asked me if I would nonetheless meet--briefly go over 
the next day to meet with the President. And I said, ``Sure, I 
will go and meet with the President.'' And he brought me over 
and was squeezing me in--it looked to me like it was before the 
morning staff meeting because people were grouping by the door 
to get in, and I went in. And he was there, the Ambassador was 
there, sat through the meeting. It was a very brief meeting 
where essentially the President wanted to know--he said, ``Oh, 
you know Bob Mueller. How well do you know Bob Mueller? '' And 
I told him how well I knew Bob Mueller and how, you know, the 
Barrs and Muellers were good friends and would be good friends 
when this is all over and so forth. And he was interested in 
that, wanted to know, you know, what I thought about Mueller's 
integrity and so forth and so on. And I said, ``Bob is a 
straight shooter and should be dealt with as such.''
    And he said something to the effect like, ``So are you 
envisioning some role here? '' And I said, ``You know, 
actually, Mr. President, right now I could not do it. Just my 
personal and my professional obligations are such that I am 
unable to do it.'' So he asked me for my phone number. I gave 
it to him, and I never heard from him again until----
    Chairman Graham. Well, I tried that once.
    [Laughter.]
    Chairman Graham. You did better than----
    General Barr. Well, I did not hear from him until, you 
know, later, but about something different, which was the 
Attorney General position.
    Chairman Graham. Senator Leahy.
    Senator Leahy. Thank you.
    Mr. Barr, good to see you again. As you mentioned, Senator 
Grassley and I were here at your hearing a number of years ago. 
Let me go back even before that. Forty-six years ago, I was not 
in the Senate. I was State's attorney in Vermont, and I watched 
with a great deal of interest the Elliot Richardson hearings. 
He had been nominated to be Attorney General, and it was in the 
midst of Watergate. He made several commitments to the 
Committee, including appointing a Special Prosecutor, and he 
promised to protect his independence. And as one who had total 
independence as an elected prosecutor in Vermont, I thought how 
important it was to have that same independence at the national 
level. And Mr. Richardson said it was necessary to create the 
maximum possible degree of public confidence in the integrity 
of the process. I have never forgotten that. I think the 
integrity of our institutions is just as much at risk today.
    President Trump has made it clear he views the Justice 
Department as an extension of his political power. He has 
called on it to target his opponents. He obsesses over the 
Russia investigation, which looms over his presidency, may 
define it. He attacks the Special Counsel almost daily. He 
fired both the previous FBI Director and Attorney General for 
not handling the investigation as he pleased. That tells me the 
rule of law can no longer be taken for granted.
    So, if confirmed, the President is going to expect you to 
do his bidding. I can almost guarantee you he will cross the 
line at some point. That is why the commitments you make here 
today, just like those I watched Elliot Richardson make years 
ago, matter greatly. So will you commit, if confirmed, to both 
seeking and following the advice of the Department's career 
ethics officials on whether you must recuse from the Special 
Counsel's investigation?
    General Barr. I will seek the advice of the career ethics 
personnel, but under the regulations, I make the decision as 
the head of the agency as to my own recusal. So I certainly 
would consult with them, and at the end of the day, I would 
make a decision in good faith based on the laws and the facts 
that are evident at that time.
    Senator Leahy. The same thing if you are talking about a 
conflict of interest?
    General Barr. Well, no, some conflicts, as you know, are 
mandatory.
    Senator Leahy. I am thinking of what Attorney General 
Sessions said, when asked a similar question, he said he will 
seek and follow the advice--seek and follow the advice--of the 
Department of Justice's designated ethics officials. So let me 
ask you maybe in a different way.
    I know you have promised to not interfere with the Special 
Counsel. Are there any circumstances that would cause you to 
terminate the investigation or any component of it or 
significantly restrict its funding?
    General Barr. Under the regulations, Bob Mueller could only 
be terminated for good cause, and, frankly, it is unimaginable 
to me that Bob would ever do anything that gave rise to good 
cause. But, in theory, if something happened that was good 
cause, for me it would actually take more than that. It would 
have to be pretty grave and the public interest would 
essentially have to compel it, because I believe right now the 
overarching public interest is to allow him to finish.
    Senator Leahy. Well, I would agree with that, but I also 
think over the past 18 months you have rather harshly prejudged 
the investigation in some of your writings.
    General Barr. Well, you know, I do not see that at all, 
Senator. You know, when you strip away a lot of the rhetoric, 
the two things that have been thrown up as me sort of being 
antagonistic to the investigation are two things: One, a very 
mild comment I made that, ``Gee, I wish the team had been more 
balanced.'' I was not criticizing Mueller. I believe that 
prosecutors--and I think you would agree--they can handle the 
case professionally, whatever their politics are. You know, a 
good prosecutor can leave their politics at the door and go in 
and do the job. And I think that is what Justice Department 
prosecutors do in general.
    Senator Leahy. But you were also very critical of the 
Russian probe, and, I mean, I cannot think of anything that 
would--in your memo, for example, that would jump out more for 
this President because of his commitment to it. And I ask that 
because some have said, on both sides of the aisle, that it 
looked like a job application, and so that is what I wanted you 
to refer to.
    General Barr. Well, you know, that is ludicrous. If I 
wanted the job and was going after the job, there are many more 
direct ways of me bringing myself to the President's attention 
than writing an 18-page legal memorandum, sending it to the 
Department of Justice and routing it to other----
    Senator Leahy. But you also publicly criticized the Russian 
probe. I mean----
    General Barr. How have I criticized the Russian probe?
    Senator Leahy. You do not have any criticism of the Russian 
probe?
    General Barr. Not at all. I believe the Russians interfered 
or attempted to interfere with the election, and I think we 
have to get to the bottom of it.
    Senator Leahy. So you would be in favor of releasing the 
investigative report when it is completed?
    General Barr. As I have said, I am in favor of as much 
transparency as there can be consistent with the rules and the 
law.
    Senator Leahy. Do you see a case where the President could 
claim executive privilege and say that parts of the report 
could not be released?
    General Barr. Well, I do not have a clue as to what would 
be in the report. The report could end up being, you know, not 
very big. I do not know what is going to be in the report. In 
theory, if there was executive privilege, material to which an 
executive privilege claim could be made, it might--you know, 
someone might raise a claim of executive privilege.
    Senator Leahy. That would be very difficult following U.S. 
v. Nixon when the Supreme Court unanimously rejected President 
Nixon's claims of executive privilege over the Watergate tapes. 
But I ask it because the President's attorney, Mr. Giuliani, 
said the President should be able to correct the Mueller report 
before any public release. So, in other words, he could take 
this investigative report, put his own spin on it, and correct 
it before it is released. Do you commit that would not happen 
if you are Attorney General?
    General Barr. That will not happen.
    Senator Leahy. Thank you.
    You had--when you were AG--I remember this well because I 
was here in the Senate at the time you encouraged President 
George H.W. Bush to pardon all six individuals who were 
targeted in Iran-Contra. The independent prosecutor who 
investigated the matter labeled that a ``cover-up.''
    Now, you and I talked about this in my office, and I 
appreciate you coming by. I found the conversation the two of 
us had to be well worthwhile. Do you believe a President could 
lawfully issue a pardon in exchange for the recipient's promise 
to not incriminate him?
    General Barr. No. That would be a crime.
    Senator Leahy. Thank you.
    In 1990, you argued that Congress' appropriation power is 
not an independent source of congressional power to control the 
allocation of Government resources. There are only three 
Committees in the Senate that have a Vice Chairman; 
Appropriations is one of them. Obviously, as Vice Chairman, I 
kind of looked at that. You claimed that if a President finds 
no appropriated funds within a given category, he may use funds 
from another category as long as both categories are in his 
constitutional purview.
    Now, as Vice Chairman of the Appropriations Committee, do 
not be surprised I disagree. Congress' power of the purse, 
Article I, Section 9, I believe constitutes one of the most 
fundamental and foundational checks and balances on the 
executive branch. So do you believe the President can ignore 
Congress' appropriations, allocations, conditions, and 
restrictions in law, just ignore them and take the money and 
transfer----
    General Barr. Not as a general proposition, but I--that 
was----
    Senator Leahy. A general proposition----
    General Barr. I actually thought that was a good Law Review 
article. I gave it as a speech, and it was really a thought 
piece. And what I was really saying was--and I say right up 
front that the more I thought about the appropriations power, 
the more confused I got. And I was just laying out a potential 
template, which is this: People frequently say, you know, the 
power to spend money on this division or this missile system is 
part of the power of the purse. And what I was actually saying 
was--you know, actually, with the power being exercised there 
is the substantive power that Congress has to raise armies, and 
it does not come from the power of----
    Senator Leahy. It was also specific on appropriations on 
Agriculture or on Finance. I mean, for example, could the 
President just build a wall along our southern border because 
he wanted to and just take the money, whether appropriated or 
not? What about eminent domain?
    General Barr. What about eminent domain?
    Senator Leahy. Well, if you are going to build a wall, you 
are going to take a whole lot of land away from landowners in 
Texas and elsewhere.
    General Barr. Well, you know, you would have to show me 
what statute is being invoked and also what appropriation is 
being used. I cannot answer that in the abstract.
    Senator Leahy. So you are saying the President, though, can 
have the power to go into money even if the Congress has 
appropriated it for a different purpose?
    General Barr. I did not say that, but some have----
    Senator Leahy. Do you mean that?
    General Barr. No, I do not mean that. I am saying that, you 
know, there are moneys that the President may have power to 
shift because of statutory authority.
    Senator Leahy. But that would have been because Congress 
gave him that authority.
    General Barr. Right.
    Senator Leahy. Not because he has it automatically.
    General Barr. I am not taking that position. As I said, my 
Law Review--it was published as a Law Review article, and it 
was a thought piece exploring what limits there might be to the 
appropriations power and where Congress' power comes from in 
certain areas.
    Senator Leahy. Thank you.
    Thank you, Mr. Chairman.
    Chairman Graham. Just to follow up on that real quick, and 
I will not take this against Senator Cornyn. Do the Article II 
powers, the inherent authority of the Commander-in-Chief, give 
him the ability to take appropriated dollars from the 
Department of Defense and build a wall?
    General Barr. I cannot--without looking at the statute, I 
really could not answer that.
    Chairman Graham. I am not talking about the statute. I am 
talking about the inherent authority of the President as 
Commander-in-Chief.
    General Barr. That is the kind of question I would go to 
OLC to answer.
    Chairman Graham. Okay. Get back with us on that.
    Senator Cornyn.
    Senator Cornyn. Well, Mr. Chairman, let me congratulate you 
on your election as Chairman of the Judiciary Committee and 
tell you I look forward to working with you and supporting this 
Committee's efforts. And thank you for convening today's 
hearing.
    And I want to express my profound and sincere thanks to the 
nominee, Mr. Barr, for agreeing to serve a second time as 
Attorney General. I noted in your statement you said it was 27 
years ago that you sat in this chair and went through your 
first confirmation hearing, and to me that says a lot about 
your character and your commitment to the rule of law that you 
would be willing to go through this process again and serve 
once again as the chief law enforcement officer of the country. 
Thank you for doing that.
    General Barr. Thank you, Senator.
    Senator Cornyn. Thank you to your family as well.
    To me, the Attorney General is one of the most challenging 
Cabinet offices to hold because, as you point out in your 
opening statement, you are committed to the rule of law and 
enforcing the laws of the land, but you are also a political 
appointee of the President. If you serve in another Cabinet 
position, certainly you are committed to implementing the 
President's agenda or the agenda of an administration, but as 
Attorney General, that is not an unequivocal commitment because 
there may be some things that the administration wants you to 
do that you cannot do consistent with the rule of law. Correct?
    General Barr. That is right, Senator. One of the reasons I 
ultimately decided that I would accept this position if it was 
offered to me was because I was--I feel that I am in a position 
to be independent. You know, over the years a lot of people 
have--some politicians have called me up saying, you know, ``I 
am thinking of going for the Attorney General position in this 
administration,'' and so forth. And I would say, ``You are 
crazy, because if you view yourself as having a political 
future down the road, do not take the job, because if you take 
this job, you have to be ready to make decisions and spend all 
your political capital and have no future because you have to 
do--you have to have that freedom of action.'' And I feel I am 
in a position in life where I can do the right thing and not 
really care about the consequences in the sense that I do not--
I can truly be independent.
    Senator Cornyn. Mr. Barr, thinking back about the run-up to 
the 2016 election where the nominee of both political parties 
for President of the United States ended up being investigated 
by the FBI, can you think of any precedent in American history 
where that has occurred that you know of?
    General Barr. No, I cannot, Senator.
    Senator Cornyn. In thinking back to James Comey's press 
conference of July 7, 2016, where he took the step of talking 
about the evidence against Mrs. Clinton, talking about the 
legal standard that would apply as to whether she might or 
might not be indicted for committing a crime under the 
Espionage Act, have you ever seen a situation where an FBI 
Director would usurp the authority of the Department of Justice 
to make that charging decision and hold a press conference and 
talk about all of the derogatory information that the 
investigation had gleaned against a potential defendant and 
then say now we are not going to--no reasonable prosecutor 
would indict her? Have you ever seen anything like that happen 
before?
    General Barr. No, I have never seen that, and I thought it 
was a little bit--more than a little bit. It was weird at the 
time. But my initial reaction to it was, I think Attorney 
General Lynch had said something--you know, she was under 
pressure to recuse herself, I think, because of the so-called 
tarmac meeting. And I think she said something like she was 
going to defer to the FBI. So my initial reaction to that whole 
thing was, well, she must have agreed or it must have been the 
plan that he was going to make the decision and go out and 
announce his decision.
    Senator Cornyn. Under the normal rules, if the--if the 
Attorney General has a conflict of interest----
    General Barr. It would go to the Deputy.
    Senator Cornyn. It would go to the Deputy.
    General Barr. Correct.
    Senator Cornyn. Not to the FBI Director to make that 
decision. Correct?
    General Barr. Right. So that is why I thought it was very 
strange, but I think later it became clearer, to the extent 
there was anything clear about it, that I do not think Attorney 
General Lynch had essentially delegated that authority to the 
Director. And I think Jim Comey, as I have said, is an 
extremely gifted man who has served the country with 
distinction in many roles, but I thought that to the extent he 
actually announced a decision was wrong.
    And the other thing is if you are not going to indict 
someone, then you do not stand up there and unload negative 
information about the person. That is not the way the 
Department of Justice does business.
    Senator Cornyn. I was shocked when Mr. Comey later wrote a 
letter saying that based on the discovery of Clinton emails on 
the Weiner laptop, that they were reopening the investigation 
that he had already announced closed. And then, finally, just 
days before the general election--November the 6th, 2016--said 
we did not find anything on the laptop that would change my 
conclusions based on the press conference of July the 6th.
    Did you likewise find that to be an extraordinary, I will 
use the word, ``bizarre,'' but certainly unprecedented event?
    General Barr. Yes, the whole sequence was very herky-jerky 
and bizarre. But at that time, I was a little of a contrarian 
in that I basically took the position that once he did what he 
did in July and said the thing was over and then found out it 
was not over, he--you know, he had no choice but to correct the 
record.
    So I said that he had no choice but to do what he did, but 
it sort of shows you what happens when you start disregarding 
the normal procedures and established practice is that you sort 
of dig yourself a deeper and deeper hole.
    Senator Cornyn. Why is it that the Department of Justice 
rules, which also apply to the FBI, make it clear that our 
chief law enforcement agencies in this country should not get 
tangled up in election politics? Are there policies in place 
that try to insulate the investigations and the decisions of 
the Department of Justice and FBI from getting involved in 
elections?
    General Barr. Yes, Senator, there are.
    Senator Cornyn. And why is that?
    General Barr. Well, obviously, because the incumbent party 
has their hands on the--among other reasons, they have their 
hands on the levers of the law enforcement apparatus of the 
country, and you do not want it used against the opposing 
political party.
    Senator Cornyn. And that is what happened when the 
counterintelligence investigation of the Trump campaign began 
in late July and continued on through, well, presumably, to 
Director Comey's firing and beyond?
    General Barr. Well, I am not in a position to, you know, 
make a judgment about it because I do not know what the 
predicate was for it. I think I said, you know, it is strange 
to have a counterintelligence investigation of a President. But 
I am not--you know, I just do not know what the predicate is. 
And if I am confirmed, I assume I will find out.
    Senator Cornyn. Rod Rosenstein's memo recommending the 
termination of James Comey as FBI Director was dated May the 
9th, 2017. It is entitled, ``Restoring Public Confidence in the 
FBI.'' I take it you have read the memo, and do you agree with 
its conclusion?
    General Barr. I completely agree with Rod Rosenstein. And I 
thought the important point he made, from my standpoint, was 
not the particular usurpation that occurred, but it was, as, I 
think, he says, that Director Comey just did not recognize that 
that was a mistake. And so it was going to potentially be a 
continuing problem, his appreciation of his role vis-a-vis the 
Attorney General.
    Senator Cornyn. As I have said, the title of the memo is 
``Restoring Public Confidence in the FBI.'' Do you agree that 
restoration of public confidence in the FBI and Department of 
Justice as an apolitical or nonpolitical law enforcement 
organization is important?
    General Barr. It is critical----
    Senator Cornyn. And needed?
    General Barr. It is critical. And that is one of the 
reasons I am sitting here. I would like to help with that 
process.
    Senator Cornyn. Well, Mr. Barr, I think you are uniquely 
qualified to do that, and I wish you Godspeed.
    General Barr. Thank you, Senator.
    Senator Cornyn. It could not be more important.
    Thank you.
    Chairman Graham. Senator Durbin.
    Senator Durbin. Mr. Barr, we have never had a chance to 
meet, but I welcome you to this Committee.
    General Barr. Thank you.
    Senator Durbin. You seem like a rational person, and I 
would like to ask you a question. When you consider what Jeff 
Sessions went through as the Attorney General for President 
Donald Trump, where he was subjected to unrelenting criticism, 
primarily because, as a matter of conscience, he decided he had 
a conflict of interest and should remove himself from any 
decisions by the Special Counsel concerning the Russia 
investigation; when you consider that this President has lashed 
out on a personal basis against Federal Judges who ruled 
against his administration; when you consider the criticism 
which he has leveled at the chief law enforcement investigative 
agency, the Department of Justice, the FBI, as well as our 
intelligence agencies; when you see the exit lanes glutted of 
those leaving the White House at every single level, why do you 
want this job?
    General Barr. Well, because I love the Department and all 
its components, including the FBI. I think they are critical 
institutions that are essential to preserving the rule of law, 
which is the heartbeat of this country. And I would like to 
think that there was bipartisan consensus when I was last in 
this position that I acted with independence and 
professionalism and integrity, and I had very strong and 
productive relationships across the aisle, which were 
important, I think, to trying to get some things done.
    And I feel that I am in a position in life where I can 
provide the leadership necessary to protect the independence 
and the reputation of the Department and serve in this 
administration.
    Senator Durbin. A number of my colleagues on both sides 
have asked, and I will bet you will hear more, questions along 
the line of what would be your breaking point? When would you 
pick up and leave? When is your Jim Mattis moment, when the 
President has asked you to do something which you think is 
inconsistent with your oath? Does that not give you some pause 
as you embark on this journey?
    General Barr. It might give me pause if I was 45 or 50 
years old, but it does not give me pause right now. Because I 
had very good life--I have a very good life. I love it. But I 
also want to help in this circumstance, and I am not going to 
do anything that I think is wrong. And I will not be bullied 
into doing anything I think is wrong by anybody, whether it be 
editorial boards or Congress or the President. I am going to do 
what I think is right.
    Senator Durbin. You have a very nice family behind you.
    General Barr. Thank you.
    Senator Durbin. I am glad you introduced them.
    General Barr. Thank you, Senator.
    Senator Durbin. And I do not want to give your grandson any 
career advice. He has received quite a bit this morning 
already. But he ought to consider, at least, for some balance, 
being a Public Defender.
    [Laughter.]
    Senator Durbin. One of the things that you alluded to as a 
major issue of concern is immigration, and I am glad you said 
it. Our Government is shut down now over the issues of border 
security and immigration. And the Attorney General plays a 
central role, which many people do not know, as they look at 
the Department of Homeland Security for most of the action on 
the issue of immigration.
    I was surprised at the exit interview by General Kelly when 
he said, and I am paraphrasing, that Attorney General Sessions 
was responsible for the zero-tolerance policy that was 
announced in mid 2018. And that it was because of that policy, 
that was one of the reasons why he was being asked to leave. 
That is the first I had ever heard.
    Are you familiar with the zero-tolerance policy?
    General Barr. Generally, Senator, yes.
    Senator Durbin. I can tell you that it was an effort to 
take escorted children--infants, toddlers, and children--and 
forcibly remove them from their parents at the border. This 
policy by our Government separated up to 2,800 of those 
children and put them into the system, the same system as 
unaccompanied children. The results were horrible. I saw them 
firsthand.
    And you have alluded in your opening statement to stopping 
people from crashing through the border, breaking and flouting 
the laws. Those young children, for the most part, were being 
brought to this country by their parents to seek asylum. You 
can present yourself at America's border and seek asylum 
legally, can you not?
    General Barr. Yes, Senator, you can.
    Senator Durbin. So separating those children from their 
parents in an effort, as Attorney General Sessions explained, 
to get tough with families presenting themselves at the border, 
was a policy decision on his part. Do you agree with that 
policy decision?
    General Barr. Well, I am not sure I know all the details 
because one of the disadvantages I have is I am not in the 
Department and do not really have the same backing I did in 
terms of information that I had last time. But my understanding 
is that DHS makes the decision as to who they are going to 
apprehend and hold.
    Now you can claim asylum, but that does not mean you can 
waltz into the country freely.
    Senator Durbin. No, of course not.
    General Barr. Okay? And you have to be processed. And my 
understanding is a majority of people do not qualify for 
asylum. But DHS makes the decision who to hold and charge with 
the crime of illegal entry, and then they refer it to the 
Department of Justice. And I believe the Department's policy, 
when they say--when the Department says zero tolerance, they 
are saying whatever DHS refers to us in the way of illegal 
entry prosecutions we will prosecute.
    Now, now what is being done, because I think the 
administration has changed the policy, is DHS is not referring 
for prosecution family units that would lead to the separation 
of children from the family unit.
    Senator Durbin. It is true that the President and the 
administration abandoned the policy after there was a public 
reaction to the separation of these children.
    I am concerned--I want to go back to your University of 
Virginia Miller Center speech, which is----
    General Barr. It is a gem, is it not?
    [Laughter.]
    Senator Durbin. It is a classic. And it goes back many 
years. But you described your previous tenure as the Attorney 
General, and you said, ``After being appointed, I quickly 
developed some initiatives on the immigration issue that would 
create more border patrols, change immigration rules, 
streamline processing. It would, furthermore, put the Bush 
campaign ahead of the Democrats on the immigration issue, which 
I saw as extremely important in 1992. I felt that a strong 
policy on immigration was necessary for the President to carry 
California, a key State in the election.''
    That is a pretty revealing statement about a political 
agenda.
    General Barr. Yes, and there is nothing wrong with that. 
Because as I have said, you know, the Attorney--and I have 
spoken on this a number of times. There are sort of three roles 
the Attorney General plays.
    One is, the enforcer of the law. In that, the role of the 
Attorney General is to keep the enforcement process sacrosanct 
from political influence.
    The second one is, as legal adviser, and that is in the 
Judiciary Act of 1789, legal adviser to the President and the 
Cabinet. And there, I say the Attorney General's role is to 
provide, you know, unvarnished, straight from the shoulder 
legal advice as to what the Attorney General believes is the 
right answer under the law.
    And then the third role is, the policy role, which is law 
enforcement policy, which includes immigration policy. And 
there you are a political subordinate of the President, and it 
is okay to propose policies that are politically advantageous.
    Senator Durbin. Well----
    General Barr. But I have to say that--you know, that was 
casual conversation. The point was I was pursuing a strong 
immigration policy, even when I was Deputy, long before the 
election was on the horizon. And in traveling around the 
country, visiting the border, paying a lot of visits to 
California, I saw how important the issue was, and I thought 
the administration has to be more responsive to it. And yes, 
there was a political benefit to it.
    Senator Durbin. I just have a short time left. The 
Chairman, our new Chairman--congratulations--Graham noted 10 
years of work by a number of us on this Committee on a 
bipartisan basis to deal with criminal sentencing and prison 
reform. And the First Step Act signed by the President around 
Christmas, I think, is a significant departure.
    I learned, as many have, that the approach, the ``get 
tough'' approach that we imposed with 100-to-1 sentencing 
disparity between crack and powder did not work. Did not work. 
The number of drugs being sold on the street increased. The 
price of the drugs went down. The people being incarcerated 
went up dramatically.
    And we learned the hard way that was not the way to deal 
with the issue, and now we are trying to clean up 10 years 
later, more--25 years later, from the 100-to-1 disparity. I 
voted the wrong way on 100-to-1. Now I know, in retrospect.
    You have made some hardline statements about this issue and 
criminal sentencing in the past, and many of us believe on a 
bipartisan basis we have got to look at this anew and not 
repeat these mistakes again. So I would like to hear your 
assurance that you are--you have learned, as I have, that there 
is a better way, could be a more effective way. And that as 
Attorney General, you will help us implement the First Step Act 
and design the second step?
    General Barr. Absolutely, Senator. From my perspective, the 
very draconian penalties on crack were put into place initially 
because when the crack epidemic first hit, it was like nuclear 
weapons going off in the inner city. And as I think you will 
recall, a lot of the community leaders at that time were saying 
you have got to--you know, this is killing us. You have to do 
something.
    So the initial reaction of draconian penalties was 
actually, you know, trying to help those communities. And over 
time and now the same leaders are saying to us this has been 
devastating. You know, generation after generation of our 
people are being incarcerated--have been incarcerated and lost 
their lives because of this, and you have to change the 
policies. And I think that that is--we should listen to the 
same people we were listening to before.
    I supported generally strong penalties on drugs because--
not just crack--because I felt the money involved was so high 
that, you know, you needed something to counteract that. I also 
said repeatedly, over the years of the drug war, that I felt 
that the head of the snake is outside the country. And the 
place to fight this aggressively is at the source more than on 
the street corner, and I used to say we could, you know, stack 
up generation after generation of people in prison, and it will 
still keep on coming.
    And so I always felt that--and I support an adjustment to 
these sentences and the safety valve and so forth. To me, the 
corollary is we have to really start thinking and using all our 
national forms of power in the sense of our diplomacy and our, 
you know, economic leverage and so forth to get better results 
overseas.
    So, for example, now fentanyl is sort of the new crack. 
Fentanyl and fentanyl analogs are sort of the new crack, and 
they are coming in from China. So----
    Senator Durbin. Across the Mexican border.
    General Barr. Correct. Correct.
    Senator Durbin. At ports of entry, 90 percent.
    General Barr. So that is a long-winded answer to your 
question, which is I understand that things have changed since 
1992. I--you know, I held on a little bit longer to keeping 
strong sentences maybe than others. Part of that was I was not 
involved in the business anymore. I was not at Justice 
Department looking at reports and studies, learning about 
different things in the country. I was, you know, arguing with 
the FCC about telecommunications rules.
    So----
    Chairman Graham. Mr. Barr?
    General Barr. Yes?
    Chairman Graham. That was a great answer, and it was long-
winded.
    General Barr. Okay.
    [Laughter.]
    Chairman Graham. Senator Lee.
    Senator Lee. Mr. Barr----
    Chairman Graham. After this, we will break until 12:15 p.m. 
for lunch and a comfort break.
    Senator Lee. Mr. Barr, thank you very much for your 
willingness to spend time with us today and your willingness to 
be considered for this important position yet again.
    General Barr. Thank you.
    Senator Lee. Great to have your family here. And I cannot 
help but comment. A lot of people have talked about Liam today. 
Probably more than any of his other friends or classmates, 
people of his age, cohort, people are thinking about what he 
might do for a living.
    Unless some of my colleagues who have suggested medicine, I 
want to just sort of suggest what I suggested to my three 
children, which is that I am not going to push them into any 
career choice, which in our family means that you could be any 
kind of lawyer you want.
    [Laughter.]
    Senator Lee. Just keep that in mind with Liam.
    I would like to talk to you first about civil asset 
forfeiture. As you know, civil forfeiture and criminal 
forfeiture are two very different things, two very different 
species of Government taking someone's asset. With criminal 
forfeiture, of course, the Government's ability to take 
something away is predicated upon a conviction of a crime. With 
civil asset forfeiture, that happens even in the absence of a 
conviction.
    There are some serious questions, of course, regarding the 
legality and the constitutionality of civil asset forfeiture, 
and Justice Thomas, for example, has questioned whether some of 
these practices are constitutional. I was encouraged to note 
that in your testimony in 1991, you identified this as an 
issue.
    When you testified before this Committee, you criticized 
what you described as the ``speed trap mentality of 
forfeiture.'' Your point was that, ``Agencies should not feel 
that just because they seize money, they are going to get the 
money.''
    Now since 1991, I have seen our Government, our law 
enforcement agencies actually move more toward the sort of 
speed trap mentality rather than away from it, as many of us 
would have preferred. Too often, law enforcement agencies have 
too strong an incentive to use civil asset forfeiture in a way 
that lines their own coffers outside of the relevant 
appropriations process.
    So let me just ask you the question. Do you think that the 
speed trap mentality is a problem? And if so, is that something 
that you will work to address within the Department of Justice, 
if you are confirmed?
    General Barr. Yes, I think constant vigilance is necessary 
because, you know, there are incentives there that should be of 
concern in administering the law. And I understand that there 
are some, you know, people who are concerned about it, have 
some horror stories. The people at the Justice Department have 
been trying to clamp down. I think Attorney General Sessions 
put out some guidelines that were supposed to address that.
    I have not gotten into it myself. I plan to get into it and 
see exactly, you know, what the horror stories are, where the 
problems and potential abuses are, and also how--whether 
Attorney General Sessions' guidelines are providing sufficient 
protection.
    At the same time, you know, I think it is a valuable tool 
in law enforcement and the State and local law enforcement 
officer, our partners, it is very important to them. So I want 
to make sure we strike the right balance. And once I have a 
chance to review it, I would be glad to come up and talk to you 
about that.
    Senator Lee. Thank you. I appreciate that.
    I understand that it is a tool that many consider valuable 
and a--but a tool that can be considered valuable for some of 
those same reasons. Something that is considered valuable to 
the Government can in many instances jeopardize an individual 
right that is protected under the Constitution. We have got to 
be careful of that.
    You refer to the partnership that sometimes takes place 
between State and Federal authorities. This is sometimes where 
we see it abused. In the case of a procedure known as equitable 
sharing where sometimes State law might prohibit the use of 
civil asset forfeiture under certain circumstances, and in 
those circumstances, those State law enforcement agencies might 
work with Federal law enforcement for the specific purpose of 
evading State law that would otherwise prohibit that. So I hope 
that is something you will look into as well.
    Let us talk about antitrust for a minute. Along with 
Senator Klobuchar, I chair the Antitrust Subcommittee. And, as 
I am sure you are aware, there are a growing number of people 
who take the position, who embrace the viewpoint that we should 
use antitrust law to address a whole host of social and 
economic harms to--among other things, to ensure that companies 
respect the First Amendment or to prevent large companies from 
becoming too big or to shape labor markets or conform 
industries to a particular aesthetic or achieve some other 
broadly defined social interest.
    I would like to know what your view is on this. Are you a 
believer in the sort of ``big is bad'' mentality, or do you 
gravitate more toward the idea that our antitrust laws are 
there to protect consumers and should focus on consumer welfare 
and prices that consumers face?
    General Barr. Yes. I mean, generally, that is where I 
stand, which is the purpose of the antitrust laws, obviously, 
is to protect competition. And that competition--it is 
competition that ultimately redounds to consumer benefits.
    At the same time, I am sort of interested in stepping back 
and reassessing or learning more about how the Antitrust 
Division has been functioning and what their priorities are. I 
do not think big is necessarily bad, but I think a lot of 
people wonder how such huge behemoths that now exist in Silicon 
Valley have taken shape under the nose of the antitrust 
enforcers.
    And you know, you can win that place in the marketplace 
without violating the antitrust laws, but I want to find out 
more about that dynamic.
    Senator Lee. Right. Yes, and in some circumstances, a 
company that becomes too big ends up behaving in a way and 
exerting market dominance in a way that impairs consumer 
welfare anti-competitively. In other circumstances, 
consolidation can bring about lower prices and increase 
competition. I assume you would not disagree with either of 
those statements?
    General Barr. No, Senator.
    Senator Lee. As you know, and as several of my colleagues 
have mentioned, President Trump signed into law the First Step 
Act about a month ago. This is legislation that I applaud and 
legislation that I have been working on in one way or another 
for 8 years and was pleased to team up with Senator Grassley, 
Senator Durbin, Senator Booker, and others to work on that over 
the course of many years.
    As you know, the Attorney General has an important role 
under the First Step Act in appointing members to something 
called the Independent Review Commission. That Independent 
Review Commission will make recommendations concerning which 
offenders might be eligible for earned credits under this 
legislation and which programs will be approved.
    When we drafted this legislation, there were some Members 
who were concerned that whoever was the Attorney General at the 
time of this law's passage and implementation might be able to 
undermine the effectiveness of this law by appointing members 
who did not agree with or believe in the objectives of the 
bill. So will you commit to me, Mr. Barr, that you will appoint 
people to that Independent Review Commission who are honest 
brokers to decide which offenders should be eligible and which 
programs should be eligible to participate?
    General Barr. Yes, Senator.
    Senator Lee. Thank you.
    Are you familiar with the Ashcroft-Sessions policy, namely 
the policy requiring prosecutors to charge the most significant 
readily provable offense?
    General Barr. Yes, Senator.
    Senator Lee. Tell me how that should best be balanced out 
with the discretion of a prosecutor, most frequently, of 
course, with the discretion of a local U.S. Attorney's Office.
    General Barr. Well, I was going to say I think the best way 
of balancing it out is to have a supervisor who is able to 
approve departures from that policy based on the specific 
circumstances. And there are countless different, you know, 
permutations of facts that might justify a departure from it. 
So I think it is best handled by supervisory people, but I also 
think it has to be looked at centrally.
    I am not saying that each case has to be approved 
centrally, but there has to be some monitoring of what is going 
on because, as you know, one of the things that led to the 
sentencing guidelines was, you know, just difference--big 
differences in the way the laws were being applied and enforced 
around the country. And I think we need to try to strive for as 
much uniformity as we can.
    Senator Lee. But you intend to continue that policy?
    General Barr. Yes.
    Senator Lee. And----
    General Barr. Unless someone tells me a good reason not to.
    Senator Lee [continuing]. If I'm understanding you 
correctly, you are saying that if you do follow it, you will 
defer to the judgment of the office in question in the case of 
determining when to not charge the most serious readily 
provable offense?
    General Barr. No. I mean I will not defer to my--I mean, I 
am not going to say, yes, I will defer to my subordinate. I 
mean, usually you do defer to your subordinates. But there 
might be a case I disagree with, and I will assert myself on 
it.
    Senator Lee. Okay. I see my time has expired.
    Thank you, sir.
    Chairman Graham. Thanks, Senator Lee.
    We will take a recess to 12:15 p.m. and start with Senator 
Whitehouse when we come back.
    [Whereupon the Committee was recessed and reconvened.]
    Chairman Graham. The hearing will come to order, and I 
recognize Senator Whitehouse.
    Thank you, Mr. Barr.
    Senator Whitehouse. Thank you, Chairman. This is my first 
chance at a Committee hearing to congratulate you on taking the 
gavel here. We worked well together when you were Chairman of 
the Crime and Terrorism Subcommittee, and I hope that that will 
continue here.
    Mr. Barr, welcome.
    Did you make it a condition of taking this job that Rod 
Rosenstein had to go? Just to be clear, so we are not bandying 
words here, did you request or signal or otherwise communicate 
in any way that you wanted Rod Rosenstein to go?
    General Barr. No. The President said that the decision on 
the Deputy was mine. Anything I wanted to do on the Deputy was 
fine.
    Senator Whitehouse. So we will find no William Barr 
fingerprints on Rosenstein's departure.
    General Barr. No. Rod and I have been talking, you know, 
about his plans. He told me that he viewed it as a 2-year stint 
and would like to use, if I am confirmed, my coming in as an 
occasion to leave. But we talked about the need for a 
transition, and I asked him if he would stay for a while, and 
he said he would. And so, as of right now, I would say there is 
no--he has no concrete plans, I have no concrete plans in terms 
of his departure.
    Senator Whitehouse. And you----
    General Barr. We are going to sort of play it by ear and 
see what makes sense.
    Senator Whitehouse. And you have not undertaken to run him 
out in any way.
    General Barr. Absolutely not.
    Senator Whitehouse. That leaves an opening at the DAG 
position whenever you work this out. Can you tell us, since 
Attorneys General are very often defined by the immediate 
appointments around them, at chief of staff, DAG, criminal 
chief, what are the characteristics and qualifications that you 
will seek as you fill particularly that position, but all three 
that I mentioned?
    General Barr. I am sorry, the Deputy and what was the other 
one?
    Senator Whitehouse. Deputy, chief of staff, and criminal 
chief.
    General Barr. There is already a criminal chief.
    Senator Whitehouse. I know, yes. Already a Deputy Attorney 
General, but he is leaving.
    General Barr. Well, for a Deputy, I would like someone who 
is a really good manager and who has good management experience 
running Government programs. And I want a first-rate lawyer and 
someone I--whose judgment I feel comfortable in.
    Senator Whitehouse. Experience in the Department?
    General Barr. Not necessarily, but experience in Government 
at a high level.
    Senator Whitehouse. When we met, I gave you a letter that 
you have seen just so none of these questions would be a 
surprise, so I hope it is no surprise to you that I am going 
through some of them. If you are confirmed, what will be the 
Department's rule regarding communications between White House 
and Department of Justice officials regarding criminal and 
investigative matters? Who at DOJ will be allowed to have those 
conversations with the White House, and who at the White House 
will you entertain those conversations from at DOJ?
    General Barr. So, you know, I have looked through the 
existing regime, and my instinct is to keep it, maybe even 
tighten it up a little bit more. I remember when George W. 
Bush's administration was coming in, my advice was start tight, 
and then as you realize who has judgment and so forth----
    Senator Whitehouse. Yes.
    General Barr [continuing]. You can go back to a----
    Senator Whitehouse. They went the other way, and it was a 
bad day for Attorney General Gonzales in the hearing room when 
that was brought to his attention. What is your understanding 
right now of who at the Department of Justice is authorized to 
have communications with the White House regarding 
investigations?
    General Barr. Well, it depends--it depends what it is, but 
on criminal matters I would just have the AG and the Deputy.
    Senator Whitehouse. And what do you think the rule is now 
in the Department?
    General Barr. I think that is what it is.
    Senator Whitehouse. Okay. So if the reports are true that 
as chief of staff, Mr. Whitaker was involved in conversations 
with the White House about bringing criminal investigations 
against the President's political enemies, that would not be 
consistent with your understanding of that policy.
    General Barr. Well, it would depend upon, you know, what 
his understanding is with the Attorney General. I mean, the----
    Senator Whitehouse. Well, the Attorney General was recused, 
so hard to step into the shoes of a recused Attorney General 
matter, right?
    General Barr. Well, I do not know what the communication is 
related to. I am not really sure what you are talking about.
    Senator Whitehouse. Okay. I hope you will become sure when 
you get there because there is a fair amount of, I think, 
questionable behavior that has gone on that does not reflect 
well on the Department that I hope will get your attention. I 
also asked you about the Special Counsel investigation and to 
give us a clear exposition of how that memo came to be: who you 
talked to, when, who was involved in it. There were a number of 
questions in that letter that at this point you have not 
answered.
    You have, I gather, told the Chairman the names of some 
dozen or so people whom you contacted, as I understand it, once 
the memo was written, but it is not clear. Do you have any 
objection to answering the questions that I wrote as questions 
for the record so that the Committee can understand who you 
worked with, who you talked with about this idea, who you 
worked with in preparing the memo, who helped you with things 
like citations that people at your level do not often do 
yourselves, and where it was circulated and vetted, and what 
edits were made, and so forth?
    General Barr. No, I have no objection to that.
    Senator Whitehouse. Great.
    [The information appears as a submission for the record.]
    General Barr. But I----
    Senator Whitehouse. We will expect you----
    General Barr. Just to--just to be clear, no one helped me 
write the memo, and I know how to do legal citations, which I 
do.
    Senator Whitehouse. Well, a lot of people know how, but 
that does not mean they always do it.
    General Barr. I do it. I did.
    Senator Whitehouse. Okay.
    General Barr. Okay.
    Senator Whitehouse. You might want to get out of that 
habit.
    [Laughter.]
    Senator Whitehouse. You may have other things to look at.
    General Barr. I'd like to have some fun in life.
    Senator Whitehouse. If you think citations are fun, you are 
going to----
    [Laughter.]
    Senator Whitehouse. You are not going to have the problem 
some other nominees have had. My letter to you also asked about 
the Bork Order that set out a series of protections for the 
then-Independent Counsel operation. Do you have any objection 
to any of those rules or principles applying, and should we see 
those rules and principles, which I gave to you then, as being 
more or less adopted into the statement that you made earlier 
about your protection of the Mueller investigation from 
political interference?
    General Barr. You know, I looked at them. I think the 
current regime is what I am happy with. In other words, I would 
not--I would not change the current rule that we are--those 
rules were put in place at the end of the Clinton 
administration, and sort of, I think, reflects the back-on-back 
experience of the Reagan/Bush years and then the Clinton years, 
and then sort of Justice Department's thinking under the 
Clinton administration as to how to balance all the equities. 
And I think it is working well. So that is--that is----
    Senator Whitehouse. Well, if there is anything that you 
would disagree with in the so-called Bork Rules, I would ask 
you to explain that in a----
    General Barr. In a follow-up?
    Senator Whitehouse. In a follow-up.
    General Barr. Okay. Okay.
    [The information appears as a submission for the record.]
    Senator Whitehouse. Now, also in my letter to you, I 
expressed my concern that Mr. Whitaker was paid $1.2 million 
through what I consider to be a front group that has very 
little reality to it, and that the funding that came to that 
front group to pay him the million dollars came through another 
entity that is essentially an identity-laundering operation 
that has no independent business operation. And the result of 
all of this is that somebody out there arranged to get over a 
million dollars to Mr. Whitaker, and we have no idea who that 
somebody is.
    And as I mentioned to you in our conversation, I do not see 
how the Department can do a proper recusal and conflict 
analysis for somebody when the player who delivered the million 
dollars is still hidden behind the curtain. Is that something 
that you will help us fix?
    General Barr. Well, first, you know, I do not think there 
was anything wrong done or, at least----
    Senator Whitehouse. Well, we do not know that yet because 
we do not know what the facts are.
    General Barr. Yes. Well, I am just saying just the facts 
that you have said, you know, does not necessarily mean there 
was anything wrong done. What you are saying is that if the 
ultimate financial backers are behind some entity and the 
current ethics laws require only the reporting of the entity, 
you are not really sure where the money is coming from. And 
that--you know, I think that that raises a very interesting 
point that, I think, I would like to review with the ethics 
people and experts and even OGE to talk about that because I--
the more I thought about it, the more I thought that the trick 
is going to be deciding what kind of entities and how far back 
you go because that can be said of a lot of different kinds of 
entities.
    Senator Whitehouse. Yes.
    General Barr. And sometimes you have first----
    Senator Whitehouse. I would submit to you that if the 
Department's money laundering folks looked at this operation, 
they would see it as almost amateurish and simple and something 
quite easy to penetrate, and it would be quite easy simply to 
ask Mr. Whitaker what he knew, to ask whoever is still at FACT, 
if it even has any existence with Whitaker's departure, what 
they knew, and to ask Donor's Trust to cough up the identity of 
the donor, and then you can do your homework. And if they 
refuse to do that, nothing guarantees anybody a job at the 
highest levels of Government who is not willing to provide 
those disclosures.
    General Barr. Well, as I said, you know, one of the--my 
first consideration always is, where do you--where do you draw 
the line, and also what are the implications for other kinds of 
entities because, you know, there are membership groups and 
First Amendment interests----
    Senator Whitehouse. Yes.
    General Barr [continuing]. And you do not want to disclose 
memberships and who support----
    Senator Whitehouse. Yes. My point was, I think, if your 
money laundering folks took a look at that, they would be able 
to help show that this is something that looks a little bit 
different than that. My time has expired and see you in the 
second round. Thank you.
    Senator Grassley [presiding]. Senator Sasse.
    Senator Sasse. I believe Senator Ernst is filling in for 
Senator Cruz next. Thank you, Mr. Chairman.
    Senator Grassley. Okay with me.
    Senator Ernst. Thank you.
    Mr. Barr, I want to commend you for stepping forward. Thank 
you very much. And I want to say thank you to your family as 
well for being so supportive in this endeavor. I am really 
pleased to have all of you here, so thank you for doing that.
    Mr. Barr, later this month I do plan on reintroducing 
Sarah's Law, which is a bill that would require the detention 
of illegal aliens who have been charged with a crime that 
resulted in the death or serious injury, bodily injury, of 
another person. Now, that sounds pretty common sense, but I 
will give you a little background.
    This bill is named after Sarah Root. She was a resident of 
Council Bluffs, Iowa, and Sarah was killed by an illegal alien 
who was driving drunk. And that alien had a blood alcohol 
content of more than 3 times the legal limit, yet he was 
allowed to post bond and has not been seen since. It is 
important to me that Congress act to close these loopholes in 
our immigration system and do better to enforce the laws that 
are already existing on the books. And I know that Attorney 
General Sessions, he had a real passion for this, and he had a 
strong record of trying to make sure that we are correcting 
wrongs in the system.
    How do you, as Attorney General, plan on making sure that 
we are restoring the rule of law in our immigration system?
    General Barr. Well, first, that sounds like a very 
commonsensical bill----
    Senator Ernst. Yes, thank you.
    General Barr [continuing]. And something that I would 
certainly be inclined to support. I think one of our major 
problems, as the--as the President says, is that the 
immigration laws just have to be changed, and to provide 
sensible and commonsense ways of processing immigration and 
claims of asylum. Right now, this goes--this goes all the way--
this goes back 27 years. We were facing exactly the same kind 
of problem, maybe on a smaller scale.
    But Congress has--where people are abusing the asylum 
system, coming in, they are being coached as to what to say, 
and then once they come in, we do not have the facilities to 
keep them, and they are released into the population. And this 
was a big abuse, as I say, 27 years ago, and it is getting--and 
it has gotten worse. So we need to change the laws to stop that 
kind of abuse and enable us to run a lawful immigration system 
where we process people into the country who are entitled to 
come into the country, and we keep out those that are flouting 
our laws. And it is long overdue, and the President is right 
that until we are able to do that, we are just not going to be 
able to get control over illegal immigration. And it creates a 
lot of unsafe conditions for many people.
    Senator Ernst. Absolutely, and I appreciate your thoughts 
on that. This is a very important issue. I think all of us 
understand that immigration is so vital to our country, but it 
has to be done in the right manner. And for those that are 
causing bodily injury and death to those here in the United 
States, we want to make sure that they are brought to justice. 
And in this case, that illegal--undocumented was not brought to 
justice, and I feel a lot of empathy for that family.
    I will move into another situation that is really important 
to Iowans. According to the U.S. Department of Health and Human 
Services, after drug dealing, human trafficking is tied with--
arms dealing is the second-largest criminal industry in the 
world, and it generates about $32 billion each year. The 
Department of Justice has said that 83 percent of sex 
trafficking victims identified in the United States are U.S. 
citizens with the average age of a victim being between 12 and 
14 years. Twelve and 14 years. Since 2007, there have been over 
300 cases of human trafficking in Iowa alone, and Iowa is a 
very rural State. Three hundred cases. That is very concerning 
to my constituents back home.
    What do you see as the main contributor to human 
trafficking here in the United States, and then how can the DOJ 
impact and combat and prevent those heinous crimes?
    General Barr. This is a--this is an area that, frankly, was 
not very much on the radar scope of the Department of Justice 
when I was last there. I know it is--and it is an abhorrent 
area of criminality that I know the Department and Attorney 
General Sessions have been focused on and have put in place 
various programs and entities within the Department to focus on 
it and work with State and local law enforcement on it. I am 
not sure what the--what the major contributor to it is. It is 
an area that I am going to have to study when I get into the 
Department and see what are the factors contributing to it.
    Senator Ernst. Okay. I appreciate that, and as I mentioned 
in my question as well, drugs and drug trafficking, that is 
also a very, very big industry. And in Fiscal Year 2017, 65 
percent of drug-related prison sentences in Iowa were related 
to methamphetamine. We talk a lot about the opioid crisis, but 
in Iowa it still is meth. In 2016, Iowa reported over 1,500 
founded child abuse reports relating methamphetamine being 
found in the child's body. According to the DEA, most of the 
meth available in the United States is being produced in Mexico 
and smuggled across our southern border.
    How do you see the situation at our southern border 
contributing to the prevalence of controlled substance use here 
in the United States?
    General Barr. Well, as been pointed out earlier, it is the 
major avenue by which drugs come into the country. Heroin, 
fentanyl, all the serious drugs are coming across that border. 
And, again, I feel it is a critical part of border security 
that we--that we need to have barriers on the border. We need a 
barrier system on the border to get control over the border. 
And I think--obviously there are some places that more of the 
traffic comes over than others, but unless you have a system 
across the border, you are not going to be able to deal with it 
because you will just displace it. If you build a barrier in 
one place, you will just displace it to another.
    So we need a barrier system across the border to--part of 
that is illegal immigration, but a big part of it also is 
preventing the influx of drugs.
    Senator Ernst. Absolutely. And you stated earlier that 
really, the head of the snake lies outside of the United 
States. Is there a way that DOJ can be working with additional 
ideas, methodology with other departments that you might think 
would help?
    General Barr. Yes. You know, this is an area--again, 
because I am out of the Government, I do not know how it is 
functioning, how the drug war is being coordinated. But I think 
Justice can play a big role in pushing for partners like the 
State Department, Defense Department, the intelligence 
agencies, and so forth to help deal with this. It is not, to 
me, not just a law enforcement problem. It is a national 
security problem.
    Senator Ernst. Yes. And you mentioned, as well, the 
situation on the border: where we do need barriers in place to 
control the influx of, whether it is drugs, human trafficking, 
gun trafficking, so forth. Do you believe that sanctuary cities 
play a role in harboring some of those activities?
    General Barr. Yes, I do. I think there are a number of sort 
of--you know, of factors that have a hydraulic effect in that 
they pull people into the United States or induce them to 
make--you know, take the hazards of coming into the United 
States and coming up hundreds of miles through Mexico and so 
forth. And things like sanctuary cities, where they feel that 
they will be able to come up and hide and be protected is one 
of those factors that I think is irresponsible because it 
attracts the illegal aliens coming in. And obviously I think 
that the main problem with sanctuary cities is that they are 
not giving us information about criminals that they have in 
their custody.
    This is not chasing after, you know, families or anything 
like that. This is going after criminals who the State and 
local law enforcement have in custody and not allowing us to 
take custody of them and get them out of the country. That is 
the problem with sanctuary cities.
    Senator Ernst. Correct, which could be the situation with 
Edwin Mejia, who killed Sarah Root. So we would love to see 
that young man brought to justice. Thank you very much for your 
time.
    Chairman Graham [presiding]. Thank you.
    Just to follow up on that with--Senator Klobuchar. Do not 
count this against her time.
    So you are saying that you want access to people who have 
committed crimes or are accused of committing crimes outside of 
a status violation. Is that what----
    General Barr. That is right, Senator.
    Chairman Graham. Senator Klobuchar.
    Senator Klobuchar. Thank you.
    Thank you, Mr. Barr. I take it as a positive that your 
grandson has gotten out a pen and a pad of paper to take notes 
during my questions.
    [Laughter.]
    Senator Klobuchar. I am also impressed by your daughters 
and that they all chose to go into public service. But as you 
know, employees of the Justice Department now are either 
furloughed or they are working without pay. And I have talked 
to a number of them at home, and it is an outrage. Very 
briefly, what do you have to say to them?
    General Barr. I would--I would like to see a deal reached 
whereby Congress recognizes that it is imperative to have 
border security, and that part of that border security as a 
commonsense matter needs barriers.
    Senator Klobuchar. And you are aware that in the 
comprehensive Senate immigration bill that we passed, there was 
literally billions of dollars for border security back in 2013?
    General Barr. I am generally aware of that.
    Senator Klobuchar. And that, also--we had an agreement 
earlier last year which would allow the DREAMers to stay 
legally that also had money for border security?
    General Barr. The point is, we need money right now for 
border security----
    Senator Klobuchar. Yes, but we have----
    General Barr [continuing]. Including a--including barriers, 
and walls, and slats, and other things.
    Senator Klobuchar. Yes.
    General Barr. Anything that makes sense in different--in 
different areas of the border.
    Senator Klobuchar. Okay. In different areas. That is a good 
point. So President George H.W. Bush said back in 1980 that he 
did not want to see 6- and 8-year-old kids being made to feel 
that they are living outside the law, and you were his Attorney 
General. He also said that immigration is not just a link to 
America's past, but it is a bridge to America's future. Do you 
agree with those statements?
    General Barr. Yes. I think--as I said, I think legal 
immigration has--we have a great system--I think it needs 
reforming, but legal immigration has been good for the United 
States. It has been great for the country.
    Senator Klobuchar. And that is why we were trying to work 
on that comprehensive reform. I want to just briefly turn to 
FBI leadership. The President has made statements accusing the 
FBI of making politically motivated decisions. Many of us up 
here and in the Senate have confidence in Director Wray and the 
leadership at the FBI and believe they can do their jobs 
without politics getting in the way. Do you agree with that?
    General Barr. I am looking--if I am confirmed, I am looking 
forward to getting to know Chris Wray. From what I know, I 
think very highly of him.
    Senator Klobuchar. Okay. Thank you. In the memo from back 
in June--the one comment that Senator Grassley made, he talked 
about how much the Mueller investigation was costing. And I 
actually did a little Googling here, and there was a CNBC 
report that it actually could bring in more money than it costs 
because of the wealthy people being prosecuted, that Manafort's 
assets could be well over $40 million. I do not know if that 
includes that ostrich jacket. But do you think that is possible 
based on your experience with white-collar crime?
    General Barr. I do not know enough about it.
    Senator Klobuchar. Okay. In your memo, you talked about the 
Comey decision, and you talked about obstruction of justice, 
and you already went over that, which I appreciate. You wrote 
on page 1 that a President persuading a person to commit 
perjury would be obstruction. Is that right?
    General Barr. Yes.
    Senator Klobuchar. Okay.
    General Barr. Well, you know, any person who persuades 
another----
    Senator Klobuchar. Any person.
    General Barr. Yes.
    Senator Klobuchar. Okay. You also said that a President or 
any person convincing a witness to change testimony would be 
obstruction. Is that right?
    General Barr. Yes.
    Senator Klobuchar. Okay. And on page 2, you said that a 
President deliberately impairing the integrity or availability 
of evidence would be an obstruction. Is that correct?
    General Barr. Yes.
    Senator Klobuchar. Okay. And so, what if a President told a 
witness not to cooperate with an investigation or hinted at a 
pardon?
    General Barr. You know, I would have to know the specific--
I would have to know the specific facts.
    Senator Klobuchar. Okay. And you wrote on page 1 that if a 
President knowingly destroys or alters evidence, that would be 
obstruction.
    General Barr. Yes.
    Senator Klobuchar. Okay. So, what if a President drafted a 
misleading statement to conceal the purpose of a meeting? Would 
that be obstruction?
    General Barr. Again, you know, I would have to know the--I 
would have to know the specifics.
    Senator Klobuchar. You would seek the advice of career 
ethics officials in the Department of Justice for any recusal, 
and I appreciate that. And you said in the past that you 
commended Attorney General Sessions for following the advice of 
those ethics lawyers, but you did not commit today to following 
that advice. Is that right?
    General Barr. No, I did not--I did not commend him for 
following the advice. As the Agency had, he makes his--he is 
the one responsible for making the recusal decision. I do not 
know why he said--locked himself into following the advice. 
That is an abdication of his own responsibility.
    Senator Klobuchar. So what did you think about what Acting 
Attorney General Whitaker did when he rejected the Justice 
Department's ethics advice to recuse himself out of an 
abundance of caution?
    General Barr. I have not seen the advice he got, and I do 
not know the specific facts. But an abundance of caution 
suggests that it could have gone either way.
    Senator Klobuchar. You have committed to recuse yourself 
from matters involving the law firm where you currently work. 
Are you aware of any of your firm's clients who are in any way 
connected to the Special Counsel's investigation?
    General Barr. I am not--I am not aware. You know, I--to 
tell the truth, I am Of Counsel there, and I have one client 
which I am representing, and I do not pay very much attention 
to what else is going on.
    Senator Klobuchar. Okay. Well, you can also supplement 
that.
    General Barr. Yes, I will supplement my answer.
    Senator Klobuchar. Okay. No problem.
    [The information appears as a submission for the record.]
    Senator Klobuchar. Will you commit to make public all of 
the report's conclusions--the Mueller report--even if some of 
the evidence supporting those conclusions cannot be made 
public?
    General Barr. You know, that certainly is my goal and 
intent. It is hard for me to conceive of a conclusion that 
would, you know, run afoul of the regs as currently written. 
But that is certainly my intent.
    Senator Klobuchar. Secure elections. You and I had a talk 
about that in my office. Do you think backup paper ballots are 
a good idea? This is a bill that Senator Lankford and I have 
introduced with Senator Graham and Senator Harris.
    General Barr. Yes, I do not know what is a good idea and 
what is a bad idea right now because I have not gotten into 
this area. But----
    Senator Klobuchar. Okay. Well, I will just tell you, backup 
paper ballots is a good idea.
    General Barr. Okay.
    Senator Klobuchar. And we can talk about it later as well 
as----
    General Barr. Yes.
    Senator Klobuchar. Audits, along the lines of voting, State 
election officials in North Carolina, as you know, contacted 
the Justice Department about the integrity of their elections. 
The Justice Department may have failed to take action in a 
timely manner. What steps would you take to make sure these 
failures do not occur again?
    General Barr. Not specifically with respect to North 
Carolina. You are talking generally.
    Senator Klobuchar. Yes.
    General Barr. Yes. Well, as I say, I want to make one of my 
priorities the integrity of elections. And so, this is not an 
area I have been involved with deeply before. And when I get to 
the Department if I am confirmed, I am going to start working 
with the people and making sure that those kinds of things do 
not happen.
    Senator Klobuchar. Part of this, of course, is also voting 
rights and our concern about some of the changes in Department 
policy. And I hope you will seriously look at that because the 
last thing we should be doing is suppressing voting, and that 
is what we have been seeing under this current administration. 
My dad was a reporter, so I grew up knowing the importance of a 
free press. We obviously have the tragic case of a journalist 
who worked right here at The Washington Post, Jamal Khashoggi, 
and it is a particular concern. So I want to ask you something 
I asked Attorney General Sessions. If you are confirmed, will 
the Justice Department jail reporters for doing their jobs?
    General Barr. I think that--you know, I know there are 
guidelines in place, and I can conceive of situations where, 
you know, as a--as a last resort and where a news organization 
has run through a red flag or something like that, knows that 
they're putting out stuff that will hurt the country. There 
might be a--there could be a situation where someone would be 
held in contempt, but----
    Senator Klobuchar. Well, Attorney General Sessions had said 
he was going to look at potentially changing those rules at one 
point, so I would like you to maybe respond in writing to this 
because that was very concerning.
    [The information appears as a submission for the record.]
    Senator Klobuchar. And last, when you and I were in my 
office, we talked about your work with Time Warner with this 
major merger on appeal from the Justice Department. And I just 
wanted you to commit today to me in the office that you would 
recuse yourself from any matters regarding that appeal.
    General Barr. Absolutely.
    Senator Klobuchar. Okay. And, as you know, you were on the 
board of Time Warner at the time, and you signed a sworn 
affidavit questioning whether the Justice Department's decision 
to block the merger was politically motivated, ``given''--and 
this is from the affidavit--``the President's prior public 
animus toward the merger.'' Are you talking here about his view 
on CNN? What did you mean by ``prior public animus''?
    General Barr. I am sorry. Could you repeat that?
    Senator Klobuchar. Sure. You were on the board of Time 
Warner, and you signed a sworn affidavit questioning whether 
the Justice Department's decision to block the merger was 
politically motivated, ``given the President's prior public 
animus toward the merger.'' And so, what did you mean by that?
    General Barr. I mean that the affidavit speaks for itself, 
and that at that meeting I was concerned that the Antitrust 
Division was not engaging with some of our arguments, and I got 
concerned that they were not taking the merits as seriously as 
I would hope they would. But I have no--I am not sure why they 
acted the way they did.
    Senator Klobuchar. Okay, very good. And I will ask you more 
on antitrust policy-wise in the second round, and I appreciated 
the discussion we had on that. It is very important. Thank you 
very much.
    General Barr. Okay.
    Chairman Graham. Thank you.
    Senator Hawley did a good thing by allowing Senator Ernst 
to go because no good deed goes unpunished around here, but you 
do have a credit with the Chairman, so I appreciate that.
    Senator Cruz, you are next.
    Senator Cruz. Thank you, Mr. Chairman.
    Thank you, Senator Hawley, as well, and welcome to the 
Committee.
    Welcome to all the new Members of the Committee.
    And congratulations, Mr. Chairman. We are looking forward 
to the Lindsay Graham Chairmanship of Judiciary, and I am sure 
if----
    Chairman Graham. They will make a movie about it, I am 
sure.
    Senator Cruz. I am certain whatever else happens, it will 
not be boring.
    Welcome, Mr. Barr. Congratulations on your nomination yet 
again. And let me say, thank you. You and I have visited before 
about this, but the past 2 years have been a difficult time at 
the Department of Justice, and you and I--and many on this 
Committee--hold the Justice Department in very high esteem, 
indeed, I would even say revere the Department and its century-
long tradition of enforcing the law without regard to party and 
without regard to partisanship, and I commend you for your 
willingness to go back and serve once again. I think that is a 
good step for the Department, and a good step for strengthening 
the Department.
    You know, I would note, 27 years ago, when you did this 
previously, when you were last nominated to be Attorney 
General, and I think you may have been about Liam's age at the 
time, it was a different time. Then-Chairman of the Judiciary 
Committee, Joe Biden, said at the time, that he found you to 
be, quote, ``honest,'' and that you, quote, ``understand and 
are committed to the dual responsibility of the office of the 
Attorney General.'' Chairman Biden also said, that, quote, 
``This commitment to the public interest above all else is a 
critical attribute in an Attorney General, and I will vote to 
confirm Mr. Barr.''
    Senator Ted Kennedy likewise noted your dedication to 
public service.
    Senator Fritz Hollings said, quote, ``Mr. Barr has a 
distinguished academic background, an impressive experience in 
the private sector, as well as in public service. Most 
important, Bill Barr is a known quantity. He has done a truly 
outstanding job as Deputy Attorney General for the last year-
and-a-half, during which time he has worked with many of us in 
this body, earning our respect for his professionalism and 
confidence.''
    And Senator Kohl said, that, quote, ``Your willingness to 
discuss the issues is a refreshing change in the confirmation 
process, and it would be wise of future nominees to follow Mr. 
Barr's example.''
    At that hearing, you were confirmed by this Committee 
unanimously, as you had been twice previously for senior 
appointments to the Department of Justice.
    Now, we all recognize that was a different time. I think, 
given the environment we are in now, few expect this Committee 
vote to be unanimous. But I would hope those voices from the 
past, from Democrats who were respected by Members of this 
Committee, will be heard today as well.
    One of the questions you were asked, if I might paraphrase, 
was why on earth would you take this job? And your answer, if I 
recall correctly, concerned your commitment both to the 
Department and the rule of law.
    Would you tell this Committee, in your judgment, why the 
rule of law matters? Why is that important?
    General Barr. Well, you know, as our Framers said in the 
Federalist Papers, the art of setting up a government is to 
have a government that is strong enough to perform the 
functions that the government has to perform while at the same 
time not being so strong that it can oppress its own people, 
and the rule of law ensures precisely that the Government does 
not oppress its own people.
    And when people are accused of wrongdoing, our system 
essentially gives them the benefit of the doubt and gives them 
rights to bring them up essentially to the same level as the 
Government, and the process we go through is there to ensure 
that justice is not arbitrary but it is done according to a set 
of rules, and the basic protection that we have is that the 
rule that applies to one applies to all. That, at the end of 
the day, is what keeps us all free. That is the protection of 
individual freedom.
    And to me, the rule of law is exactly that, that we do not 
allow special rules to go into effect for a particular 
individual. A rule has to be universalized. Anything we do 
against A has to be universalized across everyone who is 
similarly situated. That is our basic protection, and to me 
that is what the rule of law is.
    Senator Cruz. So, I do not want to see a Republican 
Department of Justice or a Democratic Department of Justice. I 
do not want to see a Republican FBI or a Democratic FBI. What 
we should see, what the American people have a right to see and 
a right to expect, is a Department of Justice that is committed 
to and faithful to the Constitution and the laws regardless of 
political party, and a corollary to that is a Department that 
is willing to hold anyone who commits criminal conduct 
accountable regardless of that individual's political party or 
whatever partisan interest there might be. Would you agree with 
that characterization?
    General Barr. Yes, Senator.
    Senator Cruz. I would note, as well, during the previous 
administration there was concern by many--including me--on this 
Committee, that the previous administration, and in particular 
the IRS, had targeted individual citizens and citizen groups 
for exercising their First Amendment rights and had abused its 
power in doing so.
    In the current Justice Department, I have been dissatisfied 
with the degree of scrutiny they have given to that potential 
abuse of power, and I am going to ask you going forward, if you 
are confirmed, to examine that conduct and ensure that if laws 
were broken, that individuals are held accountable.
    Let me shift to a different topic. One of the most 
important safeguards of our liberties is the Bill of Rights, 
and the Attorney General has a unique responsibility defending 
the Constitution. Can you share for this Committee, in your 
view, the importance of free speech, of the protections that 
the First Amendment provides to Americans to speak, and even to 
speak on unpopular or politically disfavored topics?
    General Barr. I think free speech is at the core of our 
system because we believe in the democratic process and power 
shifting through the processes of voting by an informed 
electorate, and free speech is foundational to the ability to 
have a democratic process. The Framers, I think, believed that 
the dialectic, the clashing of ideas in the public marketplace, 
is the way to arrive at the truth, and that is one function.
    Another function of free speech is that it is the 
substitute for other means of settling differences. In some 
ways it is a safety valve. People are allowed to speak their 
mind and persuade their neighbors of their position, and I 
think that performs a very important function in keeping the 
peace within a community. And if speech is suppressed, it can 
lead to the building up of pressures within society that 
sometimes can be explosive.
    Senator Cruz. How about your views on religious liberty, 
and would you share your thoughts on the importance of the 
religious liberty protections in the First Amendment in terms 
of protecting our diverse and pluralistic society?
    General Barr. Yes. I think the Framers believed that our 
system--they said that our system only works if the people are 
in a position to control themselves. Our Government is an 
experiment in how much freedom we can allow the people without 
tearing ourselves apart, and they believed fewer laws, more 
self-control; and they believed that part of that self-
control--and I know there are many people here who disagree, 
not here but in our society who disagree. But they believed 
part of that self-control ultimately came from religious 
values. I think it is an important underpinning of our system 
that we permit--I believe in the separation of church and 
state, but I am sometimes concerned that we not use 
governmental power to suppress the freedoms of traditional 
religious communities in our country.
    Senator Cruz. A final question. The Department of Justice 
is charged with defending the United States, but that does not 
mean that the Department of Justice always must argue for 
maximum Federal power. There are important restraints on 
Federal power, whether civil liberties protections in a 
criminal context, whether the Takings Clause, or whether the 
Tenth Amendment and federalism.
    Can you briefly share your thoughts on the appropriate 
balance of respecting limitations on Federal power?
    General Barr. Well, as you say, the Constitution has many 
different forms of restraint on Federal power. Part of it is, 
in fact, the separation of powers within the Federal 
Government. A part of it is the balance between the Federalist 
system we have and the central Government and respecting the 
rights of the States and local communities. And part of it is 
the Bill of Rights, that on certain topics it constrains the 
role of Federal Government, and those are all important checks 
on Federal power.
    I am concerned about our country becoming just a unitary 
state that we try to govern centrally, 350 million people. I 
think a lot of our current tensions in society are because we 
are turning our back on the Federalist model. There are certain 
things that have to be protected by the Federal Government. 
There are no ifs, ands, or buts about that. But the more we can 
decentralize decisionmaking, the more we can allow people real 
diversity in the country of approaches to things, I think we 
will have less of an explosive situation.
    Senator Cruz. I very much agree.
    Thank you, Mr. Barr.
    Chairman Graham. The freedom of speech has to be balanced 
by the freedom to question.
    Senator Coons.
    Senator Coons. Congratulations, Chairman Graham. I look 
forward to working with you in this Congress.
    And thank you, Mr. Barr, to you and your family for their 
service to our country through Federal law enforcement and the 
Department of Justice.
    You just faced some questioning from Senator Cruz about 
your own confirmation hearing back in 1991, and I would like to 
take us back to a previous confirmation hearing which was at a 
more similar time to today, 1973.
    Senator Leahy asked you about the confirmation of Elliot 
Richardson, President Nixon's nominee to be Attorney General. 
That confirmation took place in the context of a similarly 
divided period in American history where there was great 
concern over the, at that point, ongoing Watergate 
investigation. Elliot Richardson reassured the country by 
making some important commitments during his confirmation 
hearing before this Committee. Then-Senator Strom Thurmond 
asked Richardson if he wanted a Special Prosecutor who would, 
and I quote, ``shield no one and prosecute this case, 
regardless of who is affected in any way, shape or form.'' 
Richardson responded, ``Exactly.''
    Do you want Special Counsel Mueller to shield no one and 
prosecute the case regardless of who is affected?
    General Barr. I want Special Counsel Mueller to discharge 
his responsibilities as a Federal prosecutor and exercise the 
judgment that he is expected to exercise under the rules and 
finish his job.
    Senator Coons. Senator Kennedy followed up by asking 
Richardson if the Special Prosecutor would have the complete 
authority and responsibility for determining whom he prosecuted 
and at what location. Richardson said, simply, ``Yes.'' Would 
you give a similar answer?
    General Barr. No. I would give the answer that is in the 
current regulations, which is that the Special Counsel has 
broad discretion, but the Acting Attorney General, in this case 
Rod Rosenstein, can ask him about major decisions, and if they 
disagree on a major decision, and if, after giving great weight 
to the Special Counsel's position, the Acting Attorney General 
felt that it was so unwarranted under established policies that 
it should not be followed, then that would be reported to this 
Committee.
    Senator Coons. Forgive me. I have got only 7 minutes left. 
I have a number of other questions. Let me just make sure I 
understand you.
    Senators asked Elliot Richardson what he would do if he 
disagreed with the Special Prosecutor. Richardson testified to 
the Committee the Special Prosecutor's judgment would prevail. 
That is not what you are saying. You are saying----
    General Barr. That is not--that is not----
    Senator Coons. You are saying if you have a difference of 
opinion with Special Counsel Mueller, you will not necessarily 
back his decision. You might overrule it.
    General Barr. Under the regulations, there is the 
possibility of that. But this Committee would not--would be 
aware of it.
    You know, a lot of water has gone under the dam since 
Elliot Richardson. A lot of different administrations of both 
parties have experimented with Special Counsel arrangements, 
and the existing rules, I think, reflect the experience of both 
Republican and Democratic administrations and strike the right 
balance. They are put together in the Clinton administration 
after Ken Starr's investigation.
    Senator Coons. That is right. So the current regulations on 
the books right now prevent the Attorney General from firing 
without cause the Special Counsel. They require misconduct, 
dereliction of duty, incapacity, conflict. Will you follow that 
standard?
    General Barr. Of course.
    Senator Coons. What if the President asked you to rescind 
or change those Special Counsel regulations?
    General Barr. I think those Special Counsel regulations 
should stay in place for the duration of this investigation, 
and we can do a postmortem then. But I have no reason to think 
they are not working.
    Senator Coons. So, most famously, when directed by 
President Nixon to fire the Special Counsel, the Prosecutor 
investigating Watergate, Richardson, refused and resigned 
instead, as we all well know.
    If the President directed you to change those regulations 
and then fire Mueller, or simply directly fired Mueller, would 
you follow Richardson's example and resign instead?
    General Barr. Assuming there was no good cause?
    Senator Coons. Assuming no good cause.
    General Barr. I would not carry out that instruction.
    Senator Coons. Let me bring us forward to your 1991 hearing 
in front of this Committee. You explained at the time how you 
would handle the BCCI case; and ironically, Robert Mueller, the 
same individual, was at that point the head of the Criminal 
Division, and you testified that you had directed Mueller to 
spare no resources, use whatever resources are necessary and 
pursue the investigation as aggressively as possible, and 
follow the evidence anywhere and everywhere it leads.
    Would you give similar direction to Robert Mueller today?
    General Barr. I do not think he needs that direction. I 
think that is what he is doing.
    Senator Coons. You also said at that hearing that Robert 
Mueller and that investigation had full cooperation, full 
support, and carte blanche. Could he expect a similar level of 
support from you as Attorney General?
    General Barr. He will--as I said, I am going to carry out 
those regulations, and I want him to finish this investigation.
    Senator Coons. I think we all do, and I am encouraged by 
things you have said about this and just want to make sure we 
have had as clear a conversation as we can.
    Attorney General Richardson also testified the relationship 
between the President and the Justice Department should be 
arm's length. You have said similar things about the importance 
of shielding the Department from political influence.
    Can you make a similar commitment to us to maintain an 
arm's length relationship between the Justice Department and 
the President regarding the Special Counsel investigation and 
other investigations?
    General Barr. Well, remember I said that there are like 
three different functions generally that the Attorney General 
performs? I think on the enforcement side, especially where 
matters are of either personal or political interest to people 
at the White House, then there would be--there has to be an 
arm's length relationship. The White House Counsel can play a 
constructive role in that as well.
    Senator Coons. Let me ask, if the President asked for 
information that could well be used to interfere with the 
Special Counsel investigation to misdirect or curtail it in 
some way, would you give it to him?
    General Barr. There are rules on what kind of information 
can flow and what kind of communications can go between the 
White House, and I would follow those. But the basic principle 
is that the integrity of an investigation has to be protected. 
There are times where you can share information that would not 
threaten the integrity of an investigation, for example when I 
was Attorney General and we were investigating something that 
related to President--someone who had a relationship with 
President Bush. I could just orient them that there is going to 
be a story tomorrow that says this, but in that particular 
case, there was no chance that it would affect the 
investigation. So sometimes judgment calls are necessary.
    Senator Coons. If you learn that the White House, not 
directly through you but through other means, was attempting to 
interfere with the investigation, would you report that 
information to the Special Counsel and to Congress?
    General Barr. There are some conclusions in there about 
interfering. If I thought something improper was being done, 
then I would deal with it as Attorney General.
    Senator Coons. Last, in that confirmation hearing back in 
1973, then-Senator Birch Bayh of Indiana asked Richardson: 
``Suppose the prosecutor determines it is necessary to get the 
President's affidavit or to have his testimony personally. 
Would that be the kind of determination he, the Special 
Prosecutor, could make? '' Richardson said, ``Yes.''
    Will you give a similar answer today that you will not 
interfere with Special Counsel Mueller seeking testimony from 
the President?
    General Barr. I think, as I say, the regulations currently 
provide some avenue if there is some disagreement. I think that 
in order to overrule Mueller, someone would have to determine--
the Attorney General or the Acting Attorney General would have 
to determine, after giving Mueller's position great weight, 
that it was so unwarranted under established policies that it 
should not be done. So that is the standard I would apply. But 
I am not going to surrender the--the regulations give some 
responsibility to the Attorney General to have this sort of 
general--not day-to-day supervision, but sort of be there in 
case something really transcends the established policies. I am 
not surrendering that responsibility. I am not pledging it 
away.
    Senator Coons. What gives me pause and sort of led me to 
this line of questioning, Mr. Barr, was that June 2018 memo you 
sent to the Deputy Attorney General in which at one point you 
state Mueller should not be permitted to demand the President 
submit to interrogation about alleged obstruction. If the 
Special Counsel wants to subpoena the President's testimony to 
ask questions about obstruction, and you are supervising the 
investigation, would you rely on that theory to block the 
subpoena?
    General Barr. Well, the question for me would be what is 
the predicate, you know, and I do not know what the facts are. 
I do not know what the facts are. If there was a factual basis 
for doing it and I could not say that it violated established 
policies, then I would not interfere. But I do not know what 
the facts are.
    Senator Coons. Well, if I might just in closing, Mr. 
Chairman, we are in this unique situation where you have known 
Robert Mueller for 30 years. You said you respect and admire 
his professionalism, his conduct. He is been entrusted by you 
with significant, complex investigations in the past. There is 
no reason to imagine, since he is the person who would know the 
facts, that he would not be acting in an inappropriate way. So 
it is my hope, even my expectation, that you would trust Robert 
Mueller to make that decision about whether to compel the 
President to testify in an appropriate way, and that he would 
not face any interference.
    Thank you for your testimony today. I look forward to the 
next round.
    General Barr. Thank you.
    Chairman Graham. Senator Sasse.
    Senator Sasse. Thank you, Mr. Chairman, and congratulations 
on your new calling here. While I might have career advice, I 
will not do it on camera. We want to know if you are taking 
notes for your cousins about career advice that we will ask you 
later.
    General, congratulations on your nomination, and thanks for 
your past service. I had planned to ask you for some pledges 
related to the Mueller investigation in private to me. In 
public today, I think you have already done that.
    How should the American people think about what the Mueller 
investigation is about?
    General Barr. I think that there were allegations made of 
Russian attempts to interfere in the election, and there were 
allegations made that some Americans were in cahoots with the 
Russians, and the word that is now being used is collusion. As 
I understand it, Mueller is looking into those allegations.
    Senator Sasse. You know, a lot of the media summary of the 
investigation starts with people's views and who they voted for 
in the 2016 presidential election. And for those of us who 
spend a lot of time reading intelligence reports--a handful of 
us on this Committee are about to leave to go to an 
intelligence briefing--what Russia is doing to the U.S. is big 
and broad and not constrained to the 2016 election. And 
increasingly, it feels like the American people reduce Russia 
to just how you thought about the 2016 presidential election.
    So, since you will have serious supervisory 
responsibilities over parts of the intelligence community, is 
Putin a friend or a foe, and what are his long-term objectives 
for the U.S.?
    General Barr. Well, I do not hold myself out as a foreign 
policy expert, but I think that he is--I think the Russians are 
a potent rival of our country, and his foreign policy 
objectives are usually directly contrary to our goals. I think 
he wants to weaken the American alliances in Europe, and he 
also wants to become a player in the Middle East, more of a 
player in the Middle East. A lot of his foreign policy 
objectives are at odds with ours.
    At the same time, I think the primary rival of the United 
States is China. I think, you know, Russia is half the size it 
was when we were facing them at the peak of the cold war. Their 
economy is--long-term prognosis is nowhere near China's.
    I also feel that part of what Russia is up to is trying to 
hold onto Ukraine and Belorussia in their orbit. But I am 
concerned that the fixation on Russia not obscure the danger 
from China.
    Senator Sasse. I want to ask you some China questions as 
well. I want to ask about your role on the President's 
Intelligence Advisory Board.
    But sticking with Russia for a minute, does Putin have any 
long-term ideological alignment with the U.S., or does he have 
other objectives, trying to sow discord broadly here?
    General Barr. You know, I am not an expert on this area, 
but I think there are--I think there may be some potential 
areas where our interests could be aligned.
    Senator Sasse. But when he interferes here, does he have 
long-term interests in the success of one or another political 
party, or does he have specific interests in sowing chaos and 
discord to make Americans distrust one another? And one of the 
reasons I ask is, because I would love to have you say in 
public some of what you said to me, about at the end of this 
investigation, what happens next. Are you concerned that when 
the Mueller report is received, quite apart--the narrowest 
pieces--you know where I am headed.
    General Barr. So, I mean, I think that the basic 
vulnerability of the United States in the age in which we live, 
the internet age, the globalization of information and so 
forth, is the vulnerability that we are seeing, which is people 
can create doubt, undercut confidence in our election process, 
and also torque our public discourse in ways that we find hard 
to perceive, and this has long-term danger for the United 
States and the survival of a democratic society like ours. And 
so I hope that whatever the outcome of the Mueller 
investigation, that we view this as a bigger problem of foreign 
interference in our elections, which is why I said it was one 
of my priorities, and it is not just the Russians. It is other 
countries as well, and we have to focus on that. We have to 
ensure that we are doing all we can.
    I am not sure all of that is defensive either. I mean, in 
terms of law enforcement, I think we have to look at all 
options, including sanctions and other options to deter 
organized efforts to interfere in our elections.
    Senator Sasse. So you have no reason to doubt any aspect of 
the intelligence community's composite assessment about Russian 
efforts in the 2016 election?
    General Barr. I have no reason to doubt that the Russians 
attempted to interfere in our election.
    Senator Sasse. And Dan Coats, the National Intelligence 
Director, has testified in public and has said in different 
media contexts that Russia is already plotting for the 2020 
elections in the U.S. You have no reason to doubt that?
    General Barr. I have not--you know, I have not seen those 
reports. I had reviewed the reports about the 2016, but I have 
no reason to doubt it.
    Senator Sasse. And can you explain what your role is on the 
President's Intelligence Advisory Board?
    General Barr. I am actually a consultant. I am an adviser 
on sort of legal issues. Obviously, I am stepping down from 
that position if I am confirmed. But I have been just advising. 
I am not a member of the board. I am on the CIA's External 
Advisory Board and, you know, have been participating on that 
as well.
    Senator Sasse. When you talk about the long-term Chinese 
efforts to also sow different kinds of discord in the U.S., 
obviously not crossing any classified lines here, but long-term 
interests that other countries have in strategic rivalry with 
the U.S. to use gray space and information operations warfare 
against us, how do you see the role of the National Security 
Branch, and the FBI more broadly, fitting into the larger IC, 
and what responsibilities do you see would be on your priority 
list as you arrive at the Department?
    General Barr. Well, you know, I have been out of the 
Department for so long. You know, I am not really sure about 
how that is currently being handled. You know, I also think 
that we have had our attention focused on terrorism, which we 
cannot let up. And, but I want to make sure that--and I am sure 
Chris Wray is on top of this and, you know, looking forward to 
talking to him about it. But making sure that the Bureau is 
playing, you know, a central role in combating, you know, 
efforts by foreign countries to engage in those kinds of 
hostile intelligence activities.
    Senator Sasse. You have unpacked a couple of times today 
the three different roles or functions of the Attorney General. 
Could you do that one more time in summary? And then I want to 
ask you a particular question. What are those three roles, as 
you see them?
    General Barr. I see the three roles. In 1789, the first--
set up the office. The first role was providing advice to the 
President and the Cabinet and representing the United States in 
cases before the Supreme Court. And I see the three roles as 
providing advice, being a policy adviser on legal and law 
enforcement policy issues, and the top law enforcement officer 
enforcing the laws.
    Senator Sasse. And so in no way would the job of protecting 
the President be a subset of any of those three jobs? The 
language of ``protecting the President'' has been used 
occasionally in this administration to refer to the way it was 
conceived of how Eric Holder did his job. Is there any sense in 
which it is the Attorney General's job to protect the 
President?
    General Barr. No, that was not included in my description 
of the role of the Attorney General. Obviously, as a policy--in 
the policy arena, the Attorney General is someone who should be 
sympathetic to the administration and its policy goals.
    Senator Sasse. But there are circumstances where those 
three roles could come into some internal conflict, or you 
could be asked to do things that do not align with them. And 
there is probably a list that you have--I will not ask you to 
enumerate it here. But there is probably a list of issues where 
you could imagine needing to resign because of what you were 
asked to do in the space of so-called protecting the President?
    General Barr. If I--if I was ever asked to do something 
that I felt was unlawful and directed to do that, I would not 
do it, and I would resign rather than do it. But I think that 
should be true of every officer who serves anywhere in 
Government, whatever branch.
    Senator Sasse. I am at time. But I had a series of 
questions related to some of what Senator Ernst said about 
Sarah's Law. She and I have jointly been active in that space. 
The tragic case of the young woman that she was talking about 
from Council Bluffs was actually--it occurred in Omaha.
    And Edwin Mejia, her killer, is still at large, and both 
the last administration and this administration have not 
prioritized that enough in our understanding. And I imagine 
that Senator Ernst and I will follow up with a letter to you on 
that as well.
    Thank you.
    Chairman Graham. Senator Blumenthal.
    Senator Blumenthal. Thanks, Mr. Chairman. I congratulate 
you, and I look forward to working with you and congratulate 
also the new Members of our Committee that have joined us.
    And thank you very much, Mr. Barr, for being here today, 
for your past record of public service, and I hope I am perhaps 
the last to make reference to your grandson by saying that if 
he makes it through this hearing today, he can have any job he 
wants in this building.
    [Laughter.]
    Senator Blumenthal. Let me say first that as a former 
United States Attorney, I share your allegiance and admiration 
for the Department of Justice and, equally so, the Federal 
Bureau of Investigation, and I know that you respect Mr. Wray, 
the current Director. But I think you would agree with me that 
the FBI is probably one of the best, if not the most 
professional, accomplished, skilled, and dedicated law 
enforcement agencies in the world. Would you agree?
    General Barr. Yes, Senator.
    Senator Blumenthal. And I hope that the President agrees 
with you and perhaps shares that view more publicly in the 
future.
    When the FBI begins a counterintelligence investigation, if 
it is of the President of the United States for working with a 
foreign adversary, that decision would be subject to multiple 
levels of review within the FBI. Correct?
    General Barr. I assume. I do not know what rules were in 
effect at the time.
    Senator Blumenthal. Well, in your experience, it would be?
    General Barr. Yes. Yes.
    Senator Blumenthal. And you have no reason to think that 
those rules have changed?
    General Barr. I do not know what the practice was. There 
was----
    Senator Blumenthal. And almost certainly in that kind of 
extraordinary investigation, you would agree with me it would 
be extraordinary for the FBI to be investigating the President 
for working with a determined foreign adversary. There probably 
would be information shared with the Deputy Attorney General or 
the Attorney General. Agree?
    General Barr. I would hope so. The reason I am hesitating 
is because some of these texts that we have all read are so 
weird and beyond my experience with the FBI, I do not know what 
was going on.
    Senator Blumenthal. Well, these reports are stomach-turning 
in terms of the absolutely stunning and unprecedented kind of 
investigation that they reflect. You would agree?
    General Barr. You mean the texts are stomach-turning?
    Senator Blumenthal. The reports of the investigation of the 
President.
    General Barr. I am not sure what you are talking about when 
you say, ``the reports of the investigation.''
    Senator Blumenthal. The reports that the FBI opened an 
investigation of the President for working with a foreign 
adversary, Russia.
    General Barr. And what is stomach-turning about that? 
Which--what is stomach-turning, the allegation against the 
President----
    Senator Blumenthal. That that kind of----
    General Barr [continuing]. Or the fact that an allegation 
would be made and be under investigation?
    Senator Blumenthal. Well, let me move on. I want to talk 
about transparency. Would you commit--will you commit to this 
Committee that you will not allow the President or his 
attorneys to edit or change the Special Counsel report before 
it is submitted to Congress or the public?
    General Barr. I already said that I would not permit 
editing of my report, whatever report I--or whoever is the 
Attorney General, makes.
    Senator Blumenthal. And will you commit that you will come 
to Congress and explain any deletions or changes that are made 
to that report before it is issued?
    General Barr. Okay. So there are different reports at work 
here. Which report are you--there are two different reports----
    Senator Blumenthal. I am talking about the Special Counsel 
report.
    General Barr. Okay. Well, under the current regulations, 
the Special Counsel report is confidential. The report that 
goes public would be a report by the Attorney General.
    Senator Blumenthal. Will you commit that you will explain 
to us any changes or deletions that you make to the Special 
Counsel report that is submitted to you in whatever you present 
to us?
    General Barr. I will commit to providing as much 
information as I can, consistent with the regulations. Are you 
saying, for example, that if information is deleted that would 
be like, for classification purposes, I would identify that and 
things like that?
    Senator Blumenthal. Well, that you will commit to 
explaining to us what the reasons are for your deleting any 
information that the Special Counsel includes that you are 
preventing us--or the public--from seeing?
    General Barr. That would be my intent. I have to say that 
the rules--I do not know what kind of report is being prepared. 
I have no idea. And I have no idea what Acting Attorney General 
Rosenstein has discussed with Special Counsel Mueller.
    If I am confirmed, I am going to go in and see what is 
being contemplated and what they have agreed to and what their 
interpretation--you know, what game plan they have in mind.
    Senator Blumenthal. Will you permit the Special Counsel----
    General Barr. But my purpose is to get as much accurate 
information out as I can, consistent with the regulations.
    Senator Blumenthal. Well, the regulations and rules give 
you extraordinarily broad discretion. And I am hoping, and I am 
asking you to commit, that you will explain to us information 
that you have taken out of that Special Counsel report.
    And, I also want to ask you about restrictions on the 
Special Counsel. Will you commit that you will allow the 
Special Counsel to exercise his judgment on subpoenas that are 
issued and indictments that he may decide should be brought?
    General Barr. As I said, I will carry out my 
responsibilities under the regulations. Under the regulations, 
whoever is Attorney General can only overrule the Special 
Counsel if the Special Counsel does something that is so 
unwarranted under established practice. I am not going to 
surrender the responsibilities I have.
    I would--you would not like it if I made some pledge to the 
President that I was going to exercise my responsibilities in a 
particular way. And I am not going to make the pledge to anyone 
on this Committee that I am going to exercise it in a 
particular way or surrender it.
    Senator Blumenthal. Will you allow the Special Counsel to 
exercise his judgment as to what resources are necessary? Will 
you meet those needs for resources?
    General Barr. That would be my expectation. I think, you 
know, I mean, if you believe the media, they are sort of 
starting to reduce their resources. So I would not expect that 
would be a problem.
    Senator Blumenthal. Will you allow the Special Counsel to 
exercise his judgment as to what the scope should be? The 
President has talked about red line around finances. Will you 
allow the Special Counsel to exercise his judgment about what 
the scope should be, even if the President says that there 
should be red line?
    General Barr. I think the scope of the investigation is 
determined by his charter from the Acting Attorney General. And 
if he wants to go beyond that charter, I assume he would come 
back and talk to whoever the Attorney General is about that.
    Senator Blumenthal. Will you impose any restrictions on 
other prosecutors who are also investigating the President? As 
you are well aware, in the Southern District of New York, the 
President has been named, in effect, as an unindicted co-
conspirator. The Eastern District of Virginia has an 
investigation that is relevant to the President. Will you 
impose any restrictions on those prosecutors?
    General Barr. The Office of Attorney General is in charge 
of the--with the exception of the Special Counsel, who has 
special rules applicable to him--is in charge of the work of 
the Department of Justice.
    Senator Blumenthal. But you have a responsibility to allow 
prosecutors to enforce the law.
    General Barr. I have a responsibility to use my judgment 
and discretion that are inherent in the Office of Attorney 
General to supervise, and I am not going to go around saying, 
well, this U.S. Attorney, or that U.S. Attorney, I am going to 
defer to. And----
    Senator Blumenthal. Well, you referred earlier about the 
possibility of firing----
    General Barr. Excuse me?
    Senator Blumenthal [continuing]. A United States Attorney. 
Would you allow the President to fire a United States Attorney 
and thereby stop an investigation?
    General Barr. I would not stand by and allow a U.S. 
Attorney to be fired for the purpose of stopping an 
investigation, but the President can fire a U.S. Attorney. They 
are a presidential appointment.
    Senator Blumenthal. But the President should have a cause 
beyond simply stopping an investigation for firing a United 
States Attorney, even if he or she is a political----
    General Barr. Well, as I said, I would not stand by and 
allow, you know, an investigation to be stopped if I thought it 
was a lawful investigation. I would not stand by for that. But 
the President is free to fire his, you know, officials that he 
has appointed and----
    Senator Blumenthal. I want to ask a different--a question 
on a different topic. You have said that, and I am quoting you, 
``I believe Roe v. Wade should be overruled.'' You said that in 
1991.
    Do you still believe it?
    General Barr. I said in 1991 that I thought, as an original 
matter, it had been wrongly decided. And that was, what--within 
18 years of its decision? Now it has been 46 years, and the 
Department has stopped--under Republican administrations 
stopped as a routine matter asking that it be overruled, and I 
do not see that being turned--you know, I do not see that being 
resumed.
    Senator Blumenthal. Would you defend Roe v. Wade if it were 
challenged?
    General Barr. Would I defend Roe v. Wade? I mean, usually 
the way this would come up would be a State regulation of some 
sort and whether it is permissible under Roe v. Wade. And I 
would hope that the SG would make whatever arguments are 
necessary to address that. I think the Justices, the recent 
ones, have made clear that they consider Roe v. Wade an 
established precedent, and it has been on the books 46 years.
    Senator Blumenthal. And you would enforce the Clinic Access 
Protection Act?
    General Barr. Absolutely.
    Senator Blumenthal. Thank you, Mr. Chairman.
    Chairman Graham. Senator Hawley.
    Senator Hawley. Thank you, Mr. Chairman.
    Mr. Barr, congratulations on your nomination. Thank you for 
being here.
    You were eminently qualified for this position when you 
were confirmed unanimously by this Committee 27 years ago, and 
you are eminently qualified today. It is a pleasure to have you 
here.
    I wanted to start where Senator Blumenthal started as well, 
with the reports about the FBI counterintelligence 
investigation launched against the President, which I also find 
to be stomach-turning, though perhaps for different reasons. 
The New York Times report indicates that the FBI began the 
probe in part because they were concerned about the President's 
foreign policy stances, comments he made during the 2016 
campaign about foreign policy, and the Republican Party's 
official position on the Ukraine.
    In your experience with the FBI, is it strange to have a 
counterintelligence investigation begun because members of that 
Bureau disagree with the foreign policy stances of a candidate 
for President or a President of the United States?
    General Barr. Yes.
    Senator Hawley. The Supreme Court has been unequivocal that 
the President--in our system of Government, the President 
possesses, and I am going to quote now, ``the plenary and 
exclusive power as the sole organ of the Federal Government in 
the field of international relations, a power which does not 
require as its basis--as a basis for its exercise an act of 
Congress.''
    That is the very famous Curtiss-Wright case. To your 
knowledge, is that still good law?
    General Barr. Yes.
    Senator Hawley. And do you think that was rightly decided?
    General Barr. Yes.
    Senator Hawley. Let me ask you this: Would it concern you 
as Attorney General if FBI agents were making decisions about 
when and how to launch an investigation of an elected official 
if it was in order to avoid being supervised or directed by 
their agency leadership? Would that be concerning to you?
    General Barr. Yes.
    Senator Hawley. As is, I might just add, reported by The 
New York Times.
    Let me switch gears and ask you about another topic that 
you mentioned a little bit earlier in the field when we were 
talking generally about antitrust. This is something, you talk 
about things that have changed in the 27 years since you were 
last here, one of the things that has changed is the 
extraordinary concentration of power in our economy in the 
hands of a few corporations, no more so than in Silicon Valley, 
which you referenced earlier today, and I just want to ask you 
a little bit about that.
    Big tech companies, like, for instance, Google and 
Facebook, who have drawn much attention of late, pose 
significant challenges not just for competition, but also for 
the larger issues of privacy and the free flow of ideas. The 
Justice Department has recently deferred to the FTC across this 
range of issues, and while I am hopeful that Chairman Simons 
will right the course here, the FTC has perhaps too often 
allowed these companies, in my view, to violate privacy and 
maybe antitrust laws without meaningful consequences.
    Here is my question. What role do you think the Justice 
Department has, working with the FTC or independently, to 
address anti-competitive conduct, potential bias, and privacy 
violations by these big tech companies?
    General Barr. Well, obviously, competition is of central 
concern to the Antitrust Division, and you know, there are, I 
guess, concordats that have been reached between the FTC and 
the Antitrust Division as to who has primary jurisdiction in 
different areas. But I would like to weigh in to some of these 
issues. I would like to have the Antitrust support that effort 
to get more involved in reviewing the situation from a 
competition standpoint.
    I also am interested in the issue of privacy and the 
question of who owns this data. And you know, it is not an area 
that I have studied closely or become an expert in, but I think 
it is important for the Department to get more involved in 
these questions.
    Senator Hawley. Just on the subject of ownership of data, 
as you know, Facebook is currently subject to a 2011 consent 
decree, as part of which it agreed not to release or share or 
sell personal user information without the knowledge and 
consent of its users. Facebook's CEO Mark Zuckerberg has 
adamantly insisted under oath, as recently as April 10th of 
2018, that on Facebook, users have complete control--those are 
his words--over everything that they share.
    However, as I am sure you are aware, recent media reports 
have indicated that Facebook, in fact, routinely has shared 
user information without users' consent or even knowledge. Now 
the Justice Department has the authority to enforce the terms 
of the 2011 consent decree and potentially to prosecute any 
violation. Will you consider doing so?
    General Barr. Because that is something that I might have 
to get involved with and supervise if I am confirmed, I would 
rather not make any comments about it right now.
    Senator Hawley. Let me ask you this. These same technology 
companies also control the flow of information, or, at least, 
influence it, the flow of information to consumers to an 
unprecedented degree. I mean, you have to go way back in 
American history to find any analog, back to the paper trusts, 
to find an analog of a group, small group of companies that 
control the information and influence the news and its flow to 
Americans to the extent that these companies do.
    And there is growing evidence that these companies have 
leveraged their considerable market power, if not monopoly 
status, to disfavor certain ideological viewpoints, 
particularly conservative and libertarian viewpoints. Do you 
think the Department of Justice has authority under the 
antitrust laws or consumer protection laws or other laws to 
address bias by dominant online platforms?
    General Barr. I would just say, generally, you know, I 
would not think it would--I would have to think long and hard 
before I said that it was really the stuff of an antitrust 
matter. On the other hand, it could involve issues of 
disclosure and other--and other--implicate other laws like 
that.
    Senator Hawley. Is there any point, do you think, at which 
political bias could require response? And I am thinking, for 
example, Harvard law professor Jonathan Zittrain has written 
how Google or Facebook, for example, could manipulate their 
algorithms to significantly swing voter turnout to favor a 
candidate of their choice.
    Would that sort of conduct require a response from the 
Department?
    General Barr. I would have to think about that. I am not 
sure. You know, I would like to know more about the phenomena 
and what laws could be implicated by it.
    Senator Hawley. Let me ask you this. The Justice 
Department's case against AT&T-Time Warner focused on how the 
merged company would control or could control the distribution 
of information to discriminate against rival content. And I 
understand that you, of course, are recusing yourself from that 
matter.
    But generally speaking, generally speaking, do you see 
similar concerns regarding how dominant Silicon Valley firms 
could use their market power in social media or search to 
discriminate against rival products or services or viewpoints?
    General Barr. Yes. And making clear that what I am saying 
now has no application to, you know, the transaction we just 
talked about and talking about the other companies, yes.
    Senator Hawley. Let me ask you more broadly about the 
question of antitrust and mergers. And you gestured toward this 
earlier in your testimony. I am increasingly worried that the 
Department is not enforcing vigorously the antitrust statutes 
in many sectors of the economy, not just technology.
    We see--again, as you have alluded to, we see growing 
concentration of power in various sectors held by just a few 
firms. And if you look at recent trends in the Department's 
scrutiny of proposed mergers, it is at record lows. Last year, 
for instance, the Department of Justice Antitrust Division 
scrutinized mergers through second requests for information in 
less than 1 percent of all eligible cases.
    That is, I believe, the lowest level of merger scrutiny 
recorded since the FTC started tracking those statistics back 
in 1981. And just for comparison purposes, in 1981, that review 
was five times higher than it was in 2018.
    My question is, do you think this record low level of 
merger scrutiny is appropriate? And if you are confirmed as 
Attorney General, what might you do to ensure that the 
Antitrust Division faithfully and vigorously enforces the law?
    General Barr. Well, I am for vigorous enforcement of the 
antitrust laws to preserve competition, and as I said, this is 
going to be an area I am going to want to get into and work 
with Makan Delrahim on, if I am confirmed.
    I would not necessarily use, you know, the incidence of 
merger review as a proxy for failure of competition. At the end 
of the day, it is competition we are worried about in different 
markets. But I am interested in exploring those--you know, 
those statistics you were just using.
    Senator Hawley. And do you think it is fair to say, would 
you agree that the historic levels of concentration that we are 
seeing in many parts of the economy, technology in particular, 
is potentially detrimental to competition? I mean, it is, 
again, potentially and in general, but it is something that is 
worth scrutinizing and being concerned about if one is 
concerned about free, fair, and open competition?
    General Barr. You said the size?
    Senator Hawley. Yes, historic levels of concentration.
    General Barr. Yes. I think what is--the thing I am 
concerned about are the network effects that have now--that are 
now at work, where they are so powerful that particular sectors 
could essentially be subsumed, you know, subsumed into these--
into these networks. There are just very powerful network 
effects because of the size.
    Senator Hawley. Yes. I see my time has almost expired.
    Thank you, Mr. Chairman.
    Chairman Graham. Senator Hirono.
    Senator Hirono. Thank you, Mr. Chairman.
    Mr. Chairman, I welcome the arrival of the immigration 
Lindsey Graham of 2013. The other Lindsey Graham, we shall see, 
as you, yourself, have acknowledged.
    Mr. Barr, I ask these questions, these two questions, of 
every nominee who comes before any of the Committees on which I 
sit, and these are the questions: Since you became a legal 
adult, have you ever made unwanted requests for sexual favors 
or committed any verbal or physical harassment or assault of a 
sexual nature?
    General Barr. No.
    Senator Hirono. Have you ever faced discipline or entered 
into a settlement related to this kind of conduct?
    General Barr. No.
    Senator Hirono. I have a question relating to recusal. You 
have been asked a number of times. It is very clear that the 
President does not want an Attorney General who will recuse 
himself from the Mueller investigation. So when he came before 
us for confirmation in January 2017, Jeff Sessions wrote on his 
Committee questionnaire that he would ``seek and follow the 
advice of the Department of Justice's designated agency ethics 
official, if confronted with a conflict of interest.''
    And in fact, he did do that, and he was basically pummeled 
by the President ever since. So Matthew Whitaker has not come 
before us for the job of Attorney General, but we know that 
when it came time to make the decision about recusal, he did 
not want to be the object of Trump's wrath, so he proceeded to 
listen to and then ignore the advice of the career ethics 
officials at the DOJ who recommended recusal.
    So your answer to Senator Klobuchar makes it clear that you 
are going to basically follow the Whitaker model. Can you 
understand why that is not terribly reassuring to us?
    These are not normal times. This is not 27 years ago. 
Today, the President is Donald Trump, who will do anything to 
protect himself. He wants you--who has written a manifesto 
about why the President should not be prosecuted, at least, for 
obstruction of justice; who has met with and consulted with the 
President's defense attorneys; who has written op-eds defending 
his firings of Sally Yates and James Comey--to be his Attorney 
General.
    So in this context, just asking us to trust you is not 
enough. Why will you not simply follow Jeff Sessions' lead and 
take and follow--the critical question being ``follow''--the 
advice of the Department's ethics officials?
    General Barr. Because the regulations and the 
responsibilities of the Attorney General as the head of the 
agency vest that responsibility in the Attorney General. And--
and I am not going to surrender the responsibilities of the 
Attorney General to get the title. I do not need the title.
    If you do not--if you do not trust me to----
    Senator Hirono. Well, I--you have--excuse me.
    General Barr. Yes.
    Senator Hirono. You have repeated that answer many, many 
times. However, I think we all acknowledge that Jeff Sessions 
possibly did not want to recuse himself, but he did. And so you 
have it within your power to follow the ethics advice of your 
own Department, and you are telling us you are not going to. So 
that is the bottom line.
    General Barr. No, Senator. I think Jeff Sessions recused 
himself because of a different provision, which was the 
political conflict provision.
    Senator Hirono. I think in the context of all of the things 
that----
    General Barr. He played a role in--he played a role in the 
campaign.
    Senator Hirono. In the context of all of the things that 
you have done, basically to get the attention of President 
Trump to nominate you, I would say that there is a political 
context to what your decision should be also.
    Let me move on. You have said that you will allow Mueller 
to complete his work. Although I do want to ask you very 
specifically, because you did write that 19-page memo relating 
to the obstruction of justice issue, would you allow the 
Mueller investigation with regard to obstruction of justice to 
also go forward unimpeded by you?
    General Barr. I do not know whether there is an 
investigation of obstruction of----
    Senator Hirono. Well, definitely obstruction of justice. 
You read the papers as well as we do, that that is an element 
of the Mueller investigation. I do not think you can sit here 
and tell us that you do not think that that is a part of the 
investigation.
    But let us say that it is. Having written what you did, 
would you seek to stop that portion of the Mueller 
investigation, that being the obstruction of justice portion, 
assuming that that is, in fact, part of the investigation?
    General Barr. Okay, but you have to remember, my memo was 
on a very specific statute and a specific theory that I was 
concerned about.
    Senator Hirono. I understand that.
    General Barr. I have no basis for suspecting at this point 
that that is in play at all.
    Senator Hirono. You mean that particular provision? So 
Mueller----
    General Barr. That provision or theory. Or theory.
    Senator Hirono. Well, I did say let us assume that, in 
fact, obstruction of justice is part of the Mueller 
investigation.
    General Barr. When I say ``theory,'' I mean, what I was 
addressing was, you know, whether the removal of Comey in and 
of itself would be obstruction.
    Senator Hirono. Of course, it is not in and of itself----
    General Barr. Under a particular statute----
    Senator Hirono. I hate to be interruptive, but, you know, I 
only have 4 minutes, so thank you very much.
    You were asked about the investigations that are going on 
in the Southern District of New York, the Eastern District of 
Virginia, the District of Columbia, and there are various 
investigations brought by various U.S. Attorneys' Offices 
relating to the activities of Donald Trump, his campaign, his 
inauguration, his foundation, his businesses, his family, his 
associates. Do you consider these to be lawful investigations? 
Because I believe that you responded to Senator Blumenthal 
that, if these are lawful investigations by the U.S. Attorneys' 
Offices, you do not see yourself interfering with them.
    General Barr. I have no reason to think they are not lawful 
investigations, whatever they are. You seem to know more than I 
do about what is under investigation.
    Senator Hirono. That is reassuring, that you are wanting to 
have the Mueller investigation go forward extends to all of 
these other U.S. Attorneys' investigations.
    I believe you also said that the Mueller report will be 
confidential? It is confidential under the Special Counsel's--
whatever the criteria are. So what I am hearing you say is 
that, in spite of the fact that you want to be transparent, 
neither Congress nor the public will get the Mueller report 
because that is confidential. So what we will be getting is 
your report of the Mueller report subject to applicable laws 
limiting disclosure. So is that what you are telling us?
    General Barr. I do not know what--at the end of the day 
what will be releasable. I do not know what Bob Mueller is 
writing.
    Senator Hirono. Well, you said that the Mueller report is 
confidential pursuant to whatever the regulations are that 
applies to him. So I am just trying to get as to what you are 
going to be transparent about.
    General Barr. As the rules stand now, people should be 
aware that the rules, I think, say that the Special Counsel 
will prepare a summary report on any prosecutive or declination 
decisions, and that that shall be confidential and shall be 
treated as any other declination or prosecutive material within 
the Department. In addition, the Attorney General is 
responsible for notifying and reporting certain information 
upon the conclusion of the investigation.
    Now, how these are going to fit together and what can be 
gotten out there, I have to wait and--I would have to wait. I 
would want to talk to Rod Rosenstein and see what he has 
discussed with Mueller and, you know, what----
    Senator Hirono. But you have testified that you would like 
to make as much of the original report----
    General Barr. Right, and so all I can say right now is----
    Senator Hirono [continuing]. Public as possible.
    General Barr. Yes. All I can say right now is my goal and 
intent is to get as much information out as I can consistent 
with the regulations.
    Senator Hirono. Thank you. So in the minute that I have, I 
would just like to go over some of the policies that Jeff 
Sessions has followed. One is a zero-tolerance policy which led 
to the separation of children from their parents. He refused to 
defend the Affordable Care Act and argued in the Texas lawsuit 
that key parts of the ACA were unconstitutional. He failed to 
bring a single lawsuit to enforce the Voting Rights Act to stop 
voter suppression efforts. And he issued a memo making it 
harder for the Civil Rights Division to enter into consent 
decrees to address systemic police misconduct.
    Do you agree with these policies? Do you intend to continue 
them?
    General Barr. The last one, yes. I agree with that policy. 
The other ones, I am not--I would have to see what the basis 
was for those decisions.
    Senator Hirono. So do you think that as to the last one, 
which has to do with consent decrees, that there is a role for 
the Department of Justice in addressing system police 
misconduct?
    General Barr. No, there----
    Senator Hirono. You do not see much of a role in that? Or 
you see a more limited----
    General Barr. That is your characterization of it. That is 
not what I understand the policy to be. Of course, the 
Department has a role in pattern and practice violations.
    Senator Hirono. So Attorney General Sessions has issued a 
rule that makes it a lot tougher to enter into these kinds of 
decrees.
    General Barr. Why do you say it is a lot tougher?
    Senator Hirono. Because it is not just relying on the 
career attorneys. Now it goes to the Deputy AG or whoever, that 
there are more political appointees who are going to get 
involved in that process, and that makes it much more limited, 
I would say, in utilization.
    Thank you, Mr. Chairman.
    Chairman Graham. Thank you, Senator Hirono.
    We will take a 10-minute comfort break and start with 
Senator Tillis. If my math is right, we have got about an hour 
left on round one. So will 10 minutes be okay, Mr. Barr?
    General Barr. Yes.
    Chairman Graham. Okay. Thank you. Ten minutes.
    [Whereupon the Committee was recessed and reconvened.]
    Chairman Graham. Thank you, Mr. Barr.
    I think--who we have left on our side is, Senators Kennedy, 
Blackburn, and Tillis, and Senators Booker and Harris. Anybody 
else? I think that is it in round one.
    So, Senator Kennedy.
    Senator Kennedy. Thank you, Mr. Chairman.
    Mr. Barr, do you know of any instance in which anybody has 
tried to interfere in Mr. Mueller's investigation?
    General Barr. No. I mean, I am not in the Department of 
Justice, and I have no--you know, I am not privy to that 
information, but I do not know of any.
    Senator Kennedy. I understand you know Mr. Mueller, do you?
    General Barr. Yes, I do.
    Senator Kennedy. Is he big enough to take care of himself?
    General Barr. He is a Marine.
    [Laughter.]
    Senator Kennedy. If someone had tried to interfere with his 
investigation, based on your knowledge of Mr. Mueller, would he 
have something to say about it, including but not limited to in 
a court of law?
    General Barr. Yes, Senator.
    Senator Kennedy. I want to try to cut through some of the 
innuendo here. Did President Trump instruct or ask you, once 
you become Attorney General, to fire Mr. Mueller?
    General Barr. Absolutely not.
    Senator Kennedy. Did he ask you to interfere in Mr. 
Mueller's investigation?
    General Barr. Absolutely not.
    Senator Kennedy. Has anybody in the White House made that 
suggestion to you?
    General Barr. Absolutely not.
    Senator Kennedy. Has anybody in the Western Hemisphere made 
that suggestion to you.
    General Barr. Absolutely not.
    [Laughter.]
    Senator Kennedy. Okay. I want to associate myself with the 
remarks of Mr. Blumenthal about the FBI being the premier law 
enforcement agency in the history of the world, in my opinion, 
and the high esteem in which we all hold the Department of 
Justice. But I have a question for you. This 
counterintelligence investigation that was started by the FBI 
and Justice, allegedly about President Trump, how did The New 
York Times get that information?
    General Barr. I do not know, Senator.
    Senator Kennedy. Well, didn't it have to come from the FBI 
or the Department of Justice?
    General Barr. I just cannot say. I do not know how they got 
it, and I do not know whether that is an accurate report.
    Senator Kennedy. All right. What do you intend to do about 
the leaks coming out of the FBI and the Department of Justice?
    General Barr. The problem of leaks is a difficult one to 
address. I think the first thing is to make it clear that there 
is an expectation that there are no leaks and punish people 
through internal discipline if there are leaks; also keep--you 
know, exercise more compartmentalization and discipline; and 
make the institutions that are responsible, if you are talking 
about the FBI, that their leadership is taking aggressive 
action to stop the leaks.
    Senator Kennedy. Okay. You have had some experience with 
the enforcement of our immigration laws. Is that correct?
    General Barr. That is right, Senator.
    Senator Kennedy. Do you believe it is possible to secure a 
1,900-mile border without, in part, at least, using barriers?
    General Barr. No, I do not think it is possible.
    Senator Kennedy. Okay.
    General Barr. When I was Attorney General, we had the INS 
as part of the Department, and I remember another part of my 
kibitzing was trying to persuade George W. Bush's 
administration not to break that out. But in those days, I had 
some studies done, and I was trying within the budget to put as 
much as we could on barriers as we could.
    Senator Kennedy. Okay. Do you believe that ICE should be 
abolished, as some of my colleagues do?
    General Barr. Certainly not.
    Senator Kennedy. Okay. You are Roman Catholic, are you not?
    General Barr. Yes, I am.
    Senator Kennedy. Do you think that disqualifies you from 
serving in the United States Government?
    General Barr. I do not think so, no.
    Senator Kennedy. Okay. Why is that?
    General Barr. Why doesn't it disqualify me?
    Senator Kennedy. Yes. Some of my colleagues think it might.
    General Barr. Because you render under Caesar that which is 
Caesar's and under God that which is God's, and I believe in 
the separation of church and state. And I--if there was 
something that was against my conscience, I would not impose it 
on others. I would resign my office.
    Senator Kennedy. Yes, I think it is called freedom of 
religion, as I recall.
    General Barr. Yes, that is right.
    Senator Kennedy. If the Federal Government threatens to 
withhold Federal money from a university if that university 
does not investigate, prosecute, punish sexual assault in a way 
prescribed by the Federal Government, does that make the State 
university a state actor--or the university a state actor?
    General Barr. It may. You know, I would have to look at the 
cases. I am not up to speed on those. But I would think so.
    Senator Kennedy. Well, if the Federal Government says to a 
university, look, if you do not prosecute, investigate, punish 
allegations of sexual assault in a way that the Federal 
Government says you must, otherwise we are going to take away 
your Federal money, does the accused in one of those sexual 
assault allegations still have the protection of the Bill of 
Rights?
    General Barr. I would hope so.
    Senator Kennedy. Should he, or her?
    General Barr. You know, I would have to look and see 
exactly the State actor law right now, but what you are getting 
at is, you know, the rules that were forced on universities in 
handling sexual harassment cases----
    Senator Kennedy. Right.
    General Barr [continuing]. That, you know, I felt 
essentially did away with due process.
    Senator Kennedy. Yes.
    General Barr. And, you know, I think the victim--you know, 
as a father of three daughters, I take very seriously any 
question of sexual harassment. It is a serious problem. And the 
word of a victim has to be taken very seriously and it has to 
be pursued, but we cannot do it at the expense of the Bill of 
Rights or basic fairness and due process.
    Senator Kennedy. Both the accused and the accuser deserve 
due process, do they not?
    General Barr. That is right.
    Senator Kennedy. Tell me what the legal basis is for a 
universal injunction.
    General Barr. I think universal injunctions have no--well, 
let me say that they are a recent vintage. They really started 
arising in the 1960s, and I think that they have lost sight of 
the limitation on the judicial power of the United States, 
which is case or controversy.
    Senator Kennedy. It is all based on a D.C. Circuit case.
    General Barr. Right.
    Senator Kennedy. The Wirtz case, is that right?
    General Barr. I forgot the name of the case, but I think 
the D.C. Circuit case was the first one, and I think that was 
in the 1960s. And people have lost sight of the fact that it is 
really a question of who gets the relief in a case, and under 
the case or controversy, it should be limited to the parties. 
And, you know, earlier you could have a court in one 
jurisdiction decide it, and that would be the rule in that 
jurisdiction. But that did not debar the Government from 
continuing its policies elsewhere, and eventually you would get 
differences, and they would work their way up to the Supreme 
Court.
    So I think that I would like to see these universal 
injunctions challenged.
    Senator Kennedy. Well, I do not know how many Federal 
District Court Judges we have, let us say 650. As I understand 
it, one can enjoin a congressional statute nationwide even if 
the other 624 judges disagree.
    General Barr. That is right. And not just a statute, 
Senator. I think what is different, what we are seeing is the 
willingness of courts to set aside, you know, even the kinds of 
exercises of national security power that, you know, 20 years 
ago would have been unimaginable for a court to challenge, and 
yet a District Court Judge somewhere can enjoin some action 
that has a bearing on the safety of the Nation, and then the 
judicial process can take years and years to get that up to the 
Supreme Court.
    Senator Kennedy. I have just got a few seconds left. As I 
understand your testimony, General, Mr. Mueller will write a 
report, submit it to you as Attorney General, and then you will 
write a report based on that report and release your report. Is 
that right?
    General Barr. That is essentially it, but I would not 
assume--you know, it could easily be that the report is 
communicated to the Department--assuming I was confirmed, that 
could be a month away. I do not----
    Senator Kennedy. Let me tell you what I am getting at. I 
have got 6 seconds--now 4. The American people deserve to know 
what the Department of Justice has concluded, and they are 
smart enough to figure it out. I have said this before. The 
American people do not read Aristotle every day. They are too 
busy earning a living. But if you give them the facts, they 
will figure it out, and they will draw their own conclusions. 
It does not matter who spins them. They will figure it out for 
themselves. And I would strongly encourage you to put this all 
to rest, to make a report, a final report public, to let 
everybody draw their own conclusions so we can move on.
    If somebody did something wrong, they should be punished. 
But if they did not, let us stop the innuendo and the rumors 
and the leaking and let us move on.
    General Barr. I agree, Senator, and let me say, you know, 
earlier I misspoke, because the Acting Attorney General is Matt 
Whitaker, and I referred to Rod as the Acting Attorney General. 
But, in fact, the report would go to Matt Whitaker.
    Senator Kennedy. Thank you, Mr. Chairman.
    Chairman Graham. Senator Booker.
    Senator Booker. Thank you, Mr. Chairman, and I would like 
to remark, Mr. Barr, that your family is showing a prodigious 
level of patience, indefatigable endurance, and that should be 
marked for the record. You are a very lucky man.
    You know that about 30-plus States have legalized medical 
marijuana for adult use. You are aware of that, correct?
    General Barr. Yes.
    Senator Booker. In 2018, Attorney General Jeff Sessions 
rescinded the Cole Memorandum, which provided guidance to U.S. 
Attorneys that the Federal marijuana prohibition should not be 
enforced in States that have legalized marijuana in one way or 
the other. Do you believe it was the right decision to rescind 
the Cole Memorandum?
    General Barr. My approach to this would be not to upset 
settled expectations and the reliance interests that have 
arisen as a result of the Cole Memoranda, and investments have 
been made and so there has been reliance on it. So I do not 
think it is appropriate to upset those interests.
    However, I think the current situation is untenable and 
really has to be addressed. It is almost like a back-door 
nullification of Federal law. To me it is a binary choice. 
Either we have a Federal law that applies to everybody----
    Senator Booker. I am sorry to interrupt you, sir, but how 
would you address that? Do you think it is appropriate to use 
Federal resources to target marijuana businesses that are in 
compliance with State laws?
    General Barr. No, I said that--that is what I said. I am 
not going to go after companies that have relied on the Cole 
Memoranda. However, we either should have a Federal law that 
prohibits marijuana everywhere--which I would support myself 
because I think it is a mistake to back off on marijuana. 
However, if we want a Federal approach, if we want States to 
have their own laws, then let us get there and let us get there 
the right way.
    Senator Booker. And if you do not mind, I am going to just 
move on, but it is good to hear, at least, the first part of 
what you said.
    During your previous tenure as Attorney General, you 
literally wrote the book on mass incarceration or, at least, 
wrote this report, ``The Case for More Incarceration.'' You 
argue that we as a Nation were ``incarcerating too few 
criminals.''
    General Barr. In those days.
    Senator Booker. And that the solution was more 
incarceration for more people.
    General Barr. Excuse me.
    Senator Booker. Please, sir.
    General Barr. For chronic violent offenders and gun 
offenders.
    Senator Booker. Well, I mean, that is the challenge, sir, 
and you argued against the bipartisan legislation in 2015 quite 
strenuously.
    General Barr. I did.
    Senator Booker. But that is not the nature of incarceration 
in this country. In Fiscal Year 2016, only 7.7 percent of the 
Federal prison population was convicted of violent crimes. 
Overwhelmingly, what was initiated in those times that led to 
an 800-percent increase in the Federal prison population, 
overwhelmingly that was nonviolent drug offenders. Right now 
our Federal prison population is overwhelmingly nonviolent--
47.5 percent of the Federal prison population are incarcerated 
for drug offenses. And I guess hearing your arguments then and 
hearing your arguments against the bipartisan legislation that 
we brought out of the Committee in 2016----
    General Barr. But, Senator, I think that is wrong, what you 
just said, okay? I think when you have violent gangs in the 
city killing people, murder and so forth and so on, sometimes 
the most readily provable charge is their drug-trafficking 
offenses rather than proving culpability of the whole gang for 
murder. So you can take out--you can take out a gang on drug 
offenses, and you could be taking out a lot of violent 
offenders. Do you think that the murders in Chicago are--they 
are related to gangs, and gangs involved in----
    Senator Booker. And, sir--and, again, we can get into the 
data if you would like, and I would like to get some more 
pointed questioning. But this is the sort of--these are sort of 
the tropes that make people believe that in inner cities we 
should have such profound incarceration rates. And I would like 
to ask you specifically about that data because I think it is 
language like that that makes me kind of concerned and worried.
    You said you had not reviewed--you said earlier in your 
testimony that you had not reviewed criminal justice data about 
this actual issue of incarceration versus non-incarceration. I 
just want to know, will you commit to commissioning a study on 
just the concerns that we are talking about right now about the 
efficacy of reducing mass incarceration and publish those 
results? Would you be willing to do such a study yourself?
    General Barr. Well, as I understand it, I have been told 
that there is a lot of data to support the First Step Act.
    Senator Booker. Yes, and that First Step Act goes directly 
toward addressing a lot of the problems we have had in mass 
incarceration. And so if you are saying that it is necessary to 
deal with violence in communities by overincarcerating, here is 
a bipartisan group of Senators that is working toward reducing 
mass incarceration. And that is why I think it is very 
important--which I appreciate you saying you did not know 
because you had not reviewed the data. I think it is very 
important that you review the data and understand the 
implications for the language that you are using, which brings 
up this language of race, which is often not said explicitly, 
but when you talk about Chicago in the way you just did, it 
brings up racial fears or racial concerns. And you stated that, 
``if a Black and a White''--this is quoting you directly--``are 
charged with the same offense, generally they will get the same 
treatment in the system and ultimately the same penalty.'' You 
previously quoted, and I quote you again, ``There is no 
statistical evidence of racism in the criminal justice 
system.'' Do you still believe that?
    General Barr. No, what I said was that--I think that is 
taken out of a broader quote, which is, the whole criminal 
justice system involves both Federal but also State and local 
justice systems. And I said there is no doubt that there are 
places where there is racism still in the system. But I said 
overall I thought that, as a system, it is working--it does 
not--it is not predicated on----
    Senator Booker. So can I press you on that, overall the 
system treats Blacks and Whites fairly? From my own experience, 
I have lived in affluent communities; I have gone to college 
campuses. There are certain drug laws applied there that are 
very different in the inner-city community in which I live. But 
let us talk stats; let us not talk our personal experiences. 
And so I have sat with many of my colleagues and many 
conservatives who readily admit what the data shows. And so I 
have a whole bunch of reports which I will enter into the 
record from nonpartisan, bipartisan groups, even conservative 
leaders, talking about the rife nature of racial bias within 
the system.
    For example, the Federal Government's own data, the U.S. 
Sentencing Commission's research shows that Federal prosecutors 
are more likely to charge Blacks with offenses that carry harsh 
mandatory minimum sentences than similarly situated for Whites. 
The Federal Government's own data shows that Black defendants 
were subject to three strikes sentencing enhancements at a 
statistically significant higher rate, which added on average 
over 10 years to their sentences.
    And so with numerous researchers having found stunning 
racial disparities rife throughout our system and in the 
Federal system which you will be the chief law enforcement 
officer of, and primarily for drug--overwhelmingly for drug 
laws--for example, I do not know if you are aware or not of the 
Brookings study that found that Blacks are 3.6 times more 
likely to be arrested for selling drugs, despite the fact that 
Whites are actually more likely to sell drugs in the United 
States of America, and Blacks are 2.5 times more likely to be 
arrested for possession of drugs when there is no difference 
racially in America for the usage and possession of drugs in 
the United States.
    I do not know if you are--are you familiar with the 
Brookings study?
    General Barr. No, I am not.
    Senator Booker. Okay. So, just to follow up, will you 
commit to commissioning a study examining racial disparities 
and the disparate impacts of the policies that you talked about 
that led to mass incarceration, the policies that you defended 
when you criticized the bipartisan 2015 sentencing reform 
legislation, will you commit to, at least, as the most 
important law enforcement officer in the land, to studying 
those well-documented racial disparities and the impacts it 
has?
    General Barr. Of course, I will commit to studying that, 
and I will have the Bureau of Justice Statistics pull together 
everything they have. And if there is something lacking, I will 
get that. And I am interested in State experience. But when I 
looked at--I think 1992 was a different time, Senator. The 
crime rate had quintupled over the preceding 30 years, and it 
peaked in 1992. And it has been coming down since 1992.
    Senator Booker. And, sir, I just want to say, I was a young 
Black guy in 1990s, I was a 20-something-year-old, and 
experienced a dramatically different justice system in the 
treatment that I received. And the data of racial disparities 
and what it has done to Black--because you literally said this 
about Black communities, and I know that your heart--I know 
that your heart was in the right place. You said that, ``Hey, I 
want to help Black communities.'' This is what you were saying: 
``The benefits of incarceration would be enjoyed 
disproportionately by Black Americans living in inner cities.'' 
You also said that, quote, ``A failure to incarcerate hurts 
Black Americans most.''
    General Barr. And I will tell you what----
    Senator Booker. And I just want to ask a yes-or-no question 
because I have seconds left. Do you believe now, 30, 40 years 
of mass incarceration, targeted disproportionately toward 
African Americans, harsher sentences, disproportionately 
represented in the criminal justice system, with the American 
Bar Association talking about once you have been incarcerated 
for even a low-level drug crime, there are 40,000 collateral 
consequences that impact your life--jobs, Pell grants, loans 
from banks. Do you think, just ``yes'' or ``no,'' that this 
system of mass incarceration has disproportionately benefited 
African-American communities? ``Yes'' or ``no,'' sir.
    General Barr. I think the reduction in crime has, since 
1992, but I think that the heavy drug penalties, especially on 
crack and other things, have harmed the Black community, the 
incarceration rates have harmed the Black community.
    Senator Booker. And I would just conclude to my Chairman 
and partner, thank you, sir, on this, because I am really 
grateful for this bipartisan group, the Heritage Foundation, I 
have spoken at the AEI Conference, just found such great 
partnership. But I worry about the highest law enforcement 
officer in the land and some of the language I still hear you 
using that goes against the data and that you are going to be 
expected to oversee a justice system that you and I both know 
needs the faith and confidence of communities that has 
dramatically lost that confidence because of implicit racial 
bias. And the DOJ--and I will give you a chance to respond. The 
DOJ itself has said, mandated implicit racial bias training, 
and I hope that is something that you will agree to do.
    But this is the thing I will conclude on, that we live on a 
planet Earth where you can tell the most about a nation by who 
they incarcerate. In Turkey, they incarcerate journalists. 
Thank God we do not do that here, even though they have been 
called, ``the enemy of the people.'' In Russia, they 
incarcerate political opponents. I am glad we do not do that, 
even though with chants of, ``Lock her up.'' But you go into 
the American criminal prisons, sir, and you see the most 
vulnerable people. You see overstigmatized mentally ill people 
clogging our system. You see overstigmatized addicted people 
clogging our system. You see a system where, as Bryan Stevenson 
says, it treats you better if you are rich and guilty than if 
you are poor and innocent. And you see disproportionately, 
overwhelmingly for drug crimes, African Americans and Latinos 
being incarcerated.
    The importance of your job--and I will ask you this last 
question, because you have not met with me yet. You have given 
that courtesy to others. Would you please meet with me in my 
office so you and I can have a heart-to-heart on the urgency, 
the cancer on the soul of our country's criminal justice 
system, is the disproportionate impact of that system on those 
vulnerable communities, including women over 80 percent of 
whom, the women we incarcerate, are survivors of sexual trauma? 
Can you and I sit down to have a longer conversation than these 
10 minutes will allow on this issue?
    General Barr. I would very much welcome that, Senator. You 
know, my experience back in 1992, when sort of blood was 
running on the streets all over the United States, my ideas 
were actually first formed when I went to Trenton, and the 
African-American community there essentially surrounded me and 
was saying, ``Look, we are in our golden years. We are trying 
to enjoy our golden years, and we cannot even go outside our 
house. We have bars on our house and so forth. Please, these 
gangs are running roughshod.''
    So I developed this idea called ``weed and seed,'' and my 
attitude was, look, let us stop arguing past each other, let us 
attack root causes and let us get tough on crime. And I felt 
that for programs to work, like after-school programs and so 
forth, for housing projects to be safe, we needed strong 
enforcement in those communities, and we needed those other 
programs to be brought to bear community by community. And it 
had to be done with the leadership of the community, and that 
was this idea of the partnership. And it caught on. It was very 
popular. And, in fact, it was continued by a lot of the U.S. 
Attorneys in the Clinton administration after the Bush 
administration was out. And it actually, under a number of 
different names, has continued.
    So I am very conscious of the issues you raise, but my goal 
is to provide safe--was, and my motivation was to provide 
safety in these neighborhoods for the people trying to raise 
their children and for the older people and so forth. The 
neighborhoods are--you know, the crime rate has gone down. I 
make a distinction between the way we treat these chronic 
violent offenders and the drug penalties. The drug penalties, 
as I said, very high and Draconian, and in some cases that 
might have been necessary. But I supported revisiting the 
penalty structure.
    Senator Booker. And, sir, I am the only United States 
Senator that lives in an inner-city, low-income community. I 
have had shootings in my neighborhood, a young man killed last 
year on my block with an assault weapon. I know this urgent 
need for safety and security, and actually, I am not saying I 
am necessarily going to vote for you one way or the other, but 
I believe your intentions are well, but I think that some of 
the things you have said in the past lead me to believe that 
your policies might be misguided. In the way that Mike Lee and 
Cornyn and Graham and Grassley have been incredible partners in 
changing the American reality, I hope that you can be that kind 
of partner, too, and I hope that you and I can have a good 
heart-to-heart conversation, trusting that we both want the 
same end for all communities, safety and security, but a 
justice system that is fair to all American citizens.
    General Barr. I would welcome that, Senator.
    Senator Booker. Thank you, sir.
    Chairman Graham. Senator Blackburn.
    Senator Blackburn. Thank you, Mr. Chairman.
    And we appreciate your time today, Mr. Barr, and that of 
your family. I told Liam that Grandpa ought to give him 
whatever he wants to eat for dinner tonight.
    [Laughter.]
    Senator Blackburn. He has behaved very well and done a 
great job.
    Going back to something that Senator Kennedy mentioned on 
leaks and you said you would address that by 
compartmentalization, talk for just a little bit about your 
vision for the Department of Justice as you look at 
implementing first steps: addressing violent crime, dealing 
with opioids, dealing with online sex trafficking, the 
antitrust issues, the Mueller investigation, all the things we 
have talked about. How do you intend to lead that Department 
that is very different from the DOJ that you led previously?
    General Barr. In some ways it is different; in some ways it 
is not so different. But my basic approach to things is to get 
good lieutenants, good subordinates who are running different 
parts of the agenda, and give them, you know, their marching 
orders and watch them perform and get involved to the extent I 
can to make sure that we are pushing the priority things ahead.
    One of the interesting things about the Department of 
Justice that is a little different than many agencies is one of 
our--our first priority has to be to enforce all the laws. It 
is not like we can just come into work and say, ``Well, we are 
going to just pay attention to this, so we are not going to 
enforce all these other laws.'' We have to cover the 
waterfront. That is number one.
    But beyond that, what I tried to do last time and what I 
would try to do if you confirm me this time would be, you know, 
to make sure that even though we are enforcing things across 
the board, we have an understood set of priorities and we put 
the effort behind those priorities, and we define clearly what 
we are trying to achieve.
    So, for example, in the area of civil rights, when I was 
Attorney General last time--and I had discussed this with 
Senator Kennedy--I said, you know, we are not doing enough on 
housing discrimination. Housing is very important. It 
determines where you go to school, you know, the safety and so 
forth. And I set up a program. We hired testers and stuff like 
that. And we had a very clear goal and priority for that, and 
we launched it. And that is what--you know, that is what I plan 
to bring in area after area, defining what we are trying to 
accomplish and give the people the tools to get it done and 
give them the direction and motivation to get it done.
    Senator Blackburn. You have mentioned the Mueller 
investigation, your relationship with Mr. Mueller, having him 
finish the investigation. If we were to ask him about you, do 
you think his assessment would be that you are a fair and 
impartial leader that he can trust, that we can trust to lead 
the DOJ?
    General Barr. I hope he would say that, but I am not going 
to put--I am not going to put words in his mouth.
    Senator Blackburn. Words in his mouth, yes. We talked about 
technology and my interest in that area. And you have had--Mr. 
Lee and Mr. Hawley have also talked about antitrust and some of 
the enforcement there, big tech and Silicon Valley, and the 
power that is harbored there. They are gobbling a lot of their 
competitors. You have got Facebook and Google that are claiming 
to only be platforms for their users, but they are also getting 
into the content business. And that is why Facebook bought 
Instagram and WhatsApp, and Google bought YouTube and DeepMind 
for AI technology. So their tentacles are spreading, and they 
are moving away from a platform into that content into 
artificial intelligence, and their market dominance is causing 
some problems.
    And as we discussed, these companies are violating users' 
privacy. They are recklessly sharing their users' personal data 
with third parties. This is done without explicit permission. 
We cannot let these companies collude to drive out competitors, 
or to ignore vital data privacy protections, and big tech 
operated really without regard to the law.
    And you and I talked a little bit about one of the edge 
provider CEOs who, last spring, when he came before a House 
Committee--he was also here before this Committee--there was 
even reference to how--I discussed how he subjectively 
manipulated--or asked if he subjectively manipulated 
algorithms, and how there was concern that some of these 
platforms referencing a statement he had made functioned more 
like a government than a platform or an information service. So 
how--do you intend to begin this conversation and begin this 
work addressing the antitrust provisions with big tech?
    General Barr. Yes. You know, as I mentioned, I am 
interested in these issues and would like to have them fully 
ventilated at the Department with the Antitrust Division and 
also with, you know, outside experts so I can have a better 
understanding. I do want to say, however, that I am going to be 
recusing myself from AT&T because----
    Senator Blackburn. Time Warner, yes.
    General Barr. Yes, because now Time Warner is part of 
AT&T----
    Senator Blackburn. Right.
    General Barr [continuing]. And I was told that under the 
rules, that will carry over to AT&T. So until I talk to the 
ethics advisors at the Department, I do not want to get too far 
ahead of my skis and sort of talking about the tech area. But 
as a general policy matter, I want to get into this area 
because I think it is on a lot of people's minds----
    Senator Blackburn. Absolutely.
    General Barr [continuing]. And how the law relates to 
these--you know, to these developments that we see with these 
large companies. And I do not mean to cast aspersions on any 
particular company or executive.
    Senator Blackburn. Well, and I think for many of us, if you 
are looking at a merger and they cannot prove the efficiencies 
and they cannot prove that there will be increased competition, 
then it does raise some questions as to how those would be 
evaluated. And let me go to one other issue that is developing 
on this privacy front. It is a data privacy problem that I do 
not think a lot of people realize, and it is the embedding of 
hardware and then the geolocation, and sometimes that 
information is sold.
    Now, it folds into the encryption issue because law 
enforcement has a very difficult time getting the information 
from devices and from the services on encryption. But we are 
now aware that many times bounty hunters will be paid a few 
hundred dollars, and then they can go in and find the location 
of that phone. And some of these Android operating systems are 
specific enough that they do the barometric pressure readings, 
and they can tell you exactly where in a building that this 
phone is located.
    So I would hope that you are going to look at the legal 
procedures that surround this kind of data and this kind of 
tracking and the privacy provisions that are going to pertain 
to consumers as they use these devices.
    General Barr. Yes.
    Senator Blackburn. Good. Thank you. Let me move on. Senator 
Ernst talked a little bit about the online sex trafficking. In 
Tennessee, we have followed this issue so closely because our 
TBI carried out an operation where they apprehended 22 
traffickers. Twenty-two men were arrested for sex trafficking, 
and much of that work--and the work I have done in the House in 
the online sex trafficking, working to shut down BackPage.com, 
and to keep our children and keep women safe from these online 
traffickers.
    And, you know, we were so pleased that last April the 
Justice Department seized BackPage and charged seven defendants 
for facilitating prostitution and sex trafficking crimes. And 
what we know is that when you shut down a site like BackPage, 
the big one, then you have a lot of small sites that 
proliferate. And we know that it is going to really take a lot 
of effort to arrest this situation so that you are not 
constantly playing whack-a-mole with these. So I would hope 
that you will be committed to putting an end to this kind of 
violence and online trafficking.
    General Barr. Yes, and I--you know, and I know how focused 
you are on it and the leadership you have provided over the 
years on it. I do not know that much about the problem and also 
about what resources are currently being devoted to it in the 
Department, but I would like to come by----
    Senator Blackburn. Great.
    General Barr [continuing]. And talk to you further about it 
once I get exposed to it, if I am confirmed. Okay.
    Senator Blackburn. Thank you.
    My time has expired. Mr. Chairman, I yield back. Thank you, 
Mr. Barr.
    Chairman Graham. Senator Harris.
    Senator Harris. Thank you, Mr. Chairman, and 
congratulations. And to you, congratulations on your 
nomination, and thank you for your lifetime of dedication to 
public service.
    General Barr. Thank you.
    Senator Harris. In response to a question that Senator 
Ernst asked, you mentioned that we need barriers across the 
border to deal with drug trafficking. Are you advocating a 
wall?
    General Barr. Well, I think I am advocating a system, a 
barrier system in some places, and I would have to find out 
more about the situation since I last visited the border.
    Senator Harris. From what you know, do you believe that a 
wall would address the concern that you have about drug 
trafficking?
    General Barr. Well, a wall certainly would, but I--in some 
places it may not be necessary to have, you know, what most 
people imagine as a wall.
    Senator Harris. Are you aware that most of the drugs coming 
into the United States, and particularly through Mexico, are 
entering through ports of entry?
    General Barr. Yes, but they also come elsewhere, and so do 
illegal immigrants cross the border and----
    Senator Harris. But in particular on the subject of drug 
trafficking, are you aware that most of the drugs that are 
trafficked into the United States enter through points of 
entry?
    General Barr. Yes.
    Senator Harris. Have you recently or ever visited a point 
of entry--a port of entry in the United States?
    General Barr. Not recently.
    Senator Harris. When was the last time?
    General Barr. I used to spend a lot of--well, when I was 
Attorney General.
    Senator Harris. So a couple of decades ago.
    General Barr. Almost 30 years.
    Senator Harris. Okay. I would urge you to visit again if 
and when you are confirmed. I think you will see that a lot has 
changed over the years. Given the status quo on marijuana and 
the fact that 10 States, including the District of Columbia, 
have legalized marijuana, and given that the status quo is what 
it is, and, as you rightly described, we have Federal laws, and 
then there are various States that have different laws, if 
confirmed, are you intending to use the limited Federal 
resources at your disposal to enforce Federal marijuana laws in 
the States that have legalized marijuana?
    General Barr. No. I thought I answered that by saying that, 
you know, to the extent people are complying with the State 
laws, you know, and distribution and production and so forth, 
we are not going to go after that.
    Senator Harris. Okay.
    General Barr. But I do feel we cannot stay in the current 
situation because, I mean, if--you can imagine any kind of 
situation. Can an existing administration and an Attorney 
General start cutting deals with States to say, well, we are 
not going to apply the Federal law, you know--some gun law or 
some other thing, say, well, we are not going to apply it in 
your State----
    Senator Harris. I appreciate your point, but specifically, 
and I appreciate you answering the question, you do not intend 
to use the limited Federal resources at your disposal to 
enforce Federal marijuana laws in those States or in the 
District of Columbia that have legalized marijuana.
    General Barr. That is right.
    Senator Harris. Thank you.
    General Barr. But I think the Congress of the United 
States--it is incumbent on the Congress to regular--you know, 
make a decision as to whether we are going to have a Federal 
system or whether it is going to be, you know, a central 
Federal law----
    Senator Harris. I agree with you----
    General Barr [continuing]. Because this is breeding 
disrespect for the Federal law.
    Senator Harris [continuing]. I agree with you. I believe 
Congress should act. I agree. Earlier today, Senator Leahy 
asked whether you would follow the recommendation of career 
Department of Justice ethics officials on whether you should 
recuse yourself from the Mueller investigation. You said, ``I 
will seek advice of the career ethics personnel, but under the 
regulations, I make the decisions as the head of the Agency as 
to my own recusal.'' You also said to Senator Klobuchar that 
you do not want to ``abdicate your duty since a recusal 
decision would be yours.'' So my question is, would it be 
appropriate to go against the advice of career ethics officials 
that have recommended recusal, and can you give an example of 
under what situation or scenario you would go against their 
recommendation that you recuse yourself?
    General Barr. Well, there are different--there are 
different kinds of recusals. Some are mandated, for example, if 
you have a financial interest, but there are others that are 
judgment calls.
    Senator Harris. Let us imagine it is a judgment call, and 
the judgment by the career ethics officials in the Agency are 
that you recuse yourself.
    General Barr. Then it----
    Senator Harris. Under what scenario would you not follow 
their recommendation?
    General Barr. If I disagreed with it.
    Senator Harris. And what would the basis of that 
disagreement be?
    General Barr. I came to a different judgment.
    Senator Harris. On what basis?
    General Barr. The facts.
    Senator Harris. Such as?
    General Barr. Such as whatever facts are relevant to the 
recusal.
    Senator Harris. What do you imagine the facts would be that 
are relevant to the recusal?
    General Barr. They could be innumerable. I mean, there are 
a lot of--you know, for example, there is a rule of necessity, 
like who else would be handling it. It could be----
    Senator Harris. Do you believe that would be a concern in 
this situation if you are--if the recommendation is that you 
recuse yourself from the Mueller investigation, do you believe 
that would be a concern, that there would be no one left to do 
the job?
    General Barr. No, I am just--well, in some--in some 
contexts, there very well might be because of, you know, the--
who is confirmed for what and who is in what position. But 
apart from that, it is a judgment call, and the Attorney 
General is the person who makes the judgment, and that is what 
the job entails.
    Senator Harris. As a general matter that is true, but 
specifically on this issue, what--under what scenario would you 
imagine that you would not follow the recommendation of the 
career ethics officials in the Department of Justice to recuse 
yourself from the Mueller investigation?
    General Barr. If I disagreed with them.
    Senator Harris. Okay. We will move on. Senator Feinstein 
previously asked you whether you would put your June 2018 
memo--whether you put together that memo based on non-public 
information. Your response was that you ``did not rely on 
confidential information.'' Are you creating a distinction 
between non-public information and confidential information?
    General Barr. No.
    Senator Harris. Okay. In response to a question from 
Senator Durbin about harsh sentencing laws, you stated in 
response to the crack epidemic that community leaders back when 
you were Attorney General previously asked for these type of 
sentencing laws. Now, my understanding is that many of these 
community leaders at that time, and I was a young prosecutor 
during those days, knew and said even then that the crack 
epidemic was a public health crisis, and that that was really 
the chorus coming from community leaders, not that they wanted 
drug-addicted people to be locked up. And similarly, now we can 
find that in most of the communities afflicted by the opioid 
crisis, they are similarly, these community leaders, asking 
that it be addressed for the public health crisis that it is.
    So my question is, if and when you are confirmed in this 
position, would you agree that when we talk about the opioid 
crisis, the crisis in terms of methamphetamine addiction, or 
any other controlled substance, that we should also acknowledge 
the public health ramifications and causes, and that there is a 
role for the chief law enforcement officer of the United States 
to play in advocating for a public health response and not only 
a lock them up response?
    General Barr. Well, I think the commission that was chaired 
by Governor Chris Christie came up with a three-pronged 
strategy, and I think that recognized that part of it was 
treatment and education, recovery, and prevention, but the 
third prong of it was enforcement and interdiction, and that is 
the job of the Department of Justice. The Department of Justice 
cannot be all things to all people and----
    Senator Harris. Sir, but I would suggest to you that in the 
intervening almost 30 years since you were last Attorney 
General that there is consensus in the United States that when 
we look at the drug epidemic, whatever the narcotic may be, 
that there is now an understanding that the war on drugs was an 
abject failure, that America, frankly, has a crisis of 
addiction, and that putting the limited resources of our 
Federal Government into locking up people who suffer from a 
public health crisis is probably not the smartest use of 
taxpayer dollars. So, if confirmed, I would ask that you take a 
look at the more recent perspective on the drug crisis that is 
afflicting our country, and then I will move on.
    Today there is a billion dollar----
    General Barr. Excuse me. May I just say something in 
response to that----
    Senator Harris. Sure.
    General Barr. Which is, I was just making the observation 
that the job of the Department of Justice is enforcement. I 
recognize there are a lot of dimensions to the problem, and 
that is why you have places like HHS. The Department cannot 
be--you know, cannot do the job of everybody.
    Senator Harris. Sir, but I would remind you what you said 
because I agree with it. You said earlier the role of the 
Attorney General, one, is to enforce the rule of law; two, is a 
legal advisor to the President and the Cabinet; and three, is 
policy. This is a policy issue, so I would urge you to 
emphasize that role and power that you will have if confirmed 
and think of it that way.
    General Barr. I see. I see.
    Senator Harris. I would like to talk with you about private 
prisons. There is a billion-dollar private prison industry that 
profits off of incarcerating people, and, frankly, as many as 
possible. By one estimate, the two largest private prison 
companies in the United States make a total combined profit of 
$3.3 billion--that is with a ``B''--dollars a year. In August 
2016, the Justice Department issued a report on the Bureau of 
Prisons' use of private prisons that concluded, ``Contract 
prisons incurred more safety and security incidents per capita 
than comparable Bureau of Prisons institutions.''
    Given this conclusion that prisons run by for-profit 
companies have been found to be less safe than Government-run 
prisons, if confirmed, will you commit to no longer renew 
private prison contracts?
    General Barr. Whose report was this, BOP?
    Senator Harris. This was--yes, from the Justice Department.
    General Barr. BOP? Yes, I would like to--you know, I would 
obviously look at that report, yes.
    Senator Harris. Okay. And then----
    General Barr. But I am not committing--I mean, I would want 
to see what the report says, yes.
    Senator Harris. Sure. And then I would appreciate a follow-
up when you have a chance to read it.
    Senator Harris. Thank you. My time is up.
    Chairman Graham. Senator Tillis.
    Senator Tillis. Thank you, Mr. Chair.
    Mr. Barr, thank you for being here, and, Liam, your 
granddaddy is doing good. Mr. Barr, I want to go back because 
it is a long time. I think I am the last person in the first 
round, so I think we have to go back and maybe have you restate 
some things that you said earlier before I get to a few other 
things that I hope I have time to cover on intellectual 
property, Americans with Disabilities Act, and a GAO report 
back from 2014.
    I do have to ask a question while Senator Kennedy is here 
because I do not think he covered the full landscape. He asked 
about anybody in Government, anyone in the Western Hemisphere, 
but did you, in fact, talk to anybody in the Eastern Hemisphere 
with respect to the Mueller probe?
    [Laughter.]
    General Barr. No, I did not.
    Senator Tillis. Okay. Thank you. We got that--we got that--
    
    Senator Kennedy. Ask him about the Milky Way.
    [Laughter.]
    Senator Tillis. We got that closed out. You know, would you 
go back again and please describe for me the--first off, I 
think we have all--you have made it very clear in spite of the 
fact some people thought that you had coaching and some of the 
citations in the memo that you wrote, that this is a memo you 
wrote on your own. Can you explain to me, again, the motivation 
behind the memo, what precisely you were trying to communicate, 
just for the record?
    General Barr. Yes, Senator. So the public commentary and 
media commentary was sort of dominated by discussion of 
obstruction of justice, and everyone was throwing out 
obstruction theories and so forth. And the statute that relates 
to obstructing a proceeding that is not yet in being--that is, 
some future proceeding--is 1512. And my view was--of the 
particular provision, 1512(c), was, that it requires--what it 
covers is obstruction by means of impairing evidence that, you 
know, some evidence is going to be needed in a future 
proceeding, and you impair it either by making it not available 
or by corrupting it in some way, altering it, destroying it. 
That is what I thought the scope of that statute dealt with, 
and to my knowledge, the only cases ever brought under it 
involved the destruction of evidence.
    Based on public reports, which may be completely wrong, I 
thought that the--it was being--that the Special Counsel may be 
trying to interpret the statute to say that any act, not 
destruction of evidence or anything like that, but any act that 
influences a proceeding is a crime if it is done with a bad 
intent. My concern there is, that, unlike something like 
bribery statute or document destruction where you prohibit it, 
that is a bad act. You do not need to be performing that bad 
act if you are a Government official.
    But if you say that any act that influences a proceeding is 
a crime if you have a bad state of mind, that is what the 
people at Justice Department do every day of the week is 
influence proceedings. That is what they are there for. And 
what I was worried about is, the impact on the Department and 
other agencies if you say to someone, if you, in supervising a 
case or handling a case, make a decision with a--for a bad 
intent, it can be a crime. And I thought that that would 
essentially paralyze the Government.
    So just to give an example, you know, Eric Holder made some 
pardon recommendations during the Clinton administration which 
were controversial. Incidentally, I supported Eric Holder for 
his position. But could someone come along then later and say, 
well, if you did that for a political reason to help Hillary 
Clinton run in New York, that is a crime and when he--when he 
is exercising his prerogatives, you know, in that situation? 
And you can just see how that could paralyze Government, and 
that was my concern.
    Senator Tillis. You also referred to your concerns with the 
prosecution of Senator Menendez.
    General Barr. Yes.
    Senator Tillis. Did that weave into that same thought 
process?
    General Barr. Yes, because in that case my concern was that 
they were basically taking activities that were not, you know, 
wrongful acts in themselves. You know, the political 
contributions were lawful political contributions, and the 
things with--you know, the travel on his friend--that was his 
friend for 25 years. They were taking a trip together. And you 
take those kinds of things and then you couple it with official 
action, and then the prosecutor comes along and says, well, we 
are going to look into your mind and see what your subjective 
intent was for performing these two sets of lawful acts, and we 
are going to say, you know, that you are corrupt.
    Senator Tillis. Good.
    General Barr. So I just think that gives too much power to 
the prosecutor, and I think if that kind of--and by the way, 
you know, they have had cases like this for, you know--I mean, 
they have been pursuing things like this, and they have had to 
be slapped down a few times by the Supreme Court on these kinds 
of aggressive things involving, you know, quid pro quos on the 
Hill. So, I----
    Senator Tillis. Let me----
    General Barr. Yes.
    Senator Tillis [continuing]. If I can. Thank you. I just 
thought it was helpful because I think you tried to explain a 
lot of that and you were cut off, so I thought I would use some 
of my time in the first round to ask you that. Also I think 
somebody tried to characterize you as having somehow been 
opposed to any sort of Russia probe or Russia investigations. 
Have you ever gone on record as opposing any of the things that 
we are trying to do to figure out where Russia may have been 
involved in election tampering?
    General Barr. No, and, in fact, in the op-ed piece where I 
said I thought the President was right in firing Comey, I said 
that the investigation was going forward under the supervision 
of Rod Rosenstein.
    Senator Tillis. Yes. Did you also say more than one time 
that you felt like the Special Counsel investigation should 
reach a conclusion, that Special Counsel Mueller should not 
be--that he should be allowed to draw this to a conclusion, 
then he will submit his report, and you are going to do 
everything that you can to present as much of that information 
as you can--as you can to the extent that confidential 
information is not being compromised?
    General Barr. Yes. To the extent that regulations permit 
it, yes.
    Senator Tillis. Did you also say that there is--even a 
scenario--you could not imagine a scenario for cause, but even 
a scenario for cause for you to have to--you would have to take 
under serious consideration before you removed Special Counsel?
    General Barr. That is right.
    Senator Tillis. Yes. Okay.
    General Barr. There has not been a Special Counsel removed 
since Archibald Cox, and that did not work out very well.
    Senator Tillis. Did not work out too well, right. And so, 
and, again, did you also say that under--in no circumstances 
have you had a discussion with the President with respect to--I 
think you said you had a discussion about you had a 
relationship with Mr. Mueller, but no discussion about the 
Special Counsel investigation and your opinions on it with 
respect to any discussions you have had with the President?
    General Barr. Right. That was the first meeting I had with 
the President, and then in November I met with him about the 
Attorney General job. And there was no discussion of the 
substance of the--of the investigation. The President did not 
ask me my views about any aspect of the investigation, and he 
did not ask me about what I would do about anything in the 
investigation.
    Senator Tillis. With respect to the line of the questioning 
about the States that have legalized marijuana either for 
medicinal purposes or recreational purposes, I think what you 
were trying to say in a very, very respectful way is, it is not 
your job to do our job. Is that right? That if we ultimately 
want to provide certainty for these businesses--you have done a 
good job in saying that you disagree with the policy of the 
States, but we are where we are, and you would not want to 
undermine that given that investments have been made, States 
have moved forward.
    But at the end of the day, we should stop talking about it 
here and making it your job. And those Members--I do not happen 
to be one of them--who think that we should take these Federal 
laws off the books, should probably file a bill and try and get 
it done. Is that a fair assessment of your opinion?
    General Barr. That is--that is generally fair, yes.
    Senator Tillis. Okay.
    General Barr. Yes.
    Senator Tillis. Just a few minor things so that we can get 
to the next round. There was a report by the Inspector General, 
in 2014, that had to do with accountability in the Department 
of Justice. I do not expect you to be familiar with this 
report, but there were some very interesting observations there 
about a lack of follow-through on disciplinary action for a 
number of--I think the subtitle of the report was that DOJ 
could strengthen procedures for disciplining attorneys.
    It is something I would commend to you and maybe dust off 
and see if there have been any actions since this report. I did 
not get a satisfactory answer when it was contemporary with the 
nominee from the Obama administration for the position you are 
seeking, which is one of the reasons why I opposed the 
nomination.
    General Barr. Actually, I--you know, I think very highly of 
Inspector General Horowitz, and I have not seen that report. 
But that issue is one that I plan to take up with him.
    Senator Tillis. Yes. And then, just so that I do finish on 
time versus pretend I am going to and go 2 minutes early--over, 
one, I want to get your recommendation on intellectual 
property. I think we have more work to do to give the 
Department of Justice tools to go after bad actors, which are 
China, Russia, India, a number of other countries, Brazil, that 
are stealing our intellectual property. I also want to talk 
about what I think is the exploitation of the Americans with 
Disabilities Act, particularly around website access. The web 
did not exist, and now we have attorneys filing a number of 
frivolous lawsuits. I would like to get some feedback on that 
after you get confirmed.
    [The information appears as a submission for the record.]
    Senator Tillis. And finally, I want to make sure that you 
recognize in the First Step Act that faith-based organizations 
that have proven to help reduce recidivism are absolutely in 
play for the First Step Act, and hopefully we can make sure the 
Department of Justice moves forward with that. Thank you, Mr. 
Chair.
    Chairman Graham. Thank you.
    General Barr. Thank you, Senator.
    Chairman Graham. I believe that is the end of the first 
round. Mr. Barr, are you able to go for a little bit longer?
    General Barr. Sure.
    Chairman Graham. Okay. So we will start--we will do 5 
minutes. As you can tell, I have been pretty liberal with the 
time, but let us try to honor it the best we can.
    Senator Grassley.
    Senator Grassley. Where he left off on working with faith-
based institutions, you were very positive about that?
    General Barr. Absolutely, Senator.
    Senator Grassley. That takes care of my first question.
    Enforcement of the antitrust laws is extremely important to 
ensure that markets are fair and participants do not engage in 
abusive activity harming consumers. I have been particularly 
active in making sure that the Justice Department and the 
Federal Trade Commission carefully scrutinize mergers, as well 
as looking out for anticompetitive behaviors and predatory 
practices in certain sectors of the economy, and particularly 
in my State of Iowa, the agricultural industry. But I am also 
pursuing things in healthcare. In particular, because I will be 
Chairman of the Senate Finance Committee, I am interested in 
making sure that companies in the drug and healthcare 
industries are playing by the rules. Everyone is concerned 
about the high cost of healthcare, and especially the 
skyrocketing price of prescription drugs.
    Do you agree that the Justice Department has a very 
important role in this area?
    General Barr. Yes, Senator.
    Senator Grassley. And would you commit to making antitrust 
enforcement a priority?
    General Barr. Yes, it has to be a priority.
    Senator Grassley. Okay. Thank you.
    Now, to a favorite issue of mine, whistleblower protection. 
Whistleblowers, as I told you in my office, are very critical 
to exposing waste, fraud, and abuse. There are our eyes and 
ears on the ground. Their courage, when they have it, and most 
of them do have great courage or they would not come forward to 
expose Government malfeasance, that is how important they are. 
So, I hope I can have you have a favorable view toward the 
opportunity to listen to the whistleblowers, protect them from 
retaliation, and promote a culture that values the important 
contribution from those patriotic people.
    General Barr. Absolutely, Senator.
    Senator Grassley. And now to the Foreign Agents 
Registration Act. I hope you understand there have been very 
few prosecutions under the Foreign Agents Registration Act 
since 1938, and so that lack of enforcement, I think, is 
getting, obviously, even since the Mueller investigation, 
getting a lot more attention now. But we had a hearing on it 
before the Committee, and I think it proves that we should see 
more transparency and more enforcement against bad actors, not 
less.
    Do you agree that the Foreign Agent Registration Act is a 
critical national security and public accountability tool? And 
if confirmed, will you commit to make sure that that act is a 
top priority?
    General Barr. Yes, Senator.
    Senator Grassley. Okay. So then getting back to the 
legislation that I think will improve that 1938 Act, I 
introduced the Disclosing Foreign Influence Act to improve 
transparency, accountability, and enforcement. You have not 
probably read that Act, but I would like to work with you even 
though it is not in this Committee. It is in the Foreign 
Relations Committee. I would like to have you work with us so 
it is something that we can pass and make sure that this law is 
more useful than it has been over the last 80 years.
    I support the Freedom of Information Act and the public 
disclosure of Government records. Transparency yields 
accountability. You hear me say that all the time, and that is 
true no matter who is in the White House. When I was Chairman 
of the Committee, I helped steer the FOIA Improvement Act into 
law, which creates a presumption of openness, and that 
presumption of openness is a very important standard. The 
Justice Department oversees the Federal Government's compliance 
with FOIA, so I hope you would agree that FOIA is an important 
tool for holding Government accountable. And if confirmed, 
then, would you make sure it is a top priority to make FOIA and 
the faithful and timely implementation of the 2016 amendments a 
top priority?
    General Barr. Yes, we will work hard on that.
    Senator Grassley. Because you know what really happens 
within the bowels of the bureaucracy. It just takes them 
forever because maybe something is going to embarrass someone, 
so they do not want it out in the public and you get all sorts 
of excuses. We have got to do away with those excuses.
    One way to make FOIA work better is by reducing the number 
of requests. This will be my last question. One way to make 
FOIA work better is by reducing the number of requests that 
have to be made in the first place. That is why I am a strong 
advocate for improved proactive disclosure. If confirmed, will 
you commit to help advocate for more proactive disclosure of 
Government records? Now, that is not just by the Justice 
Department, but because you are the Department's top dog in 
this particular area in the Federal Government overall?
    General Barr. Yes, Senator.
    Senator Grassley. Thank you.
    Chairman Graham. Senator Feinstein.
    Senator Feinstein. Mr. Barr, I see you have staying power, 
and I see it runs in the family, and particularly your 
grandson. I would like to send a little care package to him.
    General Barr. Thank you, Senator.
    Senator Feinstein. You are welcome.
    Senator Leahy. He does not have to share it with the rest 
of the family.
    [Laughter.]
    Senator Feinstein. In 1994, you said that gun control is a 
dead end. It will not reduce the level of violent crime in our 
society. The year you made this comment, I introduced a Federal 
assault weapons ban, and the President signed it into law. A 
2016 study shows that compared with the 10-year period before 
the ban was enacted, the number of gun massacres between 1994 
and 2004 fell by 37 percent, and the number of people dying 
from gun massacres fell by 43 percent. In addition, between 
2004 and 2014, there has been a 183 percent increase in 
massacres and a 239 percent increase in massacre deaths.
    Do you still believe that prudent controls on weapons will 
not reduce violent crime? And if so, what is your basis for 
this conclusion?
    General Barr. I think that the problem of our time is to 
get an effective system in place that can keep dangerous 
firearms out of the hands of mentally ill people. That should 
be priority number one, and it is going to take some hard work, 
and we need to get on top of the problem. We need to come up 
with--agree to standards that are prohibiters of people who are 
mentally ill. We have to put the resources in to get the system 
built up the way we did many years ago on the felon records and 
so forth. We have to get the system working. And as I say, it 
is sort of piecemeal a little bit right now. We need to really 
get some energy behind it and get it done, and I also think we 
need to push along the ERPOs so that we have these red flag 
laws to supplement the use of the background check to find out 
if someone has some mental disturbance. This is the single most 
important thing I think we can do in the gun control area to 
stop these massacres from happening in the first place.
    Senator Feinstein. Well, thank you. I would like to work 
with you in that regard.
    In August 2002, the Justice Department's Office of Legal 
Counsel issued opinions authorizing enhanced interrogation 
methods that included waterboarding and extended sleep 
deprivation. These opinions were later withdrawn and the 
Justice Department's Office of Professional Responsibility 
found that they reflected a lack of--this is a quote--``a lack 
of thoroughness, objectivity, and candor,'' end quote.
    In 2015, I worked with Senator McCain to pass legislation 
making clear that enhanced interrogation techniques are 
unlawful and limiting authorized interrogation techniques to 
those listed in the Army Field Manual, and that is the law 
today.
    If confirmed, will you ensure that the Justice Department 
upholds the law?
    General Barr. Yes, Senator. I think that that was an 
important change because I think it gave clarity to the law, 
and I will support that law.
    Senator Feinstein. Thank you. I am delighted to hear that.
    Now, a lot of us have asked about the Mueller report and 
whether you would commit to providing it to Congress. When 
asked, I thought you said yes, but when I tried to clarify it--
I meant the full report, including obstruction of justice--you 
again said yes. Then when Senator Blumenthal asked you about 
the Mueller report, you seemed to make a distinction and said 
you were going to provide your own report based on Mueller's 
report, but not the report--this is the way we understood it--
but not the report he submits at the end of the investigation.
    This is concerning as there is nothing in the regulations 
that prevent you from providing Mueller's report to Congress. 
While the regs refer to a confidential report to be provided to 
the Attorney General, the regs do not say that confidentiality 
means the report cannot be provided to Congress.
    So here is the question. Will you provide Mueller's report 
to Congress, not your rewrite or a summary?
    General Barr. Well, the regs do say that Mueller is 
supposed to do a summary report of his prosecutive and his 
declination decisions and that they will be handled as a 
confidential document, as are internal documents relating to 
any Federal criminal investigation. Now, I am not sure--and 
then the AG has some flexibility and discretion in terms of the 
AG's report.
    What I am saying is my objective and goal is to get as much 
as I can of the information to Congress and the public. These 
are departmental regulations, and I will be talking to Rod 
Rosenstein and Bob Mueller. I am sure they have had discussions 
about this. There is probably existing thinking in the 
Department as to how to handle this. But all I can say at this 
stage, because I have no clue as to what is being planned, is 
that I am going to try to get the information out there 
consistent with these regulations, and to the extent I have 
discretion, I will exercise that discretion to do that.
    Senator Feinstein. Well, I can only speak for this side, 
and maybe not all this side, but we really appreciate that, and 
the degree to which you can get us a prompt report in the 
fullest possible form would be really appreciated. I think 
there has to be a realization, too, among the administration, 
that this is an issue of real concern to people and to the 
Congress, and we should be able to see the information that 
comes out.
    General Barr. I understand.
    Senator Feinstein. So, I am very hopeful. Thank you.
    Let me ask this question on ``enhanced''--did my time run 
out?
    Chairman Graham. Yes, but go ahead.
    Senator Feinstein. On ``enhanced interrogation'': During a 
2005 panel discussion, you said the following about 
interrogating suspected terrorists, and I quote, ``Under the 
laws of war, absent a treaty, there is nothing wrong with 
coercive interrogation, applying pain, discomfort, and other 
things to make people talk, so long as it does not cross the 
line and involve the gratuitous barbarity involved in 
torture,'' end quote. This is a panel discussion on civil 
liberties and security, on July 18, 2005.
    Do you believe that torture is ever lawful?
    General Barr. No.
    Senator Feinstein. Is waterboarding torture?
    General Barr. I would have to look at the legal definition. 
You are talking about under the--right now it is prohibited. So 
the law has definitively dealt with that. I cannot even 
remember what the old law was that defined torture. I would 
have to look at that and then, you know, figure out what is 
involved in it. But it--sorry.
    Senator Feinstein. Keep going. I did not mean to interrupt 
you.
    General Barr. No, it is okay.
    Senator Feinstein. At what point does interrogation cross 
the line to the ``gratuitous barbarity involved in torture''? 
That is your quote.
    General Barr. Well, I was not using that, the gratuitous 
barbarity--that is what I was saying, that torture is 
gratuitous barbarity. So I was not saying that gratuitous----
    Senator Feinstein. Oh. Well, that is helpful, then.
    General Barr. Yes.
    Senator Feinstein. That is helpful.
    General Barr. Yes.
    Senator Feinstein. And you define waterboarding. You know, 
one would think these questions would never be necessary. I 
thought that all my life. And then I found I was wrong and they 
really are. I was Chairman of Intelligence when we did the big 
Torture Report, and what I found and what I saw was really 
indicative of reform.
    So I think for the Attorney General, knowing the position 
is really very important, maybe you could concisely state your 
position on torture.
    General Barr. I do not think we should ever use torture, 
and I think that the clarification that--was it your 
legislation of putting in the Army----
    Senator Feinstein. It was Senator McCain----
    General Barr. The Army Field Manual----
    Senator Feinstein. That is right.
    General Barr [continuing]. Was important to clarifying 
where the line is.
    Senator Feinstein. Thank you.
    Thank you, Mr. Chairman.
    Chairman Graham. Senator Cornyn.
    Senator Cornyn. Mr. Barr, I want to talk about guns, and I 
want to talk about China in the 5 minutes we have together.
    Back in 1992, there was some discussion about your position 
on the Congress' role when it comes to banning certain types of 
semi-automatic weapons. Sometimes people call those assault 
weapons, but in the intervening years, the Supreme Court has 
now spoken in both the Heller and McDonald cases and recognized 
that the Second Amendment confers an individual and fundamental 
right to bear arms.
    Could you bring us up to date from your views in 1992 and 
how they were affected by Heller and McDonald, and what your 
views now are on the Second Amendment?
    General Barr. Sure. I think I opposed an assault weapons 
ban because I felt that that was really sort of the aesthetics 
of the gun. But since that time, Heller has been decided. 
Actually, before Heller, I did work at OLC on this issue, and I 
personally concluded that the Second Amendment creates a 
personal right under the Constitution. It is based on the 
Lockean notion of the right of self-preservation. It is tied to 
that, and I was glad to see Heller come out and vindicate that 
initial view that I had.
    And so there is no question under Heller that the right to 
have weapons, firearms is protected under the Second Amendment 
and is a personal right. At the same time, there is room for 
reasonable regulation, and from my standpoint, what I would 
look for in assessing a regulation is, what is the burden on 
law-abiding people, and is it proportionate to whatever benefit 
in terms of safety and effectiveness will be conferred.
    As I said just a moment ago, let us get down to the real 
problem we are confronting, which is, keeping these weapons out 
of the hands of people who are mentally ill, and I think all 
the rest of this stuff is really essentially rhetoric until we 
really get that problem dealt with in terms of the regulatory 
approaches.
    Senator Cornyn. As our colleague, the Senator for 
Louisiana, Senator Kennedy, likes to say, the Bill of Rights is 
not an a la carte menu. I agree with that, and I also agree 
that there are many facets to these mass violence incidents. 
After the shooting at Sutherland Springs, we found out that the 
background check system, the National Instant Criminal 
Background Check System, was not being used appropriately by 
the U.S. Government, in that case, the Air Force. And if it had 
been, this individual who killed 20 people and injured 26 more 
at a Baptist church right outside of San Antonio, would not 
have been able to legally get his hands on the firearm by 
lying. But certainly the mental health issue that you 
mentioned, we have done work there with----
    General Barr. Fix NICS.
    Senator Cornyn [continuing]. In the Fix NICS area. We have 
also done the expanded pilot programs and assisted outpatient 
treatment for people suffering from mental illness, recognizing 
that it is difficult for any family member to control, 
particularly an adult, but that providing an opportunity to go 
to court and get basically a civil order that would require 
them to comply with their doctor's orders, take their 
medication, and the like. I am thinking of Adam Lanza at the 
Sandy Hook shooting whose mother did not know how to control 
him as he was getting more and more ill, only to have him take 
her very weapon and then kill her and then go murder the 
innocent children.
    On China, do you agree with me that China represents 
probably one of the preeminent economic challenges to America, 
particularly because of their theft of intellectual property 
and their exploitation of gaps in foreign investment that we 
have tried to address through improvement of the CFIUS process, 
the Committee on Foreign Investment in the United States? But 
talk to me a little bit about what you see as the challenge of 
China, both economically and from a national security 
standpoint.
    General Barr. Well, I think they are the paramount economic 
and military rival in the world. I think that they are very 
formidable because they take the long view. They have been 
stealing our technology, and they have been gradually building 
up their military power and investing in new technologies. I 
think from a military standpoint it is very disturbing how much 
progress they are making, largely based on U.S. technology.
    I really thought that Attorney General Sessions was right 
on target in setting up his China initiative in the Department 
to start going after the pirating of American technology and 
other kinds of illegal activities that Chinese nationals are 
involved in here in the United States, and even abroad.
    Senator Cornyn. Would you share my skepticism that Chinese 
telecommunications companies like Huawei and ZTE, in terms of 
how that once in the hands or in the networks of unsuspecting 
countries, that that could be used for espionage purposes and 
theft of intellectual property?
    General Barr. Yes. In fact, even in my old Verizon days, we 
understood the danger and would not use that kind of equipment, 
even though it would be economically attractive.
    Chairman Graham. Before Senator Leahy, I would like to, on 
behalf of Senator Feinstein, introduce into the record letters 
that express opposition and concern from groups like the 
Leadership Conference on Civil and Human Rights, Planned 
Parenthood, People for the American Way, National Education 
Association, Alliance for Justice, NARAL, the National Urban 
League, the National Council of Jewish Women, the Center for 
American Progress, the Human Rights Campaign, and a letter from 
Representative Raul Grijalva--I hope I got his name right--from 
Arizona.
    In support, we have letters from the International 
Association of Chiefs of Police, a letter from the National 
Fraternal Order of Police, numerous letters signed from 100 
former Federal law enforcement national security officials, 
including three former Attorneys General and a lot of U.S. 
Attorneys, and heads of the CIA, FBI, and Department of 
Homeland Security, a letter from the National Narcotics 
Officers Association, a letter from the International Union of 
Police Associations, a letter from Major Cities Chiefs 
Association, a letter from the Association of State Criminal 
Investigative Agencies.
    Without objection, I would like to enter all that into the 
record.
    [The information appears as submissions for the record.]
    Chairman Graham. Senator Leahy.
    Senator Leahy. Thank you, Mr. Chairman.
    You just mentioned being at Verizon during the NSA's 
metadata program known as PRISM and Upstream. It required 
telecom internet providers to hand over huge amounts of data to 
the Government, and you testified in 2003 that the law is clear 
that a person has no Fourth Amendment rights in these records 
left in the hands of third parties, the Third-Party Doctrine.
    I actually disagreed with you at that time, and I hope you 
would now, especially as the Carpenter decision just came down, 
written by Chief Justice Roberts, that this is generally 
requiring the Government to get a warrant to obtain geolocation 
information through the cell site location information. Does 
that change the opinion you had back then?
    General Barr. It sounds like--I have not read that 
decision, Senator. It may modify my views. I would have to read 
the decision. I was going on the Miller decision relating to 
bank records.
    But also you mentioned that you were tying this to the NSA 
collection, and then tying it to my testimony, because----
    Senator Leahy. You had said that a person has no Fourth 
Amendment rights in these records left in the hands of third 
parties, the Third-Party Doctrine.
    General Barr. Yes. That was the----
    Senator Leahy. That seems to be undercut by Carpenter.
    General Barr. I will take a look at that. But I do not want 
people to have the impression that Verizon was involved in 
responding----
    Senator Leahy. Then would you respond for the record?
    General Barr. Yes, sure. Certainly.
    Senator Leahy. And you said back in November 2017 that you 
saw more basis for investigating the Uranium One deal than 
supposed collusion between President Trump and Russia, and by 
not pursuing these matters the Department is abdicating its 
responsibility. Just about everybody has debunked the Uranium 
One controversy. I think probably the nail in the coffin was 
President Trump's biggest supporter, Fox News, who debunked it. 
Did I miss something in there?
    General Barr. No. Actually, that--you will notice that 
there were no quotes around that, and then the next sentence is 
plural, ``matters.'' My recollection of that is, what I think 
it was relating to, the letter and the appointment of Huber in 
Utah to look at a number of things. The point I was trying to 
make there was that whatever the standard is for launching an 
investigation, it should be dealt with evenhandedly, whatever 
that trigger is, should be applied to all.
    I have no knowledge of the Uranium One. I did not 
particularly think that was necessarily something that should 
be pursued aggressively. I was trying to make the point that 
there was a lot out there. I think all that stuff at the time 
was being looked at by Huber. That is my recollection. I may be 
wrong on that.
    Senator Leahy. I think the fact that the investigation has 
been pretty well debunked, we do not have to worry about it in 
the future. But we do have one thing that is happening right 
now.
    The Trump shutdown is in its 25th day. The Justice 
Department has 13,000 FBI agents, 16,000 prison guards, 3,600 
U.S. marshals, 4,300 Drug Enforcement agents--all working 
without pay. The FBI Agents Association I realize is not part 
of the Government, but the Association described the effect of 
this shutdown as a potential national security issue.
    So let me just ask you, in your years of experience in the 
Department, what impact do you believe a long-term shutdown has 
on law enforcement?
    General Barr. Well, I think most people involved in law 
enforcement are--I do not know if the lingo is still the same. 
They used to be called essential. I think it has been changed 
to something else, but I think they are on the job. But 
obviously people would like to see the shutdown ended, and that 
is why people want to see some kind of compromise. You call it 
the Trump shutdown, but it takes two to tango.
    Senator Leahy. Only because he called it that.
    General Barr. Okay.
    Senator Leahy. And I said finally I have got something I 
could agree with him on.
    Senator Shelby and I put together appropriations bills that 
passed almost unanimously in the Senate at a time when we could 
have kept the Government open, at a time when it is hard to get 
something unanimous saying the sun would rise in the East. So I 
was just agreeing with the President.
    But no matter what you call it, is it not a fact that this 
does have an effect on law enforcement?
    General Barr. Well, not having a wall also has an effect on 
law enforcement.
    Senator Leahy. And not paying our law enforcement people. 
We have both had experience in law enforcement, you at the 
national level, me at the State level. If you do not pay our 
law enforcement people, I think there is an effect. We have 
some very dedicated people, but you have some very distracted 
people.
    Do you believe that voter ID laws and similar restrictions 
actually promote democracy by discouraging voters who are not 
really paying attention to what is going on? I am going back to 
a panel discussion you had a few years ago.
    General Barr. What I said there was that in that panel 
discussion there was a lot of people complaining about the lack 
of--that many Americans are not educating themselves about the 
issues and they are passive, and that it was important, and 
also that the voting participation was dropping.
    My position was that the underlying problem is the citizen 
who is not paying attention to public events, not educating 
themselves about the issues and so forth, and that the non-
voting is a symptom, and I did not see driving up participation 
as addressing the primary underlying problem. That was my 
point, and I pointed out that when the Constitution was 
adopted, the turnout was about 33 percent, my understanding. So 
then I said low participation has been a problem from the very 
beginning.
    But my view is that voter turnout should not be 
artificially driven up without also addressing the issue of an 
informed citizenry, which I think is a problem.
    Senator Leahy. Well, we do have voting laws guarding 
against discrimination, the arbitrary closing of the voting 
booths in predominantly African-American areas, for example. 
Would you have any problem in vigorously enforcing our voting 
rights laws that are on the books?
    General Barr. Of what? Vigorously? No, not at all. I said 
one of my priorities would be that. I think we have to enforce 
the voting rights, and I was not suggesting that voting should 
be suppressed. I was just saying that the low turnout is 
ultimately attributable to sort of the--I do not know what the 
word to use is, but that the citizenry does not seem to be that 
engaged in the public affairs of the country.
    Senator Leahy. Well, they are in Vermont. We have one of 
the highest turnouts in the country.
    General Barr. That is good. Excellent.
    Senator Leahy. Thank you, Mr. Chairman.
    Chairman Graham. Thank you.
    We are going to have two votes at 4:10. Can you go for a 
bit longer?
    Senator Sasse.
    Senator Sasse. Thank you, Chairman.
    General, I would like to return to the disturbing topics of 
human trafficking and sex trafficking. You have answered a few 
questions here today. I would like to look at the November 28th 
Miami Herald investigative series that I know that you followed 
into the crimes of Jeffrey Epstein, and I want to quote from 
that.
    Epstein, a wealthy hedge fund manager, quote, ``assembled a 
large cultlike network of underaged girls with the help of 
young female recruiters to coerce into having sex acts behind 
the walls of his opulent waterfront mansion as often as three 
times a day,'' closed quote. The report continues, ``He was 
also suspected of tracking minor girls, often from overseas, 
for sex parties at his other homes in Manhattan, New Mexico, 
and the Caribbean.''
    The Herald series continues, quote, ``in 2007, despite 
ample physical evidence and multiple witnesses corroborating 
the girls' stories, Federal prosecutors and Epstein's lawyers 
quietly put together a remarkable deal for Epstein, then age 
54. He agreed to plead guilty to two felony prostitution 
charges in State Court, and, in exchange, he and his 
accomplices received immunity from Federal sex trafficking 
charges that could have sent him to prison for the rest of his 
life. He served 13 months in a private wing of the Palm Beach 
County stockade. His alleged co-conspirators, who helped 
schedule his sex sessions, were never prosecuted. And the deal 
called''--again this is the Miami Herald--``a Federal 
nonprosecution agreement was sealed so that no one, not even 
his victims, could know the full scope of Epstein's crimes and 
who else was involved,'' closed quote.
    The fact that Federal prosecutors appear to have crafted 
this secret sweetheart deal for a child rapist obviously 
enrages moms and dads everywhere. On this particular case, will 
you commit to making sure that there is a full and thorough 
investigation into the way DOJ handled the Epstein case?
    General Barr. So, Senator, I have to recuse myself from 
Kirkland & Ellis matters, I am told. And I think Kirkland & 
Ellis was, maybe, involved in that case. So I need to sort out 
exactly what--what my role can be. But, you know, I will say 
that if--if I am confirmed, I will make sure your questions are 
answered on this case.
    Senator Sasse. Thank you. The Deputy Attorney General, 
obviously there have been media reports about the timing of his 
potential departure post your confirmation, and the DAG, as you 
well know from your prior history, has a key responsibility in 
deconflicting different parts of the Department. Those of us 
who have been pressing on this matter have found in different 
parts of the Department a lot of anxiety about the way this was 
handled, and yet kind of a hot potato, have a bunch of people 
thinking they are not responsible. Right now, Rod Rosenstein 
has been helping, trying to deconflict some of that, but I am 
worried, with your potential recusal, if the DAG also departs, 
it is not clear who is actually going to deconflict this. So I 
am grateful for your pledge that the Department will be 
responsive even if not you personally.
    General Barr. Yes, that is right.
    Senator Sasse. More broadly than the miscarriage of justice 
in this particular Florida case, would you agree that justice 
has nothing to do with the size of your bank account or the 
number of attorneys you can hire?
    General Barr. Yes.
    Senator Sasse. I agree. And I think that a whole bunch of 
Americans wonder about the Department of Justice and how we are 
trying to prioritize or how we should be prioritizing our 
responsibility to the victims of sex trafficking who are left 
defrayed and voiceless. In this particular case, many of the 
women who were clearly victims, trafficked rape victims, had no 
awareness of the fact, and I think in violation of Federal 
statutes of victim notification, that this nonprosecution 
agreement had been agreed to, and not just that Epstein and his 
co-conspirators were not indicted, but the rest of the 
investigatory matters of the Department were also suspended. It 
seems truly bizarre.
    General Barr. Yes.
    Senator Sasse. I think moms and dads watching this hearing 
would like to know that you will pledge broadly to attack sex 
trafficking as a scourge in our society on both the supply side 
and the demand side as these dirtbags demand this, but on the 
supply side, as organizations clearly perpetrate these crimes. 
Can you pledge to us that this will be one of your priorities 
at the Department?
    General Barr. They can count on it.
    Senator Sasse. Thank you, sir.
    Chairman Graham. I want to associate myself with what 
Senator Sasse said about the Epstein case and the problem in 
general, to the extent you can help us figure this out, please.
    General Barr. Yes.
    Chairman Graham. Senator Durbin.
    Senator Durbin. Thanks, Mr. Chairman.
    Mr. Barr, thank you for being with us.
    Mr. Barr, my colleague Senator Ernst asked a question 
earlier which I am sure will be asked in virtually every State 
we represent: What we are doing to stop the flow of narcotics 
into the United States. She asked about meth, I believe, in 
particular, but about narcotics coming in from Mexico, and your 
reply was, and I quote, ``It is the major avenue of how drugs 
come into the country. They come across that border. I feel it 
is a critical part of border security, and we need barriers on 
the border.'' That was your quote.
    I am troubled by that answer. And I would like to clarify 
it because if we are ever going to have a rational conversation 
about border security, there ought to be some basics that we 
agree on.
    The DEA, which you will supervise if confirmed, in its 2018 
report, said, quote, ``The most common method employed by the 
Mexican drug cartels involves transporting illicit drugs 
through U.S. ports of entry in passenger vehicles, which 
concealed compartments are commingled with legitimate goods on 
tractor trailers.''
    The Customs and Border Protection's own data shows that 
Customs officers at legal ports of entry seize the vast 
majority of lethal narcotics coming into this country. In 
Fiscal Year 2017, the last year we have data, 87 percent of the 
fentanyl--which has been identified by the CDC as the most 
deadly narcotic in America--87 percent seized in our country 
coming in through ports of entry, 13 percent seized outside of 
ports of entry.
    So, overwhelmingly, when we talk about building new walls 
and barriers to stop narcotics, we are ignoring the obvious: 80 
to 90 percent of the drugs are coming in through ports of 
entry. I met with the head of Customs and Border Protection. He 
said the number one thing we can do is to put technology in the 
ports of entry to scan the vehicles coming through. Currently, 
only 17 percent of trucks and cars coming through those ports 
of entry are being scanned, 17 percent. That means 83 percent 
of them are just flowing right on through there bringing 
narcotics to Iowa and to Illinois. Building a new concrete wall 
from sea to shining sea does not even address this issue; 
technology does. I want to reach a point where we open the 
Government and have this honest conversation. Would you 
reconsider your earlier answer as to the fact that we need to 
build more barriers to stop narcotics from coming into the 
United States?
    General Barr. Well, it was not tied just to narcotics, it 
was tied to overall border security.
    Senator Durbin. You said, a major avenue for how drugs come 
into this country. It is not.
    General Barr. I said it was across the----
    Senator Durbin. Border.
    General Barr. Wait a minute. I--I--I----
    Senator Durbin. The border is the major avenue, but your 
answer was, we need barriers on the border.
    General Barr. Right, because drug--you know, we need 
barriers on the border for border security. Part of what we are 
trying to do is cut down on drugs. It is also illegal aliens. 
It is also other--people from other countries who may wish to 
do harm in the United States that are coming in. And barriers 
are part of the answer. And from my experience, the threat is 
always dynamic. You put technology at the ports of entry, they 
will shift somewhere else. It is a moving target, it always has 
been, and I think we need a system that covers all the bases.
    Senator Durbin. I think the reason we cannot reach an 
agreement with the Trump administration is fundamental to our 
exchange, and it is this, I do not disagree with you, with the 
notion that barriers from sea to shining sea will, at least, 
slow people down, but when it comes to the next marginal dollar 
to protect kids in Illinois and children in your home State, it 
is ports of entry, it is technology, to keep these narcotics 
out of the United States. And if we cannot really start at the 
same premise based on reports from the President's own 
administration, we are never going to reach a point of 
bipartisan agreement on border security.
    So, I hope--I think we are close to agreeing, maybe it is 
semantics, I hope not, but I hope that we can agree that if we 
are going to stop narcotics, it is technology and personnel. 
The experts tell us that. It is not a wall. And I hope that we 
can move from there.
    The last question I will ask you, and limited time, they 
asked me about your--your statements this morning, your 
testimony, and I thought they were good, responsive in the most 
part. The one thing I am stuck on, and many are, is this report 
that you gave to this administration in June of last year about 
the investigation of the President.
    General Barr. You mean my memo?
    Senator Durbin. Yes.
    General Barr. The memo, yes.
    Senator Durbin. And you said in there, ``Mueller should not 
be permitted to demand that the President submit to 
interrogation about alleged obstruction.'' You volunteered 
that. I am trying to get around this. It sounds like it was an 
effort on your part to ingratiate yourself with an 
administration which is now nominating you for Attorney 
General. I will give you one last chance. My time is up. Please 
respond.
    General Barr. Okay. Well, first, what I was saying there 
was, again, based on speculation on my part, was that there has 
to be an adequate predicate, and if he was relying on just the 
firing of Mueller or the statement about Flynn in this specific 
statute, those two things, I did not think it was an adequate 
predicate. I was not saying--he may have other facts, he may 
have other theories, that would support it. I was just 
pinpointing that. Number two----
    Senator Durbin. You meant the firing of Comey.
    General Barr [continuing]. I can assure you I was not 
trying to ingratiate myself with anybody. The furthest thing 
from my mind was coming back into Government, I can assure you 
that. And if I wanted to ingratiate myself or signal things, 
there are a lot more direct ways of doing it than that.
    Senator Durbin. Just for the record, I think you meant the 
firing of Mr. Comey. I think you said ``Mueller'' earlier.
    General Barr. Oh, okay, yes. What did I say? Oh, yes, the 
firing of Comey. Yes, yes.
    Senator Durbin. Thank you very much.
    Senator Leahy. Just trying to help.
    [Laughter.]
    Chairman Graham. Thank you.
    I will just take a couple of seconds to see if I can help 
clarify this because I think it has been a very interesting 
hearing. So if there was some reason to believe that the 
President tried to coach somebody not to testify or testify 
falsely, that could be obstruction of justice.
    General Barr. Yes, under that--yes, under an obstruction 
statute, yes.
    Chairman Graham. So if there is some evidence that the 
President tried to conceal evidence, that would be obstruction 
of justice potentially, right?
    General Barr. Right.
    Chairman Graham. Your point is just simply firing somebody, 
which is a personnel decision, is problematic for the system.
    General Barr. Right, especially if you--what I am saying is 
that does not fit under that statute.
    Chairman Graham. No, I got you.
    General Barr. Show me some other statute, but that statute, 
no.
    Chairman Graham. Yes, okay.
    Who is next?
    [Voice off microphone.] Senator Hawley.
    Chairman Graham. Senator Hawley. Thank you.
    Senator Hawley. Thank you, Mr. Chairman.
    Mr. Barr, switching gears a little bit, yesterday, a 
District--Federal District Court Judge in Pennsylvania struck 
down the Trump administration's religious and moral exemptions 
to the contraceptive mandate under the Affordable Care Act. As 
part of this ruling, the District Court Judge issued a 
nationwide injunction to any enforcement application of these--
of these rules. This is a growing trend. We have seen a lot of 
this in the last 2 years. We have seen lots and lots of 
District Courts all across the country in various contexts, in 
the immigration context and others, issue nationwide 
injunctions. And now, of course, for those listening at home, 
the--the court--the entire Nation is not within the 
jurisdiction of these courts. These courts are District Courts, 
they reach specific geographic areas delineated by law, and yet 
they are issuing, increasingly--increasingly commonly, these 
injunctions that reach the entire country. This is a fairly 
unusual and fairly recent practice.
    In distinction of this, the District Court Judge in Texas 
who recently heard a challenge to the Affordable Care Act case 
did not issue a nationwide injunction, and therefore allowing 
the appeals process to take its normal course, and, of course, 
the ACA remains in full effect throughout that appeals process 
because he did not issue a nationwide injunction.
    So, my question is to you, are you concerned about this 
growing practice of nationwide injunctions by Federal District 
Courts? And what do you think ought to be done about it?
    General Barr. Yes, I am very concerned by it. Earlier I was 
talking about this and saying that I think it mistakes the 
limitation on judicial power, which is a case or controversy 
limitation and tries to grant relief to people who are not part 
of the case or controversy that is being decided. And as you 
said, it really started in the 1960s, and it has been picking 
up steam, and the fact of the matter is, there are a lot of 
District Court Judges, and you can usually find one who 
somewhere in the country will agree with you, and so major 
democratic decisions can be held up by one judge nationwide.
    I am also concerned that there is another trend, which is 
the willingness of some District Court Judges to wade into 
matters of national security where, in the past, courts would 
not have presumed to be enjoining those kinds of things. And 
then the appeals process takes a long time. And so a lot of 
damage can be done before it gets to the Supreme Court and you 
get a definitive decision, and meanwhile, everything is stuck.
    Senator Hawley. Can you just say more? You are concerned 
about courts that wade into national security issues where 
traditionally they have--they have hesitated to do so. Can you 
just say more about that? What do you have in mind?
    General Barr. Like the travel ban.
    Senator Hawley. And the concern there is that----
    General Barr. I mean, the President takes something based 
on national security, and one--and--and the Constitution vests 
that kind of judgment for that kind of emergency act or acts 
that he has the authority to perform to protect the country, 
he--he is politically accountable for that, and yet a judge 
with a lifetime appointment sitting somewhere in the country 
who does not have the access to the information and has no 
political accountability can stop a national security measure, 
you know, globally essentially, and it takes a long time to get 
that sorted out. That--that is really troublesome to me.
    Senator Hawley. Yes, I completely agree with you. Let me 
ask you about another recent case, this one from the Southern 
District of New York, today, in which the District Courts ruled 
that the attempt to include--the attempt by the Commerce 
Department to include a citizenship question on the census is 
not permissible and has stopped the Commerce Department from 
including that on the 2020 census.
    The Department has already, of course--and the Department 
of Justice is defending this decision, that including a 
citizenship question, as was done for approximately 100 years 
on the census, actually helps identify with greater accuracy 
the residents of the country, who is and who is not a citizen, 
and, of course, helps more accurately apportion and draw 
congressional districts and make sure that representation is 
fair and the Voting Rights Act is fairly enforced. Do you agree 
with that position?
    General Barr. Well, it is being litigated now, so I really 
would prefer not to comment on it.
    Senator Hawley. Do you anticipate that the Department of 
Justice will continue its--its vigorous defense of the position 
that the administration has taken?
    General Barr. I think generally I have no reason to change 
that position.
    Senator Hawley. Thank you, Mr. Chairman.
    Chairman Graham. Senator Whitehouse.
    Senator Whitehouse. Thank you.
    Mr. Barr, in order to perform its counterintelligence 
function effectively, what should the Department of Justice and 
the FBI know about the business relationships and entanglements 
of senior officials with foreign interests and governments?
    General Barr. Well, usually, you know, I guess usually 
investigations are started because there is some act that comes 
to the attention of the law enforcement agency that suggests 
someone is being disloyal to the United States.
    Senator Whitehouse. Except where working for a foreign----
    General Barr. Excuse me?
    Senator Whitehouse. Except where we require disclosures in 
order to give the law enforcement folks that advantage of 
knowing in advance when a senior official has a business 
entanglement with a foreign interest or power.
    General Barr. Yes.
    Senator Whitehouse. So what should we know?
    General Barr. What official are we talking about?
    Senator Whitehouse. Well, let us start with the President.
    General Barr. Are you suggesting that the President go 
through a background investigation by the FBI?
    Senator Whitehouse. No. I am suggesting that when there is 
evidence that he has business relationships with foreign 
interests, then that may be a factual determination that would 
be of some note to our counterintelligence folks.
    General Barr. Well, the financial disclosures that I think 
are filed by other--I--I do not even know if Members of 
Congress file financial disclosures. Do they? They do?
    Senator Whitehouse. So do many officials in the executive 
branch. So----
    General Barr. Yes. You know, that is for--that is for 
financial conflict. I do not think that is for 
counterintelligence purposes.
    Senator Whitehouse. Probably, because very few people have 
business relationships with foreign interests, so it turns up 
much more often in a conflict----
    General Barr. Well, a business relationship with a foreign 
interest is not ordinarily a counterintelligence concern.
    Senator Whitehouse. Unless, of course, you are----
    General Barr. Unless the person is a traitor.
    Senator Whitehouse. Or in a position to make decisions that 
are biased or influenced by those business relationships.
    General Barr. Well----
    Senator Whitehouse. Counterintelligence and treason are not 
the same thing, are they?
    General Barr. Counterintelligence, you are usually trying 
to counter the intelligence activities of another country.
    Senator Whitehouse. Correct. And you may want to head off 
things, you may want to be aware of things, you may want to--
there are a whole lot of things short of treason that are the 
counterintelligence function.
    General Barr. Right, including, you know--
counterintelligence focuses usually on foreign intelligence 
services and their activities. I think what we are----
    Senator Whitehouse. With American officials----
    General Barr. I think we are mixing, you know, apples and 
grapes--or whatever here, because financial disclosure----
    Senator Whitehouse. Well, maybe, or maybe you are just 
having a hard time answering what ought to be a really easy 
question, which is that when a senior Government official has 
business relationships with foreign interests and powers, we 
ought to know about it. That ought to be an easy proposition, 
and in any other administration, it would be.
    General Barr. Well, do Congressmen go through background 
investigations to get access--access to classified information?
    Senator Whitehouse. We--that is a whole separate question.
    General Barr. No, it is exactly the same question.
    Senator Whitehouse. We do a lot of--we do a lot more 
reporting than we do----
    General Barr. Well, your financial reporting, with all due 
respect, is not the same as a background investigation. You are 
elected by the people to hold an office, and, you know, you do 
not get a background investigation to get on the Intelligence 
Committee.
    Senator Whitehouse. But we do have to do a lot of 
reporting. Okay, if you do not want to answer it, I will move 
on.
    Let us talk about ``corruptly'' in obstruction cases. I am 
not sure I heard you correctly, so I want to make sure you have 
the chance to explain, but it sounded like you were saying that 
the word ``corruptly'' used, as you said, adverbially, was a 
requirement that there be some form of destruction or 
interference with evidence. I have always read that term 
``corruptly'' in obstruction of justice to impose an intent 
requirement, which is also what the criminal resources manual 
at the Department of Justice says, and what I think virtually 
every Appellate Court has said. So it worries me if what you 
are trying to do here is to redefine the obstruction statute by 
narrowing the intent requirement and using the term 
``corruptly'' to refer to something very different, which is 
the actual physical corruption changing or----
    General Barr. I think I can allay your concerns.
    Senator Whitehouse. Can you--yes, could you do that? 
Because----
    General Barr. Yes. Because if you read--if you look at the 
memo, you will see that my discussion of ``corruptly'' is not 
up in the plain meaning section where I am talking about how 
you interpret the statute. And my basic argument as to why the 
statute covers destruction of evidence and hiding evidence and 
stuff like that is based on the word, ``otherwise.'' Supreme 
Court decisions in Yates and Begay, also the fact that if you 
actually read it ``otherwise,'' it swallows up all--it becomes 
a one-clause----
    Senator Whitehouse. So----
    General Barr. It wipes out everything else.
    Senator Whitehouse. If I can cut to the----
    General Barr. No, so then later on I point out in my memo, 
I later point out that that reading is also supported by the 
understanding of the word ``corruptly,'' which the Poindexter 
case, D.C. Circuit case, I think had the most intelligent 
discussion of the word ``corruptly,'' which is, it does refer 
to the kind of activity that is necessary, which is perverting 
a proceeding by corrupting it.
    Senator Whitehouse. So in the event that the Mueller 
investigation has turned up evidence of obstruction of justice 
by the President or people close to him, you would follow the 
Department of Justice's existing legal guidance with respect to 
what that word ``corruptly'' means.
    General Barr. My--my interpretation of the statute was not 
predicated entirely on the word, ``corruptly.'' I was just 
pointing out.
    Senator Whitehouse. And it is not your intention to 
change----
    General Barr. No, it is not my intention.
    Senator Whitehouse [continuing]. Department policy or 
Department standards or Department definitions, particularly as 
they may bear on obstruction by the President or people around 
him.
    General Barr. That is right.
    Senator Whitehouse. Thank you.
    Chairman Graham. We are about to vote. Let us do one more. 
You deserve a break. You are doing great. When--Senator Ernst--
then we will take a break, go vote. I am going to vote and come 
back, give you about 15 minutes, then we will just plow through 
till we are done.
    Senator Tillis.
    Senator Tillis. I will be brief. One question, because 
people have asked. They have gone to the wall, it almost sounds 
like they are trying to suggest that you believe that the fix 
for border security is a 2,300-mile physical barrier from the 
Pacific to the Gulf. Do you believe that is the best way to 
secure the border?
    General Barr. I am not sure what the current thinking is on 
this, but when I was----
    Senator Tillis. Have you ever advocated for a wall or some 
sort of monolithic structure as the plan for--to secure the 
border?
    General Barr. No. But I do believe we need to have a system 
all the way across. When I was looking at this, you know, there 
were certain areas where, you know, a wall did not make any 
sense----
    Senator Tillis. You used the word, ``barrier.'' I do not 
think a 30-foot wall makes sense on a, for example, 1,000-foot 
cliff----
    General Barr. Right.
    Senator Tillis [continuing]. Or one that is out in the 
middle of nowhere. Would you agree that, you know, when we get 
away from this childish, everybody saying it is a wall or not, 
that we are probably--the President has repeatedly said that we 
need wall structures, we may need steel-slat structures, we may 
need to reinforce chain-link fences with all-weather roads, we 
need aerostats so that we can identify people crossing the 
border that are otherwise desolate and not very frequently 
crossed.
    General Barr. Yes.
    Senator Tillis. We need border patrol agents. And we need 
technology that interdicts all the illicit drugs at the legal 
ports of entry, that those are all elements of a barrier that 
actually will better prepare us to secure the border, eliminate 
the poison coming across the border, and perhaps reduce the 
amount of human trafficking that is coming through the legal 
ports of entry. Is that a better way to characterize your 
position on barriers----
    General Barr. Yes.
    Senator Tillis [continuing]. That neither are physical, 
technological or otherwise?
    General Barr. Yes.
    Senator Tillis. Thank you. Also, the--I cannot leave 
without going back to--you were talking about a time when I was 
in my early thirties. I remember vividly just how dangerous 
things were getting back in the early 1990s. I was 30 years old 
in 1990. I remember vividly the news reports and everything 
that we were trying to do to get ahead of the murderous 
environment that we were in. I think some people are trying to 
project, or, at least, maybe I have inferred, maybe 
incorrectly, but project what you were trying to do or what you 
were advocating for in the midst of a crisis, which was not 
mass incarceration of low-level nonviolent criminals----
    General Barr. Right.
    Senator Tillis [continuing]. Onto your view of, let us say, 
the First Step Act than what we are trying to do today. If 
you--hypothetical--maybe you cannot answer it--but let us say 
you were Attorney General when we were moving First Step, which 
I supported. I supported criminal justice reforms in North 
Carolina when I was Speaker of the House. Are you fundamentally 
opposed to what we are trying to do with the First Step Act?
    General Barr. No. I think some of those things make sense. 
If I was--if I had been at the table, I probably would have 
urged a few changes to it, but, you know, overall, I do not 
have a problem with it.
    Senator Tillis. And you are fully aware the President and 
folks in the White House are supportive of the Act and----
    General Barr. Yes.
    Senator Tillis. So you will do everything you can to help 
us state that intent, the statutory intent, of the things that 
you will need to do is, implement in your role as Attorney 
General--I do believe you are going to be confirmed----
    General Barr. Right.
    Senator Tillis [continuing]. To make sure that we get the 
full positive effect that we will get out of the First Step 
Act.
    General Barr. That is right, Senator. And, you know, there 
were a number of things being lumped together. What I espoused 
in the 1990s, when we had the highest crime rates in our 
history, was taking the violent, chronic violent, offenders 
with long criminal history records of predatory violence, and 
especially the ones that use guns in multiple offenses, and 
getting them off the streets and into prison.
    Senator Tillis. And I think you made the point that in some 
cases there--there--you were able to more clearly present 
evidence where they were involved in drug trafficking, but you 
knew damn well that they were a part of what was murdering 
these communities and making them very dangerous.
    General Barr. Right.
    Senator Tillis. And the point there was, you were using 
every device possible to get them behind bars and off the 
streets so that you could make those communities safe.
    General Barr. Right.
    Senator Tillis. And including the communities in Trenton, 
New Jersey.
    General Barr. Right. So the other thing, then there were 
drug penalties. And some of the drug penalties, yes, were 
draconian, and there were rational reasons for doing that at 
the time. And sometimes people got--and we were not going after 
people who needed treatment who were--you know, just because 
they were addicts, we were going after the people who were 
distributing the drugs. And, you know, in the current 
circumstance, I understand there is data to support what was 
done in First Step. I understand those changes on the drug 
front, but I would not let up on chronic violent offenders 
because they commit a disproportionate amount of the predation 
in society.
    Senator Tillis. I hope you do not--because they need to go 
behind bars for a very, very long time.
    Thank you.
    Chairman Graham. All right. Thank you, Mr. Barr.
    What we will do, we will come back with Senator Klobuchar. 
We are going to take a 15-minute break, and hopefully by then 
both of us can vote and come back and continue and we are just 
going to plow through till we get done today. So we will be in 
recess for 15 minutes.
    [Whereupon the Committee was recessed and reconvened.]
    Senator Ernst [presiding]. We will go ahead and reconvene 
the hearing.
    I will recognize Senator Klobuchar.
    Senator Klobuchar. Thank you very much.
    Thank you, Mr. Barr.
    Thanks to your grandson for the mint. That was very nice.
    In your previous confirmation hearing for Attorney General, 
you stated that the Attorney General is the President's lawyer. 
You have also said that the Attorney General's ultimate 
allegiance must be to the rule of law. So I am going to 
characterize that as the people's lawyer. And there have been 
times throughout our history, including during Watergate, when 
the personal interests of the President do not align with the 
interests of the country. In those critical moments, is the 
Attorney General the people's lawyer or the President's lawyer?
    General Barr. Well, as--the reason these--I referred to the 
Attorney General as the President's lawyer is because in 1789, 
they said that the Attorney General is to provide legal advice 
to the President and the Cabinet.
    Senator Klobuchar. Yes.
    General Barr. And that is in their official capacity. And 
my view on that is that, like any lawyer, you give the best 
advice as to your view of the law, but if the President 
determined that he wanted to do something that you thought was 
still a reasonable construction of law, even though you might 
not have decided that way as an Article III judge, just as you 
support congressional enactments that are----
    Senator Klobuchar. Okay.
    General Barr [continuing]. Reasonable, you do the same for 
the President.
    Senator Klobuchar. But how about in a situation like 
Watergate?
    General Barr. So I--if the President directs an Attorney 
General to do something that is contrary to law, then I think 
the Attorney General has to step down.
    Senator Klobuchar. Okay.
    General Barr. It is that simple.
    Senator Klobuchar. Thank you.
    Under the Special Counsel regs, the Special Counsel must 
send a second report to Congress documenting any instances 
where the AG prohibited the Special Counsel from taking an 
action. Will you follow those regulations and send the report 
to Congress?
    General Barr. Yes.
    Senator Klobuchar. Thank you.
    And then a few just things that I care a lot about. You had 
a great discussion with Senator Booker about the First Step Act 
and nonviolent drug crimes. Will you support the use of drug 
courts, something my county when I was prosecutor was one of 
the first to do that in a big way? And now we have Federal drug 
courts. Will you support them for nonviolent offenders?
    General Barr. Yes. I think they are generally a good idea.
    Senator Klobuchar. Okay. And there is a bill that I have 
that we are reintroducing on guns and stalking. And it is a 
pretty narrow bill. It fills a loophole that is called 
sometimes the boyfriend loophole. I do not know if you know 
what that is, but it is when someone is not married, but they 
are living together. And then the question is, would the gun 
laws apply? And we actually had a hearing. And a number of the 
Republican witnesses agreed that they should. So that is part 
of it. And then the other involves stalking and whether or not 
that could also fall under the prohibitions on guns. So we had 
the meeting on guns at the White House, and the President said 
he thought the bill was terrific. I am just going to give you--
--
    General Barr. Okay.
    Senator Klobuchar [continuing]. Lead you into that, but----
    General Barr. It is----
    Senator Klobuchar [continuing]. And it has not passed yet, 
but I am just asking you to review it.
    General Barr. Absolutely.
    Senator Klobuchar. Okay. And I hope we would have your 
support. It would be nice to get that done.
    And then I also have a second bill with Senator Cornyn, the 
Abby Honold Act. And the bill would expand the use of evidence-
paced practices in responding to sex assault crimes. And I hope 
you would look at that as well. And, it is part, right now, of 
the Senate package on the Violence Against Women Act. And, my 
bill aside, I hope that you would support the reauthorization 
of that bill.
    General Barr. Uh-huh.
    Senator Klobuchar. You would? Of the Violence Against Women 
Act?
    General Barr. Well, I have not seen it, but if it is 
reauthorizing what is in effect now, yes.
    Senator Klobuchar. Okay. And, then, I just want to end here 
with a second chance, second go-around on a question. I decided 
to leave my antitrust questions for the record----
    General Barr. Okay.
    Senator Klobuchar [continuing]. So I can ask this. I asked 
earlier today this question because I really meant it as an 
opportunity for you to kind of address your troops--and not a 
``gotcha'' question. So, immigration debates aside, putting 
aside the differences in this House and in the White House--and 
we have now thousands and thousands of extraordinary people 
devoting themselves to a good cause, and that is justice at the 
Department of Justice and the FBI, including a few of them 
right behind you in the front row. And they, many of them, 
right now are either furloughed or they are doing their jobs 
every single day without pay. And if you get confirmed, you 
will be their leader. And do you want to say anything to them 
or about them? And I appreciate it if you would.
    General Barr. Well, thank you, Senator, for giving me the 
opportunity because one of the reasons I want to do this, serve 
as Attorney General, is because of the opportunity to work with 
the outstanding people at the Department of Justice. And I 
think the country can be very proud of them as their--of their 
dedication as they stand their post and continue to perform 
their mission. It is a great sacrifice for many of them with 
the paychecks not coming in. So I hope this ends soon. But one 
of the reasons the Department is such an important institution 
to me and a big part of my life is, the quality of the people 
there. And I am looking forward, hopefully, if I am confirmed, 
to joining them again.
    Senator Klobuchar. Okay. Thank you very much.
    General Barr. Thank you.
    Senator Ernst. Thank you, Senator Klobuchar.
    I love the upward mobility on this Committee. This is my 
first Committee hearing.
    [Laughter.]
    Senator Ernst. And I get to chair. So thank you. I 
appreciate it very much.
    I will go ahead with my second round of questioning. And 
there has been a lot of discussion so far about the Mueller 
investigation, which I do think is very appropriate, and as I 
understand it, the underlying premise of that investigation was 
to determine if there was collusion by an American entity or 
person with the Russians during the 2016 election cycle. Is 
that accurate?
    General Barr. That is my understanding.
    Senator Ernst. Okay. And we do know that there was Russian 
meddling in our 2016 election cycle. We do know that. And what 
can the DOJ do in the future to prevent--whether it is Russia 
or other--foreign entities from interfering with our elections 
process?
    General Barr. Yes. Well, I adverted to in my opening 
statement is, obviously, the Department is a law enforcement 
agency. And so we can use our law enforcement tools. And the 
Special Counsel has already brought cases against Russian 
nationals for their activities. And the current leadership of 
the Department is following suit. And I would like to build on 
that experience to sharpen our legal tools to go after Russian 
nationals, but nationals of any country that are interfering in 
our elections. I also think that the FBI as part of the 
intelligence community can perform, you know--can use all of 
their intelligence tools to counteract the threat. And, as I 
said in my opening statement, I think we have to look at all 
our national resources, such as diplomacy, economic sanctions, 
other kinds of countermeasures, to deter and punish foreign 
countries that seek to meddle in our elections.
    Senator Ernst. Absolutely. So a whole-of-government 
approach----
    General Barr. Uh-huh, yes.
    Senator Ernst [continuing]. As we look at those entities. 
Thank you very much.
    I was really pleased to hear Senator Klobuchar mention the 
Violence Against Women Act. We had a discussion about that in 
my office.
    General Barr. Yes.
    Senator Ernst. So thank you. I did serve as a volunteer at 
an assault care center while I was at Iowa State University--
just a few years ago.
    [Laughter.]
    Senator Ernst. But the Violence Against Women Act is in 
desperate need of reauthorization, as Senator Klobuchar said. 
In 2016 alone, over 1 million services were provided to victims 
and their families through programs. And the Office on Violence 
Against Women is actually housed within the DOJ, as you are 
aware. In Fiscal Year 2017, my home State of Iowa was awarded 
$8.7 million from 13 different OVW grant programs. And these 
dollars do go toward programs that are in dire need, especially 
in rural areas like mine. So what I would like to know from 
you, sir, is how you will work to further this engagement and 
to address violence against women and families through VAWA or 
through the Office that is located within DOJ.
    General Barr. Right. And that Office is not familiar to me 
because it did not exist, obviously, when I was there before. 
So, first, I am going to familiarize myself with the Office; 
its work; its programs; and, you know, strongly support that.
    Senator Ernst. Thank you very much.
    Domestic violence is largely a State crime. How can we 
better assist between the DOJ and State officials in this area?
    General Barr. Again, this is not an area of expertise that 
I have right now, but I would imagine that technical support 
and grants are probably the most effective means for the 
Federal Government to assist.
    Senator Ernst. Okay. Very good. Well, I appreciate that so 
much.
    I have just got a little bit of time left. I do want to go 
back to the issue that has been brought up many times over 
about our border security. I, as well, agree that there are 
many ways that we can use to secure our border, whether it is 
through technology, whether it is through a physical barrier, 
understanding, as has been rightly pointed out, that a number 
of the interdictions of drugs crossing the border are actually 
done at those ports of entry. However, I think there are a lot 
of families that are very concerned about the fentanyl that 
might be coming across those areas that are not watched----
    General Barr. Right.
    Senator Ernst [continuing]. So families that have lost 
their loved ones, I think it does not matter what percentage is 
coming through a port of entry or elsewhere. We want to stop 
it. So your comment?
    General Barr. That is right, Senator. And the other thing 
is, that the statistics on the port of entry were the 
interdictions. That is the stuff we catch.
    Senator Ernst. Right.
    General Barr. It does not necessarily reflect the stuff 
that is getting across elsewhere that we are not catching.
    Senator Ernst. Absolutely. Thank you very much, Mr. Barr.
    Chairman Graham [presiding]. Thank you.
    Senator Hirono.
    Senator Hirono. Thank you very much.
    Mr. Barr, you have written and spoken about morality and 
your worries about the destruction of--and I am quoting you--
``any kind of moral consensus in society,'' and you wrote quite 
extensively on this when you were Attorney General. And you 
have been described as an institutionalist: someone who cares 
about the Department of Justice and the Government. That is a 
good thing. But you have agreed to work for someone who 
relentlessly attacks the press, calling them ``fake news'' and 
``the enemy of the people.'' The President criticizes the FBI 
nonstop. He belittles generals. He calls the Mueller 
investigation a ``witch hunt.'' He believes the claims of Putin 
over the judgment of our intelligence community. And it has 
been objectively verified that he lies every single day and 
changes his mind on a regular basis. So, are you concerned, 
having written about morality and consensus in our society, are 
you concerned about the way Donald Trump undermines the 
institutions in our society that help us to maintain a moral 
consensus?
    General Barr. No, Senator. And I would like to make a point 
about the ``witch hunt,'' which is, we have to remember that 
the President is the one that, you know, has denied that there 
was any collusion and has been steadfast in that. So presumably 
he knows facts. I do not know facts. I do not think anyone here 
knows facts. But I think it is understandable that if someone 
felt they were falsely accused, they would view an 
investigation as something like a witch hunt, where someone 
like you or me who does not know the facts, you know, might not 
use that term.
    Senator Hirono. Well you are certainly coming to his 
defense. As I said, it has been objectively verified that he 
lies on a regular basis.
    I have a question about immigration. In your written 
statement, you wrote that, ``We must secure our Nation's 
borders. And we must ensure that our laws allow us to process, 
hold, and remove those who unlawfully enter.'' And this kind of 
sounds like a Jeff Sessions zero-tolerance policy. I did ask 
you that before, whether you would continue to go after people 
who are not coming through our regular checkpoints. Would you 
go after them for deportation?
    General Barr. I thought I said that our zero-tolerance 
policy is to prosecute people who are referred to the 
Department by DHS for illegal entry.
    Senator Hirono. Well, under a no-tolerance policy, 
everybody who comes in not through the checkpoints would be 
deemed, I would say, subject to prosecution. So----
    General Barr. No.
    Senator Hirono. No?
    General Barr. Anyone who comes in illegally and is going to 
be referred to us for a violation of the legal-entry statute 
will be prosecuted.
    Senator Hirono. Yes.
    General Barr. But DHS is not referring--as I understand it, 
is not referring families so that there is no more separation.
    Senator Hirono. Yes. Instead, we have a lot of them in 
family detention facilities. I have visited them. What about 
the 11 million or so undocumented immigrants in our country 
because you say that we have to process, hold, and remove those 
who unlawfully enter? Now, the 11 million or so undocumented 
people have unlawfully entered, I mean, a number of them 
because they are visa overstayers. So what do you propose to do 
with these people who have been here in our country for a long 
time, many of whom work and who pay taxes?
    General Barr. Well, I think it just highlights the need for 
some--for Congress to address the whole issue of our 
immigration laws.
    Senator Hirono. So do you support comprehensive immigration 
reform, an effort that we undertook in the Senate in 2013?
    General Barr. I support addressing some of the problems 
that are creating the influx of illegal aliens at this point 
and also addressing the question of border security.
    Senator Hirono. Well, what about the 11 million 
undocumented people who are already here?
    General Barr. Well, at--Congress is the--is able to 
determine that policy as part of immigration legislation.
    Senator Hirono. So, that is the largest group of 
undocumented people. They are the largest group of people who 
are here illegally, as you say you would like to----
    General Barr. The zero-tolerance policy, as I understand 
it, has to do with people who are coming in illegally.
    Senator Hirono. Yes, I know that, but you know that when I 
talk about the 11 million people, that they are undocumented. 
They live in the shadows. Many of them do pay taxes. And so 
that is the largest group that is here. This is why we worked 
really hard for comprehensive immigration reform. I hope that 
you support that kind of effort. Do you believe birthright 
citizenship is guaranteed by the Fourteenth Amendment?
    General Barr. I have not looked at that issue.
    Senator Hirono. It says right there in the Fourteenth 
Amendment that anyone born basically--born in this country, is 
a U.S. citizen. And there are those who think that that should 
be done away with. Are you one of them?
    Senator Kennedy [presiding]. Could you give us a brief 
answer, Mr.----
    General Barr. Yes. As I say, I have not looked at that 
issue legally. That is the kind of issue I would ask OLC to 
advise me on, as to whether it is something that is appropriate 
for legislation. I do not even know the answer to that.
    Senator Hirono. Well, it has certainly been interpreted for 
a long time as saying that people who are born in this country 
are citizens.
    Shall I continue or should I ask for a third round?
    Senator Kennedy. I think the Chairman would like to finish 
today, and I think your time has expired.
    Senator Hirono. So I cannot ask for a third round?
    Senator Kennedy. I am fine. You can have a third, fourth, 
fifth round.
    Senator Hirono. Thank you.
    Senator Kennedy. But I am not Chairman.
    Senator Hirono. I just have a few more--or I can wait.
    Senator Kennedy. Okay. Why do we not do that?
    Senator Hirono. Okay. Thank you.
    Senator Kennedy. Thank you, Senator.
    I think I am next, Mr. Barr. This--we talked about this 
earlier. I think we can agree, can we not, that hundreds of 
thousands, millions of words have been written speculating 
about what happened at the Department of Justice and the FBI in 
the 2016 election with respect to the two-party nominees? Can 
we agree on that?
    General Barr. Yes.
    Senator Kennedy. Can we agree that the American people have 
a right to know what happened at Justice and the FBI?
    General Barr. Yes.
    Senator Kennedy. Okay. Why do we just not declassify all of 
the documents and show them to the American people and let the 
American people draw their own conclusions here?
    General Barr. Well, I am not in a position to say because I 
do not have access to the documents, and I do not know what it 
entails.
    Senator Kennedy. Well, it entails the truth, does it not?
    General Barr. Yes, but presumably if they are classified, 
you know, there could be collateral consequences. And I am not 
in a position to make that judgment.
    Senator Kennedy. Well, I mean, is your mind open on that, 
Mr. Barr, or----
    General Barr. I think, generally----
    Senator Kennedy. I do not understand why, properly 
redacted, those documents have not been shown to the American 
people. They are smart enough to figure it out.
    General Barr. I think, ultimately, the best policy is to 
let the light shine--if there have been mistakes made, the best 
policy is to allow light to shine in and for people to 
understand what happened, but sometimes, you know, you have to 
determine when the right time to do that is.
    Senator Kennedy. I understand. I am asking that you 
seriously consider that. And I am talking about the 
investigations with respect to Secretary Clinton and President 
Trump. Clearly, the FBI and the Department of Justice, I am not 
saying that they--either was imprudent to do so, but we have 
seen bits and pieces. And there has been a lot of speculation 
and innuendo. And people have drawn conclusions based on 
incomplete facts. And it would seem to me that, if for no other 
reason but the integrity of the FBI and Justice Department, 
both of which I hold in great esteem, we should redact the 
portions that would endanger somebody and show the American 
people the documents. And I wish you would seriously consider 
that.
    General Barr. I will, Senator.
    Senator Kennedy. And I--having watched you here today, I 
think you will. I think you will give it serious consideration.
    General Barr. Yes.
    Senator Kennedy. Let me ask your opinion on something else. 
About 10 years ago, we had a problem with our banking system in 
America. And we had a lot of bankers who made loans to 
borrowers when the bankers and the borrowers knew the money was 
not going to be paid back. That is called fraud, and it is 
illegal. And then some of those same bankers and other bankers 
took those garbage loans, and they packaged them together, 
packaged them together into security. And they sold them to 
investors without telling the investors that the underlying 
loans were toxic. That is called securities fraud. And I do not 
know how many billions of dollars of this bad paper was sold, 
but I know a lot of people in the banking industry got rich 
doing it. And then--and, as a result, the American economy and 
almost the world economy almost melted down.
    Now, the Department of Justice prosecuted virtually no one, 
no banking executives over this. Why? I realize they made the 
banks pay some money, but I saw banking fraud, and I saw 
securities fraud. And nobody was prosecuted.
    General Barr. I cannot answer that, Senator, but I can say 
that I was in charge of the S&L cleanup. After it was over, it 
was put under me in the Deputy's Office. And----
    Senator Kennedy. You folks prosecuted people.
    General Barr. We prosecuted a lot of people and very 
quickly, and we cleaned it up very quickly. My--how many did we 
get?
    Mr. Raphaelson. Over 900 convictions.
    General Barr. Over 900 convictions in very short order.
    Senator Kennedy. I do not think we had nine this time. I 
mean, what message does that send to the American people?
    General Barr. Well----
    Senator Kennedy. I mean, I totally think the message it 
sends is that the people at the top can cut corners and get 
away with it.
    General Barr. What I can say, Senator, is, I think my 
experience with the S&L shows that I am not afraid of going 
after fraud----
    Senator Kennedy. I know that.
    General Barr [continuing]. At the corporate level. And it 
is one of the most successful, I think, Government responses to 
that kind of whole-sector meltdown that there has been. So I am 
very proud of the job that was done by the Department on that.
    Senator Kennedy. You know, as we say in Louisiana, you were 
mean as a mama wasp.
    [Laughter.]
    Senator Kennedy. And you did the right thing, but I do not 
think we did the right thing with the banking meltdown.
    Senator Coons.
    Senator Coons. Thank you, Senator Kennedy.
    Thank you, Mr. Barr.
    You have declined or, I would say, refused to commit to 
following the advice of the career ethics officials at DOJ with 
regards to recusal from the ongoing Special Counsel 
investigation. Will you, at least, commit to notify this 
Committee once you receive the ethics official's guidance, tell 
us what it was, and explain whether you agree or disagree with 
it?
    General Barr. To tell you the truth, Senator, I do not know 
what the rules are and what the practice is, but, you know, off 
the top of my head, I do not think I would have an objection to 
that.
    Senator Coons. So you would be comfortable letting us know 
that you had received an ethics opinion and either declined----
    General Barr. Yes. But I am not sure what the practice and 
the rules are. I generally try to follow the rules.
    Senator Coons. You said earlier in this hearing, you have 
an interest in transparency with regards to the final report of 
the Mueller investigation, but I did not hear a concrete 
commitment about release. And I think this is a very 
significant investigation. And you have been very forthcoming 
about wanting to protect it. The DOJ has released information 
about declination memos, about descriptions of decisions not to 
prosecute in the past. I will cite the Michael Brown case, for 
example. Would you allow Special Counsel Mueller to release 
information about declination memos in the Russia investigation 
as he sees fit?
    General Barr. I actually do not think Mueller would do that 
because it would be contrary to the regulations, but that is 
one of the reasons I want to talk to Mueller and Rosenstein and 
figure out, you know, what the lay of the land is. I am trying 
to----
    Senator Coons. But if appropriate under current 
regulations, you would not have any hesitation about saying 
prosecutorial decisions should be part of that final report?
    General Barr. As I said, I want to get out as much as I can 
under the regulations.
    Senator Coons. You also----
    General Barr. I think it--that is the reason I say it is 
vitally important.
    Senator Coons. Thank you.
    General Barr. It is related to my feeling that it is really 
important----
    Senator Coons. It is.
    General Barr [continuing]. To, you know, let the chips fall 
where they may and get the information out.
    Senator Coons. You also said in response to my first round 
of questions that the Special Counsel regulations should not be 
rescinded during this investigation. Just to be clear, you 
would refuse to rescind them if the President asked, even if 
that meant you would have to resign?
    General Barr. Well, that came up in the context of wanting 
to change the rules so Mueller could be fired.
    Senator Coons. Right.
    General Barr. That--where there was no good cause.
    Senator Coons. No good cause, correct.
    General Barr. And I said there, yes, I would not agree to 
that.
    Senator Coons. There is another ongoing investigation in 
the Southern District of New York in which I would argue the 
President is implicated as ``Individual Number 1.'' If the 
President ordered you to stop the SDNY investigation in which 
someone identified as ``Individual 1'' is implicated, would you 
do that?
    General Barr. Well, that goes back to an earlier answer--
explanation I gave, which is every decision within the 
Department has to be made based on the Attorney General's 
independent conclusion and assessment that it is in accordance 
with the law. And so I would not stop a bona fide lawful 
investigation.
    Senator Coons. So if the President sought to fire 
prosecutors in the Southern District of New York to try and end 
the investigation into his campaign, would that be a crime? 
Would that be an unlawful act?
    General Barr. Well, I mean, that one--usually, firing a 
person does not stop the investigation. That is one of the 
things I have a little bit of trouble accepting, you know. But 
to--the basic point is, if someone tried to stop a bona fide 
lawful investigation to cover up wrongdoing, I would resign.
    Senator Coons. Deputy Attorney General Rosenstein has said 
publicly your memo had no impact on the Special Counsel 
investigation. If you are confirmed and you are supervising the 
Special Counsel investigation, would you order the Special 
Counsel's Office to accept and follow the reasoning in your 
memo?
    General Barr. I would probably talk to Bob, Bob Mueller, 
about it. If--you know, if I felt there was a difference of 
opinion, I would try to work it out with Bob Mueller. At the 
end of the day, unless something violates the established 
practice of the Department, I would have no ability to overrule 
that.
    Senator Coons. You were Attorney General when President 
Bush pardoned six administration officials charged with crimes 
arising from the Iran-Contra scandal, and you encouraged the 
President to issue those pardons. Is it permissible for a 
President to pardon a member of his administration in order to 
prevent testimony about illegal acts?
    General Barr. Is it permissible under what?
    Senator Coons. Would it strike you as obstruction of 
justice for him to exercise his presidential pardon power for 
the purpose of preventing testimony?
    General Barr. Yes. I think that if a pardon was a quid pro 
quo to altering testimony, then that would definitely implicate 
an obstruction statute.
    Senator Coons. Would it be permissible for the President to 
pardon family members----
    General Barr. Let me just----
    Senator Coons [continuing]. Simply because they are family 
members?
    General Barr. Let me say this. No. I am sorry. Go ahead.
    Senator Coons. Two last questions, and then we will be 
done. Do you think it would be permissible for the President to 
pardon a family member simply because they are a family member 
and where the purpose, the motive, is unclear? And do you think 
it would be permissible for a President to pardon himself?
    General Barr. Yes. So here, the problem is, under the 
Constitution, there are powers, but you can abuse a power. So 
the answer to your question in my opinion would be yes, he does 
have the power to pardon a family member, but he would then 
have to face the fact that he could be held accountable for 
abusing his power or if it was connected to some act that 
violates an obstruction statute, it could be obstruction.
    Senator Coons. How would he be held accountable?
    General Barr. Well, in the absence of a violation of a 
statute, which is--as you know, in order to prosecute someone, 
they have to violate a statute. In the absence of that, you 
know, then he would be accountable politically.
    Senator Coons. Thank you for your interest today.
    Chairman Graham [presiding]. Senator Blackburn.
    Senator Blackburn. Thank you, Mr. Chairman.
    And, Mr. Barr, thank you for your patience and for staying 
with us today.
    A couple of questions. We have talked about border security 
and immigration law. And that is something that I want to 
return to. I appreciated your comments about going after the 
problem at the source, and I think that is so vitally important 
when we talk about the immigration issues and we look at what 
has happened when you are talking about drug traffickers and 
human traffickers, the gangs that are coming across that 
Southern border. And I do think that a barrier is there. But 
one of the symptoms, if you will, of an open-border policy has 
been the sanctuary city policy. And that pertains to those that 
are illegally in the country. And I tell you what, it is just 
absolutely heartbreaking to me every time I meet with an Angel 
mom and I hear these stories and then after Officer Singh was 
murdered, hearing that law enforcement, local law enforcement, 
officer talk about, and talk with specificity about, how 
sanctuary policies emboldened those that were illegally in the 
country. And when you look at this practice of sanctuary city, 
you know, if we do not do something consistent in this realm, 
then what is to say you do not develop sanctuary cities for 
other violations of the law, whether it is tax law or 
environmental protection law or traffickers or any others? So 
talk to me for just a minute about what your connection will be 
between dealing with the sanctuary cities and then dealing with 
some of these problems at the source. How do you--you have 
talked about compartmentalizing and putting lieutenants in 
charge, and this is an issue that affects every single 
community because until we stop some of this, we are going to 
have every State a border State and every town a border town.
    General Barr. So, you know, I just think of it, 
immigration, you have pull factors and push factors. There are 
factors down in Latin America that are pushing people up, and 
there are attractions to the United States that are pulling 
them up. And one of the--you know, a--I think a pull factor is 
things like sanctuary cities, the idea that you can come in and 
not be--and can get away with flouting our laws in coming in. 
So I think that is one of the concerns I have about sanctuary 
cities.
    The second concern I have is that the sanctuary city 
problem is a criminal alien problem. I think a lot of people 
are under the impression that sanctuary cities are there to 
protect, you know, the illegal aliens who are quietly living as 
productive members of society and paying their taxes, as 
Senator Hirono said. It is not. The problem with sanctuary 
cities is that it is preventing the Federal Government from 
taking custody of criminal aliens, and it is a deliberate 
policy to frustrate the apprehension of criminal aliens by the 
Federal Government. So I do not think those cities should be 
getting Federal----
    Senator Blackburn. Do you think it would be--would it be 
abided with any other violation of U.S. law?
    General Barr. No, I do not. And there is a legal issue, 
which is the question of, what is the word, commandeering. You 
know, the States argue that for their law enforcement officers 
who have custody of a criminal alien to notify the Federal 
Government on a timely basis, so that they can turn that 
fugitive essentially over to the Federal Government, that that 
is commandeering State apparatus under the Printz case, and, 
therefore, it is--you know, the Federal Government should not 
have that power.
    That is the issue. And I personally am very skeptical of 
the commandeering argument. That was adopted where the Federal 
Government passed gun control legislation, and basically were 
ordering the States to set up the whole background check, and 
everything else.
    The idea here is simply one law enforcement agency 
notifying another, and holding the person until they can be 
picked up. So I am skeptical that that is commandeering. But 
that is the legal issue.
    Senator Blackburn. My time is expiring, and I know we need 
to finish this up, but I do look forward to talking with you 
again about China----
    General Barr. Uh-huh.
    Senator Blackburn [continuing]. And the intellectual 
property violations. The way they go in and re-engineer, steal 
from our innovators, and, of course, the way they are forcing 
fentanyl, and illicit drugs----
    General Barr. Uh-huh.
    Senator Blackburn [continuing]. Through our ports and 
through that open southern border that we have to secure.
    General Barr. Uh-huh.
    Senator Blackburn. Thank you. Yield back.
    Chairman Graham. Senator Blumenthal.
    Senator Blumenthal. Thanks, Mr. Chairman.
    I want to join in thanking you for your patience. I am 
hoping that I can get through all my questions on this round. I 
do not know whether the Chairman will accede to a short third 
round, but let me just try as best I can.
    On the pardon issue and accountability, you would agree 
that the President pardoning someone in return for changing his 
or her testimony would be an abuse of the pardon power, and the 
President should be held accountable.
    General Barr. Well, a quid pro quo to change testimony 
could potentially be obstruction.
    Senator Blumenthal. Or for not testifying at all----
    General Barr. Uh-huh.
    Senator Blumenthal [continuing]. Would be obstruction of 
justice. If the Special Prosecutor or the prosecutor anywhere 
else came to you with proof beyond a reasonable doubt of that 
kind of obstruction, or any other crime, talking proof beyond a 
reasonable doubt, would you approve an indictment of the 
President?
    General Barr. That is the kind of thing I am not--I am not 
going to answer off the top of my head. But if we take it out 
of this context and say if someone--if someone were--if a 
prosecutor came and showed that there was a quid pro quo by 
which somebody gives something of value to induce a false 
testimony or----
    Senator Blumenthal. It would be a crime.
    General Barr. Yes.
    Senator Blumenthal. And the question is whether the 
President could be prosecuted while in office. I happen to 
believe that he could be, even if the trial were postponed 
until he is out of office. But because the statute of 
limitations might run for any other number of reasons, a 
prosecution would be appropriate. Would you agree?
    General Barr. You know, for 40 years the position of the 
executive branch has been, you cannot indict a sitting 
President.
    Senator Blumenthal. Well, it is the tradition, based on a 
couple of OLC opinions. But now it is potentially an imminent, 
indeed, immediate possibility, and I am asking you for your 
opinion now, if possible, but if not now, perhaps, at some 
point.
    General Barr. Are you asking me if I would change that 
policy?
    Senator Blumenthal. I am asking you what your view is, 
right now.
    General Barr. You know, I actually have not read those 
opinions in a long time, but I see no reason to change them.
    Senator Blumenthal. Well, I am happy to continue this 
conversation with more time and another opportunity.
    General Barr. Sure.
    Senator Blumenthal. I want to ask you about the Southern 
District of New York, which I believe is as important as the 
Special Prosecutor. As I mentioned earlier in my question 
before, the President has been named there, ``Individual Number 
1,'' as an unindicted co-conspirator.
    If the President fired a United States Attorney, would you 
support continuing that investigation, even under the civil 
servants, the career prosecutors, who would remain? Assuming it 
is a legitimate prosecutor.
    General Barr. Yes. And I have tried to say it a number of 
different ways. I believe, regardless of who or what outside 
the Department is trying to influence what is going on, every 
decision within the Department relating to enforcement, the 
Attorney General has to determine independently that--that it 
is a lawful action. And if there was a lawful bona fide 
investigation that someone was trying to squelch, I would not 
tolerate that.
    Senator Blumenthal. Putting it very simply, you would 
protect that investigation against political interference, as 
hopefully you would do----
    General Barr. With any investigation in the Department.
    Senator Blumenthal. Exactly.
    Let me move on to something unrelated, if I may. In the 
early 1990s, thousands of Haitians tried to flee persecution in 
their own country by coming to the United States by boat. As 
you will remember, you oversaw, I believe, a program that sent 
thousands of them--some of them were HIV positive----
    General Barr. Uh-huh.
    Senator Blumenthal [continuing]. To Guantanamo Bay.
    General Barr. Uh-huh.
    Senator Blumenthal. These asylum seekers were kept at 
Guantanamo Bay for 18 months. A Federal Judge in the Eastern 
District of New York described the living conditions in 
Guantanamo Bay by saying that asylum seekers were forced to 
live in camps ``surrounded by razor barbed wire,'' and 
compelled to ``tie plastic garbage bags to the sides of the 
building to keep the rain out.''
    In an interview in 2001, at the Miller Center, you defended 
this program. Do you have regrets about it now, and am I 
correct in saying that when these asylum seekers first started 
coming to the United States, it was your position that they 
should be kept there indefinitely?
    General Barr. I really appreciate the opportunity to 
address this.
    So in 1991, Aristide was overthrown in Haiti, and there was 
sort of a mass exodus from Haiti. And up until then the policy 
of the United States had been forced--until that time, 
administrations had forcibly returned Haitian asylum seekers 
and so forth without any kind of process.
    It was a humanitarian problem, because a lot of these boats 
were sinking. It was a 600-mile journey. So the Coast Guard--
there were two different issues. One issue is the processing of 
those who are healthy, and the second issue is the HIV.
    In a nutshell, the processing we started actually giving 
them, you know, abbreviated asylum, hearings, on the ships. 
Eventually, we moved some of that to Guantanamo. And we were 
admitting to the United States 30 percent, which is the highest 
it has ever been. I think before that it was just miniscule. 
Later, when the Clinton administration adopted our policies, it 
went down to 5 percent, I am told.
    But in any event, then it became so overwhelming that we 
forcibly repatriated the Haitians, because we felt that most of 
them, the conditions were changing. We did not think that there 
was a threat in Haiti, and we forcibly--we were just 
overwhelmed, and we forcibly sent them back to Haiti.
    Meanwhile, HIV was an exclusion. You could not admit anyone 
with HIV, and this was adopted by the Senate, and then in the 
first year of the Clinton administration, the Clinton 
administration signed a bill that kept it as an exclusion, you 
cannot admit someone with HIV, except by case-by-case waiver, 
based on extreme circumstance.
    So what we did with the HIV people is we first screened 
them for asylum, because if they could not claim asylum, then 
they would not be admitted, and then we started a case-by-case 
review.
    I started admitting them on a case-by-case basis, where 
cases could be made that there was a particular reason for 
doing it, like pregnant women, and people who had not yet 
developed full-blown.
    So I think there was a slowing down of the processing, 
because people felt that the Clinton administration, which at 
the time was attacking these policies, was going to be more 
liberal. And so people thought, well, why should we go through 
this process with Bush, when Clinton's right around the corner.
    Clinton came in, adopted our policies, and defended them in 
court, continued forced repatriation, continued the exclusion 
of HIV. As part of settling a case, he brought in 200----
    Senator Blumenthal. Which did not necessarily make it 
right.
    General Barr. It was right under the law.
    Senator Blumenthal. Did you favor keeping those Haitians in 
Guantanamo indefinitely?
    General Barr. No.
    Senator Blumenthal. And let me ask you----
    General Barr. I think most of the articles at the time said 
we were sort of in a Catch 22. We were trying to process the 
HIV people on a case-by-case basis. And, in fact, the lawyers 
who--we, by the way, agreed to have lawyers come down and 
represent these people in the asylum hearings at Guantanamo.
    In the book written by them, they say right at--we were 
making progress. It stopped when the Clinton administration was 
elected.
    So we were in this Catch 22 on the HIV, and I had staff 
members go down there to Guantanamo, and they did not report, 
you know, inhumane conditions, or anything like that. And that 
is not mentioned, I do not think, in the book written by the 
lawyers who represented them.
    So it was a mass exodus situation, and we did the best we 
could.
    Senator Blumenthal. Would you do it again in exactly the 
same way, if you had it to do again?
    General Barr. I mean, I do not know. It would depend on the 
circumstances, and also depend on whether we thought this was 
really a case of persecution.
    Senator Blumenthal. I ask you this: Would you again house 
asylum seekers in Guantanamo?
    General Barr. Well, the Clinton administration did. In 
fact, they doubled--they doubled the--and they started putting 
other nationalities in there, too.
    Probably not, because of the associations of Guantanamo 
now.
    Senator Blumenthal. Would you segregate asylum seekers in 
some other way then?
    General Barr. Well, I think it is always--given the abuses 
of the asylum system right now, I would always prefer to 
process asylum seekers outside the United States.
    Senator Blumenthal. And do you think we should do a better 
job with asylum seekers in this country, in terms of the kinds 
of facilities that we provide, particularly for women, and 
children, and families?
    General Barr. Oh, absolutely. Yes. I think we--if we are 
going to detain families, I think those have to be facilities 
that are safe and appropriate for young children.
    Senator Blumenthal. Thank you, Mr. Chairman.
    Chairman Graham. Senator Lee.
    Senator Lee. Thank you very much, Mr. Chairman.
    Thanks again, to you, Mr. Barr, for being willing to answer 
all these questions today.
    I want to continue on some of the same theme that Mr. 
Blumenthal raised a moment ago. He raised a couple of questions 
regarding immigration, regarding our asylum process.
    I think it is significant to note here that we have some in 
our political discourse today who are suggesting that the 
enforcement of our immigration laws and the enforcement of our 
border is somehow immoral, that it is somehow wrong.
    We have had people who, in one of the major political 
parties, multiple candidates, be elected, campaigning, among 
other things, on either eviscerating ISIS power, or abolishing 
the agency altogether.
    As you noted earlier today, you gave a speech back in 1992, 
and you were one of the first people I remember using the 
metaphor of, you know, wanting to make sure that our immigrants 
come to this country through the front door, and not through 
the back door, and not through a side window, or something to 
that effect.
    Can you just sort of describe to us why you think it is 
important that we draw a clear moral distinction between the 
enforcement of immigration laws, between legal immigration and 
illegal immigration?
    Is this the functional equivalent, in other words, of the 
premature removal of a ``Do Not Remove'' tag on a mattress, or 
is it something more than that?
    General Barr. I think it is something more. I mean, you 
know, we have built a great society here in the United States, 
and a vast--I forgot what the statistic is, but a very large 
majority of the world lives under our poverty level, and for 
them, even, you know, being poor in the United States would be 
a step up.
    And we have a lot to be grateful and thankful for here. And 
if it was unrestricted, a lot of people would come here, more 
than we could possibly accommodate.
    Senator Lee. And who would that harm, first and foremost, 
if we allowed that to happen? Would it be the wealthy who would 
most immediately be harmed by that?
    General Barr. No, it would not.
    Senator Lee. Yes.
    General Barr. And so it just seems obvious that you have to 
have a system of rationing. You have to have a system that 
makes determinations who can come and when, and it is--Congress 
is in charge of that. They can make the laws and determine it, 
and we, I think, have a very expansive system. There are people 
waiting in line for 10, 15--at least there were when I last 
looked at it, you know, in the Philippines, for example, for 
over a decade waiting patiently, law-abiding people who want to 
come here and have family here and other things like that.
    And just to allow people to come crashing in, be told that 
if you say this you will be treated as an asylum, and then you 
do not have to--you do not have to reappear for your hearing or 
whatever, it is just an abuse of the system, and it is unfair. 
I mean, all of us have been standing in lines, long, long 
lines, and someone just walks up to the front. That is unjust. 
That is unjust.
    I also think that without control, you have unsafe 
conditions and uncontrolled conditions on the border, which 
create, you know, serious safety problems for everybody on both 
sides of the border. So it creates uncontrolled access to the 
country as a national security threat. You know, there are 
people around the world that are coming into Latin America for 
the purpose of coming up through the border. So these are--you 
know, these are the reasons why I think it is important that we 
enforce--we have an enforceable system of laws, which right 
now, the laws are sorely lacking.
    Senator Lee. Our desire to enforce our border is not unique 
to us. In fact, our neighbors on the southern side of our 
border in Mexico themselves have pretty strict laws which they 
enforce. And our neighbors in Mexico, including the officials 
in the--in the new Lopez Obrador administration, with whom I 
visited recently, are themselves quite concerned about these 
uncontrolled waves of migration from Guatemala, from Honduras, 
from El Salvador.
    It occurs to me, and it has occurred to them, that it is 
important for us to figure out ways to turn off the magnets 
that are bringing these uncontrolled waves in. If you could 
wave a magic wand, is there anything--any change you would make 
to current asylum law or policy that you think we ought to 
consider?
    General Barr. I really could not say off the top of my 
head. I think--I had some ideas a while back about--you know, I 
am talking decades ago--about how we could change it because 
this has always been the problem. But I--you know, I would have 
to see exactly where the abuses are coming in and how we could 
deal with it.
    Senator Lee. Mr. Chairman, I have got one more question. 
Could I----
    Chairman Graham. Sure. Absolutely.
    Senator Lee. Thank you, Mr. Chairman. I want to get back 
very briefly to civil asset forfeiture. I referred briefly at 
the end of our previous exchange to a process whereby some 
State law enforcement agencies, seeing that they are prohibited 
from doing that which they would like to do under State law, 
will go to Federal law enforcement and agree to make the civil 
asset forfeiture that they want with Federal such that it is no 
longer governed by State law. Sometimes that happens, and the 
Department of Justice will enter into an equitable sharing 
arrangement with that State where the money is sort of--I do 
not like to use the word, ``laundered,'' but it is filtered 
through the Federal system deliberately in an effort to 
circumvent State law.
    Would banning this type of equitable sharing in civil asset 
forfeiture be something that you would be willing to do as 
Attorney General?
    General Barr. Now, I could not say I am willing to do it 
now because I do not know enough about it. You know, I come at 
this, number one, that asset forfeiture is an important tool; 
number two, that it is important, you know, how we work with 
our State and local partners; but number three, as you can tell 
from my early statement on this matter, I am sensitive to 
creating a speed trap problem and also due process issues where 
amounts are stolen that, for all intents and purposes, it would 
be too costly for some individuals to go and try to, you know, 
get back. So I am open to looking at whether there are abuses, 
what kind of abuses occur, and try to redress those.
    Senator Lee. Okay. Thank you. And it is my view that, at 
least, in that circumstance where it is prohibited by State 
law, State law enforcement agencies should not be able to make 
themselves. They should not be able to seek the blessing of 
Government simply by making it Federal, so I hope you will 
consider that, and appreciate your remarks on due process. This 
really does touch on that, and it is right at the surface of a 
whole lot of constitutional rights. Thank you very much, sir. 
Thank you, Mr. Chairman.
    Chairman Graham. Thank you.
    Senator Harris.
    I am sorry--Booker. I apologize.
    Senator Booker. Gosh. Give a guy a little power as the 
Chairman, and he starts to push you around.
    [Laughter.]
    Chairman Graham. I tell you what----
    Senator Booker. I thought we were friends.
    Chairman Graham. He is doing better than I am. I am getting 
tired.
    Senator Booker. I thought we were friends.
    Chairman Graham. I apologize. We are friends.
    Senator Booker. I am grateful, sir. Let me jump right in. 
You wrote an article where you described how the law was being 
used, and this was your opinion, and maybe it has changed 
because this was over a decade ago, where you said, ``the 
breakdown of traditional morality by putting on an equal plane 
conduct that was previously considered immoral.'' And you 
mentioned the homosexual movement is what you described as 
``one of the movements causing an erosion of morality in 
America.'' I can only gather from this--the article I am 
quoting, unless your opinions have changed, that you believe 
that gay, bisexual--being gay or bisexual, lesbian, or 
transgender is immoral. Have your views changed on that?
    General Barr. No, but I do not think I said--I think you 
were paraphrasing there. What did I say about the homosexual--
--
    Senator Booker. I will put in the record the----
    General Barr. Okay.
    Senator Booker [continuing]. The article that you--and, 
again, I am quoting your actual language.
    [The information appears as a submission for the record.]
    General Barr. But I will tell you--I will tell you my 
views. If I had been voting on it at the time, I--my view is 
that under the law and the Constitution as I originally 
conceived it before it was decided by the Supreme Court, 
marriage was to be regulated by the States. And if I were--and 
if it was brought to me, I would have favored marital unions--
single sex.
    Senator Booker. I guess I am more asking do you still 
believe that homosexuality is a--is a movement or that----
    General Barr. Well----
    Senator Booker [continuing]. That somehow that is immoral 
behavior.
    General Barr. What I was getting at is, I think there has 
to be a live and let--in a pluralistic society like ours, there 
has to be a live and let live attitude and mutual tolerance, 
which has to be a two-way street. And my concern, and the rest 
of the article addresses this, is, I am perfectly fine with the 
law as it is, for example, with gay marriage--perfectly fine--
but I want accommodation to religion. And what I was concerned 
about----
    Senator Booker. But, I guess that is not my concern. We 
live in a country right now where, especially LGBTQ youth are 
disproportionately bullied at school.
    General Barr. Yes.
    Senator Booker. Many of them.
    General Barr. Hate crimes.
    Senator Booker. Hate crimes, serious hate crimes. Many of 
them are missing school because of fear, disproportionately 
homeless. And I guess what I am more concerned about is do you 
believe that laws designed to protect LGBTQ individuals from 
discrimination contribute to what you had described as a 
breakdown in traditional morality.
    General Barr. No.
    Senator Booker. You do not.
    General Barr. No.
    Senator Booker. Okay. Since----
    General Barr. But I would like to say what--I also believe 
there has to be accommodation to religious communities.
    Senator Booker. You and I both believe in freedom of 
religion. I guess what I am talking about, again, is 
discrimination. And I know you believe--I know you believe--you 
do not need to say it for me that you believe that firing 
somebody simply because they are gay is wrong.
    General Barr. Totally wrong.
    Senator Booker. I understand that you believe that, but do 
you believe the right to not be fired just because of your 
sexual orientation should be something that should be protected 
under civil rights law?
    General Barr. I am sorry. Your right not to be fired?
    Senator Booker. Sir, right now----
    General Barr. In other words, are you saying that it should 
be part of--part of Title VII?
    Senator Booker. I am saying that right now in the United 
States of America in the majority of our States, someone can be 
fired. They can post their wedding pictures on their Facebook 
page and be fired the next day just because they are gay.
    General Barr. I think that is wrong.
    Senator Booker. You think that is wrong.
    General Barr. Yes.
    Senator Booker. And so you would believe that efforts by 
the Department of Justice to protect LGBT kids or individuals 
from harassment from hate crimes and efforts to protect the 
civil rights of LGBTQ Americans----
    General Barr. I support that.
    Senator Booker. You support that. Okay.
    General Barr. That is what I said in the beginning. I am 
very concerned about the increase in hate crime.
    Senator Booker. Oh, I was really happy about that. You said 
you recognize that violence based on sexual orientation is not 
acceptable and that you will work to combat that. I was really 
happy to read that in your written testimony and hear it again. 
Will you recognize, then, that there is a place for the 
Department of Justice, which is supposed to protect the civil 
rights of Americans, vulnerable communities, that there is a 
place for the Department of Justice to protect the civil rights 
of LGBT Americans by banning discrimination based on sexual 
orientation or gender identity?
    General Barr. If Congress passes such a law, I--you know, I 
think the litigation going on now on Title VII is what the 1964 
Act actually contemplated. But personally, I think----
    Senator Booker. So you--I am sorry. You do believe the 1964 
Act contemplated protecting individuals from having--being 
discriminated upon----
    General Barr. No, no, no, I think it was male/female that 
they were talking about when they mentioned sex in the 1964 
Act.
    Senator Booker. So protecting someone's basic rights to be 
free from discrimination because of sexual harassment is not 
something that the Department of Justice should be protecting.
    General Barr. No. I am saying Congress passes the law. The 
Justice Department enforces the law. I think the 1964 Act, on 
its face, and this is what is being litigated, what does it 
cover? I think, for, like, 3 or 4 decades the LGBT community 
was trying to amend the law.
    Senator Booker. But the Obama administration--as you know, 
the Justice Department under the Obama administration was 
working to protect LGBTQ kids from discrimination. Are those 
practices that you would be pursuing as well?
    General Barr. I do not--I do not know what you are 
referring to. You know, I am against discrimination against 
anyone because of some status, like, you know, their gender or 
their----
    Senator Booker. I understand. Really briefly----
    General Barr [continuing]. Sexual orientation or whatever.
    Senator Booker. Thank you. With the indulgence of the 
Chair, just very briefly, the Department of Justice reversed 
the Federal Government's position in Veasey v. Perry after 
arguing that--for almost 6 years, that the Texas voter ID law 
intentionally discriminated against minorities. Even the Fifth 
Circuit of Appeal, one of the more conservative Circuits, ruled 
that the Texas law discriminated against minority voters. You 
said very strongly that voting--the right to vote is paramount.
    General Barr. Mm-hmm.
    Senator Booker. And I am wondering if confirmed, will you 
bring the Department of Justice back on--into the mode of 
defending the right to vote because they have now pulled out of 
a lot of cases that were--that were affirming people's access 
for the right to vote.
    General Barr. I will vigorously enforce the Voting Rights 
Act.
    Senator Booker. Okay. And then I will just say--Mr. 
Chairman, I just want to say to you, please, I hope we get a 
chance to talk more. I imagine this is our second round, and I 
am grateful for you today answering my questions. Thank you, 
sir.
    Chairman Graham. Now, Senator Harris.
    Senator Harris. Thank you. Sir, you were the Attorney 
General, obviously under President H.W. Bush, and in the Reagan 
White House, a senior policy advisor, so I am going to assume 
that you are familiar with the Presidential Records Act. And my 
question is, in the context of a Washington Post report that 
the President took possession of an interpreter's notes 
documenting the President's meeting with the Russian President 
Putin in 2017. And the question then is, does that violate the 
Presidential Records Act?
    General Barr. Your initial assumption, I am afraid, was 
wrong. I do not--I am not familiar with that Act.
    Senator Harris. You are not familiar at all with it?
    General Barr. At some--at some time I was, but I--it is--
you know, I really do not know what it says.
    Senator Harris. You do not what it says?
    General Barr. No.
    Senator Harris. Okay.
    General Barr. At some time--at some point I was----
    Senator Harris. It requires the President to keep--to keep 
documents and not destroy them, essentially.
    General Barr. Okay. At one point I knew what it said, but I 
am not familiar with it right now.
    Senator Harris. Okay. In December, a Texas Judge struck 
down the Affordable Care Act. If the decision is upheld, the 
results could include an estimated 17 million Americans losing 
their health insurance in the first year alone. Protections for 
pre-existing conditions would be eliminated, and seniors would 
pay more for prescription drugs. And some adults would no 
longer be able to stay on their parents' insurance plans until 
the age of 26.
    Attorney General Sessions refused to defend the Affordable 
Care Act in court. As you know, when there is a change of 
Attorney General in the Justice Department, there is often a 
change of priorities from the previous AG. So in the context of 
also understanding that many lawyers, including conservative 
legal scholars, have criticized the Texas decision, including 
Philip Klein of the Washington Examiner, would you reverse the 
Justice Department's position and defend the Affordable Care 
Act in court?
    General Barr. That is a case that I, if I am confirmed, 
would want----
    Senator Harris. If confirmed.
    General Barr. If I am confirmed, I would like to review the 
Department's position on that case.
    Senator Harris. Are you open to reconsidering the position?
    General Barr. Yes.
    Senator Harris. Attorney General Sessions also issued a 
memo limiting the use of consent decrees. This came up earlier 
in your hearing. And the limitation was on the use of consent 
decrees between the Justice Department and local governments. I 
am asking then, within your first 90 days, will you commit to--
if confirmed--providing this Committee with a list of all 
consent decrees that have been withdrawn since Attorney General 
Sessions issued that policy? We would like some transparency 
and information about what consent decrees have been withdrawn 
during the Sessions' administration of the Justice Department. 
Would you commit to doing that?
    General Barr. Yes.
    Senator Harris. And if confirmed, will you commit to 
providing this Committee with a list of any consent decrees 
that you withdraw during your tenure?
    General Barr. Through the tenure?
    Senator Harris. Yes.
    General Barr. Yes.
    Senator Harris. And if confirmed, within 90 days of your 
confirmation, will you commit to convening civil rights groups 
to listen to their concerns about this policy in the Department 
of Justice?
    General Barr. I will--I am very happy to convene that 
group.
    Senator Harris. I am going to interpret that as a 
commitment that you will.
    General Barr. I am not--I am not sure about 90 days. Give 
me 120.
    Senator Harris. Okay.
    [Laughter.]
    Senator Harris. That is fine. That is the agreement then, 
within 120 days. That is terrific. And then the Voting Rights 
Act, you are familiar, of course, with that, I am going to 
assume, yes?
    General Barr. Yes.
    Senator Harris. Okay. And under the Act, the record of 
discriminatory voting practices, those States that have a 
record of such practices, had to obtain Federal approval in 
order to change their voting laws, as you know.
    General Barr. Yes.
    Senator Harris. And then came the 2013 Shelby decision 
where the Court, by a 5-to-4 vote, pretty much gutted the Act, 
ending the Federal pre-approval requirement. So, within weeks 
of that ruling, you are probably aware that legislators in 
North Carolina rushed through a laundry list of voting 
requirements. A Federal Appeals Court later held those North 
Carolina laws to be intentionally discriminatory against 
African-American voters, targeting them, quote, ``with almost 
surgical precision.'' Do you believe there are currently laws 
on the books that target African Americans or have the effect 
of discouraging African Americans from voting in our country?
    General Barr. Well, it sounds like those laws do.
    Senator Harris. Sure. Do you have any concern about that 
there may be other laws that have the same----
    General Barr. I would be concerned if there are other laws, 
and that is why I would vigorously enforce Section 2 of the 
Voting Rights Act.
    Senator Harris. And would you make it then part of your 
mission to also, in spite of the fact that the Voting Rights 
Act has been gutted, to make it your mission to also become 
aware of any discriminatory laws in any of the States, 
including those that were covered by the Voting Rights Act 
because of their history of discrimination and use the 
resources of the Department of Justice to ensure that there is 
not voter suppression happening in our country?
    General Barr. Yes.
    Senator Harris. Thank you. My time is up. I appreciate it.
    Chairman Graham. That was very efficient.
    I think that is the end of the two rounds that I promised 
the Committee we would do.
    I think, Senator Hirono, you have a few more questions. Is 
that correct?
    Senator Hirono. Yes, thank you very much, and I thank 
Senator Kennedy, as he was sitting in the Chair, to give me 
permission to go a little bit further, so I will be as brief as 
I can.
    Last year, the Justice Department in Zarda v. Altitude 
Express--it was a Second Circuit case--argued that Title VII--
it filed an amicus brief and argued that Title VII of the Civil 
Rights Act of 1964 did not prohibit discrimination on 
employment on the basis of sexual orientation. So both the 
Second and the Seventh Circuits have rejected the Department's 
argument. So if confirmed, would you appeal this decision to 
the Supreme Court?
    General Barr. I think it is going up to the Supreme Court.
    Senator Hirono. So is DOJ going to continue to argue that 
Title VII does not protect discrimination, employment 
discrimination?
    General Barr. You know, it is pending litigation, and I 
have not gotten in to review the Department's litigation 
position. But the matter will be decided by the Supreme Court.
    Senator Hirono. Well, I take it that--that sounds like a 
``yes'' to me, that the Department will continue to push the 
argument that has been rejected.
    General Barr. Well, it is not just the Department's 
argument. It has been--it is sort of common understanding for 
almost 40 years.
    Senator Hirono. So, employment discrimination on the basis 
of sex is something that it would be okay by you if that----
    General Barr. No, that is not at all what I am saying. I am 
saying the question is the interpretation of a statute passed 
in 1964. As I have already said, I personally, as a matter of, 
you know, my own personal feelings, think that there should be 
laws that prohibit discrimination against gay people.
    Senator Hirono. So perhaps, should you be confirmed, you 
will review the Department's position on making the argument, 
continuing to put forth the argument that Title VII does not 
prohibit employment discrimination. Would you review----
    General Barr. No, because there is a difference between law 
and policy. The question in law is what was--I will enforce the 
laws as passed by Congress. I am not going to amend them. I am 
not going to undercut them. I am not going to try to work my 
way around them and evade them.
    Senator Hirono. Well, the DOJ also does not have to file an 
amicus brief either.
    Let me move on. Recently, The New York Times reported that 
the Department of Health and Human Services wanted to redefine 
gender for Federal anti-discrimination law such as Title IX--so 
now we are talking about Title IX--as being determined by the 
biological features one has at birth. So do you believe that 
transgender people are protected from discrimination by Title 
IX?
    General Barr. I think that matter is being litigated in the 
Supreme Court, too.
    Senator Hirono. Do you know what the Justice Department's 
position is on whether--well, if they are going to go along 
with what the Health and Human Services Department wants, then 
the Justice Department's position is that Title IX does not 
protect discrimination on the basis of transgender----
    General Barr. I do not know what the position----
    Senator Hirono. This is probably another one that I would 
ask you to review.
    General Barr. Okay.
    Senator Hirono. Last questions. You have been asked this 
already, but after the Shelby County v. Holder decision, there 
were some 13 States that passed various kinds of laws that one 
could--that the argument could be made that they were intended 
to suppress voters. In fact, some of them were intentionally 
intended, not just the effect of discriminating against 
basically minority voters. So you did say that you would 
vigorously enforce the Voting Rights Act, so that is good.
    The Washington Post reported last week that officials in 
North Carolina reported strong allegations of election fraud 
related to absentee ballot tampering to the U.S. DOJ. We are 
talking about election fraud, not voter fraud. But the Justice 
Department did not appear to take any action, and now that 
congressional race is still being decided. But one thing the 
Department of Justice did manage to do in North Carolina was to 
request that North Carolina turn over millions of voting 
records to Immigration and Customs Enforcement, ICE, apparently 
as part of a needle-in-the-haystack effort to prosecute voting 
by non-citizens.
    If confirmed, will you continue to put resources into this 
kind of effort to prosecute voting by non-citizens, which the 
evidence is very clear that there is not this kind of voter 
fraud going on in spite of the fact that the President said 
there were some, I do not know, 3 million people who were not 
supposed to vote voting? So would you continue to expend 
resources on requiring turning over of millions of voter 
records to be turned over to ICE?
    General Barr. Well, I do not know what the predicate for 
looking into that is.
    Senator Hirono. It was to get at voter fraud, which, 
according to the President, is going on in a massive way, which 
it is not.
    General Barr. Well, yes, but the predicate, I do not know 
what information triggered that review, but, you know, when I 
go into the Department, I will be able to discern whether or 
not that is a bona fide investigation, and if it is, I am not 
going to stop it.
    Senator Hirono. What if the trigger was that there is 
massive voter fraud going on, which is not the factual--it is 
not a factual basis. I would hope that as Attorney General you 
would make decisions based on facts, not on some kind of 
ideological need to go after people. So that is all I am 
asking. I would just ask you to----
    General Barr. You are right, I----
    Senator Hirono [continuing]. Make that the predicates are 
based on some factual basis so that we are not wasting short 
resources to go after fraud that is not even--there are plenty 
of other things that you could be doing to make sure that 
people are able to vote.
    General Barr. Right.
    Senator Hirono. Thank you.
    Chairman Graham. Okay. Can you make it a few more minutes?
    General Barr. Sure.
    Chairman Graham. Okay. I know comfort breaks are necessary. 
So what I would like to do, Senator Kennedy has one question--
right? Senator Blumenthal has a couple. Then we are going to 
wrap it up. If you had 10 minutes to live, you would want to 
live in this Committee.
    [Laughter.]
    Chairman Graham. So 10 minutes is a long time. Senator 
Kennedy.
    Senator Kennedy. General, I am still confused about one 
point. Let us assume that Mr. Mueller at some point, hopefully 
soon, writes a report and that report will be given to you. 
What happens next under the protocol, rules, and regulations at 
Justice?
    General Barr. Well, under the current rules, that report is 
supposed to be confidential and treated as, you know, the 
prosecution and declination documents in an ordinary criminal--
any other criminal case. And then the Attorney General, as I 
understand the rules, would report to Congress about the 
conclusion of the investigation, and I believe there may be 
discretion there about what the Attorney General can put in 
that report.
    Senator Kennedy. So you would make a report to Congress?
    General Barr. Yes.
    Senator Kennedy. Based on the report you have received?
    General Barr. Yes.
    Senator Kennedy. Okay. Thank you.
    Chairman Graham. All right. A couple questions by Senator 
Blumenthal, and we are going to wrap it up.
    Senator Blumenthal. Thank you for your patience and your 
perseverance, and I appreciate, let me say, your willingness to 
come meet with me, and so I am going to cut short some of my 
questions. And, also, I hope that you will come back regularly 
to the Committee. Obviously, the Chairman is the one who 
determines when and whether we have witnesses, but the 
frequency----
    Chairman Graham. He comes every 30 years----
    [Laughter.]
    General Barr. Twenty-seven.
    Senator Blumenthal. Twenty-seven. You were asked by Senator 
Leahy about your statement that the Uranium One deal was more 
deserving of investigation than collusion with Russia. You 
answered that you were not specifically referring to the--
referencing the Uranium One deal, but just generally referring 
to matters the U.S. Attorney might be investigating.
    General Barr. I cannot remember the exact context of that. 
There was a series of questions a reporter was asking, and then 
the article sort of put them in a sequence that, you know, did 
not necessarily show my thoughts.
    Senator Blumenthal. Well, The New York Times just 
published, in a Tweet, the email that you sent them, and you 
did reference Uranium One specifically.
    General Barr. Okay.
    Senator Blumenthal. I will ask that it be made part of the 
record.
    Chairman Graham. Without objection.
    [The information appears as a submission for the record.]
    General Barr. So what did I say?
    Senator Blumenthal. The Tweet from Peter Baker of The New 
York Times says, ``Questions have been raised about what Bill 
Barr told us for a story in 2017. Here is his full email from 
then, responding to our request for comment. We are grateful he 
replied and hope this clarifies any confusion.'' And the email 
from you says--and I will take the relevant part of the 
sentence--``I have long believed that the predicate for 
investigating the uranium deal, as well as the foundation, is 
far stronger than any basis for investigating so-called 
collusion.''
    General Barr. And what came before that?
    Senator Blumenthal. I will read the full email, with the 
permission of the Chairman.
    Chairman Graham. Yes, please.
    Senator Blumenthal. ``Peter, got your text. There is 
nothing inherently wrong about a President calling for an 
investigation. Although an investigation should not be launched 
just because a President wants it, the ultimate question is 
whether the matter warrants investigation, and I have long 
believed that the predicate for investigating the Uranium deal 
as well as the foundation is far stronger than any basis for 
investigating so-called collusion. Likewise, the basis for 
investigating various national security activities carried out 
during the election, as Senator Grassley has been attempting to 
do. To the extent it is not pursuing these matters, the 
Department is abdicating its responsibility.'' Signed, ``Bill 
Barr.''
    General Barr. Right. So the abdicating responsibility, I 
was actually talking about the national security stuff, and 
that was my primary concern. You know, the Uranium One deal, 
the sort of pay-for-play thing, I think at that point--I may be 
wrong on this, but I think it was included in Huber's portfolio 
to review, suggesting that there was something to look at 
there. But the point I was really trying to get at was that 
there was a feeling, I think, a strong feeling among many 
people that it appeared, at least, on the outside, that there 
were double standards being applied. And I thought it was 
important that the same standard for investigation between used 
for all matters. But I have no, you know, specific information 
about Uranium One that would say that it has not been handled 
appropriately.
    Senator Blumenthal. Well, that is really my question. What 
was the factual basis for your saying that the Uranium One deal 
was more deserving of investigation than Russian collusion, 
given what you have----
    General Barr. I think the----
    Senator Blumenthal [continuing]. Very articulately 
described as the potential threat to the national security of 
the United States from Russian interference in our election?
    General Barr. Yes, I think at that time there was a lot of 
articles appearing about it. I think maybe Congressman 
Goodlatte had written a letter about it. So there was smoke 
around the issue, as there has been smoke around a number of 
issues that have been investigated. But I was using it really 
as an example of the kinds of things that were floating around 
that some people felt has to be looked at as well.
    Senator Blumenthal. So the factual basis was whatever that 
smoke was----
    General Barr. Well, the public information that a lot of 
opinions are being formed.
    Senator Blumenthal. And how about as to the foundation? 
What was the basis of your claim that the foundation was more 
deserving of investigation than Russian collusion?
    General Barr. Well, the foundation--I did not necessarily 
think the foundation was--should be criminally investigated, 
but I thought----
    Senator Blumenthal. Well, you did say that in the email.
    General Barr. I did? Criminally?
    Senator Blumenthal. Well, let me read that part of the 
sentence again: ``I have long believed that the predicate for 
investigating the Uranium deal as well as the foundation is far 
stronger than any basis for investigating so-called 
collusion.'' You were referring to the criminal investigation, 
as I read it.
    General Barr. Yes. Well, the foundation I always wondered 
about--it was the kind of thing that I think should have been 
looked at from a tax standpoint and whether it was complying 
with the foundation rules the way a corporate foundation is. 
And I thought there were some things there that, you know, 
merited some attention. But I was not thinking of it in terms 
of a criminal investigation of the foundation.
    I would like to--you know, Attorney General Mukasey said 
something that I agree with. He said, ``It would be like a 
banana republic putting political opponents in jail for 
offenses committed in a political setting. Even if they are 
criminal offenses, it is something we just do not do here.'' 
And one of my concerns, frankly, is, you know, politics 
degenerating into, you know, this kind of thing about should we 
investigate this, investigate that, about political opponents, 
and that concerns me. So, that is why I said I think in, if not 
that, some other article, I do not subscribe to this ``Lock her 
up'' stuff.
    Senator Blumenthal. But a political or public official, 
even the President of the United States, has to be held 
accountable. No one is above the law.
    General Barr. Oh, yes, absolutely.
    Senator Blumenthal. And just one more question. You 
referred earlier in response to a question from Senator 
Feinstein about the emoluments issue, and I ask this question 
in the interest of full disclosure. I will tell you that I am 
the lead plaintiff in a litigation called Blumenthal, Nadler v. 
Trump that raises the issue of emoluments and the payments and 
benefits that have been going to the President of the United 
States without the consent of Congress in violation of the 
chief anti-corruption clause in United States law, the 
Emoluments Clause of the United States Constitution. So we 
claim.
    You said that your understanding of emoluments was that it 
was--that it pertained only to stipends.
    General Barr. No--well, first----
    Senator Blumenthal. Maybe----
    General Barr. I have not looked at that clause, you know, I 
have not researched it, and I have not even looked up the word, 
``emolument.'' But all I said is just colloquially, off the top 
of my head, that is what I always thought the word meant.
    Senator Blumenthal. So you are not necessarily disputing 
the conclusion of at least one District Court, perhaps others, 
that emoluments relates to payments and benefits much broader 
than just a stipend. You were speaking only of your colloquial 
understanding.
    General Barr. Yes. I mean, my colloquial understanding is 
that emoluments does not refer to exchange of services and 
stuff like that.
    Senator Blumenthal. Which is not----
    General Barr. Commercial transactions.
    Senator Blumenthal. Which is not necessarily the 
understanding of the Founders and Framers of the Constitution.
    General Barr. We will see.
    [Laughter.]
    Chairman Graham. Well, that is a good way to end. We will 
see. Thank you, Senator Blumenthal.
    Senator Blumenthal. Thank you.
    Chairman Graham. Thank you, Mr. Barr, to your family. Thank 
you. You should be proud. This was a very thorough examination 
of a very important position in our Government. If confirmed, 
you will be the chief protector of the rule of law, and I 
really appreciate your time, attention, and your patience.
    Any further questions can be submitted for the record by 
January the 21st. This hearing is adjourned, to be reconvened 
tomorrow at 9:30. Thank you.
    [Whereupon, at 6:12 p.m., the Committee was recessed, to 
reconvene at 9:30 a.m., Wednesday, January 16, 2019.]
    [Additional material submitted for the record for Day 1 
follows Day 2 of the hearing.]



                    CONTINUATION OF THE CONFIRMATION



                      HEARING ON THE NOMINATION OF



                     HON. WILLIAM PELHAM BARR TO BE



                 ATTORNEY GENERAL OF THE UNITED STATES

                              ----------                              


                      WEDNESDAY, JANUARY 16, 2019

                              United States Senate,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:32 a.m., in 
Room SH-216, Hart Senate Office Building, Hon. Lindsey O. 
Graham, Chairman of the Committee, presiding.
    Present: Senators Graham [presiding], Grassley, Cornyn, 
Cruz, Sasse, Hawley, Tillis, Ernst, Kennedy, Blackburn, 
Feinstein, Durbin, Whitehouse, Klobuchar, Coons, Blumenthal, 
Hirono, Booker, and Harris.

          OPENING STATEMENT OF HON. LINDSEY O. GRAHAM,
        A U.S. SENATOR FROM THE STATE OF SOUTH CAROLINA

    Chairman Graham. Good morning, everyone. To our witnesses, 
thank you very much for sharing your testimony with the 
Committee.
    We have nine very distinguished people. If you could keep 
it to 5 minutes, we appreciate it. We have your written 
testimony, and we will certainly look at all of it.
    Senator Feinstein, thank you. Yesterday, I thought it was a 
very good hearing, asked a lot of good, tough questions that 
were appropriate. Nominating an Attorney General is no small 
matter, and I thought the Committee acquitted itself well. And 
Mr. Barr, I think, is a unique individual, and I am glad the 
President nominated him.
    Today, the purpose is to hear from people that have 
concerns and support, and we are honored that you showed up. If 
you do not mind, I will mention who is here, then turn it over 
to you. Is that okay?
    Senator Feinstein. That is okay.
    Chairman Graham. Thank you.
    Our first witness will be the Honorable Michael Mukasey, 
former United States Attorney, former U.S. District Judge, and 
former everything. Yes.
    Mr. Derrick Johnson, president and chief executive officer 
of the National Association for the Advancement of Colored 
People from Baltimore. Welcome.
    The Honorable Larry Thompson, former United States Deputy 
Attorney General. Welcome, Larry. Good to see you.
    The Honorable Marc Morial. Is that right, sir? Morial. 
Sorry. President and chief executive officer of the National 
Urban League.
    Mrs. Mary Kate Cary, former speechwriter for President 
George H.W. Bush and a senior fellow at the Miller Center, 
University of Virginia.
    Professor Neil Kinkopf, professor of law, Georgia State 
University College of Law, Atlanta, Georgia.
    Professor Jonathan Turley, TV star, smart guy. That is 
enough.
    Reverend Sharon Washington Risher from Charleston, South 
Carolina, Mother Emanuel. God bless you. Thank you for coming.
    Mr. Chuck Canterbury, the national president, Fraternal 
Order of the Police.
    And I will now turn it over to Senator Feinstein.

          OPENING STATEMENT OF HON. DIANNE FEINSTEIN,
          A U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Feinstein. Thanks very much, Mr. Chairman, and I 
very much enjoyed your leadership yesterday and look forward to 
it in the future.
    Chairman Graham. Thank you. Thank you.
    Senator Feinstein. So thank you.
    I would just like to take a moment to thank our panelists 
today and just a few comments, if I may, on the discussion that 
we had yesterday.
    Yesterday, many of us from, I think, both sides of the 
aisle asked Mr. Barr about his legal memo, and that was 
allowing the Special Counsel to complete his work unimpeded and 
making the report at the end of the investigation public. His 
answers were good. He clearly understands the need for 
independence and the importance of protecting the Department, 
as well as Mr. Mueller, from political interference.
    I was concerned by his equivocation regarding the report at 
the end of the Special Counsel's investigation. Mr. Barr was 
clear that he would notify Congress if he disagrees with Mr. 
Mueller, which I am grateful for. But his answers on providing 
a report to Congress at the end of the Special Counsel's 
investigation were confusing.
    When I first asked him about the report, he said he would 
make it available. However, it seemed to me that as the day 
progressed, he referenced writing his own report and treating 
the Mueller report as confidential. I am going to follow up 
with him in writing on this. I think it is essential that 
Congress and the American people know what is in the Mueller 
report.
    I first met Bob Mueller when he was U.S. Attorney and I was 
mayor in San Francisco, and I know his reputation, I know his 
integrity. And this is a big report, and the public needs to 
see it. And with exception of very real national security 
concerns, I do not even believe there should be very much 
redaction.
    So I am hopeful that that report will be made public, and 
my vote depends on that, Mr. Chairman, because an Attorney 
General must understand the importance of this to the Nation as 
a whole, to us as a Congress, as well as to every American.
    I also plan to follow up on questions that Senator 
Blumenthal asked about Roe and whether he would defend Roe if 
it were challenged. This has always been a critically important 
issue for me and, I believe, the majority of American women, 
and I very much regret that I did not get to ask follow-up 
questions.
    Mr. Barr's nomination comes at a time when we are very 
divided on many issues, ranging from immigration and civil 
rights enforcement to the very independence of the Justice 
Department, and the witnesses today are going to speak to those 
key issues. For example, Professor Kinkopf from Georgia 
University served in the Justice Department's Office of Legal 
Counsel, and he can speak today about issues he is focused on, 
primarily presidential authority, as I understand it, and 
separation of powers.
    Sharon Risher is an ordained pastor who lost her mother and 
cousins to gun violence in the horrific hate crime that took 
place at Emanuel AME Church in Charleston, South Carolina, and 
can speak to the importance of enforcing common sense gun laws.
    We will also hear from two prominent leaders of the civil 
rights community who could speak to the impact of the Justice 
Department's policies under President Trump. Mr. Marc Morial--
Where are you, Marc?--whose sister has been a colleague of 
ours, and it is great to see you, the president and chief 
executive officer of the National Urban League now. And Mr. 
Derrick Johnson, the president of the NAACP.
    So, on behalf of this side, I welcome everyone here.
    Thank you, Mr. Chairman.
    Chairman Graham. Thank you, Senator Feinstein.
    If it is okay, lead us off. Oh, sorry. Got to swear you in 
first.
    Would you please stand? All of you. Raise your right hand.
    Do you solemnly affirm that the testimony you are about to 
give this Committee is the truth, the whole truth, and nothing 
but the truth, so help you God?
    [Witnesses are sworn in.]
    Chairman Graham. All right, General Mukasey.

HON. MICHAEL B. MUKASEY, FORMER UNITED STATES ATTORNEY GENERAL; 
  FORMER U.S. DISTRICT JUDGE FOR THE SOUTHERN DISTRICT OF NEW 
 YORK; AND OF COUNSEL, DEBEVOISE & PLIMPTON LLP, NEW YORK, NEW 
                              YORK

    Judge Mukasey. Thank you.
    Good morning. Mr. Chairman, Ranking Member Feinstein, 
Members of the Committee, it is a tremendous honor as well as a 
great pleasure to be here to testify on behalf of Bill Barr to 
serve as Attorney General.
    I do not know of any nominee who has had his background and 
his credentials for this job. Obviously, the job is about a lot 
more than credentials, but he has done literally everything 
that you could possibly do, including serving as Attorney 
General, to prepare him.
    Now, obviously, the Department of Justice is a different 
place today from the time that he served. It is different from 
the time that I served. But he is obviously well equipped to 
deal with whatever problems he faces.
    He was with the CIA. He headed the Office of Legal Counsel, 
which is, I think, the office that attracts, along with the 
Solicitor General's Office, the best legal minds in the 
Department. He headed that office. He was Deputy Attorney 
General. So he knows how the Department runs. And, of course, 
he was Attorney General. It is impossible to improve on that. 
Not only what he did, but the way he did it.
    When he was Acting Attorney General, he supervised the 
liberation of hostages at a Federal prison in a way that 
prevented any casualties, and then follow that up by not taking 
any public credit for it. That is the kind of person he is, and 
that is the kind of judgment he has.
    And as far as pressure from the White House, he was asked 
at one point whether he could come up with a theory to justify 
the line-item veto. And he did a lot of research and found 
that, well, there was no precedent in our law. There was 
something that might be called common law, going back to about 
the 15th century.
    He said there was a Scottish king who had done something 
that looked like a line-item veto. But, of course, that 
Scottish king, as it turned out, was suffering from syphilis 
and was quite out of his mind. And so you would have to call 
that the syphilitic prerogative if you did it, Mr. President. 
And so the President decided not to assert the power.
    That is the kind of judgment he has. That is the kind of--
--
    Chairman Graham. You learn a lot on this Committee.
    Judge Mukasey. Yes, it was a revelation to me, too. It is a 
terrific story. But it illustrates what he is like. He does 
not--he is not intimidated by questions or by the source of 
them.
    When I--a couple of months ago, when General Sessions was 
leaving, I thought to write an article pointing out all the 
good things that he had done. And I called up Bill Barr to ask 
whether he would join in that article. He did not hesitate for 
a nanosecond. He said he would.
    He said it was the right thing to do, it was the correct 
thing to do, and he was glad he had done it. And that, I think, 
tells you in substance what it is this person is about. He is 
an honorable, decent, smart man, and I think he will make a 
superb Attorney General.
    Thank you very much.
    [The prepared statement of Judge Mukasey appears as a 
submission for the record.]
    Chairman Graham. Mr. Johnson.

    DERRICK JOHNSON, PRESIDENT AND CHIEF EXECUTIVE OFFICER, 
  NATIONAL ASSOCIATION FOR THE ADVANCEMENT OF COLORED PEOPLE, 
                      BALTIMORE, MARYLAND

    Mr. Johnson. Good morning, Chairman Graham and--is that 
better? Great.
    Thank you for allowing me to testify on the nomination of 
William Barr to be Attorney General of the United States.
    My name is Derrick Johnson, and since October 2017, I have 
had the honor of serving as the president/CEO of the NAACP. 
Founded in 1909, the NAACP is our Nation's oldest, largest, and 
most widely recognized civil rights organization. The NAACP 
opposes Mr. Barr's nomination, and I urge every Member of this 
Committee to vote against his confirmation.
    The Senate considers this nomination in extraordinary 
times. Under the Trump administration, we have experienced the 
worst erosion in civil rights in modern history. We have seen 
reversals and rollbacks of longstanding policies and positions 
that have enjoyed bipartisan support from their creation. We 
have seen an undermining of both substantive protections and 
the tools necessary for civil rights enforcement, such as the 
disparate impact method for proving discrimination and the use 
of consent decrees to address abuse by police agencies.
    The next Attorney General of our United States has the 
opportunity to reverse course and place the Justice Department 
back on the track to fulfill its historic role of safeguarding 
our civil and constitutional rights. The Senate must seize this 
second chance for justice and insist upon an Attorney General 
capable of independence and willing to enforce our Nation's 
civil rights laws with vigor and resolve.
    After a thorough evaluation and review of the record, 
William Barr is not that candidate. Mr. Barr's record 
demonstrates a lack of strong commitment to protecting the 
civil and human rights of all Americans. The community served 
and represented by the NAACP will have a difficult time placing 
our trust in the Justice Department and, by extension, the 
American criminal justice system overall, even with the 
improvements just signed into law with the First Step Act.
    The Justice Department's enforcement of our voting rights 
laws is of paramount importance. But the current Department has 
jettisoned protections for the right to vote. It has reversed 
positions in lawsuits to support voter suppression measures and 
to purge voters from the rolls.
    Because Shelby County v. Holder eliminated said guards 
under Section 5 of the Voting Rights Act, litigation under 
Section 2 of the Act is all more important. But the Justice 
Department has filed no Section 2 claims since this 
administration has been in place.
    As the Nation experienced rampant voter suppression 
throughout the 2018 mid-term elections, the Justice Department 
stood silently as communities of color across the Nation were 
denied access to the polls. At a time when the Justice 
Department has abandoned voting rights protections, the need 
for Federal enforcement has never been greater.
    The U.S. Commission on Civil Rights recently reported that 
voter suppression is at an all-time high and unanimously called 
on the Department to pursue more voting rights enforcement in 
order to address aggressive efforts by State and local 
officials to suppress the vote.
    Mr. Barr's record on criminal justice is abysmal. As 
Attorney General, he championed mass incarceration and deprived 
countless persons of color of their liberty and dramatically 
limited their future potential. His Justice Department tenure 
was marred by extraordinarily aggressive policies that harmed 
people of color.
    He was a general in the war on the crime on drugs that was 
rooted in racism. He literally wrote a book on, ``The Case for 
More Incarceration,'' which stands in contradiction of the 
First Chance Act.
    But William Barr did not and does not recognize racially 
discriminatory impact of our criminal justice system policies. 
In 1992, he said, ``I think our system is fair and does not 
treat people differently.'' And just yesterday, he told Senator 
Booker, ``Overall,'' and I quote, ``the system treats Blacks 
and Whites fairly.''
    This statement is singularly disqualifying. We need an 
Attorney General who understands both the history and 
persistence of racism in our criminal justice system.
    The Government response to inhumanity is inconsistent as it 
relates to this administration's enforcement of immigration 
rights. The NAACP, we filed a lawsuit as it relates to DACA. We 
need an Attorney General who respects the rights of 
individuals.
    Finally--and I am trying to rush through this quickly now--
Mr. Barr's recent actions make his impartiality on the ongoing 
investigation into Russian interference in the 2016 elections 
suspect. And for the NAACP, we are very clear. Matters of 
international questions is not under our purview.
    But any time a foreign nation used the worst common 
denomination in this Nation's history of racism to suppress 
African-American votes in an effort to subvert democracy, it is 
a question of national security, and we need an individual who 
has the independence to stand up and be fair and make sure we 
protect democracy.
    Thank you, Members of the Committee.
    [The prepared statement of Mr. Johnson appears as a 
submission for the record.]
    Chairman Graham. Thank you, Mr. Johnson.
    Mr. Thompson.

 HON. LARRY D. THOMPSON, FORMER UNITED STATES DEPUTY ATTORNEY 
   GENERAL, AND PARTNER, FINCH McCRANIE LLP, ATLANTA, GEORGIA

    Mr. Thompson. Good morning, Chairman Graham, Ranking Member 
Feinstein, Members of the Committee.
    It is my great honor to appear before you this morning in 
support of Bill Barr's nomination to serve our country once 
again as Attorney General of the United States.
    I have known Bill since 1992. I can attest to the fact that 
Bill has a deep, deep respect for and fidelity to the 
Department of Justice. Bill will go where the law leads him. In 
fact, as Attorney General, he did not hesitate when required by 
law to appoint or seek to appoint various Special or 
Independent Counsel in high-profile matters.
    He served with great distinction as Attorney General and is 
highly respected and admired on a bipartisan basis by the 
career prosecutors and investigators he oversaw in the 
Department. Importantly, Bill knows how to develop much-needed 
partnerships with State and local law enforcement. He was very 
successful at this during his tenure as Attorney General and 
created strong and effective joint task forces across the 
country to combat white-collar and violent crime.
    Bill believes that every citizen, no matter where he or she 
lives, deserves the full protection of the law. Bill also 
understands that Federal law enforcement cannot do the job 
alone. In 1992, Bill visited my hometown of Atlanta, Georgia, 
and spoke with members of the Southern Christian Leadership 
Conference.
    He said that when cleaning up crime-infested neighborhoods, 
and I quote, ``It cannot be a Washington bureaucratic project. 
It must be a project where the solutions are found in the 
community itself.''
    He acknowledged to the Reverend Joseph Lowery that in the 
past decade, the Federal Government's anti-crime efforts have 
relied too heavily on prison construction and not enough on 
crime prevention.
    Now, as a former general counsel of a large public company 
myself, I also appreciate and admire Bill's approach to his 
work in the private sector. Bill was very supportive of the 
lawyers who worked with him. He was collaborative with his 
colleagues. He welcomed input, dialogue, and discussion.
    He created opportunities for everyone he oversaw to develop 
and grow in their careers, including many female lawyers and 
lawyers of color. He was also supportive of diversity in the 
legal profession.
    In 2002, the company Bill served as general counsel 
received the Northeast Region Employer of Choice Award from the 
Minority Corporate Counsel Association for successfully 
creating a more inclusive work environment.
    Finally, Members of the Committee, I think the most 
important point I can share with you is that Bill Barr is a 
person of very high integrity. He led the Department of Justice 
as Attorney General with an unbending respect for the rule of 
law. As general counsel of a large public company, he 
emphasized the importance of complying with all laws, rules, 
and regulations, and he stood up for his corporate client a 
world-class compliance program.
    Bill Barr's integrity is rock solid. He will not--and I 
repeat--will not simply go along to get along. Last January, he 
resigned from his position as the director of an important 
public company board. Bill let his conscience and his integrity 
guide his decision.
    As a citizen, I thank Bill for his willingness to return to 
public service. He is needed, and I look forward to his tenure 
again in service to our great country as Attorney General.
    Thank you.
    [The prepared statement of Mr. Thompson appears as a 
submission for the record.]
    Chairman Graham. Thank you, Mr. Thompson.
    Mr. Morial.

  HON. MARC H. MORIAL, PRESIDENT AND CHIEF EXECUTIVE OFFICER, 
           NATIONAL URBAN LEAGUE, NEW YORK, NEW YORK

    Mr. Morial. Thank you.
    Chairman Graham, Senator Feinstein, and Members of this 
Committee, I want to thank you for the opportunity to testify 
on the nomination of William Barr to be Attorney General of the 
United States.
    I am Marc Morial and have the pleasure of serving as 
president and CEO of the National Urban League. Before doing 
so, I served 8 years as the mayor of my beloved hometown, New 
Orleans, president of the national--the United States 
Conference of Mayors, a Louisiana State senator, a college 
professor, and a practicing lawyer involved in one of the most 
important civil rights and voting rights cases to come before 
the Supreme Court in the 1990s.
    The National Urban League was founded in 1910. It is an 
historic civil rights and urban advocacy organization with a 
network of 90 community-based affiliates, and we have 
affiliates in every town represented by the Members of this 
Committee. We have worked hard and fought for civil rights, 
justice, and equal opportunity, along with fairness, for our 
entire existence.
    My illustrious predecessor, the late Whitney Young, was one 
of the ``Big Six'' of civil rights leaders who worked for the 
1964 Civil Rights Act, the 1965 Voting Rights Act, and the 1968 
Fair Housing Act. One of our prime missions is to ensure that 
each of these laws is aggressively, faithfully, and 
consistently executed and enforced by every President, every 
Congress, and every Attorney General. That is why I am here 
today.
    Mr. Chairman, on behalf of our entire Urban League movement 
across this country, I urge this Committee and the entire 
Senate, based on a careful examination of this nominee's 
record, to soundly reject the nomination of William Barr as the 
next Attorney General of the United States. Let me tell you 
why.
    For the past 2 years, the Justice Department has been led 
by an Attorney General intent on restricting civil and human 
rights at every turn. This Nation needs an Attorney General who 
will dramatically change course and enforce civil rights laws 
with vigor and independence. Based on his alarming record, we 
are convinced that William Barr will not do so.
    Indeed, in a recent op-ed, Mr. Barr called Jeff Sessions, 
the architect of these restrictive civil and human rights 
policies, an outstanding Attorney General and offered praise 
for his anti-civil rights policies. It is clear, based on the 
record, that Mr. Barr intends to follow Mr. Sessions down the 
same regressive, anti-civil rights road map.
    The confirmation of William Barr, who espouses former 
Attorney General Sessions' policies, would enormously 
exacerbate our Nation's current civil rights crisis. When we 
submitted comments to the United States Commission on Civil 
Rights raising concerns relative to Sessions' actions on 
various civil rights issues, they were as follows: overturning 
a memo from former Attorney General Eric Holder aimed at 
reducing mass incarceration by avoiding mandatory sentencing, 
disproportionately subjecting African Americans and other 
minorities to long-term incarceration; abandoning the Justice 
Department's Smart on Crime Initiative; ending the Community 
Oriented Policing Services' Collaborative Reform Project, a 
Justice Department program that helped build trust between 
police officers and the communities that it served; announcing 
a Justice Department school safety plan that militarizes 
schools; offering a sweeping review of consent decrees with law 
enforcement agencies related to police conduct, nothing but a 
subterfuge to undermine a crucial tool in the Justice 
Department's efforts to ensure constitutional and accountable 
policing.
    Mr. Barr has a troubling record that tells us that there 
will be no redress of Sessions' blunders. Last year, after 
arduous work done by many Members of this Committee, we passed 
the First Step and the Juvenile Justice Reform Act of 2018, and 
I want to thank the Committee for its support of that. Mr. 
Barr's record on criminal justice places these achievements at 
serious risk and gives us no confidence that these hard-won 
reforms are going to be carefully executed.
    Why? As Attorney General, Barr pushed through harsh 
criminal justice policies--or rather, he pursued them that 
escalated mass incarceration in the war on drugs. His 1992 
book, ``The Case for More Incarceration,'' argued that the 
country was incarcerating too few individuals.
    Barr led an effort in Virginia to abolish parole, build 
more prisons, and increase prison sentences by as much as 700 
percent. Yesterday, Mr. Barr testified to this Committee of his 
intent to implement the First Step Act. If that is the case, 
this Committee should ask him for a commitment to rescind the 
guidance that Mr. Sessions issued on May 10, 2017, instructing 
all United States Attorneys to seek the maximum penalty in 
Federal criminal prosecutions.
    The Attorney General has a duty to vigorously enforce our 
Nation's most critical law--to protect the rights and liberties 
of all Americans, to serve as an essential independent check on 
the excesses of an administration. And we feel the evidence is 
clear that Mr. Barr is ill-suited to serve as chief enforcer of 
our civil rights laws, and therefore, we urge this Committee, 
as a part of its deliberations, its duty, and its 
responsibility, to reject Mr. Barr's nomination as our next 
Attorney General.
    And I want to thank you for your time.
    [The prepared statement of Mr. Morial appears as a 
submission for the record.]
    Chairman Graham. Thank you, sir.
    Ms. Cary.

 MARY KATE CARY, FORMER SPEECHWRITER FOR PRESIDENT GEORGE H.W. 
  BUSH, AND ANNE C. STRICKLER PRACTITIONER SENIOR FELLOW, THE 
     MILLER CENTER, UNIVERSITY OF VIRGINIA, WASHINGTON, DC

    Ms. Cary. Chairman Graham, Senator Feinstein, and Members 
of the Committee, thank you for the invitation to testify 
today, and I am here to give my enthusiastic support for the 
nomination of William P. Barr as our next Attorney General.
    My name is Mary Kate Cary, and I was a White House 
speechwriter for President George H.W. Bush from 1989 to 1992. 
In January of 1992, I moved to the Justice Department from the 
White House for the final year of the Bush 41 administration to 
serve as Deputy Director of Policy and Communications, 
overseeing the speechwriters in the policy shop and serving as 
one of two spokesmen for the then-new Attorney General Bill 
Barr.
    When I first started working for General Barr, I was 28 
years old. I got to know him very well, as speechwriters do, 
and quickly learned the way he thinks. I found that Bill Barr 
has a brilliant legal mind. He knows Mandarin Chinese, and he 
plays the bagpipes. He has got a great sense of humor and an 
easy laugh. He is a kind and decent man, a dedicated public 
servant, and one of the best bosses I have ever had. He is 
always a gentleman.
    Bill and I flew thousands of miles that year in a four-
seater prop plane to towns and cities all over America, where 
he met with local law enforcement leaders, small town mayors, 
city council members, victims' rights advocates, criminal 
justice reform leaders, residents of public housing, prison 
wardens, Federal prosecutors, religious leaders, really all 
kinds of people from every walk of life.
    We were often traveling in support of Bill's visionary 
initiative, Operation Weed and Seed, which sought to remove 
violent criminals and drug gangs from underserved neighborhoods 
and then allow grassroots organizations and programs to 
flourish, bringing hope of a better life to residents through 
education, opportunity, and stronger civil rights.
    As we met with people in communities all over America, I 
saw that Bill was a good listener. He was masterful at drawing 
out people's concerns, and he had a knack for finding the best 
solutions on the ground, figuring out what worked in a 
neighborhood, and then putting the right policies in place. He 
made sure politics never entered into it.
    Bill Barr treated everyone with the same respect, whether 
they were an up-and-coming chief of police, a receptionist at 
the Department of Justice, or an 80-year-old resident of public 
housing. I believe this is why Bill Barr continues to be held 
in high esteem by the career staff and the civil servants at 
the Department of Justice and why he was such a successful 
Attorney General.
    I also believe that in addition to being good policy, Bill 
Barr's leadership style is why Operation Weed and Seed 
continued on for many years after he left office.
    Everywhere we went that year, we were accompanied by rank-
and-file FBI agents, and he was admired by every one of them 
that I met. More than once, I can remember being in very 
dangerous situations where the agents were concerned for his 
physical security. Every time, he was more concerned about my 
security. The fact that the Attorney General of the United 
States was more concerned about the safety of a 28-year-old 
staffer than his own safety tells you volumes about him.
    Despite his top-notch education and his stunning intellect, 
Bill Barr is not an ivory tower kind of guy. He went out of his 
way to build friendships at the Department and across the 
United States, checking in when someone was sick, helping 
people get jobs, just staying in touch. He and his wife, 
Christine, came to my wedding, and we have stayed friends for 
the 27 years since we have worked together.
    Like President Bush 41 did, Bill Barr has a devoted and 
wide collection of friends, each of whom think of him as a 
really good friend. I remember when he was Attorney General at 
the age of 42 and his three daughters were young girls. Despite 
the long hours he kept, the tremendous amount of travel, and 
the time spent away from his family, his daughters admired his 
devotion to the law so much that each of them later went to law 
school in order to follow in his footsteps.
    As a mother myself, that, too, tells me volumes about the 
way he has lived his life and the example he has given to young 
people, especially women. It is no surprise to me that he is 
one of the few people in American history to be asked to be 
Attorney General of the United States twice. It is an honor for 
me to highly recommend William P. Barr to you for confirmation. 
Thank you.
    [The prepared statement of Ms. Cary appears as a submission 
for the record.]
    Senator Cornyn [presiding]. Thank you.
    Professor Kinkopf.

  NEIL J. KINKOPF, PROFESSOR OF LAW, GEORGIA STATE UNIVERSITY 
                COLLEGE OF LAW, ATLANTA, GEORGIA

    Professor Kinkopf. My thanks to the Committee for the honor 
and privilege to appear here today and testify on the 
nomination of William Barr to be Attorney General.
    In his testimony yesterday, William Barr minimized his 2018 
memorandum on obstruction of justice. He characterized it as a 
narrow analysis of a particular interpretation of a specific 
statute. That is true in a sense, but to answer that very 
narrow question, he elaborated a comprehensive and fully 
theorized vision of the President's constitutional power.
    He declared without limit or qualification, and I quote, 
``Constitutionally, it is wrong to conceive of the President as 
simply the highest officer in the executive branch. He alone is 
the executive branch. As such, he is the sole repository of all 
Executive powers conferred by the Constitution. Thus, the full 
measure of law enforcement authority is placed in the 
President's hands, and no limit is placed on the kinds of cases 
subject to his control.'' That manifesto of an imperial 
Executive has alarming implications for the Mueller 
investigation and for the whole of the executive branch.
    First, I wish to highlight two implications for the Mueller 
investigation. William Barr gave reassurances yesterday 
regarding what he would or would not do. These assurances are 
beside the point because, on Barr's theory, the power rests 
with the President. Therefore, the President does not have to 
ask Barr to do anything. In his view, the Attorney General and 
the Special Counsel are merely the President's ``hand.'' Again, 
a quote.
    The President needs only ask the Attorney General, ``Can I 
terminate the Special Counsel's investigation,'' and Barr's 
answer to that question will be, ``Yes.'' This is not 
speculation or inference drawn from the Barr memo. The Barr 
memo takes this on very directly. Again quoting the memo: ``Say 
an incumbent U.S. Attorney launches an investigation of an 
incoming President. The new President knows it is bogus, is 
being conducted by political opponents, and is damaging his 
ability to establish his new administration and to address 
urgent matters on behalf of the Nation. It would be neither 
corrupt nor a crime for the new President to terminate the 
matter.'' Well, President Trump has told us that that is 
exactly how he regards the Mueller investigation.
    Next, there was a great deal of discussion around the 
release of Mueller's report. First, it is clear that Barr takes 
the DOJ regulations to mean that he should release not the 
Mueller report, but rather his own report. Second, he reads DOJ 
regulations and policy and practice to forbid any discussion of 
decisions declining to indict, declination decisions. In 
combination with the DOJ view that a sitting President may not 
be indicted, this suggests that Barr will take the position 
that any discussion or release of the Mueller report relating 
to the President would be improper and prohibited by DOJ policy 
and regulations.
    I wish to close by noting one consequence of the Barr 
memo's theory of Executive power that extends outside the 
Mueller probe. The memo asserts that the President has, and I 
am quoting again, ``illimitable discretion to remove principal 
officers carrying out his executive functions.'' This would 
mean, for example, that the President may order the chairman of 
the Federal Reserve not to raise interest rates and to fire the 
chairman of the Federal Reserve if the chairman refuses to 
follow that order.
    The independence of the Federal Reserve, the SEC, the FEC, 
the FTC, the FCC, the dozens of administrative--of independent 
administrative agencies are unconstitutional under Barr's 
theory of Executive power. This is in spite of the fact that 
for over 80 years, the Supreme Court has consistently upheld 
the constitutional validity of the independence of those 
entities.
    Mr. Barr's theory of presidential power is fundamentally 
inconsistent with our Constitution and deeply dangerous for our 
Nation.
    [The prepared statement of Prof. Kinkopf appears as a 
submission for the record.]
    Senator Cornyn. Professor Turley.

   JONATHAN TURLEY, J.B. AND MAURICE C. SHAPIRO PROFESSOR OF 
   PUBLIC INTEREST LAW, THE GEORGE WASHINGTON UNIVERSITY LAW 
                     SCHOOL, WASHINGTON, DC

    Professor Turley. Thank you, Senator Cornyn. Also allow me 
to thank Chairman Graham, Ranking Member Feinstein, and all the 
Members of the Committee for the honor of speaking to you 
today.
    I have known General Barr for many years in my capacity as 
both an academic and a litigator. I actually represented him 
with other former Attorneys General during the litigation 
leading up to the Clinton impeachment. I can think of no better 
person to serve at that--in this position and lead the Justice 
Department at this critical time.
    I come to this as someone that holds different views of the 
Constitution from General Barr. I am unabashedly a Madisonian 
scholar, and I admit--I have always admitted in testimony that 
I favor the legislative branch in fights with the executive 
branch. I also have been a critic of the expansion of Executive 
power. My default is in Article I. General Barr's default is 
Article II. He tends to take a robust view of Executive 
authority. Despite our different defaults, however, I have 
always admired him. I have always found him to be one of the 
most knowledgeable and circumspect leaders in the United States 
when it comes to constitutional history and theory.
    Now, I have already submitted written testimony addressing 
the 1989 and 2018 memos. I respectfully disagree with my 
friend, Neil, even though I found many of the things he said 
very compelling. We disagree on both what General Barr has said 
and also the implications of his views. But ultimately this 
Committee has a difficult task regardless of the resume of a 
nominee. You have to try to determine what is the person's core 
identity and values.
    For me, that question has always come down to a rather 
curious and little known fact about the Seal of the Attorney 
General that sits underneath the Attorney General whenever he 
speaks. It has the familiar image of a rising eagle with the 
olive branch and the 13 arrows and talons, but under it is 
actually a Latin legend that we continue to fight about how 
that legend was put on the seal. What we know is that it 
appears to be derived from how the Attorney General was 
introduced to the Queen.
    The British Attorney General was introduced as one ``who 
prosecutes for our Lady the Queen.'' That phrase was clearly 
adopted by someone--there is a huge debate about who or when or 
even why--but they made one change. It would not do to use that 
language. So they changed the last words to ``Domina 
Justitia,'' ``our Lady Justice.'' It would not do for the 
Attorney General to litigate or appear on behalf of any leader. 
The Attorney General appears on behalf of the Constitution, not 
the President.
    I know that Bill Barr understands that distinction. He has 
said so yesterday. He has maintained that position through his 
whole career. He has a record of specific leadership, not just 
at the Department of Justice, but in this very position. He is 
only the second person ever to be nominated to fit--fill that 
position twice. There are few nominees in history, as General 
Mukasey said, who has the resume that Bill Barr has.
    I will not go into depth about the discussion of the memo 
that Neil was talking about other than to say this. I do go 
into it in my written testimony. As Deputy Attorney General Rod 
Rosenstein said, it is not uncommon for former Justice 
officials to share their views about issues that they believe 
concern the Department. Indeed, General Barr wrote to other 
Justice officials about the prosecution of Senator Menendez. He 
had no connection with Senator Menendez, no interest in that 
case. His interest was the theory of prosecution being used 
against Senator Menendez, that he was concerned swept too 
broadly under the Criminal Code.
    The 2018 memo is vintage Bill Barr. It is detailed. It is 
dispassionate. It is the work of a law nerd, and that is what 
he is. He is a law nerd. I should know because I am a law nerd, 
and I teach with other 80 other law nerds. When people are 
suspicious why would anyone write a memo this long 
spontaneously and send it to anyone, that is because you do not 
know law nerds, okay? We write these memos so that we do not 
follow strangers on the street trying to talk about the unitary 
executive theory. Indeed I think the best thing we could do for 
Christine and the family is to reincarcerate Bill on the fifth 
floor of Main Justice where he can talk about this all day 
long.
    Now, the dispute about that obstruction provision is a real 
one. I am a little taken aback from the criticism. From a civil 
liberty's standpoint, I have been critical of the expansion of 
the--of the obstruction theory. It sweeps too broadly for me, 
and it--as a criminal defense attorney, I have been critical of 
it for a very long time. The issue that he was raising is a 
real one. He raises it from the Article II standpoint. Some of 
us have raised it from the civil liberties standpoint.
    What he really is arguing is not that the President cannot 
be prosecuted. He says exactly the opposite. He says the 
President can be charged with Federal crimes in office. He 
believes the President could be charged with obstruction in 
office. So he says the diametrically opposed thing to what many 
people are saying about him.
    What he believes is, just as Confucius said, that, ``The 
start of wisdom is to call things by their proper names.'' He 
wants to call this by its proper name. If the President commits 
a crime, he wants that crime to be defined. He does not say, by 
the way, that that same conduct cannot be another type of 
crime. He was only talking about the Residual Clause of 1512. 
Those were fair questions about statutory interpretation. I do 
not agree with everything in his memo. I have said that 
publicly. I disagree on some of his conclusions, but I 
wholeheartedly agree with him that this is a serious problem 
and it has to be defined.
    Now, ultimately, I believe if you read his testimony, you 
will find that he is more measured than some of my friends have 
suggested. Even Clinton's own former appointees, like James 
Clapper, said that yesterday he went as far as he could go as 
Attorney General giving assurances. But this is a historic 
moment for the Justice Department. I hope it does not pass. 
They need this man, and they need it now.
    I brought my children today, Aiden and Maddie, because I 
think that they really should be here. I suspect they are here 
because they heard that Senator Feinstein was giving out junk 
food to kids.
    [Laughter.]
    Professor Turley. But I hope that they will also understand 
the historic moment for what it is. And I thank you for the 
honor of being part of this.
    [The prepared statement of Prof. Turley appears as a 
submission for the record.]
    Chairman Graham [presiding]. Thank you.
    Reverend Risher.

            REV. SHARON WASHINGTON RISHER, ORDAINED
               PASTOR, CHARLOTTE, NORTH CAROLINA

    Reverend Risher. Good morning, Chairman Graham, Ranking 
Member Feinstein, and Members of the Senate Judiciary 
Committee. It is my honor to appear before you today to testify 
on the nomination of William Barr to be Attorney General of the 
United States.
    My name is Reverend Sharon Risher, and I live in Charlotte, 
North Carolina. My life, like so many other people's throughout 
this Nation, has been forever changed by gun violence--gun 
violence that is preventable with effective enforcement and 
commonsense safety laws. On Wednesday, June 17th, 2015 is the 
day that my life changed.
    As a hospital trauma chaplain, I have worked and 
experienced grief and tragedy and pain and loss as I worked 
with patients and families to comfort them. But that night, I 
was the one in need of comforting when I received the telephone 
call that no American deserves to get. My beloved mother and 
two of my cousins had been shot and killed in the church along 
with six other parishioners at the Emanuel African Methodist 
Episcopal Church in Charleston, South Carolina.
    In the Charleston community which I was raised, when the 
doors of the church was open, my family was in the pews. That 
Wednesday was no different. A young White man entered the 
church at the beginning of the Bible study. In the spirit of 
our faith, he was welcomed in by the congregation and sat near 
the pastor. After studying the Gospel of Mark, they held hands, 
and bowed their heads, and closed their eyes, and held hands in 
prayer. That was the final moment for many in that church. That 
day that young man pulled out his gun and started firing. Some 
ran, some hid under tables, but they were gunned down.
    A house of worship is supposed to be a refuge from the 
storms of everyday life, but that young man robbed my family 
and the eight other families of their loved ones. Five people 
survived. Five people have to live every day with that tragedy 
in their hearts. After the massacre in Charleston, I struggled 
to answer why my loved ones and so many others had been killed. 
I was disturbed to learn that the shooting was premeditated and 
driven by hate. The shooter targeted parishioners at Emanuel 
simply because of the color of their skins.
    Along with so many Americans, I was baffled at how such a 
hateful man was able to get his hands on a gun. We later 
discovered that a loophole in our gun laws allowed the shooter 
to obtain the gun used to murder my mother and my cousins and 
the six others in that church. That loophole allowed hatred to 
be armed to kill. The person that killed my family members 
should have not been able to buy that gun.
    The National Instant Criminal Background Check System was 
designed to keep guns out of the wrong hands, including 
criminals, domestic abusers, and unlawful users of controlled 
substances. The Charleston shooter had previously been arrested 
for drug possession, something that should have blocked him 
from obtaining a gun under our existing laws. Yet he was able 
to legally purchase one because of a loophole in the Federal 
law. You see, if the FBI does not finish a background check 
within 3 days, the sale can proceed regardless of whether the 
check had been completed, and that is exactly how the man who 
killed my family exploited a loophole and got his gun.
    And he is not the only one. The FBI reported that in 2017 
alone, gun dealers sold at least 4,864 guns to prohibited 
people before the background checks had been completed. Those 
nearly 5,000 sales were primarily made to felons, domestic 
abusers, or, like the man who killed my family, unlawful users 
of controlled substances. A strong background check system is 
the foundation for commonsense safety laws that keep guns out 
of the hands of the wrong people. We cannot stop--we can stop 
hate from being armed, but we need background checks on all gun 
sales, and law enforcement needs enough time to complete the 
background check.
    Each day I wake up motivated to ensure that hate will not 
win. As a member of the Everytown Survivor Network, I share my 
story to put a human face on our Nation's gun violence crisis. 
Our community of survivor advocates for change to help ensure 
that no other family faces the type of tragedy we have 
experienced. If he is confirmed as our Nation's next Attorney 
General, Mr. Barr will serve as our Nation's top law 
enforcement officer in a position of great power and influence. 
I hope he will make it a priority to prevent gun violence and 
work with Congress to update our laws and close loopholes that 
enable guns to get in the wrong hand, just like that young man 
filled with hate, murdered my family.
    Nine lives were cut short in Charleston. Today I say the 
names of my mother and my cousins and the six other people to 
honor them in this most sacred place: my mother, Mrs. Ethel 
Lance; my two cousins, Mrs. Susie Jackson and Tywanza Sanders; 
my childhood friend, Myra Thompson; the pastor of the church, 
Reverend Clementa Pinckney; Reverend Daniel Simmons; Reverend 
Sharonda Coleman-Singleton; Mrs. Cynthia Hurd; Reverend DePayne 
Middleton-Doctor. I pray that whenever you hear their names, 
you feel empowered to help bring about change.
    Thank you for listening, and I will answer any questions 
that you have.
    [The prepared statement of Rev. Risher appears as a 
submission for the record.]
    Chairman Graham. Thank you, Reverend.
    Mr. Canterbury.

             CHUCK CANTERBURY, NATIONAL PRESIDENT,
           FRATERNAL ORDER OF POLICE, WASHINGTON, DC

    Mr. Canterbury. Good morning, Mr. Chairman, Ranking Member 
Feinstein, and distinguished Members of the Committee on the 
Judiciary. I am the elected spokesperson of more than 345,000 
rank and file police officers, the largest law enforcement 
organization in the United States. I am very pleased to have 
the opportunity to offer the strong and unequivocal support of 
the FOP for the nomination of William P. Barr to be the next 
Attorney General of the United States.
    In my previous appearances before this Committee, I have 
been proud to offer the FOP support for a number of nominees 
with the expectation that they would be good leaders, that they 
would serve our country honorably and effectively. In this 
case, however, there is no need to speculate whether or not Mr. 
Barr would make a good Attorney General because he has already 
been a good Attorney General in the administration of President 
George H.W. Bush. He had the experience, the knowledge, and the 
ability to lead the Department then, and he certainly does now.
    Mr. Barr's career of public service began as a clerk for a 
judge on the U.S. Court of Appeals for the District of 
Columbia, and he served a short tenure in the Reagan White 
House. He then joined the Bush administration as Assistant 
Attorney General for the Office of Legal Counsel in 1989. 
President Bush took note of his leadership, integrity, and 
commitment to law enforcement and promoted him to Deputy AG in 
1990.
    In 1991, he was named acting Attorney General and was 
immediately faced with a public safety crisis. At the Talladega 
Federal Prison, more than 100 Cuban inmates awaiting 
transportation back to their country staged a riot and took 
seven corrections officers and three Immigration and 
Naturalization employees hostage. In the first hours of the 
standoff, General Barr ordered the FBI to plan a hostage rescue 
effort.
    The Cuban inmates demanded that they be allowed to stay in 
this country and released one of the hostages. Over the course 
of the 9-day siege, it was clear then that negotiations were 
failing. General Barr ordered the FBI to breach the prison and 
rescue the hostages. They were freed without any loss of life, 
and the incident was ended because of General Barr's decisive 
action.
    Following the successful resolution of this incident, 
President Bush nominated him to be U.S. Attorney General.
    The Committee on the Judiciary reported his nomination 
unanimously, and the Senate confirmed him as the 77th Attorney 
General. Through his service and his actions, he demonstrated 
he was the right man for the job. The FOP believes he is the 
right man for the job, again, today.
    Two years ago, just after his inauguration, President Bush 
issued three--oh, excuse me--President Trump issued three 
Executive orders on law enforcement and public safety, the 
first directed to the Federal Government to develop strategies 
to enhance the protection and safety of our officers on the 
beat. The others created a task force on crime reduction and 
public safety, and for the development of a national strategy 
to combat transnational criminal organizations trafficking in 
human beings, weapons, and illicit drugs.
    Mr. Chairman, during his tenure as Attorney General, Mr. 
Barr directed and oversaw a similar transformation at the 
Justice Department by refocusing its resources by making crimes 
of violence, particularly gang violence, a top priority for law 
enforcement. I submit to this Committee that Mr. Barr is the 
perfect person to complete the work begun by General Sessions 
with respect to focusing Federal resources to fight violent 
crime because he has not only done it before, he has done it as 
the Attorney General.
    President Trump has clearly made law enforcement and public 
safety a top priority. His nomination of William Barr to be the 
next Attorney General demonstrates that these priorities have 
not changed. We know Mr. Barr's record and abilities as well as 
his prior experience in that office. The FOP shares his views, 
and we confident that Mr. Barr will once again be a stellar top 
cop. We believe the President made an outstanding choice, and 
for Mr. Barr to return to public service as the Attorney 
General of the United States will serve this country well.
    The FOP proudly offers our full and vigorous support for 
this nominee, and we urge this Committee to favorably report 
this nomination just as you did in 1991. Thank you for the 
opportunity to testify. I will be glad to answer any questions.
    [The prepared statement of Mr. Canterbury appears as a 
submission for the record.]
    Chairman Graham. Thank you, all, very much. I appreciate 
your testimony, and I will get us started here quickly.
    Reverend Risher, thank you for your coming up here and 
sharing your loss and your story and your hurt. Some comfort I 
hope is that Mr. Barr said, if he is the Attorney General, he 
will pursue red flag legislation that I am working on with Mr. 
Blumenthal and others that would allow law enforcement, if they 
have appropriate information, to go and deny somebody a gun who 
is showing dangerous behavior. I think that is a real gap in 
our law. Most of these cases, people are screaming before they 
act, and we are just not listening. The guy down in Florida did 
everything but take out an ad out in the paper, ``I am going to 
kill somebody.'' And it would have been nice if the police 
would have had a chance to go in and stop it before it 
happened.
    As to Dylann Roof, who is facing the death penalty in South 
Carolina, he applied for a gun in West Columbia, South 
Carolina. The system said he had just been arrested. During the 
3 days of looking into the arrest, he had not been convicted. 
The FBI agent called the wrong solicitor's office. There are 
two counties in Columbia, and they did not find out the fact he 
had admitted to being--possessing and using a substance that 
would have kept him from owning a gun. So we need to reform the 
laws, but that was sort of a mistake more than it was a 
loophole.
    Mr. Turley, thank you for very much for what you had to 
say. The Special Counsel regulation is 28 CFR Sec. 600.8. It 
says ``at the conclusion of the Special Counsel's work, he or 
she shall provide the Attorney General with a confidential 
report explaining the prosecution or declination decisions 
reached by the Special Counsel.'' So do you think Barr will 
take this report seriously if given to him?
    Professor Turley. Absolutely.
    Chairman Graham. Okay. It also says, ``The Attorney General 
will notify the Ranking Member and Chairman of the Judiciary 
Committee in both bodies.'' Do you think he will do that?
    Professor Turley. Absolutely.
    Chairman Graham. Okay. It also says, ``To the extent 
consistent with applicable law, a description and explanation 
of instances, if any, in which the Attorney General concluded 
that a proposed action by a Special Counsel was so 
inappropriate or unwarranted under established departmental 
practices that it should not be pursued.'' So, under this 
regulation, if Mr. Muller recommends a course of action and Mr. 
Barr says I do not think we should do that, he has to tell us 
about that event. Do you--do you agree that is what the 
regulation requires?
    Professor Turley. Absolutely.
    Chairman Graham. Do you believe he will do that?
    Professor Turley. Absolutely.
    Chairman Graham. Okay. It also says, ``The Attorney General 
may determine that public release of these reports would be in 
the public interest to the extent that their release would 
comply with applicable legal restrictions.'' Do you think he 
will be as transparent as possible?
    Professor Turley. Yes, and he said that, and I could add 
one thing to this, Mr. Chairman. The Committee pressed him on 
what he meant by that. I know that Ranking Member Feinstein 
also raised this in her comments. But as James Clapper and 
other people noted yesterday, there is only so much that--so 
far that a nominee can go. You cannot ask that he satisfy 
ethical standards when asking him to commit in advance to the 
release of information that he has not seen yet, because part 
of his duty is to protect things like Rule 6(c) information, 
grand jury information, and the derivative information, 
privileged information. He is duty-bound to review that. So the 
only thing a nominee can say is that he is going to err on the 
side of transparency and try to get as much of the report to 
Congress as possible.
    Chairman Graham. Based on what you know about Mr. Barr, 
should we take him at his word?
    Professor Turley. Absolutely. I have never known Bill 
Barr--in all the years that we have known each other, I have 
never known him to be anything but honest and straightforward. 
The last time he came in front of this Committee, the Chairman 
of that Committee, one of your predecessors, praised Barr. He 
said that this is sort of a throwback to what Committee 
hearings used to be like where the nominee actually answered 
questions. He is a very honest person. And if he said that he 
is going to err on the side of transparency, you can take it to 
the bank.
    Chairman Graham. Okay. So, Mr. Johnson, thank you for 
coming today. I listened to your concerns about Mr. Barr. I 
voted for Holder and Lynch. Do you think I made a good decision 
voting for them to be Attorney General?
    Mr. Johnson. I do.
    Chairman Graham. Why?
    Mr. Johnson. I think their presentation before this 
Committee was honest, direct, but more importantly, they 
committed to protect our democracy. For African Americans, 
protecting democracy is to also rigorously enforce efforts to 
ensure that all citizens can cast their ballot. They committed 
to that, and they demonstrated that while they were in office.
    Chairman Graham. Okay. And you believe Mr. Barr will not be 
committed to that?
    Mr. Johnson. I have serious reservations and concerns. 
Those concerns first start with this administration, their lack 
of enforcing Section 2 of the Voting Rights Act.
    Chairman Graham. How much of it is about this 
administration versus Mr. Barr?
    Mr. Johnson. In many ways it is difficult to separate the 
two.
    Chairman Graham. So I just want to suggest something to 
you. There are a lot of concerns I had about the Obama 
administration. I will not bore you with my concerns. But I 
thought he chose wisely with Mr. Holder and Ms. Lynch because 
they have differences on policy than I, because I am a 
Republican, but I thought they would be good stewards of the 
law and they would be fair arbiters being Attorney General. It 
never crossed my mind that I would vote against them because I 
had policy disagreements. If that is going to be the new 
standard, none of us are going to vote for anybody on the other 
side. So thank you for your input----
    Mr. Johnson. But if I may, Mr. Chair?
    Chairman Graham. Please.
    Mr. Johnson. Going beyond policy disagreement, this Nation 
has had a long history of discriminatory practices, 
particularly in the criminal justice system. And any time we 
have a nominee come before this Committee who truly do not 
appreciate the disparities in the criminal justice system, as 
he stated yesterday, that goes beyond policy disagreement. That 
goes toward whether or not we understand the equal protection 
of the law should be afforded to all citizens.
    Chairman Graham. Well, I want to make sure you understand 
what he said, because I remember Senator Booker asking him, and 
he says, yes, that crack cocaine sentences were 
disproportionate to the African-American individual, and that 
is why we changed the disparity between powder cocaine and 
crack cocaine. He acknowledged that. But in 1992, he thought 
the biggest victims of rampant violent crime were, you know, 
low-income, mostly minority communities. So I do not buy what 
you are saying about him not understanding their differences 
and how one group is affected, particularly in the drug arena. 
So, I think, what he was trying to do is talk about crime.
    But here is what is perplexing to me. The NAACP has been in 
the fight for social and racial justice for a very long time, 
and I do not know how we got here, but you do a scorecard every 
year. And in 2017, every Democrat got 100 percent. I got 22 
percent; Grassley got 11; Cornyn got 11; Lee got 11; Cruz got 
11; Sasse got 6; Ernst got 11; Kennedy got 17; Tillis got 11; 
and Crapo got 6.
    There is a disparity here. I would hope you think because I 
disagree with your scorecard rating that I am not a racist. And 
I certainly do not know how to close this gap, but I would like 
to.
    Mr. Johnson. Right. So the NAACP, we are a nonpartisan 
organization. Our scorecard is not based on political parties. 
Our scorecard is based on our agenda, and our agenda----
    Chairman Graham. Well, how do you explain the differences?
    Mr. Johnson. If you will allow me, our agenda is set by the 
delegates from across the country, and we are very clear that 
discrimination should not be a part of any agenda.
    Chairman Graham. How many of them are Republican?
    Mr. Johnson. Excuse me.
    Chairman Graham. How many of them are Republican?
    Mr. Johnson. We do not determine how many members are 
Republicans. We have Republicans among our membership, on our 
national board.
    Chairman Graham. I do not want to----
    Mr. Johnson. But if you will allow me to explain the report 
card.
    Chairman Graham. Please.
    Mr. Johnson. And so we establish our agenda not based on 
political parties, because we understand that political parties 
are nothing more than vehicles for agendas. And as many African 
Americans were members of the Republican Party before the 1965 
Voting Rights Act, many African Americans may decide their 
agenda based on the party's platform. And if party platforms 
align with the needs and interests of our communities, then 
they will vote for a platform that support their needs, whether 
it is access to quality public education, ensure that all 
African Americans can cast a fair ballot, fair housing 
policies, making sure we have true tests to determine disparate 
impact. Those are the issues we are concerned about. Those are 
not partisan issues. Those are policy issues. And individuals 
who run under party labels, they decide based on the platform 
that they believe which party label they run under. We do not 
make partisan decisions. We make policy decisions that are 
informed by members across the country. Some are Democrats, 
some are libertarians, some are Republicans.
    Chairman Graham. You may not think that you are making--
that your agenda is party-neutral. All I can tell you, as 
somebody who wants to solve problems, it is pretty odd to me 
that every Democrat gets 100 percent, and I do the best as a 
Republican getting 22. Maybe the problem is all on our side. I 
do not think so. I think the agenda that you are pursuing in 
the eyes of conservatives is not as good for the country as you 
think it is, and it has got nothing to do about Republican and 
Democrat. It is more it has to do about liberal and 
conservative.
    You have got to ask yourself: Why does every conservative 
on this Committee--the best I can do is to get 22?
    Mr. Morial. Mr. Chairman?
    Mr. Johnson. Well, I think it is a different question. I 
think the members of the Republican Party should ask 
yourselves: Are you willing to be expansive enough and 
inclusive----
    Chairman Graham. That is a good question.
    Mr. Johnson. To ensure the rights of individuals despite 
their racial background, their interests are met, not based on 
conservative or liberal tendencies but based on those 
individuals' needs----
    Chairman Graham. Fair enough.
    Mr. Johnson. And the interests that they advocate for.
    Chairman Graham. Will you ask yourselves why I cannot get 
better than 22 percent from conservatives?
    Mr. Johnson. Yes, sure, we can go down each one of the 
policy agendas----
    Chairman Graham. Fair enough.
    Mr. Johnson. And we can go through each one of them, and we 
can make a determination.
    Mr. Morial. Mr. Chairman, let me----
    Chairman Graham. That is a good discussion.
    Mr. Morial. I want to sharpen this discussion, because I 
think it is an important discussion, and give you what concerns 
me when it comes to this entire discussion. This is about 
whether the nominee is going to aggressively, faithfully, 
enforce the civil rights laws, and let me give you a couple 
facts.
    Chairman Graham. Can I ask you one question? Then you can 
give me all the facts you want.
    Mr. Morial. Yes.
    Chairman Graham. Name one Republican that you would 
support.
    Mr. Morial. I am not here to talk about Republicans and 
Democrats. I supported him when he was a Democrat.
    Chairman Graham. I just cannot think of a better person to 
pick than Mr. Barr if you are a Republican. So, I do not know 
who is going to do better than him in terms of experience, 
judgment, and temperament. So, if this guy does not cut it, I 
am at a loss of who we can pick.
    Mr. Morial. Well, but, Senator, let me make my point 
because I want the Committee to be extremely clear on this, and 
I want to cite two examples. Attorney General Sessions--and we 
have to talk about his record because the question for us is 
whether Mr. Barr is going to continue the policies of Attorney 
General Sessions when it comes to enforcing civil rights laws. 
In two instances, Attorney General Sessions, in his first days 
and months in office, had the Justice Department change sides 
in the middle of an important civil rights case.
    Chairman Graham. Elections matter.
    Mr. Morial. Texas--but, Senator, the enforcement of the law 
does not. Enforcement of civil rights laws is neutral when it 
comes to elections. So what Attorney General Sessions had the 
Justice Department do is, switch in a Texas voter ID law after 
the judge had made a finding, a preliminary finding that the 
Texas voter ID law was discriminatory. You know what it would 
be an example of? If Drew Brees or Tom Brady, after leading his 
team to a lead, went in at halftime and came out with the 
jersey of the other team on. In the middle of the case.
    Second, in the Ohio voter-purge case, the same thing 
occurs. Why did the Justice Department, without any discussion 
with the Congress, without any discussion with the civil rights 
community, switch sides miraculously and immediately? That 
should not have anything to do with who wins an election.
    Chairman Graham. I will say this: I could have given you a 
hundred examples of where Eric Holder and Loretta Lynch had a 
different view of a statute or a policy than I did. But if you 
do not expect elections to matter, that is a mistake. The 
policy differences we have are real. To expect Trump to win and 
everything Obama did stay the same is unrealistic. All I am 
asking is let us look at qualifications, because a Democrat 
will win 1 day and they will nominate somebody with a 
completely different policy view than I have. It will be a very 
simple decision. If I can find a difference, I will vote no. 
The question I am trying to ask the country is: Do you expect 
quality people to be chosen by the other side who has 
differences with you? If the answer is ``Yes,'' then Mr. Barr 
is as good as it will get.
    Mr. Morial. Well, you know, Senator, lots of us thought you 
were going to be nominated as Attorney General.
    Chairman Graham. Would you have supported me?
    Mr. Morial. Hey, guess what? I know we would have had a 
discussion, and I would not close the door on that.
    Chairman Graham. Well, I appreciate that.
    Mr. Morial. So I will say that. We thought you were going 
to be nominated----
    Chairman Graham. But I do not think I am nearly as 
qualified as Mr. Barr. I do not think I could hold a candle to 
him. But the fact you said that about me, I appreciate the hell 
out of it. And let us see if we can find a way to get me above 
22 percent.
    Mr. Morial. Let us work on it.
    Chairman Graham. All right. We may change a few policies.
    Senator Feinstein.
    Senator Feinstein. Reverend Risher, I just want to say 
something to you personally. I will never, ever forget your 
words, your emotion, the truth you spoke, and your feelings. 
And I just want you to know that there are so many of us that 
now know so many victims of guns in this country that we will 
continue to fight on to change this environment. So just know 
that. And I am so happy. You are one of the best witnesses I 
have ever heard, and your words will not be lost. I hope your 
family is in a better place. Thank you.
    Reverend Risher. Thank you so much.
    Senator Feinstein. Thank you.
    Mr. Kinkopf, if I may, Mr. Barr has stated that the memo 
that I spent all day reading and is very complicated, has 
stated that that memo was narrowly focused on obstruction of 
justice. However, Mr. Barr's arguments outline broad 
presidential powers. Please explain how his view of Executive 
authority could impact the Mueller investigation.
    Professor Kinkopf. Okay. Well, in any number of ways, I 
think most fundamental is his claim, without limit or 
qualification, that the President is the executive branch and 
that, therefore, all Executive power is vested in the President 
personally, that the President can personally exercise that 
power. And not leaving this to speculation or to chance, the 
memo specifically says that the President can control any 
litigation, any prosecution or investigation, including a 
prosecution or investigation of the President personally or the 
President's family members. And, further, it says that the 
Attorney General, the Special Counsel, anyone serving under the 
President, is merely the President's hands.
    Senator Feinstein. Well, it was certainly the case for the 
unitary executive and the all-powerful central figure. There is 
no question, I think, about that. In my mind, the question is, 
you know, how--does he really mean this? And it is hard if you 
do not know a man--and he is here and he is in front of you for 
the first time and you meet him--it is very hard to make those 
judgments.
    He is obviously very smart. He was Attorney General before. 
No one can say he is not qualified. The question comes we are 
at a time and a place where there are a lot of other subjects 
that are important.
    He has stated that his memo was narrowly focused. Mr. 
Turley--we have got a Defense Counsel, I guess--how do you see 
that same question I asked Professor Kinkopf?
    Professor Turley. It is a fair question, and Neil and I 
agree actually on a great deal because we both have real 
difficulty with the expansion of Executive authority. We are 
both critics of aspects of the unitary executive theory, but we 
disagree on the Barr memo. I think it was narrow. He says in 
the memo that he believes the President can be charged with 
obstruction in office. He believes that a President can be 
charged with other crimes in office.
    And where I disagree with Neil is that it is true that he 
says in his memos that the Constitution does not limit the 
power of the presidency in these regards, and that is 
demonstrably true. It is not in the Constitution. There are not 
those limitations. But he has said repeatedly in writing and 
before this Committee that he believes that a President can be 
charged for acts in office. He also believes that if the 
President misuses his authority, it can be an abuse of power 
and it can be a violation of his duty to faithfully execute the 
U.S. laws.
    Senator Feinstein. Well, it does not mean that Mr. Mueller 
could recommend indictment of the President and Mr. Barr could 
disagree.
    Professor Turley. On that, I am not sure where Neil is----
    Senator Feinstein. Now, that is an esoteric question, I 
understand, but I think it is along the line of your thinking.
    Professor Turley. And I agree with some of the Senators on 
this Committee. I have always said that a sitting President 
could be indicted in office. I disagree with the OLC memos in 
that respect. Would a General Barr change that position? My 
guess is he probably would not. Would the Special Counsel ask 
for a change? My guess is probably not. It is not really--if 
you look at the history of both of these individuals, they are 
not like to either disagree or move for a change.
    Senator Feinstein. Let me ask both of you or anyone who 
wants to answer this, this memo and the whole concept of the 
unitary executive, all powerful, I think, has never been better 
expressed in a contemporary way than I have read it in this 
memo. And I was thinking last night, obviously Mr. Barr is 
qualified, he is bright, he is capable. But it is hard for me 
to understand why, with our Constitution, our Bill of Rights, 
why we want somebody that is all powerful in every way to take 
these actions.
    Professor Kinkopf. Senator, I think----
    Senator Feinstein. My question was not well stated, but I 
think you got the gist of it.
    Professor Kinkopf. Right. Senator, I think we do not. So I 
would agree that William Barr is amply well qualified by virtue 
of experience, by virtue of intellect, by virtue of integrity. 
I have no doubt that he will stand up for his vision of the 
Constitution, and that is what I find so troubling, because his 
vision of the Constitution is so expansive and alarming with 
respect to the President's power. That is why I have quoted it. 
It is not my characterization. He says directly, ``The 
President alone is the executive branch.'' He speaks repeatedly 
through the memo of the President's ``illimitable'' powers. And 
while it is true that the Constitution does not specifically 
authorize Congress to limit the President's prosecutorial 
discretion by its text, it also does not by its text give 
prosecutorial discretion to the President. All investigation 
and prosecution is done pursuant to laws enacted by Congress, 
and within that authority to enact those laws is the authority 
to establish the parameters on that power. You do that, and you 
do that validly and legitimately. The Supreme Court has said 
that repeatedly. And what is so alarming about the Barr memo is 
that it reads the Constitution in a way that frees the 
President from those constraints.
    Professor Turley. This is where we do disagree, and I 
thought the question was presented quite well, because it does 
isolate where we depart, and that is, first of all, even though 
I do not like the unitary executive theory, there are many, 
many judges and lawyers who believe fervently in it. Also, 
there is not one single definition of that theory. There is 
sort of a gradation of where you fall on that.
    Bill Barr actually disagrees with the position of the Trump 
legal team. He expressly said that they are wrong, that it does 
not curtail a President's authority to prosecute him in office. 
So he is not at the extreme on this.
    But the other thing I wanted to note is, that I think where 
Neil and I disagree is that Neil is taking Barr's statement as 
to the constitutional footprint, the mandate of the 
Constitution, which does not have limitations in these areas, 
from how they would apply, where he said very clearly the 
President cannot do whatever he wants; there are consequences; 
he can even be prosecuted.
    Senator Feinstein. Thank you.
    Thank you, Mr. Chairman.
    Chairman Graham. Senator Hawley.
    Senator Hawley. Thank you, Mr. Chairman, and thanks to all 
of you for being here today.
    General Mukasey, can I start with you, I think? And thank 
you, General, for your long service both as Attorney General, 
distinguished service, and on the Federal bench. As a former 
Attorney General yourself, of course, you know the office 
firsthand. You have done this job. You have done it at a time 
of great national security peril for this country.
    You referenced in your opening statement the qualifications 
that Bill Barr brings, would bring to this job, and the 
advantages in some ways he would have having done the job 
already. Can you just speak more to that? I mean, I imagine if 
you were coming back to be Attorney General again, there are 
things you would do differently, knowing the job as you do now. 
So can you just elaborate for us why you think that his prior 
experience is a major plus?
    Judge Mukasey. Quite simply, he does not have and will not 
have the same steep learning curve that I had coming out of 
Article III. He does not have to do DOJ 101 and learn how each 
office runs, and he does not have to learn how they interact. 
He does not have to contemplate from ground zero the powers and 
the authority of each of the offices under him. He has seen it 
and done it.
    But I do not want to overstate the degree to which his 
experience prepares him. Obviously, we are living in a 
different time, and the issues are different. He is going to 
have to face that. But he is going to be able to devote 100 
percent of his energy to doing that rather than learning the 
basics. That is what I meant.
    If I can go back, if I may, to the conversation you were 
just having about the President's powers, I do happen to 
believe in the unitary executive, unlike the other two folks, 
and this is not a question of a religious belief, and it is not 
some quirky attitude. The Constitution says at the beginning of 
Article II, ``The Executive authority shall be vested in the 
President of the United States.'' It does not say, ``all except 
a little bit of it.'' It does not say, ``most of it.'' It says, 
``the Executive power.'' That means, all of it.
    Obviously--obviously--the President can be removed not only 
for crimes, but also for using his conferred powers in an 
improper way, and the President runs the political risk of 
having that happen every time he does something that comes 
close to the line or goes over the line. And that, I think, is 
the constraint. And it has so far been a reliable constraint. 
Everybody says that, ``Well, he could remove Mueller.'' Perhaps 
he could. But guess what? He has not done it yet, and there is 
good reason why he has not done it yet: because the Earth would 
open up and swallow him. We all know that. So I think that that 
is really what is at stake here, the political risk.
    Senator Hawley. General Mukasey, just staying with that 
point, because I think this is interesting, and, again, as 
someone who has held this office and advised Presidents and 
enforced the law as you have, you are familiar with Mr. Barr's 
views on Executive authority, Article II power. Do you think 
that those are out of the mainstream?
    Judge Mukasey. I do not.
    Senator Hawley. Do you think that they are inconsistent 
with the Constitution?
    Judge Mukasey. No. They are faithful to the Constitution. 
That is what he is faithful to.
    Senator Hawley. Go ahead. I mean, explain to us why you 
think it is important that the fact that Article II vests all 
Executive power in one person, in the President of the United 
States, why that is an important concept and important for the 
functioning of our constitutional system.
    Judge Mukasey. It is important because it assures that 
there is going to be political responsibility lodged someplace. 
It assures that when people in the executive act in a 
particular way that they, and the person at the top, can be 
held responsible for what they do. People spoke about 
independent agencies. They are in a sense independent in the 
sense that they do not relate to other agencies. But they are 
not a fourth or fifth or sixth branch of Government. They are 
within the executive. And it is important that that be true, 
because there has got to be somebody responsible for how that 
functions.
    The people who wrote the Constitution were--if they were 
afraid of anything, what they were afraid of was their 
experience under the Articles of Confederation where there had 
been a very weak executive and no ability of the govern--of the 
country to defend itself. They needed a strong executive, and 
that was the Constitution they wrote. If we want to amend it, I 
guess we can. But that is what is there.
    Senator Hawley. Tell me this: In your view, the Vesting 
Clause, the fact that the Vesting Clause in Article II gives 
the Executive power to a President of the United States, a 
single President of the United States, does that mean that this 
individual, the President of the United States, has illimitable 
power or is able to do whatever he or she may please?
    Judge Mukasey. No, because the one duty that it imposes on 
the President--and this is also imposed by the Constitution--is 
to see to it that the laws are faithfully enforced. That is 
just as much a constitutional duty as any other. And if he does 
not do that, he is subject to removal. That is his obligation. 
That is his really principal obligation.
    Senator Hawley. Thank you very much.
    Mr. Canterbury, I want to ask you, you lead the Fraternal 
Order of Police. It is incredibly important to me that the top 
law enforcement officer in this country, the Attorney General, 
have the confidence of the men and women of our Nation's police 
forces. Can you just elaborate for us what the most important 
issues were for your members that led your group to support 
former Attorney General Barr, hopefully future Attorney General 
Barr, for this nomination?
    Mr. Canterbury. One is his past experiences, his job that 
he did in the prior administration. We have been around a long 
time, and we knew him then. We saw the way he administered the 
Department of Justice, the way he worked with State and local 
law enforcement.
    Regardless of who leads the Justice Department, if there is 
no outreach to State and local law enforcement, then it really 
does not transcend to the State and local level. Under former 
Attorney General Barr, he did just that, and as General 
Sessions did and as Eric Holder did. You know, we have 
testified for a number of nominees over the years. Eric Holder 
had a tremendous reputation as a prosecutor in the law 
enforcement community, so I sat at this very table and 
testified for him. It is all based on the experiences that they 
had as either U.S. Attorney, Federal judges, or even in private 
practice.
    Senator Hawley. Why do you think it is so important to 
police officers that they have a capable, effective, 
experienced Attorney General?
    Mr. Canterbury. Just the administration of justice. I have 
heard the complaints about the Civil Rights Division, but we 
know from experience that a collaborative effort rather than 
consent decrees have real consequences in the cities. For 
instance, in Cincinnati, when the administration entered a 
collaborative agreement and all parties were at the table, we 
came out with a plan to help bring that city back together. In 
the last election in Cincinnati, the FOP endorsed a member of 
the NAACP to be a city councilmember. That would not have 
happened if they had not gotten to know each other sitting 
around a table working together for the betterment of that 
community.
    We favor the collaborative approach for consent decrees 
because they are real circumstances other than just say you 
will do this or, you know, we will not leave. Then they do it, 
and then obviously nothing ever changes. But when it is 
collaborative and everybody is at the table, we saw real 
change.
    Senator Hawley. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Graham. Thank you.
    Senator Durbin.
    Senator Durbin. Thanks, Mr. Chairman.
    Reverend Risher, thank you. Thank you for your testimony, 
and thank you for your touching words about that telephone 
call. I will remember that, because so many people receive that 
telephone call about people that they love who are victims of 
gun violence. I am honored to represent the city of Chicago. 
Sadly, we have a lot of gun violence and a lot of victims, 
families just like yours who will never, ever forget as long as 
they live what happened.
    I often think about what I am going to say to them. I 
stopped saying, ``Let me tell you about a new law that I have 
got in mind.'' I have stopped saying that because we do not 
pass laws on gun safety in this United States Congress. We do 
not. And it is unfortunate. We do not even pass the most basic 
and obvious things about background checks. We just cannot do 
it, politically cannot do it. A lot of reasons for it I will 
not get into here, but I will just suggest to you that, as fate 
would have it, sitting to your left is a gentleman, Mr. 
Canterbury, representing--345,000, did you say?
    Mr. Canterbury. Yes, sir.
    Senator Durbin. Members of the police who put their lives 
on the line every single day, and those guns on the street are 
aimed at them many times. And if there is ever a moment when 
the victims of gun violence like you, Reverend Risher, and Mr. 
Canterbury and the police ever come together on agreement on a 
piece of legislation, call me immediately. It will be a 
breakthrough moment. We can talk about gun safety with credible 
voices on both sides.
    Mr. Canterbury, while on the subject, thank you for the 
First Step Act. The endorsement of the Fraternal Order of 
Police and criminal justice reform and prison reform was 
historic and meaningful and made a difference.
    It was also noteworthy that we had the support of the 
prosecutors, the criminal prosecutors across this country, and 
the support of the American Civil Liberties Union. Go figure. 
How many times has this bunch ever gotten together? Not very 
often. But I think we passed something historic as a result of 
that, and I just want to personally thank you and publicly 
thank you for the role that your organization played in it.
    Mr. Johnson, we are looking back on the history of Mr. 
Barr, the things that he said, things that he has done, and I 
gave a speech that people have heard a few times now, but they 
were startled the first time I gave it. The title of my speech 
is, ``Let Me Tell You About the Worst Vote I Ever Cast as a 
Member of Congress.''
    It was over 25 years ago, and I will bet you know what it 
was. It was 100-to-1, crack cocaine to powder cocaine. We were 
determined to stop this new narcotic in its tracks. It was 
super cheap. It was deadly. Pregnant women who got hooked on 
crack cocaine would give birth to babies with lifelong 
problems, and we came down as hard as we could, not just with 
100-to-1 but mandatory minimum sentences on top of it. Three 
strikes and you were out for life, and we hit them hard, and we 
watched our prison population explode, primarily with African 
Americans.
    I look back on it as a big mistake, one of the worst I ever 
made as a public official, and I have tried to rectify it. We 
passed the Fair Sentencing Act 8 years ago. We have now passed 
the First Step Act. We are starting to give to these men and 
some women a chance to start their lives again.
    So now we look at Mr. Barr, and some of the things he said 
were consistent with my vote and the votes of a lot of 
Democrats back in the day when we were getting tough on 
narcotics, and he was as tough as it gets. He was writing books 
about building more prisons and putting more people in these 
prisons. He has continued in that vein up until the last few 
years.
    So I just want to tell you, I pray for redemption, both 
personal and political. Do you think Mr. Barr is entitled to a 
chance to redeem himself when it comes to this issue?
    Mr. Johnson. Thank you, Senator Durbin. I think any 
individual is entitled to redeem himself when they make a 
mistake. Our position on mass incarceration is just that. We 
have had a lot of individuals who have made a mistake who 
should have been exonerated or not prosecuted to the extent 
they were.
    I grew up in Detroit, Michigan. I lived through the crack 
epidemic in the 1980s. I have seen the damage it did, but I 
have also seen many individuals who were thrown away for many, 
many years. For an individual who is situated to acknowledge 
the history of what took place and, as you have just done, to 
say I made a mistake, that is a good thing. I have not heard 
that from the nominee. That is my concern.
    The other concern I have goes back to the exchange earlier 
when we oftentimes conflate civil rights issues, issues of 
democracy, with partisan considerations. Ensuring that 
individuals have access to the vote is not a partisan issue. It 
is an issue of democracy, and any A.G. should vigorously 
protect the right of individuals to vote, especially when over 
the last 2 years we have seen more attacks on voter suppression 
than we have seen in the last 25 years.
    Issues of equal protection under the law, it is not a 
partisan issue. It is an issue to ensure that all citizens of 
this Nation are afforded equal treatment.
    So our objection to Mr. Barr's nomination is not a partisan 
issue. It is not an issue of disagreement. It is an issue of 
concern as it relates to the mass incarceration and the 
vigorous prosecution that took place in the 1990s and whether 
or not we are considering a nominee who is still thinking in 
the 1990s frame or are we looking at a nominee who is really 
looking at the First Step Act and the progress that has been 
made.
    Senator Durbin. I only have a minute left, but I want to 
take it to the issue that you took it to, and I invite Mayor 
Morial to join in on this too.
    This question of election integrity has become a code word. 
When you hear election integrity from the other political 
party, it is about making sure that people who are not 
qualified and not legally eligible do not vote, and I do not 
think anybody disagrees with that premise. But there is 
something else going on in the name of voter integrity, and 
that is obstacles to voting that are totally unnecessary and 
really discourage people from using this right which is 
fundamental to a democracy.
    When I held hearings in this Committee in Ohio and in 
Florida and asked them about ID cards and early voting and 
said, what is the incidence of voting abuse in your State that 
led you to make it harder to vote, there were none. I think it 
is just a policy, a political policy, to fight demographics to 
try to keep people away from the polls who may change the 
outcomes of elections.
    I did not hear yesterday from Mr. Barr any commitment to 
voter integrity in the terms that you and I would probably 
discuss it, and that concerns me. I am not sure I can expect to 
hear it under this administration.
    But--Mr. Morial, would you close?
    Mr. Morial. I think there is something important about what 
you are saying. I would certainly point the Committee to exit 
polls that took place after the 2018 election wherein people 
were asked, Do you believe that voter suppression or voter 
fraud was a greater issue? Voter suppression won the poll of 
the American people overwhelmingly. These are exit polls where 
the numbers were sort of 58, and voter fraud was down, maybe in 
the thirties or forties. That is number one.
    Number two, the Shelby case has done significant damage, 
because it was post-Shelby that 40--the shenanigans of voter 
suppression, of cutting back on early voting, on voter ID laws, 
on restricting groups like the League of Women Voters in 
conducting voter registration drives really, really exploded. 
Some 40 States had proposals to restrict access to the ballot 
box.
    When I think about this, I think about it that we are 
waging war to, quote, ``promote democracy,'' Senator Graham, in 
Iraq, in Afghanistan. But right here on the home front, how can 
we countenance efforts based on no evidence to restrict access 
to the ballot box?
    The Shelby decision, I predict, will be seen in history the 
way Dred was seen, the way Plessy was seen: as a bad, ill-
advised decision. We need--because what we are left with is the 
power of the Justice Department under Section 2, and under 
Sessions, not one single Section 2 case was brought even though 
you have had this explosion of voter suppression efforts.
    So, what we need is an Attorney General who says, I am 
committed to the utilization of my Section 2 of the Voting 
Rights Act powers to enforce the Voting Rights Act. I would 
certainly encourage that the nominee be asked his position on 
this, because this is so crucial to the protection of 
democracy, which is really what this Nation is all about. 
Democracy and voting is at the foundation of our system.
    Chairman Graham. I will make a quick comment, and then, 
Senator Kennedy.
    I am glad you mentioned Iraq and other places where we are 
trying to help people. There was an attack today on a 
restaurant. I think it is the same restaurant I visited with 
Kurds and Arabs and others in Manbij, Syria, to hold on to some 
representative government. Unfortunately, I believe some 
American advisors were killed there by ISIS. So this is not the 
subject matter of the hearing, but I want to make a quick 
statement.
    My concern about the statements made by President Trump is 
that you have set in motion enthusiasm by the enemy we are 
fighting. You have made people who we are trying to help wonder 
about us, and as they get bolder, the people we are trying to 
help are going to get more uncertain. I saw this in Iraq, and I 
am now seeing it in Syria.
    Every American wants our troops to come home, but I think 
all of us want to make sure that when they do come home, we are 
safe, and I do not know how we are ever going to be safe if 
people over there cannot, at least, sit down and talk with each 
other. The only reason the Kurds and the Arabs and the 
Christians were in that restaurant was because we gave them the 
space to be in that restaurant.
    You can think what you want to about those people over 
there, but they have had enough of killing. They would love to 
have the opportunity that we have, to fix their problems 
without the force of violence.
    So I would hope the President would look long and hard 
before he set it in Syria. I know people are frustrated, but we 
are never going to be safe here unless we are willing to help 
people over there who will stand up against this radical 
ideology.
    Here is the good news. Very few fathers and mothers over 
there want to turn their daughters over to ISIS, their sons 
over to ISIS. They just need our help.
    So to those who lost their lives today in Syria, you were 
defending America, in my view. To those in Syria who are trying 
to work together, you are providing the best in hope for your 
country. I hope the President will look long and hard about 
what we are doing in Syria.
    Senator Kennedy.
    Senator Kennedy. Thank you, Mr. Chairman.
    Pastor, I am very, very sorry for your loss. I wanted to 
tell you that personally.
    Reverend Risher. Thank you, Senator.
    Senator Kennedy. Before I ask my sole question, which I 
will direct to each of you to comment briefly, if you could, I 
want to do a couple of things. I want to give a shout out to my 
former mayor, Mayor Morial. Many of you know him as the 
president and chief executive officer of the Urban League. I, 
of course, know him in that capacity as well, but I know him as 
our mayor in New Orleans and as the head of the League of 
Cities and a State senator. We still claim him in Louisiana.
    I also want to recognize his sidekick, Senator Cravins--
former State Senator Cravins. We miss him in Louisiana, too.
    I listened to the discussion we had about the scorecard 
that Chairman Graham brought up. I want to make one very gentle 
observation that may be appropriate in other areas, including 
but not limited to the challenges we face with the shutdown, 
and that is, that so long as all of us on both sides and all 
sides and of every political persuasion are drunk on certainty 
and virtue, it is going to be hard to make progress. We 
probably ought to listen more and talk a little less.
    Here is my question, and if you do not care to answer it, 
that is okay, or if you do not have any thoughts, but I would 
like to know this. As you know, we have a Sixth Amendment right 
to counsel in America. It is part of our Bill of Rights. But in 
some instances, in too many instances, it is a hollow promise, 
and I would like to know your thoughts about our Public 
Defender system in America and whether you think it comports 
with the requirements of the Sixth Amendment, the right to 
counsel.
    We will start down here and just go down there, if that is 
okay. I would ask you all to be brief because I want everybody 
to have a chance.
    Mr. Canterbury. From our experience, the Public Defender 
system is in dire need of assistance. It leads to plea bargains 
that should not have happened, and we would definitely support 
more money for right to counsel. We do not take a back seat to 
anybody on your right to be represented. The system is woefully 
underfunded.
    Senator Kennedy. Okay. Thank you, sir.
    Pastor?
    Reverend Risher. I believe our Public Defender Office needs 
resources. Most of the people that receive a Public Defender 
are marginalized people without resources, and their 
opportunity to have the best counsel they can is not something 
they get, and I would want that office to be able to serve 
everyone regardless of whether they have money or not.
    Senator Kennedy. Okay.
    Professor Turley. Senator, I am particularly thankful for 
you to raise this issue. As a criminal defense attorney, I can 
tell you that the Public Defender system is an utter wreck. It 
is underfunded. Judges are sanctioning Public Defenders because 
they have too many cases and they cannot get to court. So 
Public Defenders are in this position where they cannot handle 
all the cases, and yet they are held in contempt, but they do 
not want to do a case inappropriately, without zealous 
representation.
    So they have this absolutely impossible situation, and it 
is even worse in the State system. I gave a speech in 
Pittsburgh and I sat down with some Public Defenders there. The 
Public Defenders in Pittsburgh who I had dinner with are all 
moonlighting as bartenders and waiters to try to continue to be 
Public Defenders and feed their families. I mean, that is how 
bad the system is.
    Senator Kennedy. Professor?
    Professor Kinkopf. I agree that Public Defenders are heroic 
public servants. They are overworked, they are underpaid, and 
the system of public defense and provision of counsel needs to 
expand far beyond even the limited area it applies to now, into 
municipal courts, into infractions that should not, but do, end 
up in people serving jail time.
    Ms. Cary. Senator, I am the daughter of a criminal defense 
lawyer. I am married to a criminal defense lawyer, and he is 
the son of a criminal defense lawyer. So I am all in favor of 
great lawyering available for all Americans who find themselves 
in front of a courtroom.
    The thing that I would suggest is, I am aware here, in 
Washington, of many law firms who are partnering pro bono with 
Public Defender services to try to get young people in court 
and get them great experience while also giving good 
representation to people who need it. Maybe that is one of the 
answers that you can look into. But my understanding is they 
need all the help they can get, and maybe young people can 
help.
    Senator Kennedy. Thanks.
    Mr. Morial. A couple of quick things. I had the great 
privilege and pleasure last year to speak in Atlanta to the 
Federal Public Defender Service at its convening and gathering, 
and I would offer to the Committee perhaps this, as an example 
of a bipartisan-oriented initiative for this Committee, to hold 
hearings and do an examination of both the Federal Public 
Defender system, which may be in a little bit better shape but 
underfunded and understaffed, as well as local Public Defender 
systems, and you will get a real sense of what everyone has 
said, how stretched, how overworked, and how damaging this is 
to the operation of justice and to the constitutional guarantee 
of the Sixth Amendment.
    The last thing I would say is, in the late 1980s, Senator 
Kennedy, I was part of a small group of lawyers that actually 
challenged the very same issue in Louisiana. We challenged it 
by asking the State Supreme Court to conduct an investigation, 
which they did. They found that the system was underfunded, but 
then they took the position that, as the Supreme Court, they 
could not instruct the executive branch to adequately fund the 
Public Defender system.
    The bottom line here is, I would offer this, and I am glad 
you raised it, as an important element of this discussion 
around criminal justice reform, and that is to repair, to fix, 
to reform the Public Defender systems both at the Federal, at 
the State, and also at the local levels across this Nation.
    Senator Kennedy. Thank you.
    Mr. Thompson. Thank you, Senator Kennedy, for raising this 
issue. As someone who served on the board, at one time, of the 
Atlanta Federal Defender Program, I think that the Public 
Defender program, definitely at the Federal level, needs 
strengthening. However, at the State level, it is in total 
collapse. I think what the Department of Justice can do, and 
you can pursue this with Attorney General nominee Barr, is 
through the Office of Justice Programs encourage OJP to develop 
programs to assist State Public Defender Offices, appropriate 
funds for that purpose in terms of the grants, because the 
Department of Justice is not the Department of Federal 
Prosecution. It is the Department of Justice. Thank you.
    Mr. Johnson. I certainly agree with the panelists today 
that the Public Defender system is in dire need. I served as a 
commissioner on the State of Mississippi Access to Justice 
Commission, and we reviewed this issue. Mississippi is one of 
the poorest States, similar to Louisiana, and what we found was 
a system so corrupt it was one of the primary factors for 
prison overcrowding, that a large number of individuals are 
sitting in jail as pre-trial detainees because they have 
ineffective counsel or no counsel at all. So it is an issue 
that I agree with my colleague, Marc Morial, that this could be 
a bipartisan issue we could work on because the need is 
definitely there.
    Senator Kennedy. Judge?
    Judge Mukasey. Senator, in my experience, I think it is 
probably more limited than virtually the experience of all of 
the other panelists because my experience is largely confined 
to one district in the United States. That said, my experience 
with Federal defenders in the Southern District of New York was 
that they were people of unparalleled skill. There was 
competition to get those jobs, and they were highly valued.
    Similarly, under the Criminal Justice Act we appoint 
private lawyers to represent defendants. Again, there is 
competition to get on that list, so you really get lawyers, by 
and large, in my court who represented indigent defendants were 
by and large more skillful in my experience than the privately 
retained lawyers, some of whom were simply showboats.
    That said, I think the system is definitely in need of 
support, certainly at the State level. I second Larry 
Thompson's call for having OJP target particular areas with 
grants so that there can be demonstration projects that would 
show the way.
    Senator Kennedy. Thanks to all of you. You honor us with 
your time and your testimony today.
    Chairman Graham. Senator Whitehouse.
    Senator Whitehouse. Thank you, Chairman.
    And thank you very much to the panel, particularly Reverend 
Risher. I would like to join my colleagues in expressing my 
appreciation for your testimony here. I had the opportunity 
nearly 3 years ago to visit Emanuel AME Methodist Church with 
the Faith and Politics Institute. It was one of the most moving 
experiences of my life. It was remarkable, and to meet with the 
survivors a few months later here in Washington was impressive, 
and I am so glad that you are keeping that tragedy alive in our 
hearts because it should not be overlooked, and I appreciate 
it.
    Reverend Risher. Thank you, sir, for your words. And the 
Emanuel Nine will be something that I will continue to talk 
about their lives to let other people know that they did not 
die in vain, and I thank you for your comments.
    Senator Whitehouse. Do not ever stop.
    Reverend Risher. Thank you.
    Senator Whitehouse. Mr. Mukasey, I have some questions for 
you, and I want to let you know right off the bat that this 
goes back about 10 years, and so you will have full--I will 
give you every chance to answer more fulsomely in written 
answers, you know, questions for the record, so that if there 
is anything that you do not recall now.
    But the reason I wanted to ask you your questions is that I 
view it, anyway, as a responsibility of the Attorney General to 
fearlessly go where the evidence and the rule of law lead, and 
to allow, particularly in investigative matters, to let the 
evidence and the law be your guides. Now, given the 
circumstances that surround the Department, the willingness of 
an Attorney General to be independent where evidence leads to 
the White House is of, I think, particular moment.
    And that takes me back to the investigation into the 
removal of nine U.S. Attorneys in 2006. That report was 
concluded in 2008 on your watch as Attorney General. As you 
will recall, it was a joint effort. Those do not happen all 
that often in the Department, but this was a joint effort 
between the Department of Justice Office of Inspector General 
and the Department of Justice Office of Professional 
Responsibility.
    The investigation led both into White House files and into 
Office of Legal Counsel files. As to the White House files, the 
White House refused to cooperate and refused to provide access 
to your OIG OPR investigators to close out their investigation. 
The OLC refused to provide un-redacted documents to members of 
their own Department.
    The report that was issued in 2008 indicated that the 
investigation had been, and I quote it here, ``hampered and 
hindered'' and left with ``gaps'' as a result of the failure of 
the White House and OLC to provide the necessary information to 
the investigators.
    Judge Mukasey. That was the OIG report?
    Senator Whitehouse. Yes, OIG/OPR. It was both of them 
together, as you may recall.
    So here is my concern. You were the Attorney General at the 
time. You could have readily instructed OLC: Knock it off, 
guys, provide these folks the documents. And while you cannot 
instruct the White House what to do, when the investigation 
leads to the White House gates and the White House gates come 
down, to me it is the Attorney General's responsibility, at 
that point, to walk down to the White House and say, one of two 
things is going to happen, we are going to get cooperation in 
our investigation or we are going to have a resignation, 
because the Department of Justice needs to follow the law and 
the facts wherever, including into the files of the Department.
    As you know, there is no executive privilege issue as 
between the Department of Justice and the White House. That is 
a separation of powers issue, and it keeps things from us but 
it does not limit documents within the executive branch.
    So, I would like to get, now, your recollection in a more 
fulsome way, in a written fashion if you would like to 
elaborate, why it is that you felt that when the Department of 
Justice had an ongoing investigative matter that led to the 
gates of the White House, it was okay for the White House to 
say, no, we are not cooperating, and for the Department of 
Justice to stand down, because I think that would be a lousy 
precedent for now.
    Judge Mukasey. This goes to the qualifications of Mr. Barr 
to serve as Attorney General, does it?
    Senator Whitehouse. To the extent that there is a concern 
about whether he would be willing to do that, because we do not 
want a replay of this. And if he is citing the Mukasey 
precedent, I want to know more about the Mukasey precedent.
    Judge Mukasey. I doubt that he is citing the Mukasey 
precedent, number one.
    Number two, my recollection of that, which is dim over 10 
years----
    Senator Whitehouse. Which is why you----
    Judge Mukasey. Nonetheless, older people have a better 
recollection of the distant past sometimes than they do of the 
recent past, so I do remember it to some extent.
    My recollection is that the investigation did not lead to 
the gates of the White House. It involves the circumstances 
under which nine U.S. Attorneys were terminated, and those 
people were offered the opportunity to come back. They were 
also offered apologies by me, and that is the way the matter 
ended. That is my recollection.
    Senator Whitehouse. Okay. Well, I would ask you to take a 
look at the question for the record that I will propound to you 
because that is different than what the OIG and OPR said at the 
time, because they felt that they were hampered, hindered, and 
left with gaps in their investigation, and it was White House 
files that were at issue.
    So my time is expired, but I hope we can settle this 
question because I do think it creates a difficult precedent in 
a world in which the Department of Justice may now have to ask 
similarly tough questions that take it into White House files.
    Judge Mukasey. I seriously doubt that one investigation and 
how it was handled creates a precedent in any sense for 
another, but I will answer your question.
    Senator Whitehouse. Thank you.
    Chairman Graham. Senator Grassley.
    Senator Grassley. First of all, for the Reverend, I do not 
understand how people can have so much hate that they do what 
they do. That is what comes to my mind all the time when I hear 
stories like yours. I remember it from the day it happened. 
Thank you for bringing it to our attention.
    Reverend Risher. Thank you, sir, for listening.
    Senator Grassley. Mr. Canterbury, you have talked some 
about the First Step Act. I want to go back to the Fraternal 
Order of Police, who was very instrumental in helping get it 
across the finish line. And obviously, as the Chairman of the 
Committee at that time, I thank you for doing that. We 
appreciate your strong leadership.
    The First Step Act requires that the Justice Department and 
the Attorney General implement a risk and needs assessment 
system, allow nonviolent inmates to receive earned time credit 
for participating in recidivism reduction programming, and 
recalculate good time credit for all inmates.
    Given Mr. Barr's past statements opposing criminal justice 
reform, especially sentencing reform, do you believe that he 
will be able to dutifully implement the system that the 
Fraternal Order of Police worked so hard to get passed? To be 
fair to Mr. Barr, yesterday he testified that he would 
implement the law and not undermine it. Are you comfortable 
with that commitment?
    Mr. Canterbury. I think his past experience in following 
the law speaks volumes to his ability to be able to take what 
Congress sent to the President and the President signed and 
implement the program. We have full confidence in that.
    Senator Grassley. Now, adding to what Senator Durbin said 
about the vast support that this legislation had from what I 
would say is extreme right to extreme left and everything in 
between--law enforcement, the judicial branch, victim rights 
groups, civil rights groups, faith groups--in your opinion, 
will Mr. Barr be able to work with these stakeholders to 
effectively implement the First Step Act?
    Mr. Canterbury. Yes, sir. We have full confidence that he 
will be able to do that.
    Senator Grassley. Now to General Mukasey and to Mr. 
Thompson. I am not questioning Mr. Barr's truthfulness when I 
ask you this question, but in the past Mr. Barr opposed our 
efforts at criminal justice reform. Mr. Barr also had concerns 
about the constitutionality of the False Claims Act and opposed 
that law. Yesterday, Mr. Barr testified that he would implement 
the First Step Act and had no problem with the False Claims 
Act. We all know that the Attorney General of the United States 
has a duty to enforce the laws in a fair and even manner, and, 
of course, without personal bias.
    General Mukasey, in your opinion, will Mr. Barr be able to 
do that? Do you believe that Mr. Barr will be able to 
faithfully implement and enforce the laws that he may not 
personally agree with?
    Judge Mukasey. I certainly think he will. His record shows 
that he is--if he adheres to one thing, it is to the 
requirements of the law. And I will tell you in my own case, I 
was initially opposed to some part of the First Step Act. I 
later became a supporter of it. So I am assuming that he will 
have the same open mind, at least, the same open mind, that I 
have.
    Senator Grassley. Okay. And, Mr. Thompson, along the same 
lines, your opinion on Mr. Barr's ability to enforce the laws 
fairly, evenly, and without personal bias?
    Mr. Thompson. Senator, as you know, I was a very strong 
supporter of the First Step Act. If you look at what Attorney 
General Barr did when he was Attorney General in the Bush 
administration and his emphasis in the Weed and Seed program on 
community collaboration, his admitted statements to Reverend 
Joe Lowery, as I mentioned in my opening statement, about the 
failure of prison, putting more people in prison, to help rid 
our crime-infested neighborhoods, he understands the need to do 
more than just lock people up. So I think he will faithfully 
implement the First Step Act, both in the spirit and literally.
    Senator Grassley. Also, do you, Mr. Thompson--since you 
have worked with Mr. Barr so much, knowing him as you do, would 
you say that he will be independent leader of the Justice 
Department that we ought to expect? And--well, let me finish 
this because I want General Mukasey also to speak to it. And 
maybe these questions come from the fact that we recently had 
an Attorney General that referred to himself as the ``wing 
man'' for the President. So what is your opinion of Mr. Barr's 
ability to be independent head of the Justice Department? Do 
you have any doubt that he will be able to stand up to the 
President? So, it is kind of the same question to both of you.
    Judge Mukasey. I have not got any doubt at all. He has done 
it in the past, number one. He is not anybody's wing man. And I 
think he understands that if he ever so behaved, he would come 
back to the Department to find a mound of resignations on his 
desk. So I do not think he would ever do anything like that, 
and he is not inclined to do it.
    Senator Grassley. Mr. Thompson.
    Mr. Thompson. I agree with General Mukasey. Bill Barr 
understands the many policies, traditions of the Department of 
Justice that have stood for a separation between the Department 
and the White House on matters of criminal investigations, 
decisions to indict. I do not think that--the men and women 
that he has led over the past years in the Department of 
Justice, I think he will understand their respect for these 
traditions. And I think he will--he understands the nuances 
that lead to why we have these policies and traditions, and I 
think he will faithfully follow them and support them.
    Senator Grassley. Yes. And, for Ms. Cary and Mr. Thompson, 
I think I will kind of answer my first question. I think you 
would say about Mr. Barr's fitness to be Attorney General in 
the United States, but could you tell us some observations you 
have had about him that leads you to believe he is the person 
that you have worked with and then, in turn, to be a good 
Attorney General?
    Ms. Cary. The year that he was Attorney General, in 1992, 
you may recall, started with President Bush throwing up on the 
Japanese prime minister. It was at the beginning of a rough 
year. As General Mukasey pointed out, there was the Talladega 
prison riots. There was the crack epidemic that Senator Durbin 
was talking about. General Barr yesterday was pointing out that 
the violent crime rate had quintupled over the previous three 
decades. Hurricane Andrew--you may not remember this, but 
Hurricane Andrew hit south Florida particularly hard and 
knocked out a tremendous amount of Federal law enforcement 
resources down there. And there was great fear that it was 
going to become sort of a lawless place, where drug dealers 
would take control and the Coast Guard would not be able to 
control things. And then there was also the Rodney King verdict 
and the L.A. riots. So it was a very dangerous year in a lot of 
ways.
    And I remember going to a press conference we were going to 
have in Richmond, I think. It was with the late great Jack 
Kemp, who was Secretary of HUD at the time. And as the two 
motorcades pulled in with the Attorney General and the 
Secretary of HUD, into this public housing project that we were 
going to talk about how to make public housing projects more 
safe, right before we got there, there was some sort of gang 
violence. And the law enforcement had come in and arrested a 
whole bunch of people. And there was gunfire. And so, as we got 
out of the cars, they came to Secretary Kemp and General Barr. 
And they said, ``It is still a little dangerous here. There 
could be some stray bullets. We have got two bulletproof vests 
for the two of you. And why don't you put these on and head up 
to the podium?''
    And General Barr points at me and says, ``Well, what about 
her?''
    And the agent said, ``Oh, I am sorry, sir. We only have two 
bulletproof vests.''
    And he says, ``Okay. Well, Mary Kate, you take mine.''
    And the agent said, ``No, no, no, sir. That is not going to 
happen. You take the vest. You head to the podium with 
Secretary Kemp.''
    And he turns around to me, and he says, ``Well, this is 
unacceptable. You get in the car, the armored limo, and just 
keep your head down.''
    And I thought at the time, ``Boy, that tells you volumes 
about him,'' that he even noticed that I was standing there. 
But, really, what was going on, the point of the story, is, 
that it was a very dangerous place, and there were people who 
lived there all their lives. And we were arriving in limos and 
going to be able to leave, and they could not. And that, I 
think, made a big impression on everybody involved, what 
people's lives were like in this crazy year of how dangerous 
things were, how bad the violent crime rate was. And all he 
wanted to do was try to help some of these people who were in 
these horrible situations. And I think that tells you volumes 
about him and his motivations and the kinds of things he tried 
to do as Attorney General. And, I think, I have no concerns 
whatsoever about his enforcement of the First Step Act because 
that is the kind of person he is.
    Mr. Thompson. Senator, I have observed Bill Barr in 
problem-solving situations. Yes, he will be the leader, but he 
listens to people very carefully. He has an open mind. He is 
respectful of different opinions. And he has a problem-solving 
personality in the sense that everything is collaborative. And 
I think he will be a terrific leader of the Department of 
Justice, and I have no doubt about that.
    Chairman Graham. Thank you. It is been a terrific panel. 
Senator Klobuchar, then we will take a break. You all have been 
going at it for 2 hours. We will take a 10-minute comfort break 
after Senator Klobuchar. And we will plow through until we get 
done. Thank you all for your patience.
    Senator Klobuchar. All right. Thank you very much, Mr. 
Chairman.
    I am going to talk--start talking here about voting rights. 
I asked a few questions of Mr. Barr about this, and it has been 
such a problem across the country. I come from a State, as you 
know, Mr. Johnson, with one of the highest voter turnouts, the 
highest in the last election. And part of that is because we 
have same-day registration, a bill that I have sponsored to 
bring out nationally. And I have looked at the numbers that 
show States that have that. Whether they are more red or more 
blue, they always are in the top group for highest voter 
turnout. It makes a huge difference to allow people to vote 
either with an ID or with a neighbor or with some other forms 
of identification. And so I am very concerned about the Supreme 
Court's ruling, of course, in the Shelby case.
    And yesterday I asked Mr. Barr about the State election 
officials in North Carolina who contacted the Justice 
Department to express concerns about the integrity of the 
elections 9 months before the election and about allegations of 
voter suppression. So he was not there, of course, at the time, 
but I am just wondering how you think the Department of Justice 
responded, how they should have responded when they first heard 
from those State officials?
    Mr. Johnson. From the NAACP's perspective, we are extremely 
concerned with the lack of responsiveness from the Department 
of Justice. Ever since the Shelby v. Holder case was decided, 
we knew that Section 2 would be the vehicle to protect voters. 
The lack of the current administration use of Section 2 was 
problematic. Mr. Barr's commending AG Sessions' tenure as AG is 
also concerning. His lack of clarity on how he will use his 
Justice Department to ensure all Americans can cast a ballot 
free of vote suppression or intimidation leaves a huge question 
mark for us. Any individual who serves as AG should have a 
primary consideration, the protection of the rights to vote of 
all citizens. It is not a partisan issue. It should not be seen 
as a partisan issue. It should be something that is above 
partisanship.
    I am a resident of Mississippi. And we have seen the dog-
whistle politics for a very long time. In fact, if you look at 
the history of voting in the State of Mississippi, some of the 
languages that were used during the period called Redemption 
and after 1865 is being used today. Some of the tactics that 
was used in 1870 and 1890 is being used today. So we need a 
Justice Department that can rise above partisanship and to 
appreciate that in order for our democracy to truly work, all 
citizens should be afforded free and unfettered access to the 
ballot box.
    Senator Klobuchar. Very good. Could not have said it 
better. Thank you.
    Mr. Mukasey, you and I worked together when you were 
Attorney General. And, as you know, we had an issue in 
Minnesota, and the U.S. Attorney left. And you worked with me 
to get a replacement, which I truly appreciated. And we put 
someone good in place in the interim, and the Office continues 
to be a very strong Office. So, thank you for that.
    Could you just briefly talk about when you were Attorney 
General. Did you ever say ``No'' to the White House?
    Judge Mukasey. Yes.
    Senator Klobuchar. Okay. Can you remember some of the 
instances where you----
    Judge Mukasey. I remember one----
    Senator Klobuchar [continuing]. If some of them were 
public?
    Judge Mukasey. I remember one in particular. And I cannot--
I mean, I do not think I can discuss it here.
    Senator Klobuchar. Yes.
    Judge Mukasey. But it involved a position that the 
Government would take in litigation. And the White House was of 
a particular view, and the Department was of a particular view. 
And we prevailed.
    Senator Klobuchar. So, you think that is an important--but 
I had a discussion with Mr. Barr yesterday, just this concept 
of yes, you are the President's lawyer and that you are giving 
advice, but you are also the people's lawyer. And there are 
some times where those may conflict. Do you want to just expand 
on that?
    Judge Mukasey. Yes. I mean, when it comes to a pure legal 
position and the White House has taken a policy position that 
affects that legal position, yes, it gets very delicate. And it 
did in the one instance that I mentioned. And the Solicitor was 
of a particular view and was told, basically, ``You do what you 
think the proper view is, and let me take care of the 
politics.''
    Senator Klobuchar. Very good. All right. Thank you.
    Mr. Morial, we--there has been discussion, bipartisan 
discussion, up here about the First Step Act. And could you 
just talk about some of the steps that we are going to need to 
take, that the Attorney General will need to take, immediately 
to implement it?
    Mr. Morial. Yes.
    Senator Klobuchar. Because you can put all of the laws you 
want on the books, but if you do not----
    Mr. Morial. Certainly. And let me just reaffirm my thanks 
to you and every Member of the Committee who supported that. It 
was a very, very long and difficult effort to arrive where we 
arrived. We supported it early and continue to push for its 
improvement, but it is the First Step Act.
    The important, I think, step for the Attorney General is to 
get this Oversight Committee in place with the right people on 
it, and I think the most important thing that is going to be in 
the Attorney General's bailiwick is, one, organizing the U.S. 
Attorneys who are going to be responsive to those who are going 
to go back to the court where they were sentenced and request 
resentencing because the resentencing, for example, for the 
crack cocaine disparity, is not automatic. It is going to 
require a Public Defender service. It is going to require 
private lawyers. And my hope is that the United States 
Attorneys' Offices are not going to get in the way, not going 
to slow down the process, are going to move with speed and 
dispatch to facilitate and work with, if you will, criminal 
defense lawyers to identify those who might be eligible and get 
the Act in implementation.
    But I also think that the aspect of it, which involves the 
work of the Office of Justice, the Bureau of Prisons, which is 
the--and this was a great concern under the Act, whether the 
Bureau of Prisons was going to have the enthusiasm and the 
resources, Senator, to execute the ability of people to earn 
more ``good'' time, which requires them to participate and 
develop release plans and take steps toward preparing 
themselves for release. That is an entire effort. I think you 
authorized some $350 million in order to do that. That has got 
to be implemented. That has got to be executed. And we do not 
need any foot dragging in order to do that. So, I think, if the 
Committee continues to have oversight over the work on 
resentencing and the work on the execution of the pre-release 
program, and then the third element of it will certainly be--
and this was a great concern of ours--I think the nominee 
should be asked to rescind the Sessions guidance that--wherein 
he directed U.S. Attorneys to seek maximum sentences or the 
maximum prosecution. So, if the nominee is going to be true to, 
``I will implement the First Step Act,'' then a good faith 
effort by him would be to rescind that guidance, right, to 
restore the discretion of the United States Attorneys when it 
comes to charging decisions. So, there is a lot of work to be 
done and I would urge the Committee to maintain its oversight 
role in ensuring that these things are executed.
    Senator Klobuchar. Okay. Thank you.
    And I am out of time, but I wanted to thank you, Reverend, 
for coming forward. And I will ask you on the record, not now, 
some questions about our bill that we have on stalking, because 
I know you have been supportive of that, and on the boyfriend 
loophole. So thank you.
    And, Mr. Canterbury, we want to move forward on that cops 
bill that we have with the training and the money for the 
officers. And thank you for your support and work on that. 
Thank you.
    Chairman Graham. Thank you. We will take a 10-minute recess 
to give you a comfort break. I am going to have to go do 
something else. And if Senator Blackburn would be kind enough 
to chair the hearing until we are finished, I would appreciate 
it. And it has been a great panel. Thank you, all, for coming--
very, very much. So, 10-minute recess.
    [Whereupon the Committee was recessed and reconvened.]
    Senator Blackburn [presiding]. The Committee will return to 
order.
    Senator Cornyn, you are recognized.
    Senator Cornyn. Thank you, Madam Chairman.
    I was just complimenting Senator Blackburn on her rapid 
ascension to the Chairman of the Committee. I have been on the 
Committee for 16 years, and I haven't quite made it there. So, 
congratulations.
    Well, thank you all for coming and sharing your views. I 
cannot help but comment on the stark differences that we are 
hearing from the various witnesses about this particular 
nominee. He is either the most-qualified person you could ever 
find, or he is the least-qualified person, and there does not 
seem to be much room in between.
    But let me ask some specific questions. First, I want to 
talk a second about criminal justice reform because it strikes 
me that of all the topics that we have dealt with here 
recently, that is one of the areas that brings us together. And 
I will just reflect, Mr. Johnson, I remember being in Dallas, 
Texas, maybe 10, 12 years ago. I was visiting with a number of 
African-American pastors, and I asked them, I said, What is the 
biggest problem in your congregation?
    And they said, well, it is formerly incarcerated men who 
have a felony on their record, and it is they cannot find a 
job, and they cannot find a place to live. And that has sort of 
always haunted me a little bit.
    But in light of some of the great work that has been done 
at the State level on prison reform--and I would have to say I 
am proud of the efforts made in Texas and elsewhere to try to 
provide people opportunities when they are incarcerated, those 
who are willing to accept responsibility for their own 
rehabilitation--that we have had some remarkable successes in 
the people who have taken advantage of the opportunity to turn 
their lives around.
    And I think our view as a Government and as a people has 
changed significantly. Mr. Barr talked about 1992 and violent 
crime back then, and there was a different attitude. And I 
think we have learned from our experience.
    But I want to go, General Mukasey, one of the things that 
you testified to, I think, in a previous Congress when we were 
talking about criminal justice reform, you said that really the 
test, the ultimate test for the success of criminal justice 
reform is the crime rate. I think I am quoting you correctly.
    Could you explain that? Because there are a lot of people 
who want to focus on other things, like incarceration rates and 
other issues, but the crime rate, it strikes me--public 
safety--strikes me as the most important one.
    Judge Mukasey. Yes. I think that is--that is the ultimate 
test for this, the statute that has just been passed and for 
future statutes. What does it do to the crime rate?
    The criminal justice system is there in substantial part to 
protect the public. If it is doing that and the crime rate is 
dropping, then bravo to the experience. And to a certain 
extent, it is going to be an experiment. We will see how people 
do when they get out. We will see how much money is saved and 
what it can be directed toward by way of prevention, and 
hopefully, our situation will improve.
    Senator Cornyn. Well, fortunately, in the criminal justice 
field, though, we have actually used the States as the 
laboratories of democracy, and we tried this out before we have 
implemented at the national level. And I think we have 
benefited from those State-based experiences.
    In my State, for example, we have reduced not only the 
crime rate, but the recidivism rate, and we have closed plans 
to build new prisons to incarcerate more people. So it really 
strikes me as something that it is one of those unusual 
scenarios where, basically, we were able to come together, 
people of dramatically different ideology and orientation, and 
come together and do something very positive for the country. 
And I am--we are going to keep an eye on the crime rate, to me 
is the litmus test of the success of what we tried to do.
    Professor Turley, I wanted to just, first of all, 
compliment you on your article that you wrote in The Hill and 
just preface that--the title, of course, was, ``Witch Hunt or 
Mole Hunt? Times Bombshell Blows Up All Theories.''
    I have been extraordinarily troubled, frankly, by the 
politicalization of the Department of Justice, including the 
FBI, and I think you pretty much--in this polarized world we 
are living in, you talk about cognitive bias. And depending on 
the lens you are looking through, you can see a narrative, you 
can build a narrative that tells your story.
    Would you take a minute to sort of explain the thesis of 
your article and the views you express there?
    Professor Turley. Thank you, Senator.
    What I thought was most interesting about The New York 
Times article was actually not the point of the article, which 
was that the President may have been investigated under the 
suspicion that he could be an agent of a foreign power. But 
what came out to me from the article was an insight into what 
and how the FBI was looking at this early in the Trump 
administration, and we also have an insight of how the Trump 
administration was viewing what the FBI was doing. And this 
gets to the issue of cognitive bias.
    That it is a well-known concept that you can look at a 
problem with a bias where you see things that reaffirm your 
suspicion. But in this case, the FBI moved early on with an 
investigation that the White House was aware of. That fulfilled 
the White House's own bias that this was a ``deep state'' 
conspiracy, and the White House pushed back.
    And when the White House pushed back, it fulfilled the 
cognitive bias of the FBI that they are trying to hide 
something. And if you take a look at the timeline, you see this 
action and reaction occurring where each side is reaffirmed by 
the actions of the other side.
    So what the column raises is a distinct possibility that we 
might not have Russian collusion or a ``deep state'' 
conspiracy. That we may have two sides that are fulfilling each 
other's narrative, and we have gone so far down this road that 
it is impossible now to stop and say, well, what if neither of 
these things actually did exist?
    In economics, it is called ``pathway dependence,'' that you 
can invest so much into a single path that you can no longer 
break from it. And so what the column is suggesting is that 
perhaps we can actually use these stories and take a step back. 
And instead of assuming the worst motivations by both sides, 
look at this as whether both sides were trying to do what they 
thought was right or reacting to what they thought was correct, 
but they might have both been wrong.
    Senator Cornyn. Madam Chairman, my time is up. Could I take 
one more minute?
    Senator Blackburn. Without objection.
    Senator Cornyn. Yesterday, I was asking Mr. Barr about Rod 
Rosenstein's memo that is entitled, ``Restoring Public 
Confidence in the FBI.'' And to me, one of the most encouraging 
things about Mr. Barr's appointment is, I think he is exactly 
the kind of person who could do that, having done this 27 years 
ago and being willing to do it again for no other reason than 
his desire to help restore confidence in the Department of 
Justice and the FBI.
    So, but if you go back even further, back when James Comey 
was--and the FBI were investigating Hillary Clinton's email 
server, and he took the unprecedented step of having a press 
conference on July the 7th, 2016, at which he essentially 
exonerated Ms. Clinton while detailing all the derogatory 
information in the investigation. And then later on had to come 
back because of that press conference when the Weiner laptop 
was identified and say, hey, we found some more emails.
    The idea that the FBI and the Department of Justice would 
become so tangled up in an election and potentially influence 
an election is really unprecedented in our country and very 
dangerous, from my perspective. And then, of course, when Mr. 
Comey was fired by the President, then folks on the left 
thought he was St. James and after he had been the devil, I 
guess, previously when he was investigating Ms. Clinton.
    So I do think there is some of that cognitive bias going on 
here, and we need to identify it and maybe step back from it 
and learn from it.
    Thank you, Madam Chairman.
    Senator Blackburn. Senator Hirono.
    Senator Hirono. Thank you, Madam Chair.
    Reverend Risher, I, too, have had the opportunity to meet 
with some of the survivors of that tragic day, and so thank you 
very much for your heartfelt reminder of the work that remains 
for us to do.
    Professor Kinkopf, you have written a lot about the unitary 
executive, and that is something that Mr. Barr subscribes to. 
So I found it really interesting what you mentioned today 
because there were a lot of questions from so many of us, 
seeking reassurances from Mr. Barr that he would not interfere 
with the Mueller investigation in any way, shape, or form.
    And today, though, you said those assurances are irrelevant 
because under the unitary executive theory that if Mr. Barr 
were asked can the President fire Mr. Mueller, Mr. Barr would 
say yes. So there goes the entire investigation.
    I found that to be a really interesting statement on your 
part. So that means that let us say that if the President does 
fire Mueller, and one would say that under a normal 
circumstance that kind of firing could be part and parcel of an 
obstruction of justice kind of investigation. But if the entire 
underlying investigation goes away because the investigator is 
fired, then where are we?
    So that is very interesting as we sought to see the kind of 
reassurances that would enable us to feel that the Mueller 
investigation is, in fact, going to be able to proceed.
    So you talked a little bit about what the impact of the 
unitary executive--and I do--that theory--and I do understand 
that there is a range. It is not--you know, there is a 
continuum there. So I just want to ask, under the unitary 
executive theory, can a President commit obstruction of justice 
with impunity?
    Professor Kinkopf. So I will answer based on the memo 
that----
    Senator Hirono. Yes.
    Mr. Kinkopf. Mr. Barr wrote last summer, because, as you 
say, there is a range, and so the answer would be different, 
depending on where you are on the range.
    The Barr memo allows that there may be circumstances where 
a President can be understood to have committed obstruction of 
justice. Now that is different from saying the President can be 
charged with obstruction of justice, and in fact, Mr. Barr 
yesterday during his testimony said he sees no reason to 
deviate from the Department's policy that a sitting President 
cannot be indicted.
    But even within that construct that a President can commit 
obstruction of justice, it is really difficult to see on his 
theory how that would end up happening, because he says when 
the President exercises a legitimate Executive power, that that 
cannot provide the basis for an obstruction of justice charge. 
And therefore, if he exercises his authority to fire someone--
James Comey is the discussion in the memo--then that cannot be 
the basis of an obstruction of justice charge.
    If President Trump then used his authority to fire Mueller, 
that, by extension, would not be something that could serve as 
the basis of an obstruction of justice charge on the theory set 
forth in the memo. And I think he should be, at least, asked in 
follow-up questions, whether or not he would apply the logic of 
the memo to that situation, and he should be asked if that were 
to transpire, would he resign?
    Because I think yesterday, he indicated that that would be 
an abuse of power, and that is something an Attorney General 
should resign if the Attorney General sees.
    Senator Hirono. I think you have given us a further line of 
questions to submit to Mr. Barr.
    Regarding the Voting Rights Act, so this is for Mr. Johnson 
and Mr. Morial, we know that after the Shelby County decision, 
there were many, many States that passed all kinds of 
legislation that would be considered by a lot of us as voter 
suppression.
    And yesterday, Mr. Barr testified that he would vigorously 
enforce the Voting Rights Act, the Section 2 of the Voting 
Rights Act. For the two of you, since there has not been a 
single Section 2 proceeding brought by the Justice Department, 
what specifically could Mr. Barr--what would you want Mr. Barr 
to do to vigorously enforce the Voting Rights Act, as he 
testified yesterday?
    Mr. Morial. I think, number one, that he should review the 
decision by the Justice Department to switch sides in these two 
cases. One has been resolved.
    Number two, he should ask the Voting Section of the Civil 
Rights Division to present to him all instances where the 
Justice Department has been asked to initiate Section 2 claims.
    Number three, I believe that he should investigate, 
evaluate, and review those States that have passed voter 
suppression law to determine whether, in fact, they are 
discriminatory. And in fact, if they are discriminatory, to 
initiate a Section 2 claim.
    The issue is, is for the Attorney General and the many 
competent lawyers in the Civil Rights Division at Justice to do 
their job without political interference, to make 
recommendations to him on what steps should be taken. A lot of 
stuff has been put into the deep freeze in the Sessions 
administration because he was just not interested at all in 
enforcing the Voting Rights Act because he disagreed with the 
Voting Rights Act and had had a long career of disagreeing with 
the Voting Rights Act.
    Well, the Attorney General does not have an option to pick 
or choose which laws they want to enforce. They must enforce 
all laws that are vigorous--vigorously because it is your job, 
as the legislative branch, to pass those laws.
    So, I think, that there are a number of things that the 
Attorney General can do, and most importantly, to publicly 
state that he will not follow the policy of Attorney General 
Sessions when it comes to the entire realm of civil rights. It 
is important for him to be on the record as forceful as 
possible, but also to commit to take the necessary steps to 
ensure that Section 2 is vigorously enforced and also to look 
at those instances where the Justice Department has either 
switched sides----
    Senator Hirono. Yes.
    Mr. Morial. Or refused to take a position. The case I 
mentioned earlier in my testimony, the Chisom case, which was a 
judicial reapportionment case in which I was a plaintiff. The 
case was brought in 1985. It was decided by the Supreme Court 
in 1991--was a case where the Justice Department sided with us 
during the Reagan administration.
    And so the consistency of the Justice Department in siding, 
taking an affirmative stand in voting rights cases in support 
of those who have been aggrieved is something that until the 
Sessions administration was a bipartisan matter. And I think 
that this nominee should be asked whether he is going to 
restore that emphasis and that integrity to the enforcement of 
the Voting Rights Act.
    Senator Hirono. Madam Chair, I would like to ask Mr. 
Johnson to respond.
    Mr. Johnson. I agree with my colleague, but I also think he 
should intervene in current litigation. There are several 
ongoing voting rights cases that are taking place across the 
country.
    Second, he should work to fix the issue around Section 5. 
The House Special Committee on the Voting Rights Act will be 
doing hearings across the country, from my understanding, and 
if he becomes the Attorney General, he should seek to also 
support a fix in terms of Section 5.
    And then, third, review formerly covered jurisdictions to 
see if, in fact, they have made changes in their policies, 
practices, or procedures and if those changes were, in fact, 
vote suppression methods so we can document the record to show 
that without a proactive Justice Department and law, 
jurisdictions will revert back to past practices of 
discriminatory actions.
    Senator Hirono. Thank you.
    Senator Blackburn. I recognize myself for questions at this 
time.
    And Mr. Turley, I would like to come to you first. You 
spoke last December at the Press Club about privacy rights and 
security in a world with changing technology and the rising use 
of artificial intelligence and facial recognition technology. 
And the challenges that that is going to pose for the Justice 
Department, I think we all realize they are going to be there 
and will have to be confronted.
    And no clear answers have emerged at this point as to who 
owns the virtual you, you and your presence online. And more 
and more now, on a daily basis we are hearing from consumers 
who are wanting to make certain that there are privacy 
protections in a digital world and in that virtual space and 
that they are for everybody and that everybody plays for the 
rules.
    So Mr. Barr is going to have to address these issues 
because it is going to require greater enforcement from the 
Attorney General. And I would like to hear from you on the role 
that you see the Department of Justice under Mr. Barr's 
leadership playing as we deal with companies like Twitter and 
Facebook and some of these edge providers in the technology 
space.
    Professor Turley. Thank you, Senator.
    Of those emerging areas, facial recognition technology is 
probably the fastest moving and the one that has to be 
addressed the soonest. I have already spoken with people at 
Justice Department and to see if there is any way that the 
privacy community and the Government and private industry could 
find common ground here.
    I think that for privacy advocates, we can no longer just 
simply say that all facial recognition technology is an evil, 
and we are not going to work with it. Part of the reason is 
that the Fourth Amendment controls the Government. It does not 
control private businesses.
    And this market has progressed to the point that you are 
not going to get that cat to walk backward. I mean, this is a--
this is an emerging market. The Chinese have put a huge amount 
of investment in it. If you just land at Shanghai, you will see 
what facial technology is going to look like across--around the 
world.
    So the question is, how do we then marry the privacy values 
that we have with the legitimate security interests of the 
Government? And the answer is, there is a couple of things that 
we can do. One is, that most of this technology is going to 
require a data bank to be used effectively, including facial 
recognition data.
    We can act proactively to try to create privacy protection 
for the access of that information, how long that information 
can be stored, for what reasons it can be used. We need to 
really get ahead of this. And frankly, Bill Barr is a perfect 
person to do this because not only does he have really the law 
enforcement chops in terms of understanding how technology is 
used, but he has spent a lot of time in private business at the 
highest levels.
    And so I cannot imagine anyone better on this issue, quite 
frankly, to tackle it.
    Senator Blackburn. Mr. Thompson, let me come to you with 
another technology question because last fall DOJ met with some 
of our States' Attorneys General to talk about the frustrations 
with Google and Amazon and some of these edge providers and 
their failure to protect consumer data and also their anti-
competitive behavior.
    And one of the things that came out of this was how Google 
prioritizes search results--theirs--to give them a competitive 
advantage over Yelp. So we know that these challenges are only 
going to be resolved if there is a multifaceted strategy that 
includes a partnership with our States' Attorneys General and 
if there is enforcement by the Antitrust Division and Consumer 
Protection Branch.
    So, with that in mind, how would you advise Mr. Barr or how 
do you see him moving forward at DOJ to deal with big tech and 
these issues that they are really confronting consumers every 
day?
    Mr. Thompson. What I see with respect to your question, 
Senator, is that this is something, number one, that I really 
do not know a lot about this. But I think the Attorney General 
nominee, if he is selected, would come in and review with 
career Department of Justice lawyers and other professionals in 
the Department on the issue, review the issues, listen to them 
carefully. This is what he has done on other issues of import.
    But more importantly to your question is that, I think, he 
has great experience in the past of working with joint task 
forces, joint efforts with State and local authorities, 
especially the State AGs, and he knows how to do this. He has 
done it successfully in the past, and I think he would be able 
to work with our State law enforcement colleagues and get at 
the answers to--that are raised in your question. Very 
important, very important matters.
    Senator Blackburn. In the minute that I have left and 
before I yield--Mr. Blumenthal will be next--I just want to 
thank each of you for being here.
    And Reverend Risher, I want to thank you for your 
testimony. And in the--I came to the Senate from the House, and 
we have passed some of the red flag legislation that Senator 
Graham had mentioned that he is working on here in the Senate. 
We look forward to some of those steps being taken, and I know 
that is something that is important to you.
    And Mr. Canterbury, we always thank you for the work you do 
for the thin blue line.
    Mr. Canterbury. Thank you.
    Senator Blackburn. And the good work that you all are doing 
there.
    My time has expired.
    Senator Harris, you were actually next. You are recognized.
    Senator Harris. Thank you. I appreciate that.
    And thank you, Senator Blumenthal.
    Mr. Morial, as we have heard, there has been a lot of 
discussion about this nominee and the book that was entitled, 
``The Case for More Incarceration,'' for which Mr. Barr wrote 
the foreword. There has been concern about his opposition to 
efforts to lower mandatory minimums.
    And so my question to you is based on your experience as 
the mayor of New Orleans. During the time you were mayor, you 
saw a 60 percent reduction in violent crime. And as General 
Mukasey has talked about and others, one measure of the 
effectiveness of criminal justice policies is a reduction in 
crime.
    Mr. Morial. Right.
    Senator Harris. So can you talk a bit about what it is that 
as mayor you did and perhaps even best practices around the 
country that have led to a reduction in crime?
    Mr. Morial. Well, thank you very much for your question, 
and it was a powerful moment for our community when we changed 
the landscape of public safety. And I might add, we embarked on 
a plan that was comprehensive in nature. There was a law 
enforcement component to it, but there was also a human 
services and youth development component to it. And I set aside 
the debate between the two and said that we needed to do both.
    So our law enforcement component was a comprehensive reform 
of what was at that time a very broken New Orleans Police 
Department. And that comprehensive reform included weeding out 
corruption, dealing with a very brutal police force. It 
involved discipline and firing and remaking of how we 
recruited, how we trained, how we paid, how we deployed, how we 
used technology. It was broad-based. It was highly successful.
    We did not have the problems whatsoever because we also put 
our foot down and said we were going to have responsible and 
constitutional policing. So it is important in the context of 
the Justice Department--and when I took office, there was a 
Justice Department investigation of the New Orleans Police 
Department. And instead of fighting the investigation, instead 
of trying to delay the investigation, I worked with the Justice 
Department and presented my own far-reaching, far-ranging plan, 
which, at that time, went farther--we were prepared to go 
farther on a proactive basis than any Department at that time 
had gone under a consent decree.
    That is number one. But number two, and this is part of the 
purview, because Justice, in addition to its law enforcement 
responsibility, runs mentoring programs, programs funded by the 
Office of Justice Programs. In the old days, Weed and Seed.
    We also deployed and made full utilization of all of those 
initiatives, too, to invest in youth development, to expand 
recreation, to expand after school programs, to expand youth 
summer jobs. It was not just law enforcement. It was not just 
human services. It was a combination of the two. So I think it 
is important to understand that Justice has law enforcement 
responsibilities, but also Justice has responsibilities with 
respect to investing in a community, investing in youth.
    I would point this out, and I think this is important. At 
the time, and this was during the Clinton administration, the 
Clinton administration worked cooperatively with us both to 
help us pursue violent crime through gun prosecutions and drug 
prosecutions, but also invested through Weed and Seed and 
Office of Justice Programs. Also at that time, you had the 
Community Oriented Policing program, which provided us with 
additional resources for police technology.
    So the lesson to be learned, and I would say this, the 
consent decrees that are out there--and this is misunderstood 
by people. A consent decree is, by its very definition, a 
voluntary agreement between a city and its police department 
and the Justice Department. And most of those consent decrees 
that are entered into have been entered into in lieu of 
litigation that the Department had the right to do.
    So the idea that pursuing consent decrees is, in effect, a 
voluntary collaboration. And I think General Sessions was 
against consent decrees but offered nothing in exchange, 
offered no other strategy in exchange. ``I am just against 
consent decrees because I think that they negatively affect 
police morale,'' but did not offer another approach.
    We need this nominee to indicate that he is going to be 
committed to constitutional policing, committed to public 
safety. But understand that public safety, we have learned, is 
not just crack-down law enforcement. It is something much more 
comprehensive. It is something much more proactive.
    Yes, you have got to prosecute violent offenders, no doubt. 
But you have also got to ensure that there are reentry programs 
so that when people come out of jail, they are not apt to 
repeat. And that is part of, I think, a sensible, smart on 
crime initiative.
    I hope that helps.
    Senator Harris. And, as a follow-up to your point, some of 
the best and most innovative initiatives we have seen in the 
last few--in a couple of decades on criminal justice policy 
have been the result of the U.S. Department of Justice funding 
innovation in a way that supports local law enforcement, local 
prosecutors, and local community groups to create the kind of 
collaboration that you are talking about.
    Mr. Morial. There used to be a Local Law Enforcement Block 
Grant Program----
    Senator Harris. Right.
    Mr. Morial. That provided money, which allowed you, because 
State--city governments are strapped always for resources, that 
created a way for you to invest in some innovation, some 
collaboration, some differential sorts of things. And I think 
Justice can play a proactive, smart-on-crime role in helping 
make our communities safer.
    Senator Harris. Thank you. Mr. Johnson, you have testified 
about your concern about the nominee's statements that have 
been made in the past about the fact that there is not 
statistical evidence of racism in the criminal justice system. 
He did mention during his testimony yesterday and acknowledged 
the disparities between crack and powder cocaine enforcement, 
but did not acknowledge or mention any other of the disparities 
that we have seen in the criminal justice system, such as 
arrest rates that relate to a variety of crimes, but, in 
particular, drug crimes, the disparities based on race in terms 
of who gets what amount of bail in the criminal justice system, 
and, of course, incarceration rates, which there are huge 
distinctions based on race in terms of the application of 
sentences. So if he is confirmed, what do you believe will be 
the ramifications or--of his failure to acknowledge that, and 
what do you--what would you recommend he do if he is confirmed 
to acknowledge and to be informed about these disparities?
    Mr. Johnson. An individual who serves as Attorney General 
of this Nation must recognize the long legacy of race 
disparity. And as AG, I would hope that he would really look 
into the credible research, and it would obvious that in the 
criminal justice system there is a huge disparity. Some of that 
could be accounted for based on income, but much of it is 
accounted for based on the racial makeup of juries. It could be 
accounted for selective prosecution. It could be accounted for 
as it relates to a myriad of things.
    And as the Attorney General, I would hope he would factor 
in that race is a problem. We are far from a post-racial 
society, and we must attack problems with a racial lens because 
there is very little in our criminal justice system that is 
race neutral.
    Senator Harris. And just one more question, Madam Chair. He 
did--I requested that if--within a period of time, if he--if he 
is confirmed, that he would meet with civil rights groups to 
understand the ramifications of any policies. He agreed to do 
that within the first 120 days, if confirmed. I think that we 
will all expect that he will do that, and I look forward to 
hearing about the results of those meetings. And thank you.
    Mr. Johnson. Thank you.
    Senator Blackburn. Senator Cruz.
    Senator Cruz. Thank you, Madam Chairman. Let me say thank 
you to each of the distinguished witnesses for being here, for 
being part of this hearing. I appreciate your testimony and 
wisdom and judgment.
    Judge Mukasey, let me--let me start with you. You have 
served as a Federal judge, you have served as U.S. Attorney 
General, as has Mr. Barr, and you have built a long and 
distinguished career of public service. Can you share, for this 
Committee, in your judgment, the importance of rule of law and 
the importance of having an Attorney General who is faithful to 
enforcing the law and Constitution regardless of party, 
regardless of partisan interest?
    Judge Mukasey. It is really the only guarantee that we have 
because this country is defined by and is constituted by a law, 
the Constitution. It is not based on land. It is not based on 
blood. It is based on the law. It all started with a law. And 
that is what we have built the society on, the notion that you 
can have a society in which--that operates fairly, in which 
neutral principles neutrally applied allow people to reach 
their maximum potential. If that is ever abandoned, if it is 
deviated from, if it is ever perceived to be deviated from, 
then we are lost. Then we have no--nothing to define us because 
we are defined by a law.
    Senator Cruz. Now, you have testified today that you know 
that Mr. Barr is a, quote, supreme--``superbly qualified 
nominee, that he has good judgment, and just importantly, that 
he has the will to exercise that judgment despite pressure from 
any source.'' Can you share with the Committee what in your 
professional or personal experience gives you confidence that 
Mr. Barr will once again well and ably carry out the 
responsibility of Attorney General of the United States?
    Judge Mukasey. Well, as I mentioned, he has had a past 
history of doing that when he served as Attorney General, 
notwithstanding that a desired--it was a desired result from 
the White House, and he kind of deflected it and, as it were, 
laughed it off. He is somebody who has testified here that--in 
view of the fact that most of his career is the rearview 
mirror. He does not really have to concern himself with the 
possible negative consequences of resisting pressure from an 
administration. So that is an additional--that is an additional 
guarantee.
    But I think the person himself and who he has been over the 
years consistently really speaks to that, and it is not just a 
question of his having nothing to lose. I think that is the way 
he is constituted. As Professor Turley said, he is a ``law 
nerd,'' meaning he is devoted in a--in a way that very few 
people are to what defines this country, and that is what he 
enjoys. That is his occupation and his preoccupation. And that 
is, I think, an excellent guarantee for the way he is going to 
approach the job.
    Senator Cruz. Well, this Committee, in particular, I think 
you will find no criticism for being a law nerd. We tend to 
attract more than a few of them.
    Mr. Thompson, you, likewise, have a long, distinguished, 
honorable career marred only by briefing being my boss at the 
Department of Justice. And I apologize for all of my errant 
mistakes since then--that time. Let me ask you the same 
question I asked Judge Mukasey, which is, in your professional 
and personal career and interactions with Mr. Barr, what gives 
you confidence that he will once again ably carry out the role 
of Attorney General?
    Mr. Thompson. Thank you, Senator, and I am very proud to 
have you as one of my colleagues and former alums from the 
Deputy Attorney General's Office. You have certainly acquitted 
yourself well. Bill Barr has a long history in the Department 
of Justice as I said in my opening statement. He has a great 
love for the Department. I think that may be one of the reasons 
he wants to return to public service. He has great fidelity to 
the Department.
    But in addition to some of the sort of sterile 
constitutional questions that we have been discussing this 
morning, important but still sterile in my view, he understands 
the traditions of the Department of Justice. He respects the 
traditions of the Department of Justice. He knows the impact 
that his decisions will have on the men and women who are in 
the Department, who are in the investigative agencies.
    And there are reasons for these policies. There are good 
reasons for these traditions, not the least important of which 
is public perception, that justice in this country, 
investigative decisions in this country are carried out fairly, 
without fear or favor of what your status is in society, and, 
most importantly, without political considerations. He 
understands this, and I think this makes him superbly qualified 
to be, again, the Attorney General of the United States.
    Senator Cruz. Thank you. Ms. Cary, you have worked with Mr. 
Barr some 2 decades. One of the things you testified about was 
Mr. Barr's busy schedule, long travel hours, and yet in the 
midst of it all, juggling to find time to be a husband and a 
dad to his three daughters. As the father of daughters myself, 
I know how difficult that can be with public life. Can you 
share with the Committee some of what--just what you saw 
firsthand about how he managed to carry out his 
responsibilities and still be there for his daughters?
    Ms. Cary. Yes, he was a tremendous father, as we saw 
yesterday, and a grandfather. And as I said in my testimony, 
the fact that all three of his daughters went into the law is 
huge. My husband is hoping that our daughters do not go into 
the law because he thinks it is becoming an increasingly 
difficult profession.
    But to your question about his demeanor and the way he 
conducts himself, which, I think, is an example to his 
daughters--we were in Houston and we were there for some 
events. And as he was hearing from all these victims of crime 
and people talking about how high the violent crime had gotten, 
can he please do something to help, he spontaneously turned 
around to me and said, what do you say we stop by the Harris 
County Jail? And it was not on the--on the agenda at all. For 
security reasons, you would never tip that the Attorney General 
was going to a prison. And the FBI basically kind of rang the 
doorbell over at the prison and said, ``We're here,'' and did 
an unannounced visit to the prison.
    And the Attorney General--the prisoners did not know who he 
was. Obviously, we did not announce it. He went around asking 
these guys what their lives were like, what did they do get in 
here, what is for lunch today, where do you exercise. And as 
much of a law nerd as he is, this was a very compassionate side 
of him. He was not showboating. He--there was no press 
involved. And to me, it showed the way he could sort of 
shoehorn in a quick visit so he could back and see his family, 
but yet learn about what people's lives were like, see the 
impact, not just of the violent crime on the victims, but also 
on proposed reforms on the people who were actually in the 
prisons.
    And I would be willing to bet there are not a lot of 
Attorneys General, present company probably excepted, who have 
been inside a cell block like that on an unannounced thing so 
that he could get back to his family, but also continue to 
learn the impact of the policies in a very real way.
    Senator Cruz. Thank you for sharing that wonderful story. 
And I will say his grandson, Liam, has become an internet 
sensation----
    Ms. Cary. Oh, he stole the show.
    Senator Cruz [continuing]. Not seen since John Roberts' 
son, Jack, did Spiderman at his announcement, and then, he, 
too, had a moment of glory.
    Ms. Cary. Right.
    Senator Cruz. Thank you to each of you.
    Senator Blackburn. Senator Blumenthal.
    Senator Blumenthal. Thank you, Madam Chairwoman. Thank you 
to every one of you, and thank you for all of your written 
testimony which I will review. We have only 7 minutes, and as a 
matter of fact, we are in the middle of a vote right now, so I 
am going to be quick with a number of you.
    First of all, Reverend Risher, thank you for being here 
today telling your story so powerfully and eloquently, and 
making sure we understand that your mother and your two cousins 
would be alive if that shooter could not get his hands on a 
gun.
    Reverend Risher. Thank you.
    Senator Blumenthal. A dangerous person with a gun. And I 
assume that you would support the legislation that has been 
introduced to improve the background check system. As you 
probably--I am sure you know, that shooter was able to take 
advantage of a loophole----
    Reverend Risher. Yes.
    Senator Blumenthal [continuing]. In the current laws. But 
more broadly, Senator Graham and I have proposed a bipartisan 
measure to take guns away from people who are deemed to be 
dangerous by a court after due process, and thereby keep guns 
out of the hands of criminals and other dangerous people. I 
hope that you can lend your voice and your face to supporting 
that legislation.
    Reverend Risher. I would support that legislation, sir, 
yes.
    Senator Blumenthal. Thank you very much.
    Reverend Risher. Thank you.
    Senator Blumenthal. Professor Turley, you and I are in 
agreement that the President can be indicted. I think we are in 
agreement----
    Professor Turley. Yes.
    Senator Blumenthal [continuing]. While in office even if 
the trial has to be postponed. I articulated that position to 
Mr. Barr yesterday and asked him to agree with me, and he would 
not. You implied this morning in your testimony that he did 
agree with it. Do you have some information that----
    Professor Turley. Oh no, actually, I have no information. I 
have never spoken to him about it. I was saying that if you 
look at the history of both Mueller and Barr, I would not 
expect that they would change this longstanding policy. From a 
constitutional standpoint, I have never really--I agreed with 
it as, I think, we share this view. The Constitution does not 
say that the President is immune from indictment, but an 
indictment goes to the President as a person. Impeachment goes 
to the President as an officeholder.
    That does not mean that a President is going to stand trial 
during a term, as you have noted ably. And indeed as you also 
know as a--as a prosecutor, it is exceptionally unlikely that 
when you got to the point of an indictment, that a President 
would actually face a trial, let alone incarceration during 
that term.
    Where Bill Barr falls in this, I really do not know. When 
we talk about him being a great advocate of the unitary 
executive theory, this is not--I do not--I do not share in 
Neil's view that even though I am not a big fan of the theory, 
that it is so horrific, you know. He believes in clear lines, 
and I share that view of what is an executive function and what 
is a legislative function. And when we talk about the avoidance 
doctrine of courts in trying to interpret statutes to avoid 
conflicts, it is important to remember that same avoidance 
conflict protects Congress, right, I tend to favor in Article 
I. Courts also avoid conflicts interpreting statutes that might 
impede your own authority. So I am not too sure where he comes 
out on this specific issue.
    Senator Blumenthal. Let me ask you, and I am going to ask a 
couple of other members. I am deeply disturbed, an 
understatement, by some of the President's comments about the 
FBI, about judges, about our judicial system generally. And 
shouldn't the Attorney General of the United States be someone 
who stands up for--you know, it is easy to say, ``I am for the 
rule of law,'' but when the rubber hits the road, he should be 
defending all of those institutions. Do you agree?
    Professor Turley. I do. What I should caution is that I do 
not think that Bill Barr is the type that is going to take a 
public stance often against the President, but he is someone 
who I think will be quite firm in his support with the--with 
the Department. I do not know what the President thought he was 
getting with Bill Barr, but I know what he is getting. He is 
going to get someone who identifies incredibly closely and 
intimately with that Department. And I think he will be a 
vigorous defender of it.
    Senator Blumenthal. Judge Mukasey, let me ask you, and I 
am--I know that you may wish to be referred to as ``General.''
    Judge Mukasey. I do not. I have always been uncomfortable 
with that even when I was in the position. I thought it was 
weird.
    [Laughter.]
    Senator Blumenthal. As Attorney General--as Attorney 
General, I was referred to as ``General'' for 20 years, and I 
never was comfortable with it, either.
    Judge Mukasey. Yes, in the U.K., they call the Attorney 
General ``Attorney,'' which seems a lot more civilized and a 
lot more accurate, particularly when there are people in 
uniform around.
    Senator Blumenthal. As Professor Turley pointed out, in his 
testimony about the seal, the UK has a very different system. 
And I thought, by the way, the--your history of the seal was 
really very pertinent in terms of showing the differences 
between the Attorney General as an advocate of justice as 
opposed to an advocate for the queen or the President.
    Professor Turley. Thank you.
    Senator Blumenthal. But let me ask you, are you not deeply 
troubled by the President's attacks on the judiciary?
    Judge Mukasey. I disagree with them. I think it is 
extraordinarily unwise for him to do it, and in that sense--in 
that sense I am troubled. Obviously there is a--or there is or 
should be a political price to be paid for that, and I think we 
are in the process of seeing it paid to a certain extent. But 
there has always been a certain level of tension between and 
among the branches. How it is expressed and how civilly it is 
expressed is a different thing, and I think we are probably in 
agreement there. But there is always a certain level of pulling 
and hauling. That is built into the constitutional system.
    Senator Blumenthal. And are you not also troubled by the 
President's attacks on the FBI and the Department of Justice?
    Judge Mukasey. Again, the FBI can function on a day-to-day 
basis without a rooting section in the White House or a razzing 
section in the White House. I think that some of his criticisms 
of the FBI may very well turn out to be warranted. So far as 
the Department, that is a different story entirely, and I have 
articulated that. I think that the former Attorney General had 
no choice but to recuse himself. He did, and that was not 
something that was--that was not a criticism that ever held any 
water.
    Senator Blumenthal. Well, I want to, again, thank you all 
for being here. I have a lot more questions. Maybe I will 
contact some of you privately. My time has expired, and I know 
that Acting Chairwoman and I have to go vote. But thank you, 
all, for being here today.
    Senator Blackburn. Thank you. Without objection and on 
behalf of Senator Grassley, I would like to enter this letter 
from Taxpayers Against Fraud into the record.
    So ordered.
    [The information appears as a submission for the record.]
    Senator Blackburn. Thank you all for being here today and 
for your insight into how Mr. Barr would lead the Department of 
Justice in what is a very challenging time.
    Excuse me?
    [Voice off microphone.]
    Senator Blackburn. All right. He is in, just as I am 
getting ready to end this hearing.
    Mr. Coons, you are recognized.
    Senator Coons. Thank you, Senator Blackburn.
    Senator Blackburn. You just made it in under the wire.
    Senator Coons. Yes, ma'am. Thank you to the panel. I 
appreciate your patience. There have been, as you know, votes 
and other issues happening in other settings. Reverend Risher, 
we did have an opportunity to speak during the break, but I 
just wanted to re-confirm my sense of loss at what you shared 
with us, and the fact that I had the opportunity to visit, and 
to worship, and then to travel with Felicia Sanders and Polly 
Sheppard. It was a blessing to get to meet you today, and I 
look forward to your upcoming writing, For Such a Time as This, 
and talking about reconciliation work together. It is important 
and difficult work.
    But I wanted to start, if I could, by asking both you and 
Mr. Canterbury, with whom I have had the honor of working on 
other issues, about background checks in particular. We talked 
previously about the ways in which the NICS System does not 
currently fully work to deny access to weapons to those who 
should under the law be denied access to weapons.
    Senator Toomey and I introduced a bipartisan bill in the 
last Congress, the NICS Denial Notification Act, that would 
make a simple improvement to how we enforce our current law. If 
you lie and try, if you go into a gun dealership and fill out 
the form and say I am entitled to buy a gun, they run the 
background check and come back and say, umm, we are really 
sorry, but you spent 5 years in a Federal penitentiary for 
armed robbery, we are not giving you a gun today, and you storm 
out. In my home State, nothing more happens. In his home State, 
because the State police conduct that NICS notification, they 
know that they can now go have a conversation with you about 
for what purpose were you purchasing this weapon.
    This bill, if it were to become law, would require 
notification, simple notification, to a State or local law 
enforcement contact. And these cases--these so-called ``lie and 
try'' cases are rarely prosecuted at the Federal level, partly 
because of a lack of knowledge, partly because of a lack of 
resources. Mr. Canterbury, I would be interested--I am grateful 
for what I understand is the FOP support for the concept in the 
bill. I wondered if you would be willing to advocate with 
Attorney General Barr, should he be confirmed, for the 
resources to enforce ``lie and try'' laws and to make sure that 
our NICS system is working as it should.
    Mr. Canterbury. Absolutely. We have been very critical of 
the lack of resources for the NICS System, and the fact that a 
``lie and try'' normally goes without prosecution. So, you 
know, we have supported that bill in the past. We are with you 
and Senator Toomey on that. And obviously with that will come 
the necessary appropriations and authorization to enforce.
    Senator Coons. I sure hope. Reverend Risher, would it have 
made any difference in the Dylann Roof case if he had been 
denied the opportunity to purchase a weapon?
    Reverend Risher. Yes, it would have made a difference. I 
believe if he was not able to secure his gun at that particular 
day, that maybe the tragedy in Charleston may not have 
happened. One of the things that we are up against is the 3-day 
waiting period that I know that needs to be expanded in order 
to be able to have a complete background check. And I think 
things would have been different if those things were in place 
at the time he bought the gun.
    Senator Coons. Thank you, Reverend. As the Co-chair of the 
Law Enforcement Caucus, I intend to work in this Congress as I 
did in the last to try and find ways that both parties can 
support that would strengthen law enforcement and our system of 
denying access to weapons to those who should not have them.
    Professor Kinkopf, if I might, there was some vigorous back 
and forth about the unitary executive theory. We could have a 
very long conversation about this, but I am just going to ask a 
focused question. Tell me specifically, the unitary executive 
theory is that it is theory. It is not currently the law of the 
land. Am I right about that?
    Professor Kinkopf. That is correct. In fact, the Supreme 
Court has rejected it repeatedly in every case beginning with 
Humphrey's Executor.
    Senator Coons. Yet you suggested that if we were to have an 
Attorney General with a very expansive view of Executive power, 
it might have some negative implications, and it might have 
some negative implications that would have some current 
relevance. Could you just explain that just a little bit more? 
My superficial and ill-informed view of this is that the 
Founders did not actually say ``all'' Executive power is given 
to the--to the President, that it was ``the'' Executive power. 
And then are examples of ways in which Executive power is 
actually shared with other branches historically. I do not want 
to get into a wonderful law nerd fight, but I am interested in 
what are the practical implications if we have an Attorney 
General who has a very broad and expansive view.
    My predecessor, Senator Biden, when he was Chairman Biden, 
although he was very complimentary of Mr. Barr, did express 
real concern about how broad his Executive power theory was.
    Professor Kinkopf. Right. So that reading of the Executive 
Vesting Clause was argued by President Harry Truman in the 
Steel Seizure Case, and specifically rejected by the Supreme 
Court, but that did not kill it. It keeps coming back. Lawyers 
in the Justice Department, earnestly believing in it, applied 
it in the torture memo, most infamously. So it is something we 
keep hearing.
    And the torture memo is a good example in the sense that it 
illustrates that much of what the Justice Department does never 
gets into court. And so, the Attorney General is such an 
important office because very often the Attorney General is the 
rule of law. It is only the Attorney General's willingness to 
not only stand up for what the Constitution says, but to 
recognize what the Constitution actually says. I have no qualms 
about William Barr on the first score. It is on the latter that 
I have real trouble.
    And so the Attorney General is a crucially important figure 
from that standpoint for issues we cannot even begin to 
contemplate and we may never know about it. But as the issues 
we do know about, that we can be quite certain, and even issues 
that may end up in court one day, that role is crucially 
important. Suppose the President decides he wants to tell the 
Federal Reserve how to run monetary policy.
    Now that is something that might end up in court, but the 
Myers case, sort of the first case of the modern approach to 
the President's removal power, is a case where Woodrow Wilson 
fired Frank Myers, the Postmaster First Class in Portland, 
Oregon, while he was President. His presidency ended in 1921. 
The Myers case was decided by the Supreme Court in 1927. Can 
you imagine 6 years of a cloud hanging over the independence of 
the Federal Reserve?
    So, even if, ultimately, the Supreme Court vindicates the 
proper view of the Constitution, we have potential for enormous 
chaos in the markets. And that is just one example of one 
independent agency and the important role it plays in our 
lives.
    Senator Coons. And you previously cited a list of 
independent agencies in Humphrey's Executor, and this is a line 
of questioning I pursued with our most-recently confirmed 
Supreme Court Justice. I am very concerned about how this view, 
which begins with the Scalia dissent, and now has expanded 
significantly in terms of its adherence, what its real 
consequences might be. If I might, with deference to the Chair, 
ask one last brief question.
    Senator Blackburn. Very brief----
    Senator Coons. Very brief.
    Senator Blackburn [continuing]. Because I have not voted.
    Senator Coons. Mr. Morial, about 67,000 Americans every 
year are dying of overdoses. Mr. Barr once said, ``I do not 
consider it an unjust sentence to put a drug courier in prison 
for 5 years. The punishment fits the crime.'' I have come to 
the conclusion we cannot incarcerate our way out of the opioid 
crisis. Do you believe Mr. Barr will advance policies to help 
those suffering from addiction get the help they need without 
needlessly prosecuting and incarcerating large numbers of low-
level drug couriers?
    Mr. Morial. I do not think we heard anything from him--I 
was not here yesterday--or anything in his record that would 
suggest that. I think it is going to require strong 
constitutional oversight. It is not the--if the way we treat 
the opioid crisis mirrors the way we treated the crack crisis, 
we are just continuing the ill-advised policies of mass 
incarceration. And they certainly do not work particularly for 
the user class. The user class. And what we did in the crack 
cocaine crackdown is it was users who were incarcerated for 18 
months, 2 years, 3 years. Sometimes they repeated, and they 
went back to jail a second time.
    And the opioid crisis is an opportunity now that we are 
losing 60,000 people a year, more than we are losing to gun 
violence, to break from those policies and treat the opioid 
crisis for what it is. It is a public health crisis, just like 
the crack and cocaine crisis--these are people with deep 
problems with substance abuse. It is not to exonerate the 
pusher, it is not to sanction it, but it is to come up with a 
more intelligent approach. So I do not know if the nominee is 
there, if--and I think that this Congress and this Committee is 
going to have to force him to get there.
    Senator Coons. Thank you, Mr. Morial. Thank you to the 
whole panel. Thank you to the Chair for your forbearance.
    Senator Blackburn. And we thank you all for helping to give 
us a clearer picture of what you perceive to be the judgment 
and the understanding and the commitment of Mr. Barr. And this 
concludes the hearing to consider William Barr as Attorney 
General.
    I will remind the Senators that the record will be open 
until 5 p.m., on January 22nd, to submit questions, and we 
request your timely response.
    Senator Blackburn. This hearing is adjourned.
    [Whereupon, at 1:04 p.m., the hearing was adjourned.]
    [Additional material submitted for the record for Day 1 and 
for Day 2 follows.]

                            A P P E N D I X

              Additional Material Submitted for the Record
              
              
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]              
              

        Questions Submitted to Hon. William Pelham Barr, Nominee
     to be Attorney General of the United States, by Senator Tillis
     
     
     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     


   Follow-up Questions Submitted to Hon. William Pelham Barr, Nominee
       to be Attorney General of the U.S., by Senator Whitehouse
       
       
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]       


        Responses of Rev. Sharon Washington Risher to Questions
            Submitted by Senator Klobuchar and Senator Leahy




                                 <all>
</pre></body></html>
